<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-440]
[From the U.S. Government Printing Office]




                                                S. Hrg. 108-440, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                FEBRUARY 25; MARCH 24, 25; APRIL 7, 2004


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                     2005--Part 7  STRATEGIC FORCES

                                                 S. Hrg. 108-440, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                FEBRUARY 25; MARCH 24, 25; APRIL 7, 2004


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
93-577 PDF                 WASHINGTON DC:  2005
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    WAYNE ALLARD, Colorado, Chairman

JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
JEFF SESSIONS, Alabama               ROBERT C. BYRD, West Virginia
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    E. BENJAMIN NELSON, Nebraska
JOHN CORNYN, Texas                   MARK DAYTON, Minnesota

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
 Department of Energy's Office of Environmental Management, Office of 
          Future Liabilities, and Office of Legacy Management

                           february 25, 2004

                                                                   Page
Roberson, Hon. Jessie Hill, Assistant Secretary of Energy for 
  Environmental Management.......................................     4
Owen, Michael W., Director, Office of Legacy Management, 
  Department of Energy...........................................    17

                   Strategic Forces and Capabilities
                             march 24, 2004

Brooks, Ambassador Linton F., Administrator, National Nuclear 
  Security Administration........................................    56
Ellis, Adm. James O., Jr., USN, Commander, United States 
  Strategic Command..............................................    66

            National Security Space Programs and Management
                             march 25, 2004

Teets, Hon. Peter B., Under Secretary of the Air Force and 
  Director, National Reconnaissance Office.......................   111
Ellis, Adm. James O., Jr., USN, Commander, United States 
  Strategic Command..............................................   118
Lord, Gen. Lance W., USAF, Commander, Air Force Space Command....   129
Cebrowski, Vice Adm. Arthur K., USN [Ret.], Director, Office of 
  Force Transformation, Office of the Secretary of Defense.......   132

 Defense Intelligence Programs and Lessons Learned in Recent Military 
                               Operations
                             april 7, 2004

Cambone, Hon. Stephen A., Under Secretary of Defense for 
  Intelligence...................................................   191
Alexander, Lt. Gen. Keith B., USA, Deputy Chief of Staff, G-2, 
  Department of the Army.........................................   203
Porterfield, Rear Adm. Richard B., USN, Director of Naval 
  Intelligence, Headquarters, U.S. Navy..........................   219
Sams, Maj. Gen. Ronald F., USAF, Director of Intelligence, 
  Surveillance, and Reconnaissance, Department of the Air Force..   224
Decker, Michael H., Director for Intelligence, Headquarters, 
  United States Marine Corps.....................................   231
Wurster, Brig. Gen. Donald C., USAF, Director for Intelligence 
  and Information Operations, U.S. Special Operations Command....   234

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

 DEPARTMENT OF ENERGY'S OFFICE OF ENVIRONMENTAL MANAGEMENT, OFFICE OF 
          FUTURE LIABILITIES, AND OFFICE OF LEGACY MANAGEMENT

    The subcommittee met, pursuant to notice, at 2:29 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Graham, and 
Nelson of Florida.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Alison E. Brill, 
receptionist.
    Majority staff members present: L. David Cherington, 
counsel; and Scott W. Stucky, general counsel.
    Minority staff member present: Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Michael N. Berger and Sara R. 
Mareno.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; and William K. Sutey, assistant to 
Senator Bill Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I call this meeting of the Strategic Forces 
Subcommittee to order. The ranking member is going to be a 
little bit late, but he will show up. Some of the members will 
come and go today. I want to go ahead and make my opening 
statement and then go ahead and get testimony from our panel 
this afternoon.
    I would like to thank our panel. We have a couple of 
witnesses that I am anxious to hear from. First, the Honorable 
Jessie Hill Roberson, Assistant Secretary of Energy for 
Environmental Management (EM); and Michael W. Owen, who is 
Director of the Office of Legacy Management (LM), Department of 
Energy (DOE). I will have quite an extensive questioning 
period, I think, for both of you. So in a way it is a blessing, 
because I can go ahead and put all of this in the record 
together.
    Let me go ahead and get my opening statement out of the 
way, and I want to thank both of you for being willing to join 
us today and letting us hear from you.
    I would like to thank our witnesses for appearing before 
the Strategic Forces Subcommittee today and providing testimony 
about the DOE's vision for cleanup and closing all of the 
environmental sites and facilities. I also look forward to the 
testimony on the subsequent challenges of handing over the 
long-term stewardship and personnel responsibilities to the 
newly created LM. I look forward to hearing your testimony.
    I am especially pleased to have this hearing on the fiscal 
year 2005 budget request for EM, which at most is the last full 
fiscal year authorization and appropriation for cleanup at 
Rocky Flats. I hope I am not being overly optimistic. I want to 
express my compliments and sincere appreciation to assistant 
Secretary Jessie Roberson for her unwavering dedication and 
focus which led to this success.
    In 1996, then as manager of the DOE's Rocky Flats field 
office, Jessie Roberson was part of a small group of 
visionaries who first conceived of the closure of Rocky Flats 
by 2006, 60 years ahead of schedule. Madam Secretary, you have 
shown enormous leadership and courage when there were more 
voices saying it could not be done and it should not be done. 
Despite those criticisms, you stayed the course.
    I know there are still big challenges to face at Rocky 
Flats these next 2 years and I have full confidence in your 
abilities. Similar efforts and success are being realized at 
the Fernald and Mound sites in Ohio.
    The vision which you brought to these first three closure 
sites along with Under Secretary Bob Card and many others was a 
vision to challenge the status quo, a status quo which sought 
to comply but not clean up, to measure success by how many 
milestones were met without first considering where those 
markers were placed. Your visionary plan sought to reduce the 
risks to workers, the community and the environment, and 
thereby accelerate cleanup and closure. Implementing a plan to 
lower these risks seems like common sense today, but was seen 
as risky and impossible just a few years ago.
    Now this vision is being spread to the remaining EM sites, 
including Hanford, Idaho, Oak Ridge, and the Savannah River 
site. There have been some voices of doubt about whether 
accelerating cleanup and reducing risks to the workers, 
community, and the environment makes sense. I would encourage 
those few voices to take a look at what can happen when the 
community helps find a way to accelerate the cleanup.
    Rocky Flats was originally scheduled to be closed in 2065, 
with special nuclear materials remaining on the site for most 
of that period. Today in 2004, there are no special nuclear 
materials on Rocky Flats and we will have a national wildlife 
refuge for the community within the next couple of fiscal 
years. Fernald and Mound will return valuable land to their 
communities which can be used to cultivate new opportunities.
    I am pleased that the challenges of closing these EM sites 
are being faced head on as you have mapped out closure of the 
remaining EM sites by 2035 or sooner, which is 35 years sooner 
than the original DOE baseline, with a savings of untold 
billions of dollars in life cycle costs. However, new 
challenges seem to be emerging, including capping the scope of 
the EM program, addressing current and future waste streams 
within the Nuclear Safety Account (NSA), creating a new Office 
of Future Liabilities to address disposition of facilities 
which fall outside of the scope of the EM program, and making 
sure there is a smooth transition for workers, environment, and 
community as the first major EM sites are closed. I would say 
that without the workers and their dedication none of this 
would have been possible.
    To help maintain the momentum to accelerate closure of the 
EM sites, DOE has defined the entire scope of the EM program. 
While this approach should give the EM program the focus it 
needs to bring the remaining closure sites to a final 
disposition, it also challenges the remaining programs within 
the DOE to address their own environmental and waste management 
issues. I am not certain the National Nuclear Security 
Administration (NNSA) is fully engaged in dealing with their 
own wastes, especially if this is to include all the cleanup 
responsibilities currently being conducted by EM.
    I am also not certain if DOE has anticipated this new 
responsibility for NNSA in their budget. I am interested to 
know how the budget expertise and infrastructure within the EM 
program is being shared with the other DOE programs so they do 
not have to reinvent the cleanup technologies and the 
technologies which are now running so well within the EM 
program.
    I recognize that this is a discussion to be continued when 
the Secretary of Energy appears before the full committee next 
month, but I want to know how engaged EM is in this apparent 
transfer of responsibilities.
    I also have some questions about the new Office of Future 
Liabilities which is proposed in the fiscal year 2005 budget. 
It is my understanding that this program is supposed to take on 
those environmental restoration and waste management issues 
which fall outside the scope of the EM program, which has been 
capped, but do not fall within the scope of the DOE programs to 
deal with themselves. Also, Future Liabilities is only supposed 
to take on environmental cleanup work until 2025, which is at 
or before the completion of the EM sites.
    I am interested to know more about how the Future 
Liabilities program has been set up and how DOE will define the 
Future Liabilities program's work scope as unique in comparison 
to the environmental cleanup by NNSA or the other DOE programs. 
While accelerated cleanup of our EM sites is proceeding well, I 
have growing concerns about a smooth transition. If we want the 
workers, communities, and stakeholders to embrace the 
accelerated closure concept, then we need to ensure that there 
is a smooth transition at the three major sites scheduled for 
closure by 2006. That is Rocky Flats, Fernald, and Mound.
    Once the cleanup is completed, the EM program will no 
longer have a presence in the community. However, it is very 
important that DOE have an active presence. This responsibility 
will largely fall to LM.
    Mr. Owen, as we discussed in the past, I think it is very 
important that at the current closure sites in Colorado and 
Ohio there is a storefront in each of these sites to help with 
the smooth transition. I envision the storefronts as a central 
clearinghouse for inquiries, a worker and community response 
center. The people working at these worker and community 
response centers need to be prepared to answer the questions 
that the workers will have about their pension and health 
benefits and to ensure that there is a continuity of services 
to address their concerns. There also needs to be someone there 
who is also accountable to the community about ongoing 
environmental stewardship.
    I do not envision a large enterprise, but it needs to be 
robust enough to handle whatever the traffic may bear. I am not 
saying this office will always have to be run by Federal 
personnel. In fact, it is my understanding that you may be 
trying to work out a plan that will eventually turn this 
responsibility over to a contractor-supported enterprise. I do 
not object to this as long as it meets the needs of the workers 
and the communities.
    We have an opportunity to smoothly move from an EM site 
that is active with cleanup activities to a closed site which 
still has responsibilities to the workers and the community. If 
DOE does this right, the remaining closure sites will be ready 
to move in that direction. If the word on the street is that 
the workers and the communities were not treated well after the 
closure, then I believe you are placing accelerated closure at 
the other sites at risk.
    That means that the workers feel that they were taken care 
of by DOE. It also means that the workers are not penalized for 
that acceleration by receiving a reduction in their pension 
when one of the variables of their pension formula is length of 
time. It means that the workers can go to a knowledgeable 
individual and get answers to tough questions, someone who is 
trained and can address the concerns of the workers as well as 
community leaders and other stakeholders.
    In each of your testimonies, I hope you will provide some 
specific plans for how EM and LM plan to ensure the smooth 
transition is met. Last year you spoke before this subcommittee 
about a seamless transition. That will be a tall order, but I 
believe that that is the target you should be aiming for.
    Secretary Roberson and Mr. Owen, thank you for your service 
to our Nation. We look forward to your opening statements and 
then I will recognize the ranking member, Senator Bill Nelson, 
for his statement whenever he wishes to make it. Secretary 
Roberson, it is good to have you here.

STATEMENT OF HON. JESSIE HILL ROBERSON, ASSISTANT SECRETARY OF 
              ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Ms. Roberson. Thank you, sir. Good afternoon and thank you, 
Chairman Allard.
    I would like to begin by conveying the Department's 
appreciation to you for your investment in our accelerated 
cleanup program. Your support is allowing us to witness the 
dramatic results we forecast a short 2 years ago. I am here 
today to discuss President Bush's fiscal 2005 budget request 
for the EM program and its goals of sustaining the momentum 
that our work force has worked so hard to achieve, a momentum 
that benefits the vibrancy of our communities, our environment, 
and our economy.
    In these last 2 years, we have introduced dynamic reforms 
delivering fundamental change and achieving significant 
improvements in health, safety, and environmental protection. 
With your support, these reforms are fully ingrained in our 
operations and business processes. We are making a historic 
contribution to reducing the financial liability associated 
with the legacy of the Cold War.
    Last year when I spoke to you, I stated that I was not 
satisfied with our progress. We must continue to better our 
performance and to look beyond the status quo, to achieve 
results that are truly groundbreaking for the benefit of the 
generations that follow us. I challenge our work force, our 
partners, and myself and all those interested in joining us in 
our vision of accelerated cleanup to put their most innovative 
ideas and people forward.
    I am proud to announce that, with our combined efforts, our 
objective of accelerating environmental cleanup and risk 
reduction by 35 years and saving the taxpayers in excess of $50 
billion has become a reality. With your support and our 
continued keen focus on cleanup and closure, the momentum can 
continue.
    I would like to take a moment to underscore the impacts of 
refocusing the EM program. We have improved safety performance. 
We are committed to instilling this philosophy into every 
worker's day-to-day decisions from start to finish of every 
project. To that end, with top-quality safety standards, we are 
demonstrating that we can accelerate work and improve safety 
performance at the same time. We have not, nor will we, stop 
paying attention to safety. We will continue to ``raise the 
bar'' and hold ourselves accountable to the highest standard. 
Complacency is not acceptable in our advancing the safe 
conclusion of our cleanup objectives.
    We have demonstrated cleanup results and risk reduction. 
Last year we set a new floor for performance not yet seen in 
this program. I say ``floor'' because we see this as a level of 
performance that we will continue to build on. Over the last 2 
years, for example, six of nine nuclear fuel basins de-
inventoried, none of which were in our plan before. Four 
thousand, one hundred of 5,900 containers of plutonium have 
been packaged. We are almost complete. Over 1,300 of 2,400 
metric tons of spent nuclear fuel repackaged--these are 
activities that the work force have accelerated in the last 2 
years.
    I can go on with examples and would really love to, but I 
know we have other things to get on with. Our corporate 
performance measures, which I have included in my written 
statement, further demonstrate our deeds and, in combination 
with exceptional safety performance, we have accomplished 
consequential outcomes important to the public, our 
communities, and for the generations to follow us.
    Two years ago the EM program was described as lacking a 
risk-based cleanup approach and the hazards at DOE sites and 
the liability associated with them did not appear to dictate 
the need for urgency. Innovative actions in all elements of the 
EM program were needed to transform EM's processes and 
operations to reflect the new accelerated risk reduction 
cleanup paradigm.
    We are more than ever encouraging innovation in safety 
performance, in accelerated risk reduction, and in business 
management. We believe that providing an atmosphere that 
encourages innovation can reduce risk to workers and the 
environment faster, and save resources to be reinvested in 
furthering the priorities of each of the sites.
    Tying all these accomplishments together has been our 
driving force to improve performance in our acquisition 
strategy specifically.
    Legal actions and court decisions may direct us to alter or 
modify our activities from the accelerated cleanup and closure 
path. We are committed to work diligently with all concerned 
parties to avoid interruptions in reducing risk where we can. 
This year has seen dramatic results demonstrating our steadfast 
belief that continuing on the accelerated path will resolve the 
problems that lie before us. We must not lose our momentum that 
has so earnestly been established by the work force.
    As with all new enterprises, impediments will be many, but 
we are committed to employ our resources to continue to show 
meaningful results, and we are taking a very staunch view of 
results. The job isn't done yet. We can't be complacent. We 
must continue to do better. It is not done when we develop a 
plan. It is not done when we agree on a milestone. It is not 
done when we ask for funding. It is not done when we sign a 
contract. It is not done when we get money. It is not done 
until it is done and there is positive and measurable risk 
reduction for the investment made.
    I ask for your support of our fiscal year 2005 budget 
request of $7.43 billion to continue this momentum. We are 
safer today than we were last year and we must stay the course 
so that we are safer next year than today. We have accelerated 
cleanup by at least 35 years, saving over $50 billion. The 
potential is there to lose what we have gained should we fail 
to stay focused on our commitment.
    I look forward to working with Congress and others to 
achieve this goal and I thank you, Mr. Chairman.
    [The prepared statement of Ms. Roberson follows:]
             Prepared Statement by Hon. Jessie H. Roberson

    Mr. Chairman and members of the subcommittee, I am delighted to be 
here today to convey the Department of Energy's (DOE) appreciation for 
your support of the Environmental Management (EM) program, without 
which the dramatic results in accelerating the cleanup of the legacy of 
the Cold War would not be possible. I welcome this opportunity to sit 
before you and report on our progress, the potential gains and risks 
that lie before us, and the importance of sustaining the momentum that 
our workforce has labored so hard to achieve--a momentum that benefits 
the vibrancy of our communities and the environment.
    Two eventful years have passed since the release of the Top-to-
Bottom Review of the EM program. In these last 2 years, we have taken 
decisive steps to transform a program focused on managing risk to a 
core mission-focused program that is accelerating risk reduction and 
cleanup. We have introduced dynamic reforms, delivering fundamental 
change and achieving significant improvements in health, safety, and 
environmental protection. With your support and these reforms fully 
ingrained in our operations and business processes, we are 
demonstrating that this bold strategy to accelerate risk reduction and 
cleanup has made a historic contribution to reducing the financial 
liability associated with the legacy of the Cold War. As cited in the 
U.S. Department of Treasury 2002 Financial Report to the United States 
Government, ``the recognized cost of cleaning up environmental damage/
contamination across government programs was estimated to be $273.0 
billion, as compared to $306.8 billion for September 30, 2001. A 
significant component of this reduction relates to the DOE. It reduced 
its environmental liability by $28.7 billion, mostly due to employing 
an accelerated cleanup approach resulting from a top-to-bottom review 
to find efficient and cost-effective ways to achieve greater real 
cleanup and risk reduction to public health.'' But that is not the 
whole story.
    Last year when I spoke with you, I stated that I was not 
``satisfied'' with our progress. We must continue to better our 
performance and to look beyond the status quo to achieve results that 
are truly groundbreaking for the benefit of the generations that follow 
us. I challenged our workforce, our partners, and myself and all those 
interested in joining us in our vision of accelerated cleanup to put 
their most innovative ideas and people forward. I am proud to announce 
that with our combined efforts, our objective of accelerating 
environmental cleanup and risk reduction by 35 years and reducing 
estimated program costs in excess of $50 billion has become a reality. 
With your support and our continued keen focus on the cleanup and 
closure, the momentum can continue.
    For fiscal year 2005, the President's budget includes a record 
$7.43 billion for the accelerated cleanup program, the peak year in our 
funding profile. As we identified last year, the administration 
believes that this investment is crucial to the success of accelerated 
risk reduction and cleanup completion. We anticipate funding will then 
decline significantly to about $5 billion in 2008.
    The EM portion of the fiscal year 2005 congressional budget is 
structured analogous to last year. The budget structure focuses on 
completion, accountability, and visibility; institutionalizes our 
values; and integrates performance and budget. Requested funding can 
clearly be associated with direct cleanup activities versus other 
indirect EM activities.
    Within the Defense Site Acceleration Completion Appropriation, the 
budget reserves $350 million for a High-Level Waste Proposal. With the 
Idaho District Court decision on Waste Incidental to Reprocessing, the 
Department's ability to proceed prudently with accelerated risk 
reduction for some activities is drawn into question. The decision 
makes it difficult, if not impossible, for us to undertake planned 
actions at Idaho, Hanford, and the Savannah River Site to aggressively 
reduce risks posed by wastes stored in tanks at those sites--actions we 
had committed to take, in agreement with our host states, before the 
court decision. The decision now means we are likely to leave tank 
wastes in place longer while we try to resolve issues created by the 
decision--a course that has significant societal and monetary costs. 
This $350 million supports activities normally funded from the 2012 
Accelerated Completions account and from the 2035 Accelerated 
Completions. These funds will be requested only if the legal 
uncertainties are satisfactorily resolved.
    In alignment with ongoing departmental missions, this budget 
reflects a transfer of multiple activities that are not core to the EM 
mission to other departmental elements. These transfers provide the 
responsible and accountable mission programs with the resources and 
tools to achieve their objectives at the expected performance level. 
This accountability model is the key to moving each of the enterprises 
or missions of the DOE forward in attaining the desired outcomes and 
results important to the administration and supporting our accelerated 
risk reduction and closure initiative. Transfers include:

        <bullet> Transferring Federal staff at the Pacific Northwest 
        National Laboratory to the Office of Science and Federal staff 
        at Headquarters to the Office of the Chief Information Office.
        <bullet> Transferring the EM portion of the Offsite Source 
        Recovery Program to the National Nuclear Security 
        Administration (NNSA).
        <bullet> Transferring spent fuel storage responsibilities at 
        Idaho National Laboratory, the Foreign Research Reactor Spent 
        Fuel Program, management of Nuclear Regulatory Commission 
        (NRC)-licensed spent fuel, and the National Nuclear Spent Fuel 
        Program to the Office of Civilian Radioactive Waste Management.
        <bullet> Transferring Formerly Utilized Sites Remedial Action 
        Project records management, responsibility for cost liability 
        and recovery reviews, and Environmental Justice and the Massie 
        Chairs of Excellence Program to the Office of Legacy Management 
        (LM).

    We will also be transferring sites, as they are completed, either 
to the landlord or to LM. The latter will occur if the site has no 
further DOE mission. EM is working with LM to ensure smooth site 
closure and transition by:

          Ensuring that site baselines identify functions and elements 
        beyond contract closure to meet all internal requirements;
          Conducting assessments of site readiness for transfer and 
        closure in tandem with LM;
          Having joint teams at each site (Rocky Flats has two LM 
        employees) and supported by LM headquarters personnel who were 
        once EM personnel and EM personnel at sites are transferring to 
        LM positions;
          Holding quarterly meetings between EM and LM senior 
        management to address key issues and make decisions;
          Developing a communication plan defining roles and 
        responsibilities between EM and LM staff.

    The administration considers this budget request a critical step on 
the accelerated risk reduction and cleanup path. Without these 
resources, we could face higher risk to the environment and the public 
and lose the momentum we have gained in changing the paradigm. With 
your support, we have the opportunity to succeed in producing historic 
results that will last for many years to come.

                         DEMONSTRATING RESULTS

    With the October 2003 release of the Report to Congress on the 
Status of Implementation of the Top-to-Bottom Review, we have 
demonstrated that the direction we took 2 years ago is showing real 
results. I wish to take a moment and expound the impacts of the far-
reaching accomplishments that are underpinning the developing momentum 
of the program.

Improved Safety Performance
    We believe in order to accomplish our accelerated risk reduction 
and cleanup mission, we must continue to do work safely. We are 
committed to instilling this philosophy in every worker's day-to-day 
decisions from start to finish of every project. To that end, with top-
quality safety standards, we are demonstrating that we can accelerate 
work and improve safety performance at the same time. For example in 
August 2001, EM's Total Reportable Cases (TRC) and Lost Workday Cases 
(LWC) were 1.9 and 0.8 respectively, per 100 workers (TRC and LWC are 
standard tools used to measure safety performance.) In September 2003, 
we had reduced our TRC to 1.2 and LWC to 0.5. These rates are 
significantly better than private industry, which the Occupational 
Safety and Health Administration (OSHA) reported in 2002, had a TRC of 
5.3 and LWC of 1.6. The construction industry alone had rates of 7.1 
for TRC and 2.8 for LWC in 2002. We have not, nor will we, stop paying 
attention to safety. We will continue to ``raise the bar'' and hold 
ourselves accountable to the highest standards. Complacency is not 
acceptable in our advance to the safe conclusion of our cleanup 
objectives.

Cleanup Results and Risk Reduction
    Prior to the Top-to-Bottom Review, EM had lost focus of the core 
mission, the mission that the program was established to solve--address 
the environmental legacy of the Nation's Cold War nuclear weapons 
research and production. With a program responsible for the management 
of millions of gallons of liquid radioactive waste and thousands of 
tons of spent nuclear fuel, the unhurried pace of cleanup and risk 
reduction was unacceptable. If immediate actions were not taken, the 
risks associated with the EM program would continue to grow to 
unpardonable levels.
    Last year set a new floor of performance not seen before in the 
history of the program. Our investment has born amazing results. For 
example: three spent nuclear fuel basins were deinventoried at Idaho 
National Laboratory, along with two at the Savannah River Site and one 
at Hanford. In regard to Hanford, we have removed 70 percent of the 
spent nuclear fuel from the K-Basins. These basins located less than a 
quarter of a mile from the Columbia River have the potential to leak 
and cause costly environmental harm both to the health of the river and 
the public--this is a significant gain in risk reduction. Another 
example is at Rocky Flats. This site, once responsible for nuclear 
triggers, has shipped all plutonium off site and closed the last 
remaining material access area. These visible, risk reducing results 
that have demonstrated our ability to accelerate schedule and reduce 
life cycle cost while showing to our public and surrounding communities 
the DOE's commitment to improve worker safety, reduce health risks, and 
eliminate environmental hazards.
    So you may have a better comprehension of the magnitude of our 
cleanup results, I would like to insert for the record a copy of our 
recent corporate performance measures.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    EM's Performance Measures is a compilation of the program's 16 
complex-wide performance measures. As you can see, we can deliver 
significant risk reduction and cleanup and, as I stated earlier, in 
combination with improved safety performance. Accelerating risk 
reduction and cleanup, in concert with exceptional safety performance, 
accomplishes consequential outcomes important to the public, our 
communities, and for the generations that follow us.

Innovations in Ideas, Processes, and Practices
    Two years ago, the Top-to-Bottom Review described the EM program as 
lacking a project completion mindset, internal processes were 
inconsistent with a risk-based cleanup approach, and the hazards at the 
DOE sites and the liability associated with them did not appear to 
dictate the need for urgency in the cleanup decisions. The Top-to-
Bottom Review team emphasized that the EM mission cannot be 
accomplished by continuing business as usual. Innovative actions in all 
elements of the EM program would need to be taken to transform DOE's 
processes and operations to reflect the new accelerated risk-based 
cleanup paradigm.
    To foster innovation, we identified ideas and processes from 
successful projects that had delivered accelerated results and conveyed 
the information across the EM program. For example, at Rocky Flats, we 
drew from their experience in project planning and delivery along with 
technology advancements. Sharing the innovative practices allowed for 
similar outcomes at other sites. If I may take a moment to share a few 
ideas and practices:

(a)  Establish a clear end-state vision and risk-based cleanup levels 
        in conjunction with specific future land/site use and in 
        consultation with regulators, stakeholders, and affected and 
        interested governments.
(b)  A ``best-in-class'' management team is recruited and sustained 
        with the result of team focus and retention of key staff.
(c)  Senior management emphasis is placed on key safety issues of 
        keeping workers working, minimizing the risk of possible high-
        impact events, quick recovery after accidents, safety 
        ``pauses'' as appropriate, and improved safety training.
(d)  Projects are managed in an environment that provides significant 
        incentives for real cost savings.
(e)  New and innovative equipment and methods are being used for size 
        reduction (e.g. plasma cutting torch, engineered enclosures, 
        water-jet cutting of components), significantly improving 
        safety and effectiveness.
(f)  Improved decontamination techniques coupled with new radiation 
        instrumentation.

    We continue to encourage innovation in our processes and practices 
to further enhance safety performance, accelerate risk reduction, 
reduce health impacts, and save resources to be reinvested in 
furthering the priorities of each of the sites.

Acquisitions Driving Performance
    Tying all these accomplishments together has been our continued 
drive to improve performance from our new acquisition strategy. These 
accomplishments serve as indicators of the level of performance we are 
expecting from our contractors now as well as into the future. When we 
reviewed our contracts over the past year--as you may remember I said 
we formed a Contract Management Advisory Board last year--we identified 
a short list of significant findings that did not prove advantageous to 
the overall success of the program. We concluded that DOE tends to 
manage the contractor, not the contract, that project baselines needed 
improvement along with project management and the associated reporting, 
incentives for meaningful risk reduction were lacking, more emphasis 
was needed on cost-efficient performance, and there seemed to be 
insufficient competition and small business participation.
    To address these weaknesses, we have instituted three business 
models that we believe will vastly improve our acquisition process and 
opportunities for success. Our reform strategy is to accelerate the 
reduction of risk from the legacy of the Cold War safely and 
efficiently and at a cost savings for the taxpayer. One model focuses 
on improving incumbent contractor's performance, while another aims to 
increase competition and small business participation. The third 
concentrates on the establishment of national Indefinite Delivery/
Indefinite Quantity (IDIQ) contracts for remediation and 
decontamination and decommissioning. All three are on the fast track. 
In fact, in September, as a first step we announced the selection of 
five 8(a) businesses that will perform work at our small sites across 
the country. In fiscal 2004, we have six new contracts--two at Paducah, 
two at Portsmouth, one at the Fast Flux Test Facility at Hanford, and 
one at the Idaho National Laboratory along with the IDIQ contracts that 
will be completed. We expect these new contracts will challenge the 
contractor community, a challenge that is healthy for all involved.

We Have Our Challenges Too
    As we continue to challenge the status quo, we may be confronted 
with legal actions and court decisions that will direct us to alter or 
modify our activities from the accelerated cleanup and closure path. We 
will continue to work diligently with all concerned parties to avoid 
interruptions in reducing risk and advancing cleanup for the public.
    We expect to be challenged on our delivery of Government Funded 
Services and Items (GFSI). We are accountable on delivery of GFSI and 
we expect to be held to our commitments.
    Also, we have challenged our managers at all levels to stay true to 
our commitment and employ our corporate performance measures as an 
accountability and success gauge assessing our progress as well as a 
tool that alerts us when management action or intervention is 
warranted.

                  THE FISCAL YEAR 2005 BUDGET REQUEST

    The fiscal year 2004 budget was the first budget that fully 
reflected the initiatives undertaken by the administration to transform 
and revitalize the cleanup of the former weapons complex. The EM 
program has been refined and fortified with management reforms, which 
have led to accelerated risk reduction and a decrease in lifecycle 
costs surpassing previous expectations. The investment we have 
requested in our fiscal year 2005 budget will contribute to EM's 
continued success in achieving its mission of accelerated risk 
reduction and site closure.
    The EM fiscal year 2005 budget request represents the peak year of 
our investment strategy to accelerate cleanup and reduce risk. This 
budget fully reflects each site's accelerated risk reduction and 
cleanup strategy. The fiscal year 2005 budget request is pivotal to 
keep the momentum going and to achieve even greater risk reduction and 
cost savings than ever before.
    The 2005 budget request for EM activities totals $7.43 billion to 
accelerate risk reduction and closure. The request includes five 
appropriations, three of which fund on-the-ground, core mission work, 
and two of which serve as support. The five appropriations and 
associated requested funding are:

        <bullet> Defense Site Acceleration Completion ($5.97 billion)
        <bullet> Defense Environmental Services ($982 million)
        <bullet> Non-Defense Site Acceleration ($152 million)
        <bullet> Non-Defense Environmental Services ($291 million)
        <bullet> Uranium Enrichment Decontamination and Decommissioning 
        Fund ($500 million)

    Within the Defense Site Acceleration Completion Appropriation, $350 
million is tied to the Idaho District Court decision on Waste 
Incidental to Reprocessing. These funds will only be requested upon 
satisfactory resolution of the recent court decision that affected the 
Department's plans for some waste streams.
    In building the request, the DOE applied the following principles 
and priorities:

    Protect workers, public, and the environment
    The budget request continues to place the highest priority on 
protecting workers, the public, and the environment. The implementation 
of EM's cleanup strategies allows for an overall improvement in safety 
and reduction in risk because cleanup will be completed sooner, 
reducing the extent to which workers, the public, and the environment 
have the potential to be exposed. Over the past 2 years, dramatic 
improvements in safety performance have been demonstrated.
    Ensure the appropriate levels of safeguards and security
    Due to heightened security levels throughout the Nation, it is 
crucial that we maintain vigilance in our domestic security to protect 
our citizens. The EM program is responsible for many tons of surplus 
nuclear material. This budget request reflects our increased safeguards 
and security needs, including the new Design Basis Threat (DBT) 
requirements. Overall, the budget has decreased from fiscal year 2004 
because we have been able to consolidate materials into fewer, more 
secure locations, and we have reduced the footprint of secure areas. 
The sites with the largest remaining funding needs are the Savannah 
River Site and Hanford. The Savannah River Site's funding supports the 
security of nuclear materials, maintenance of uniformed protective 
force personnel, information security, and operations security for the 
protection of classified and sensitive information, cyber security for 
the protection of classified and unclassified computer security, and 
personnel security. Hanford's funding supports security for shipment of 
special nuclear materials and elimination of one material access area 
within the Plutonium Finishing Plant (PFP), enhancement of cyber 
security, Hanford site security clearances and other security 
activities.
    Accelerate risk reduction
    Accelerated risk reduction requires a pragmatic approach to 
cleanup. Risk reduction occurs in various stages, which involve the 
elimination, prevention, or mitigation of risk. Because safe disposal 
of many materials will take a number of years to complete, our major 
focus of risk reduction is stabilization of high-risk materials.

    The following categories of materials are considered to pose the 
highest risk:

        <bullet> High-curie, long-lived isotope liquid waste
        <bullet> Special nuclear materials
        <bullet> Liquid transuranic waste in tanks
        <bullet> Sodium bearing liquid waste in tanks
        <bullet> Deteriorating spent nuclear fuel in leaky or poor 
        integrity basins
        <bullet> Remote-handled transuranic waste and high transuranic 
        content waste
        <bullet> Transuranic waste stored on the surface
        <bullet> Decommissioning of highly-contaminated facilities

    Although all of these items are to be considered when setting 
priorities, their relative ranking may vary from site to site. Risk 
reduction is a major consideration in the development of the site 
baselines. Examples of planned activities/milestones for fiscal year 
2005 that correspond to sitespecific risk categories are:

    Hanford

        <bullet> Complete cleanout of K East and K West basins (fuel, 
        sludge, debris, and water).
          The K basins are located less than 1,000 feet from the 
        Columbia River. This project involves packaging and removing 
        degrading spent nuclear fuel and radioactive sludge, debris, 
        and water from wet storage in the K Basins to safe, dry interim 
        storage away from the Columbia River. The K Basin facilities 
        are well past their design lives and are a major threat to the 
        environment due to the potential for basin leakage to the 
        surrounding soil and the Columbia River. Their cleanout will 
        prevent potential leakage of 55 million curies of radioactivity 
        to the soil and the river and will decrease the risks posed by 
        the basins to human health and the environment.

        <bullet> Complete transfer of nuclear material to the Savannah 
        River Site or DOE approved interim storage facility, and 
        complete legacy holdup removal and packaging/disposition of 
        material/waste.
          The PFP consists of several buildings that were used for 
        defense production of plutonium nitrates, oxides, and metal 
        from 1950 through 1989. Completion of the transfer of the 
        stabilized materials and legacy holdup material from PFP allows 
        the cleanout and demolition of these facilities to slab on 
        grade. It results in a reduced national security threat by 
        consolidating nuclear materials into fewer locations.

        <bullet> Ship all above-ground transuranic waste to the Waste 
        Isolation Pilot Plant.
          Hanford has several thousand containers of previously 
        generated transuranic waste in above-ground storage buildings. 
        Characterization and shipment of this waste to the Waste 
        Isolation Pilot Project for final disposal will reduce the 
        risks to facility workers as well as reduce the safeguard and 
        security vulnerability associated with this waste. This action 
        represents final disposal of this waste in an environmentally 
        protective repository.

        <bullet> Complete installation of In Situ Redox Manipulation 
        Barrier in the 100-D Area.
          Chromium-contaminated groundwater is reaching the Columbia 
        River in the 100-D Area. The contamination levels are above 20 
        times the aquatic life water standard, and the area is adjacent 
        to potential salmon spawning locations. To address this, a 
        series of wells will be drilled and a chemical that detoxifies 
        chromium will be deposited into the matrix in which the 
        groundwater travels to the river. As a result, the groundwater 
        reaching the Columbia River will once again meet the aquatic 
        water standards, thereby protecting human health and the salmon 
        population in the river.

        <bullet> Initiate waste retrieval from 11 single-shelled tanks.
          Radioactive liquid waste stored in older single-shelled tanks 
        has the potential of leaking and contaminating soil and 
        groundwater that flows to the Columbia River, presenting a risk 
        to human health and the environment. Waste will be retrieved 
        from the single-shelled tanks and moved to safer double-shelled 
        tanks.

    Idaho

        <bullet> Disposition 34 containers of special nuclear material 
        containing uranium, completing 75 percent of shipments offsite; 
        initiate transfer of spent nuclear fuel from CPP-666 wet 
        storage to the Irradiated Fuel Storage Facility; and maintain a 
        running average of 2,000 cubic meters per year of transuranic 
        (TRU) waste shipped out of Idaho.
          Idaho sits over a major sole source aquifer, the Snake River 
        Plain Aquifer, which is used to supply water to the people of 
        southeastern Idaho as well as irrigation water for the 
        significant agricultural activities. These actions will reduce 
        the potential risk to human health by preventing the migration 
        of contamination into the aquifer. It also will reduce the 
        national security threat by consolidating materials into fewer 
        locations.

    Paducah

        <bullet> Disposition 875 cubic meters of low-level/mixed low-
        level legacy waste, allowing for a 37 percent completion of 
        work.
          The packaging and disposal of low-level waste stored outdoors 
        will reduce the waste inventory and eliminate the potential 
        release into the environment that could result from 
        deterioration of the storage drums. Outside storage of this 
        material in some cases leads to additional surface water and 
        soil contamination. Removal of these materials further reduces 
        the continued exposure to workers performing surveillance and 
        maintenance.

        <bullet> Disposition 12,400 tons of scrap metal.
          Scrap metal is a suspected source of continued surface water 
        and possible soil contamination. This action contributes to the 
        continued source term removal of contaminants leaching into the 
        environment. Reduction in the massive quantities of scrap metal 
        continues to improve the potential safety concern to our 
        workers.

        <bullet> Continue decontamination and decommissioning of C-410 
        complex.
          The C-410 Complex is a large chemical complex in a shutdown 
        condition. Removal of contaminated materials and equipment 
        reduces potential risk to onsite workers and represents a key 
        step in stabilizing the facility such that contaminants are 
        prevented from release to the environment.

    Portsmouth

        <bullet> Disposition 9,089 cubic meters of legacy waste.
          The continued shipment and disposal of legacy waste will 
        proportionally reduce the risk such wastes present to the 
        health and safety of workers and reduce the ongoing potential 
        for release to the environment.

        <bullet> Process approximately 42 million gallons of water 
        through Groundwater Pump and Treat facilities.
          Plume control keeps contaminants from reaching surface 
        streams and off-site drinking water supplies. Trichloroethylene 
        (TCE), which was an industrial solvent, is the main groundwater 
        contaminant at the site.

    Pantex Plant

        <bullet> Complete Zone 11 soil vapor extraction for removal of 
        contamination from the vadose zone and protection of the 
        groundwater.
          Removing the soil gas contamination will avoid potential 
        migration to a fresh water supply, thereby reducing the risk 
        posed to human health and the environment.

        <bullet> Complete Burning Grounds landfills interim corrective 
        measure (engineered covers) to secure wastes and protect 
        groundwater.
          The covers will mitigate the vertical transport of 
        contaminants, which will reduce the potential impact to the 
        fresh water supply.

        <bullet> Complete demolition of Zone 10 Ruins.
          The Zone 10 ruins have suspected high explosives contaminants 
        in the numerous disintegrating structures. Removal of high 
        explosive will avoid further contamination of soils, and 
        demolition of the ruins will reduce safety risks to persons in 
        the area.

        <bullet> Complete decontamination and decommissioning of 
        Building 12-24 Complex.
          There is evidence that this complex contributed to the high 
        explosives plume that migrated to the southeast and off-site. 
        Decontamination of the 12-24 Complex will mitigate the 
        migration of this plume.

    Oak Ridge

        <bullet> Complete East Chestnut Ridge Waste Pile Closure.
          Risks associated with industrial safety will be reduced by 
        eliminating the need to excavate and transport the material to 
        treatment subsequent to disposal.

        <bullet> Complete disposition of legacy low-level waste.
          Approximately 40 percent of the low-level waste was stored 
        outdoors in deteriorating containers. Disposition of this waste 
        will decrease the risks associated with their potential 
        environmental release.

        <bullet> Complete processing and stabilization of transuranic 
        waste tanks.
          This action will eliminate the potential for the waste's 
        migration to groundwater.

        <bullet> Initiate contact-handled transuranic waste processing 
        at the Waste Processing Facility.
          This waste is stored in above grade-storage trenches and in 
        earthen trenches. Processing the waste prevents the risk of 
        release to the environment and a continued cost of waste 
        storage and monitoring.

        <bullet> Complete treatment of liquid low-level waste supernate 
        at the Waste Processing Facility and disposal of the dried 
        supernate product at the Nevada Test Site.
          Treatment and disposal of the supernate decreases the risks 
        posed by these highly radioactive fission products.

        <bullet> Complete Atomic City Auto Parts.
          This action will reduce the risks posed to workers and the 
        surrounding community from uranium and polychlorinated 
        biphenyls contamination in the soil.

    Savannah River Site

        <bullet> Begin processing neptunium solutions.
          The site has approximately 6,000 liters of Neptunium-237 
        nitrate solution in H-Canyon. Through processing, the neptunium 
        solutions are converted into a more stable form, and the risks 
        they pose to human health and the environment are reduced.

        <bullet> Complete bulk waste removal in Tank 5.
          Tank 5 is one of 49 underground tanks currently used to store 
        radioactive liquid waste at the Savannah River Site. This waste 
        represents one of the highest risk to human health and the 
        environment. Current plans call for the removal of the waste 
        from Tank 5 for treatment, stabilization and disposal. A new 
        approach, the Waste-On-Wheels (WOW) system, will be utilized to 
        remove the waste from Tank 5 and other tanks. The WOW is a 
        portable method of performing bulk sludge waste removal from 
        the tanks. The WOW system will reduce the project schedule for 
        waste removal and therefore reduce the risk to human health and 
        the environment imposed by the highly radioactive waste.

        <bullet> Complete decommissioning of seven industrial and 
        radioactive facilities.
          Decommissioning excess radioactive facilities will reduce the 
        footprint of the site, and therefore collectively reduces risk 
        to the worker by eliminating the need to enter the facilities 
        to perform required, routine surveillance and maintenance 
        activities. Risk of worker exposures while performing these 
        activities is eliminated. Decommissioning excess radioactive 
        facilities also eliminates the potential environmental and 
        human health risk of accidental releases from these facilities. 
        Decommissioning industrial facilities eliminates the risk to 
        workers associated with having to maintain old facilities which 
        are no longer needed but which require regular inspections or 
        maintenance activities, such as roof work.

    Lawrence Livermore National Laboratory-Livermore Site

        <bullet> Construct, install, and operate a portable treatment 
        unit at Treatment Facility D Hotspot, Treatment Facility E 
        Hotspot, the northern portion of the East Traffic Circle Source 
        Area, and the Treatment Facility 406 Hotspot area.
          These actions will further prevent the release of TCE, 
        thereby reducing risks to the public from exposure to 
        contaminated groundwater.

        <bullet> Remove contaminated surface soil and contaminated 
        sandpile at Building 850.
          These actions will mitigate risk to onsite workers, and will 
        prevent further impacts to groundwater above health-based 
        standards.

        <bullet> Construct, install, and operate groundwater extraction 
        and treatment facility.
          Remediation of the high-explosive process area is a high 
        priority due to the offsite migration of contaminant plumes, 
        current impacts to onsite water-supply wells, and the 
        inhalation risk to onsite workers. These actions will impede 
        the migration of plumes, protecting offsite water-supply wells 
        from contamination.

    Maintain closure schedules
    Three major sites, Rocky Flats, Fernald, and Mound, have 
accelerated closure schedules. In addition, two smaller sites, 
Ashtabula and Battelle-Columbus are scheduled to close in 2006. Funding 
in the fiscal year 2005 budget will allow these sites to remain on 
track toward project completion and site closure.
    At Rocky Flats, fiscal year 2005 funding provides for:

        <bullet> Completing site deinventory of legacy low-level/mixed 
        low-level and transuranic waste to off-site disposal; 
        completing remediation of 30 release sites.
          During fiscal year 2005, Rocky Flats will be approaching 
        completion of their commitment to closure and conversion of the 
        Rocky Flats site for future beneficial use. The buildings where 
        plutonium and other hazardous materials were used in support of 
        the nuclear weapons deterrent will be under various stages of 
        demolition, the final quantities of radioactive wastes will be 
        removed from the site, and the grounds will be receiving the 
        necessary remediation action. These actions, when complete, 
        will allow the DOE to release the site to the U.S. Fish and 
        Wildlife Service to become the Rocky Flats Wildlife Refuge with 
        little or no further risk to human health or the environment.

    At Fernald, fiscal year 2005 funding provides for:

        <bullet> Completing decontamination and dismantlement of the 
        Waste Pits Complex and the East Warehouse Complex, and 
        completion of waste pits remedial action operations.
          Completing the Waste Pit Remediation Project will result in 
        over one million tons of waste pit material having been 
        transported off-site via rail for safe, compliant disposal and 
        the decontamination and decommissioning of the treatment 
        facility and other waste pit infrastructures. Completing these 
        activities represents a substantial risk reduction to human 
        health and the environment for the entire Fernald Closure 
        Project site. This remediation activity is being conducted in 
        an extremely safe manner considering the industrial hazards 
        involved.

        <bullet> Completing Silos 1 and 2 operations, including removal 
        of waste material, and beginning disposition of the waste for 
        off-site disposal.
          Silos 1 and 2 Extraction and Treatment Operations represent 
        the greatest risk to human health and the environment at the 
        Fernald Closure Project. Silos 1 and 2 contain the highest 
        levels of radiological activity residing in any waste stream at 
        the site. The Silos 1 and 2 project constitute the Site Closure 
        Critical Path. Their successful completion is a prerequisite 
        for a timely and safe closure.

        <bullet> Completing construction of the On-Site Disposal 
        Facility (OSDF) Cell 3 and Cell 4 caps.
          Capping Cells of the OSDF will ensure the reduction in risk 
        to human health and the environment during post closure. 
        Overall, the OSDF will be composed of 8 cells, containing 2.5 
        million cubic yards of waste soil and debris. The OSDF has been 
        designed and engineered to possess a 5-foot thick liner and a 
        9-foot thick cap. The OSDF has a design life of 1,000 years.

    At Mound, fiscal year 2005 funding provides for:

        <bullet> Completing remediation of 37 potential release sites 
        (65 percent of remaining), including the restoration of 
        potential release site (PRS) 66.
          Completing the PRSs in fiscal year 2005 decreases risk by 
        preventing any further radioactive contamination from migrating 
        into clean soil areas and ground water, by reducing potential 
        exposure to site workers and other personnel located on site, 
        and by precluding any potential environmental impacts to off 
        site areas.

    At Ashtabula, fiscal year 2005 funding provides for:

        <bullet> Completing remediation of the Waste Management Unit.
          Remediating the Waste Management Unit significantly reduces 
        the remaining risks of organic and inorganic chemical exposure 
        to both soil and groundwater at the RMI company site.

    At Battelle-Columbus, fiscal year 2005 funding provides for:

        <bullet> Completing decontamination/stabilization of the fuel 
        storage pool and transfer canal and the high-bay area surfaces 
        in JN-1.
          Removing this source term will reduce the risk of 
        contamination, both internal and external, to the workers 
        during building de-construction. Removal of the source term 
        would also reduce risk to off-site areas and members of the 
        general public.

    Integrate technology development and deployment
    An integrated technology development and deployment program is an 
essential element for successful completion of the EM cleanup effort 
and for fulfilling post-closure requirements. The EM Technology 
Development and Deployment (TDD) program provides technical solutions 
and alternative technologies to assist with accelerated cleanup of the 
DOE complex.
    EM TDD investments are focused on high-payoff site closure and 
remediation problems through a two pronged approach: Closure Projects 
and Alternative Projects.
    Closure Projects
    Principal near term closure sites (such as Rocky Flats, Fernald, 
and Mound) will be provided with technical support and quick response, 
highly focused technology development and deployment projects. The goal 
is to ensure that accelerated site closure schedules are achieved.

        <bullet> At the Rocky Flats closure site, technical assistance 
        teams will assess critical technical issues and provide 
        technology alternatives including the treatment and disposition 
        of orphaned waste streams and improved methods of beryllium 
        decontamination.
        <bullet> At Mound, innovative technologies will be developed to 
        determine and enable treatment of radioactive contaminated soil 
        beneath buildings.
        <bullet> At Fernald, the vacuum thermal desorption 
        demonstration will be completed to provide a technical solution 
        for an orphaned waste stream, and technical support to the 
        Silos # 1, 2, and 3 waste removal and disposition will be 
        successfully completed.
        <bullet> At Oak Ridge, delineation of contamination and 
        definition of treatment feasibility for subsurface 
        contamination will be completed.
    Alternative Projects
    Alternative approaches and step improvements to current high-risk/
high cost baseline remediation projects are our second focus. The goal 
is to enable cleanup to be accomplished safely, at less cost, and on an 
accelerated schedule. EM is focusing funds for fiscal year 2005 on:

        <bullet> Alternatives For Tank Waste Pretreatment and 
        Immobilization (Hanford Site, Office of River Protection);
        <bullet> Alternatives for Carbon Tetrachloride Source Term 
        Location (Hanford Site, Richland);
        <bullet> Alternatives for Disposition of High-Level Salt Waste 
        (Savannah River Site);
        <bullet> Alternatives for Remediation of Chlorinated Ethenes 
        using Monitored Natural Attenuation (Savannah River Site);
        <bullet> Alternatives for Deposit Characterization and Removal 
        at Gaseous Diffusion Plants (Portsmouth);
        <bullet> Alternatives for In situ Transuranic Waste Delineation 
        and Removal (Hanford Site, Richland)
        <bullet> Alternatives for Non-Destructive Assay and Examination 
        of Large Transuranic Waste Containers (Savannah River Site/
        Carlsbad)

                               CONCLUSION

    This year has seen dramatic results demonstrating our steadfast 
belief that continuing on the accelerated path will provide the 
direction and framework to resolve the problems that lie before us. As 
with all new enterprises that seek to challenge the status quo, 
impediments will be encountered. We must not lose our momentum that has 
so earnestly been established through collaboration and a singular 
focus of delivering meaningful results for the American public.
    We are committed to employ our resources to show meaningful results 
and we are taking a very staunch view of results. The job is not done 
until it is done. We cannot be complacent, we must continue to do 
better. It is not done when we develop a plan--it is not done when we 
agree to a milestone--it is not done when we ask for funding--it is not 
done when we sign a contract--it is not done when we get money. It is 
not done until it is done and there is positive and measurable risk 
reduction for the investment.
    The only measure of success will be positive, measurable 
accomplishments of public safety and environmental protection. The 
longer we wait, the greater the potential risk. We must not lessen our 
commitment to the American people to do the ``right thing.'' I ask for 
your support to continue this important work. We must avoid losing the 
opportunity to rid this legacy from our children's inheritance. We are 
safer today than we were last year and we must stay the course so we 
are safer next year than today. We have accelerated cleanup by at least 
35 years reducing lifecycle cost over $50 billion. The potential is 
there to lose what we have gained should we fail to stay true to our 
commitments.
    I look forward to working with Congress and others to achieve this 
worthy goal. I will be happy to answer questions.

    Senator Allard. Thank you for your testimony.
    Now we would like to hear from you, Mr. Owen.

   STATEMENT OF MICHAEL W. OWEN, DIRECTOR, OFFICE OF LEGACY 
                MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Owen. Thank you, Mr. Chairman. Good afternoon.
    My name is Michael Owen and I am the Director of LM at the 
DOE. I would like to request permission to submit a written 
statement for the record and I have a brief oral statement.
    Senator Allard. Both of your full statements will be put in 
the record.
    Mr. Owen. Thank you.
    At this time last year, I testified before this committee 
on the Department's proposal to establish LM. This committee 
expressed support for this proposal in the defense 
authorization bill for fiscal year 2004 and included language 
recommending merging the office, the old Office of Worker and 
Community Transition (WT) with LM. The Department has merged 
the two offices, and I can report to you that the establishment 
of this new office will enable additional progress in our 
efforts to address the consequences of our former nuclear 
weapons production program.
    LM's fiscal year 2005 budget request is just over $66 
million. The environmental surveillance and maintenance efforts 
require approximately $28 million of that. The pension and 
benefit continuity program for former contractor personnel 
requires approximately $22 million, of which $1.5 million will 
be used to prepare for the administration of pension and 
retiree benefits for the planned 2006 closure sites. The 
remaining $16 million includes $2.5 million for the traditional 
worker transition activities and roughly $13.5 million for 
program direction.
    Currently, LM is responsible for long-term surveillance and 
maintenance activities at more than 50 sites where active 
environmental remediation has been completed. As the EM office 
continues to accelerate cleanup, sites will be ready for 
closure earlier than previously predicted. However, the 
acceleration will not eliminate the post-closure 
responsibilities and environmental liabilities. LM has been 
established and organized to support the EM office's 
accelerated closures and ensure that all departmental post-
closure responsibilities and liabilities are effectively and 
efficiently addressed.
    LM and EM will work seamlessly to ensure a smooth handoff 
of responsibilities at these sites. In the near term, these 
sites include the Department's Rocky Flats facility outside of 
Denver and the Mound and Fernald facilities in southwestern 
Ohio. All three sites are scheduled to be remediated, closed, 
and transitioned to LM for long-term surveillance and 
maintenance by fiscal year 2007.
    Over the next 5 years, the number of sites managed by LM is 
projected to grow to approximately 105. Once sites have been 
accepted and transitioned to LM, the office performs long-term 
surveillance and maintenance to ensure the environmental 
remedies remain protective of human health and the environment. 
Working with the EM closure sites, the regulators and the 
communities, LM also develops long-term surveillance and 
maintenance plans, provides post-remediation expertise and 
assistance to sites which are transitioned to LM.
    LM is also charged with the transfer or reuse of sites that 
no longer support an ongoing departmental mission and possible 
disposal of properties in long-term surveillance and 
maintenance. The function of the community transition program 
from the old WT office falls under this office and includes 
assisting DOE communities in acquiring excess departmental 
personal and real property for economic redevelopment purposes.
    The completion of missions at certain DOE sites also has an 
impact on the former contractor personnel at those respective 
sites. When the site contractor's cleanup functions are 
complete, pensions and other long-term benefits due to former 
contractor personnel still need to be administered. There will 
no longer be, for the first time ever, a contractor on the site 
to administer these benefits.
    Therefore, LM implements departmental policy concerning 
closure site contractor employees for continuity of their post-
closure and retiree benefits and will coordinate and 
procurement concerning contractor benefits after closure.
    Additionally, a significant increase in pension and long-
term benefit administration will occur in the near future. In 
the past, administration of pensions and benefits at closed 
sites was transferred to other DOE contracts. The Department's 
objective is to avoid benefit interruption or inconveniences to 
plan participants, to maintain and improve quality of service, 
and to develop a flexible approach to accommodate future 
closure sites. LM is currently establishing a program to 
oversee the continuation of benefit payments that the 
Department through its contractors is committed to provide for 
former contractor employees at closed sites.
    Integral to the cleanup and closure of sites is the 
preservation and protection of records and information. LM will 
develop a plan for accepting and maintaining all records 
transferred to the office. These records include, but are not 
limited to, historical site records, long-term surveillance and 
maintenance records, former contractor personnel records, and 
various classified records, as well as the record of the actual 
environmental remediation at that site.
    For example, Rocky Flats, Mound, and Fernald will have by 
closure approximately 170,000 cubic feet of records that must 
be managed by LM. As the sites continue to transition to LM, we 
expect that volume of records, of hard copy records, to grow 
additionally.
    In closing, the Secretary is dedicated to ensuring the 
Department's commitment to the environment, our stakeholders, 
our workers past and present, and the nearby communities. We 
recognize that the DOE has responsibilities to the former 
contractor workers and communities following the completed 
remediation and closure of sites.
    Mr. Chairman, Senator Graham, that concludes my statement. 
I appreciate the opportunity to testify before you today and 
will be happy to answer any questions you may have.
    [The prepared statement of Mr. Owen follows:]

                 Prepared Statement by Michael W. Owen

                            OPENING REMARKS

    Good morning Mr. Chairman, and distinguished members of the 
subcommittee. My name is Michael Owen, and I am the Director of the 
Office of Legacy Management (LM) at the Department of Energy (DOE).
    This time last year, I testified before this committee on the 
Department's proposal to establish LM. This committee expressed support 
for this proposal in the Defense Authorization Bill for Fiscal Year 
2004 and included language recommending merging the Office of Worker 
and Community Transition (WT) with LM. The Department has merged the 
two offices, and I can report to you that the establishment of this 
office will enable additional progress in our efforts to address the 
consequences of our former nuclear weapons production program. This is 
an important time for the Department, and we are now positioned to 
continue focusing DOE programs and personnel on achieving the diverse 
missions of the Department, including assisting the Environmental 
Management (EM) program with their focus on risk reduction and site 
closure. LM is one element that will enable the Department to continue 
this progress.

                  LEGACY MANAGEMENT MISSION AND VISION

    I want to take this opportunity to describe the mission and vision 
for LM.
    LM's mission is to manage the effects of certain changes in the 
Department's mission requirements and ensure the future protection of 
human health and the environment. Our mission is to ensure departmental 
legacy responsibilities are managed in a manner that best serves 
Department workers, communities, and the environment. This vision 
includes several elements:

        <bullet> Human health and the environment are protected at 
        closed sites, through effective environmental surveillance and 
        maintenance.
        <bullet> Key records and critical information are preserved and 
        made publicly accessible.
        <bullet> Public trust is sustained through cooperative 
        partnerships with stakeholders and State, tribal, and local 
        governments.
        <bullet> Effective oversight and management of health and 
        pension benefits of the Department's former contract work 
        force, who have been instrumental to the successful conduct of 
        our missions;
        <bullet> Federal land and other assets are returned to the most 
        beneficial use consistent with the Department's mission 
        requirements; and
        <bullet> Impacts of departmental work force restructuring have 
        been mitigated, working in partnerships with departmental 
        workers, labor unions, and communities to adapt to changes in 
        the Department's missions;

           LEGACY MANAGEMENT FISCAL YEAR 2005 FUNDING REQUEST

    LM's fiscal year 2005 budget request is just over $66 million. This 
funding request will enable us to conduct our mission. The 
environmental surveillance and maintenance efforts require 
approximately $28 million. The pension and benefit continuity program 
for former contractor personnel requires approximately $22 million. 
This funding provides benefits at three sites: about $14 million for 
former contractor personnel associated with the Paducah, Kentucky and 
Portsmouth, Ohio sites; and, approximately $6.5 million for the former 
contractor employees at the Pinellas Plant in Florida. For the planned 
2006 closure sites, $1.5 million will be used to prepare for the 
administration of pension and retiree benefits. The remaining $16 
million includes $2.5 million for worker transition activities, and 
roughly $13.5 million for program direction.
    This request does not include funding to sustain the community 
transition program. Over the past 10 years, the DOE has reduced its 
contractor work force by 50,000 employees. At the same time, the 
affected communities have received over $280 million in financial 
assistance. This assistance has resulted in the creation or retention 
of more than 32,000 jobs. At this point, the Department is projecting a 
decreased need for additional community transition assistance. This is 
largely attributed to stabilization of the Department's missions and 
the effectiveness of the community reuse organizations across the 
country in assisting displaced former DOE contractor employees.

              THE OFFICE OF LEGACY MANAGEMENT ORGANIZATION

    Over the past year, the DOE has worked hard to create an office 
that addresses the concerns of our work force, our communities, and the 
environment. Since LM is a new organization I will take a brief moment 
to describe the offices within LM. Also included, on the last page of 
my statement, is a copy of the LM organization chart.
    The Office of the Director oversees all functions of the office and 
reports to the Under Secretary, Energy, Science and the Environment. 
The Office of Strategic Materials is the former Asset Management 
Program under the old WT, and manages the Department's strategic 
material stockpile. The Office of Stakeholder Relations is our liaison 
with State, local, and tribal governments, and coordinates our external 
communication with many stakeholder groups. The Office of Budget 
manages the office's finances, budget request and coordination. The 
Office of Business and Resource Management provides human resources 
support for LM, assists in long-term surveillance and maintenance, as 
well as oversees and manages the large and complex issue of records 
management, which I will touch on later.
    The Office of Legacy Benefits, Work Force Restructuring, and Labor-
Management Relations oversees all work force restructuring efforts and 
labor relations across the Department's complex, as well as the new 
function of legacy benefits, or post-closure benefits which I will also 
describe later in my testimony. The Office of Property Management and 
Community Assistance manages disposition, leasing, and reuse of the 
office's real property and works with other agencies and external 
organizations to transfer real property from the DOE. The Office of 
Policy and Site Transition develops policy and guidance in close 
coordination with EM for accepting EM sites into LM. Finally, the 
Office of Land and Site Management monitors and maintains environmental 
remedies such as long-term surveillance and maintenance at LM sites.
    We have built an integrated team of LM personnel to accomplish our 
mission. Federal staff are located strategically in key locations to 
minimize travel costs and maximize customer service. Our staff 
locations include Washington, DC; Grand Junction, Colorado; Morgantown, 
West Virginia; Pinellas, Florida; and Pittsburgh, Pennsylvania.

    ENSURING THE EFFECTIVE MANAGEMENT OF POST CLOSURE ENVIRONMENTAL 
                            RESPONSIBILITIES

    The Department's environmental legacy responsibilities stem 
primarily from the activities of the Department and predecessor 
agencies, particularly during World War II and the Cold War. Currently, 
LM is responsible for long-term surveillance and maintenance activities 
at more than 50 sites where active environmental remediation has been 
completed. The majority of these sites are either Uranium Mill Tailings 
Radiation Control Act (UMTRCA) sites or sites associated with the 
Formerly Utilized Sites Remedial Action Program (FUSRAP). In addition 
we have responsibility for three Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) sites: Weldon Spring Site in 
St. Charles County, Missouri; the Monticello site in Utah, and the 
Young-Rainey Science, Technology, and Research (STAR) Center in Largo, 
Florida, at the former Pinellas Plant site.
    As EM continues to accelerate, cleanup sites will be ready for 
closure earlier than previously predicted. However, that acceleration 
will not eliminate the post-closure responsibilities and environmental 
liabilities. LM has been established and organized to support EM's 
accelerated closures and ensure that all departmental post-closure 
responsibilities and liabilities are effectively and efficiently 
addressed. LM and EM will work seamlessly to ensure a smooth handoff of 
responsibilities at these sites. In the near term these sites include 
the Department's Rocky Flats facility in Colorado and the Mound and 
Fernald facilities in Ohio. All three sites are scheduled to be 
remediated, closed, and transitioned to LM for long-term surveillance 
and maintenance by fiscal year 2007. Over the next 5 years, the number 
of sites managed by LM is projected to grow to approximately 105. The 
majority of the new sites transferred into LM will be those associated 
with UMTRCA Title II and FUSRAP sites currently being remediated by the 
U.S. Army Corps of Engineers.
    Once sites have been accepted and transitioned to LM, the office 
performs long-term surveillance and maintenance to ensure the 
environmental remedies remain protective of human health and the 
environment. Working with EM closure sites, the regulators, and the 
communities, LM also develops long-term surveillance and maintenance 
plans, provides post-remediation expertise, and assistance to sites 
with their transition to LM. Environmental surveillance and maintenance 
requirements differ according to the nature of the individual site but 
generally include: groundwater monitoring and treatment; maintaining of 
adequate institutional controls; record keeping; radiological surveys; 
repairs to waste disposal cell caps and covers; and erosion control and 
periodic inspection and the preparation and submission of post-closure 
regulatory documentation.

   MANAGE LEGACY LAND AND ASSETS, EMPHASIZING SAFETY AND REUSE, AND 
                              DISPOSITION

    LM is also charged with the transfer or reuse of sites that no 
longer support an ongoing departmental mission and possible disposal of 
properties in long-term surveillance and maintenance. As such, LM works 
with other agencies and organizations to transfer real property from 
the DOE, and supports other departmental elements in reviewing 
transition plans and closure plans to facilitate the transfer of real 
and personal property assets to other agencies, private organizations, 
or private interests. The function of the community transition program 
from WT falls under this office, and includes assisting DOE communities 
in acquiring excess departmental personal or real property for economic 
development purposes.
    At this time the Department's priority focus is to transfer or 
lease portions of Federal properties associated with the following 
sites: the Weldon Spring site in Missouri; the New Brunswick Laboratory 
and the Wayne site in New Jersey; the Salmon site in Mississippi; the 
Mound site in Ohio; the Eastern Tennessee Technology Park in Tennessee; 
the Rocky Flats Environmental Technology site in Colorado; and the 
Hanford site in Washington.

     ENSURING THE EFFECTIVE MANAGEMENT OF POST-CLOSURE CONTRACTOR 
                            RESPONSIBILITIES

    The completion of missions at certain DOE sites also has an impact 
on the former contractor personnel at the respective sites. When the 
site contractor's cleanup functions are complete, pensions and other 
long-term benefits due to former contractor personnel still need to be 
administered; however, there will no longer be a contractor on site to 
administer these benefits. Therefore, LM implements departmental policy 
concerning closure site contractor employees for continuity of their 
post-closure and retiree benefits, and will coordinate on procurement 
concerning contractor benefits after closure. Additionally, a 
significant increase in pension and long-term benefit administration 
will occur in the near future. In the past, the administration of 
pensions and benefits at closed sites was transferred to other DOE 
contracts. For example, the administration of pensions and benefits at 
Pinellas was transferred to an Albuquerque contractor. With the planned 
closure of Rocky Flats, this practice would no longer be a viable 
option given the magnitude of the Rocky Flats pension and benefit 
plans. Rocky Flats is scheduled to close by the end of fiscal year 
2006. The DOE's objective is to avoid benefit interruption or 
inconvenience to plan participants, to maintain or improve quality of 
service, and to develop a flexible approach to accommodate future 
closure sites. LM is currently establishing a program to oversee the 
continuation of benefit payments that the Department through its 
contractors, is committed to provide for former contractor employees at 
closed sites.

          PRESERVE AND PROTECT LEGACY RECORDS AND INFORMATION

    Integral to the cleanup and closure of sites is the preservation 
and protection of records and information. LM will develop a plan for 
accepting and maintaining all records transferred to the office. These 
records include, but are not limited to, historical site records, long-
term surveillance and maintenance records, former contractor personnel 
records, and classified records. The office will also manage records 
including the collection, storage, maintenance, and retrieval of 
electronic and physical records as well as database and systems needed 
to support LM activities. For example, the three closure sites, Rocky 
Flats, Mound, and Fernald will have, by closure, approximately 167,000 
cubic feet of records that must be managed by LM. As sites continue to 
transition to LM, we expect that volume of hard copy records may exceed 
225,000 cubic feet. These volumes do not include records for which 
special handling will be needed. These include X-rays, photographs and 
negatives, video and audio-tapes, and architectural drawings.

                               CONCLUSION

    In closing, the Secretary is dedicated to ensuring the DOE's 
commitment to the environment, our stakeholders, and our workers--past 
and present. We recognize that the Department has responsibilities to 
the former contractor workers and communities following the completed 
remediation and closure of sites. The continued involvement of 
stakeholders including State, tribal, and local governments, is 
critical to meeting these responsibilities. To this end, we will 
vigorously promote an effective mechanism that provides for, and 
encourages, active public participation.
    Mr. Chairman, and members of the committee, that concludes my 
statement. I appreciate the opportunity to testify before you today, 
and I will be happy to answer any questions you may have.

    Senator Allard. Thank you both for your testimony.
    I want to give Senator Graham an opportunity to make any 
statement if he would like. Before you proceed, Senator Graham, 
I just kind of want to lay out to you what my plans are. I have 
a lengthy question-response dialogue that I want to carry on 
here with Secretary Roberson. I think it will be of interest to 
you because it deals with the sites at Hanford and Idaho as 
well as Savannah River, and I know that is very dear to your 
heart and very important to you.
    Then if you want to make a statement and ask some 
questions, if your schedule demands that you cannot be here for 
that, then I will let you go ahead. If not, maybe I will go 
ahead and get these questions out. You can make your opening 
statement, I will get this questioning out of the way, and then 
call on you for additional questions.
    Senator Graham. Okay, Mr. Chairman. I have to leave in 
about 10 minutes.
    Senator Allard. Senator Graham, make your opening 
statement.
    Senator Graham. It will take me a minute.
    Senator Allard. Okay, very good.
    Senator Graham. One, thank you for having the hearing. Two, 
thank you both for coming.
    The opening statement basically is that the administration 
has been very creative, I think, in trying to come up with an 
accelerated cleanup plan. I know the chairman here is sort of a 
leading edge kind of guy to make sure that we are spending 
taxpayer dollars wisely. I know you are negotiating with South 
Carolina and other States to see if we cannot have a rational 
way of classifying high-level wastes and having a rational way 
of disposing of it.
    There are literally hundreds of billions of dollars at 
stake here, and I am not advocating or asking any State or any 
site to accept a burden they cannot bear. I am not asking any 
community to leave legacy materials behind that are going to be 
hazardous to the health of the community in any fashion. But I 
am asking everyone, including myself, who represents the 
Savannah River Site, to be open-minded and try to break through 
this mentality that there is no new way to do something with an 
old problem.
    So I will stand squarely behind the Department's efforts to 
get every State with a waste legacy from the Cold War to be 
more open-minded and more creative and more responsive to using 
good science to save money and protect the environment.
    Mr. Chairman, I know you have gone to all the sites and we 
particularly appreciate your leadership of trying to make the 
committee more responsive to the efforts of the Department to 
do things in a more professional, common sense way. I want to 
compliment you.
    With that, I will listen to your questions.
    Senator Allard. Well, thank you very much for your 
participation. It is valuable to this committee.
    I am going to be referring in my questioning to ``WIR,'' 
which stands for ``Waste Incidental Reprocessing.'' I think it 
would behoove the committee to hear, Secretary Roberson, you 
summarize what the WIR issue is.
    Ms. Roberson. Thank you, Chairman Allard. Thank you, 
Senator, as well.
    Cleanup of tank waste at Hanford, Idaho, and Savannah River 
represents the greatest risk reduction effort in the 
Department's entire cleanup program.
    Senator Allard. This falls under WIR, is that correct?
    Ms. Roberson. Absolutely.
    Senator Allard. Okay.
    Ms. Roberson. I will explain what portion of the program 
that specifically applies to.
    Senator Allard. Very good.
    Ms. Roberson. We had plans at these three sites to clean up 
tank wastes, plans agreed to with our host States and that the 
Nuclear Regulatory Commission (NRC) had also carefully 
reviewed. At each site our plans acknowledged we would remove 
as much tank waste as we could. We would separate the tank 
waste into two fractions: first, a high-level, a high activity 
fraction containing over 95 percent of the radioactivity, which 
we would classify as high-level waste and treat and dispose of 
in the repository for spent fuel and high-level waste called 
for by the Nuclear Waste Policy Act; and a low activity 
fraction which we would classify as low-level waste incidental 
to reprocessing, depending on its characteristics, treat and 
dispose of in an appropriate disposal facility for such 
material.
    We would then determine whether we could demonstrate that 
disposing of a small amount of residues remaining in the tanks, 
generally around 1 percent of the original volume, by 
immobilizing it in place to ensure that it would be comparable 
to the public health and safety requirements for disposal of 
low-level waste in a near-surface disposal facility. If it 
would, our plans were to classify the residues as low-level 
waste incidental to reprocessing, to immobilize them in the 
tanks, and close the tanks with these residues in place.
    A key element of these plans is the classification of the 
tank waste. The problem we have encountered is that in July 
2003 an Idaho district court struck down the WIR portion of DOE 
Order 435.1, the DOE order addressing how DOE and its 
contractors classify waste under the Atomic Energy Act. As a 
result, we now face uncertainty in implementing the very plans 
our host States had agreed made technical sense.
    The classification of this waste is key to determining how 
to dispose of it. Therefore, if we are unable to resolve this 
issue regarding WIR, we face leaving these tank wastes in place 
far longer than we and our host States had anticipated and by 
such delay would likely create more serious health and safety 
risks to workers and members of the public by leaving the 
wastes in the tanks longer and risking leaks to groundwater.
    Senator Allard. Madam Secretary, why do you have to leave 
any of the waste residues behind?
    Ms. Roberson. Mr. Chairman, let me briefly describe the 
size of these tanks and the nature of the waste removal in 
question. Each tank can hold as much as 1.3 million gallons of 
liquid waste. At Hanford, for example, the tanks are 75 feet in 
diameter and the tanks are of differing shapes. Some are 
concave, which means they do not have a flat bottom.
    Senator Allard. I guess that is about the size of this 
room, would be a good estimate?
    Ms. Roberson. Yes, standing on its head.
    Senator Allard. Standing on its side, yes, that is right.
    Ms. Roberson. That is right.
    Under the triparty agreement at Hanford between DOE, 
Washington State, and the Environmental Protection Agency 
(EPA), which governs the cleanup at that site, the goal is that 
we retrieve 99 percent of the tank waste. If all of the 
remaining waste were on the bottom of the tank, it would be 
just under one inch thick. Because of radiological concerns 
with exposure for workers, tank waste removal must be done 
remotely. In addition, these tanks usually sit below ten feet 
of soil cover. Our retrieval equipment must fit into openings 
two inches to two feet wide, and tank structures are not 
designed to support heavy loads from which equipment must be 
deployed to do the tank cleaning.
    It is not a simple task to scrape the last remaining tank 
residues from a tank. Further, much of the waste residues are 
expected to have a stiff consistency. Most removal techniques 
require directing pressurized water streams at the remaining 
wastes to immobilize it and to move it to a location which can 
be pumped. We have spent over 10 years working on technologies 
to improve removal opportunities for the waste from these 
tanks.
    Finally, many of the tanks are over 40 years old and have a 
number of known leak sites, requiring us to exercise great care 
to preclude water leaking from the tank.
    As I said, DOE spent tens of millions of dollars exploring 
how to get as much residual waste as possible out of the tanks.
    Senator Allard. What is the material you plan to leave in 
the tanks?
    Ms. Roberson. We think the residues when stabilized are 
appropriately considered low-level waste, suitable for shallow 
land burial. Analysis will be performed to ensure that they 
meet performance objectives established by DOE and the NRC for 
low-level waste performance objectives. In fact, that is what 
the order that was struck down by the judge's ruling required.
    Senator Allard. Now, should not the waste's characteristics 
and the risks it poses be what matters in terms of safe 
disposal, rather than the process that created the waste?
    Ms. Roberson. Yes, Mr. Chairman, we believe so, and we 
believe that that is the philosophy behind the cleanup plans in 
place for those sites.
    Senator Allard. How much more than your current estimates 
might this cost the American taxpayers?
    Ms. Roberson. Our preliminary assessment was that it would 
cost as much as $138 billion more over the life cycle of the 
Department's cleanup program and extend that life cycle by 
decades to have to process all of our tank waste as high-level 
waste for disposal in a geologic repository, including exhuming 
the tanks themselves, cutting them up, and packaging them for 
disposal.
    Senator Allard. So what is the risk if you have to do that?
    Ms. Roberson. Clearly, the risk to workers and, frankly, to 
the environment is much larger if we have to exhume tanks. 
Given that we cannot proceed with our cleanup plans that were 
based on our waste classification order, we risk leaving waste 
in tanks much longer than we had planned right now. We also add 
to environmental risk by the need to dispose of the large 
amounts of metals resulting from the almost 250 large tanks and 
the associated equipment.
    Our analysis thus far indicates that we would increase 
worker exposure tenfold, increase costs tenfold, and achieve no 
meaningful improvement in environmental protection.
    Senator Allard. So I do not see a rational benefit to the 
American taxpayer from the DOE having to implement the Idaho 
district court decision.
    Ms. Roberson. Frankly, Senator, we do not see it either, 
which is why we are pursuing this. Rather than accelerating 
cleanup of tank waste in agreement with our host States, we 
face stopping much of that work.
    Senator Allard. What is your plan for resolving this WIR 
issue?
    Ms. Roberson. Accelerated cleanup of tank waste is a top 
priority for the entire DOE and the States that host our 
facilities. As pointed out in the General Accounting Office 
(GAO) report completed last year, the WIR issue poses a 
significant vulnerability for the Department. Consistent with 
both the GAO recommendations to seek legislative clarification 
regarding DOE's authority to classify tank waste, and with the 
report by the House Oversight and Investigations Subcommittee 
last year, we proposed draft legislation to Congress that would 
clarify our authority for managing such wastes.
    We have since held discussions with affected States over 
the impacts the Idaho district court decision had on our 
activities at Hanford, Idaho, and Savannah River in order to 
seek to address issues they have raised about our proposed 
legislative approach. In addition, we have just filed our 
opening brief in our appeal of the Idaho court decision to 
continue our litigation efforts to resolve the WIR issue. 
Without timely resolution of this issue, not only could we be 
unable to implement our cleanup plans, but DOE could be forced 
to realign its resources across the complex in a manner that 
would significantly distort the Department's cleanup and other 
priorities.
    Senator Allard. What about the $350 million and what does 
it take to get that money released?
    Ms. Roberson. The Department's fiscal year 2005 budget 
request includes $350 million in a high-level waste proposal 
that reflects the need to satisfactorily resolve this issue to 
support cleanup. These funds will be requested only to the 
extent that legal uncertainties concerning disposition of these 
wastes are resolved. Until we can resolve the legal 
uncertainties related to WIR, it does not make sense for us to 
proceed with projects that prepare tank wastes for disposition 
as other than high-level wastes destined for a deep geologic 
repository.
    Senator Allard. I want to thank you for your responses, and 
thank you, Senator Graham. Do you have any questions now that 
you would like to ask?
    Senator Graham. Thank you, Mr. Chairman. I think that was a 
very comprehensive overview.
    Senator Allard. Before I have you go ahead, there is a 
closing comment I need to make here that I overlooked. I would 
like to take a moment to comment on the WIR issue. The more I 
learn about this issue, the more it reminds me of the type of 
arguments that existed at Rocky Flats 7 or 8 years ago. Placing 
workers, communities, and the environment at high risk simply 
to meet an arbitrary cleanup requirement which does little or 
nothing to lower the safety or health risks for the site is not 
a good policy. Doing so at great expense makes even less sense.
    It is my understanding that the DOE, working with the NRC, 
has determined that if the very small amounts of liquid waste 
residues left in the tanks are mixed with grout and stabilized 
in place then they will meet the low-level waste performance 
standards required for burial in a low-level waste repository.
    The three States involved: Idaho, South Carolina, and 
Washington, agreed to this cleanup plan and either issued 
permits or indicated a willingness to do so. It was only after 
a third party intervened on a technical legal issue that this 
process come to a screeching halt. By narrowly reading the 
language in the statute, this small amount of liquid waste 
residue is being characterized at a higher level than I think 
is necessary, potentially adding billions of dollars in extra 
costs to DOE's EM program.
    This interpretation is not backed by science as far as I 
can tell and will only result in delays at these sites that 
could extend for decades. This interpretation defies common 
sense and may require legislative action on the part of this 
committee. You can be assured, Madam Secretary, that resolving 
this issue will be one of my highest priorities as this 
committee considers the National Defense Authorization Act for 
Fiscal Year 2005.
    Now I will call on Senator Graham.
    Senator Graham. Well, number one, I would like to associate 
myself totally with your statement. I think that is a very 
appropriate way that we need to address this problem. If 
legislative action is necessary, so be it. I just hate to see a 
bunch of money wasted for no good, and that is not a technical 
evaluation. That is just my view of things. I really believe 
that the standards that we are trying to achieve can be met 
without spending $50 billion unnecessarily.
    However, I think it is the actinon and cesium separation 
process at Savannah River that is sort of unconnected to the 
lawsuit. Will the funds to allow that separation process be 
released here, or why are they tied together?
    Ms. Roberson. Senator, you are referring to what we call 
the salt processing project. What that process does is take 
waste, a fraction of the waste from the tank, and it stabilizes 
it, the large majority of it, for disposal in a form other than 
being disposed of at the geologic repository. So it is indeed 
impacted. The risk of proceeding with that activity following 
the Idaho district court is cause for concern for the 
Department and is considered part of the $350 million account.
    Senator Graham. Thank you.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you, Senator.
    I also have some questions here for both you, Madam 
Secretary Roberson, and then Mike Owen. I will address them to 
you, Mr. Owen, and then if you feel the need to chime in, why 
do you not go ahead and do that, Madam Secretary.
    Ms. Roberson. Thank you, sir.
    Senator Allard. I guess I do have separate questions for 
both of you, but most of them are for you, Mr. Owen. My office 
already received numerous phone calls from workers who are 
concerned about their retirement and health benefits. I am 
concerned that information regarding retirement and health 
benefits may not be reaching the workers. Specifically, I am 
interested in hearing from each of the witnesses on retirement 
and health benefits for the workers before, at, and after 
closure of Rocky Flats. Frankly, I would be interested in 
knowing how these same types of issues are being addressed at 
Fernald and Mound.
    So my first question I guess is to you, Madam Secretary. As 
an example, can you please help explain what DOE's and Kaiser-
Hill's responsibilities are to provide retirement and health 
benefits leading up to the closure of Rocky Flats? Mr. Owen, do 
you want to go ahead?
    Ms. Roberson. We worked that together, Mr. Chairman.
    Mr. Owen. I may be a bit more schooled in that. We have 
worked it very closely.
    At Kaiser-Hill at this hour, there are terms in the 
contract that they are currently operating under. Those terms 
remain in effect and will until closure and thereafter if need 
be. They would require Kaiser-Hill to continue to deliver the 
pension and health services and benefits that they have been 
doing to date.
    When we, LM, working with EM, devise and develop the new 
model for delivering those services, we will then turn to 
Kaiser-Hill and say: Okay, under the terms of your contract we 
are now saying this is the system we are going to use; fall in 
on it. They will do that at that time.
    We envision the establishment and the operation of 
something that we commonly refer to somewhat generically as a 
National Stewardship Entity as one central focal point that 
would serve the former contractor workers at Rocky Flats, 
Colorado; Fernald, Ohio; Mound, Ohio; and Pinellas, Florida; 
where we have already closed, and any other sites that we may 
come across as we go into the future. That one National 
Stewardship Entity would then be responsible for delivering 
those services, those pensions, those health benefits, doing 
everything for those workers, such as the actuarial 
calculations, processing benefit claims, and adjudicating 
claims. Many of the functions that you would find in such a 
human resources shop normally, would be done by that National 
Stewardship Entity.
    Until we relieve them and fall in on this new system, 
Kaiser-Hill is contractually obligated to continue to do what 
they are doing to this day. It is natural that as we get closer 
to that closure date these benefits are very near and dear to 
everybody's hearts, not just at Rocky Flats or Fernald, all 
over the country. You read about it on the front page of the 
paper every day. People become a little anxious, a little 
concerned: Oh, well, I see the site is being demolished, there 
is no longer a human resources office up there where I used to 
go; what am I going to do?
    We are receiving increased numbers of those types of 
questions. I had envisioned originally when we went into a 
contractual relationship with the National Stewardship Entity, 
this central focal point to deliver these goods, that part of 
the terms of that contract would require them to operate a 
first-class, state of the art, high-quality customer service 
operation with a national call center, and to include for some 
period of time what I refer to as a storefront benefit 
counselor's presence in those local communities to help answer 
the questions.
    In discussions on that, we have had some of the other 
delegation members from Colorado and the other sites, and the 
pace of inquiry has picked up probably a little earlier and 
quicker than we thought. I think one of the ways--and I am 
looking at that now--to help address that would be to identify 
an appropriate, reasonably senior level Federal employee or two 
or three, whatever it takes, to cover those communities here in 
the interim, maybe about a year earlier than we thought, 
because it looks as though the pace of inquiry has quickened, 
quicker than we thought it would.
    But until that stewardship entity is on board and under 
contract, he is the guy that is going to actually manage the 
nitty-gritty details of their benefits programs. But in the 
interim, I am looking to find a way to put someone in there who 
is comprehensively knowledgeable about these types of things 
and can help answer their questions and explain how the system 
is going to work.
    So far we have explained it to the union heads, management, 
and others. But now we have to get it down to the individual 
workers.
    Senator Allard. Does LM have the dollars in the budget in 
fiscal year 2004 or fiscal year 2005 to meet these new 
requirements?
    Mr. Owen. I do not at this time. I had not planned for this 
type of Federal presence as such. It would not be an 
inordinately expensive operation, but there would be some cost 
to it.
    Senator Allard. Is there an office you could share with 
somebody else?
    Mr. Owen. I would have to look at the various options. 
Maybe Ms. Roberson's facilities are still available, subletting 
from her or sharing office space; looking at some of her 
Federal employees that may be shortly being ramped out of her 
organization. Maybe they can come to mine. I have to explore 
all those possibilities. It is not something I set out to 
budget for specifically, but I will look at what I have 
internally and see how we can accommodate.
    Senator Allard. Early on here I do not know whether you can 
hold a full-time office or even a part-time office, but at 
least some time when they could come in and look somebody in 
the eye and say, this is my problem, this is what my concerns 
are, and they could get a response.
    Mr. Owen. Initially I would anticipate that the person or 
persons would be shared among Rocky, Fernald, and Mound. They 
would maybe spend half the time out in southwestern Ohio and 
half of it back in Colorado. Announced hours, make an 
appointment, this type of thing.
    Senator Allard. That sounds like you are moving in the 
right direction.
    The other question I have here--and I do not know which one 
of you wants to answer this, but this is the question. Does 
Kaiser-Hill have adequate human resources professionals 
available to answer questions about retirement and health 
benefits?
    Mr. Owen. I will start with that. I believe that they do at 
this hour. I think we will continue to watch to make certain 
that they do.
    Senator Allard. Has there been some training or something--
--
    Mr. Owen. Well, to be perfectly honest, I will say Kaiser-
Hill is first-rate at this. They have put together a very 
progressive, modern, state of the art employee relations career 
transitioning operation, and I have every confidence that they 
can and will continue to do that. I think human nature, as 
things start to go away, sometimes you lose some of your best 
people. We will have to watch and see if that gets to be an 
issue.
    But I know Kaiser-Hill is tuned in to that and they are 
doing a very good job so far, sir.
    Senator Allard. Very good.
    I would like to turn to the pension and health benefits 
after closure. I understand that LM is working on a concept to 
ensure the continuation of worker pension and medical benefits. 
Can you please explain this concept in more detail?
    Mr. Owen. I partially went into that in my earlier answer, 
sir. I will try to explain, but it is a rather complicated 
system. As we sit today, so to speak, the dollars that pay for 
a former Rocky Flats or Fernald or Mound employee, for his 
health benefits or his pension, are embedded down inside the 
management and operating (M&O) contract that is being executed 
by Kaiser-Hill at Rocky Flats at this hour. It is currently 
embedded there now.
    When that contract expires, when closure is accomplished 
and the site is a wildlife preserve, we will not have that M&O 
contractor there as such, so we have to find an alternative way 
to deliver those goods. This is the National Stewardship Entity 
concept. At the same time, we will have to examine our ledgers, 
our budget-keeping procedures. We will have to identify those 
dollars that are currently down inside Ms. Roberson's M&O 
contract, pull out those sites that we have mentioned, and 
bring them up into a consolidated request for dollars under the 
line of LM. There will be one lump sum there that will cover 
multiple sites in some respects and give us more visibility of 
how much we are spending on that type of activity.
    But we anticipate that in a fiscal year or two hence we 
will be requesting what will look like a big bump in LM's 
budget, but really it will be the funds that have been 
scattered about in the M&O contracts.
    Senator Allard. Well, you helped clarify this.
    I am concerned that the workers at Rocky Flats, Fernald, 
and Mound may be penalized in their pension due to the 
accelerated closure schedule. I think this is a concern that 
they have. So who is responsible for addressing the concerns of 
workers who may be close to deadline for retirement points?
    Ms. Roberson. The responsible entity would be EM. Although 
we have no proposals before us, the contractor managing the 
work force would make proposals to the DOE that will receive 
consideration. We do not have any such proposals before us.
    Senator Allard. Do you perceive having any, or are there 
any additional closure benefits or bonuses for workers who stay 
until closure?
    Ms. Roberson. Mr. Chairman, we have very progressive 
programs at Rocky, and we actually used Rocky as the model for 
Mound and Fernald. We are not forecasting any additional 
benefits at those sites. We believe that we have very 
progressive programs at this point. So there are none that are 
at play that I am aware of.
    Senator Allard. Mr. Owen.
    Mr. Owen. If I could add to that, Mr. Chairman. We did one 
enhancement at Rocky several years back. They went to, working 
with the contractor, what is known in the trade as a rule of 
70, which is in the pension business you have a rule of 85 or 
70 or whatever combination of years of service and age. That 
was a substantial sweetener or enhancement. That was done, and 
I believe it took effect in 2001.
    Senator Allard. You understand my concern is, and I think 
you share it, as we move toward closure here you lose your good 
people, those that you have trained, right at the time when you 
may need them, because they get a job offer a year or 2 years 
and they are going to take something that perhaps has some 
longer tenure. So if there is some way we can keep hold of 
those people on, on board until we close out, that would be 
helpful.
    Ms. Roberson. They have actually proven to be extremely 
capable with that at Rocky, in holding onto their work force. 
We continue to struggle with that, both on the Federal side and 
the contractor side, at the closure sites, though, and we 
continue to work at it to make sure that we can.
    Senator Allard. Very good. Thank you.
    During a recent meeting of the Rocky Flats Council of Local 
Governments several local governments expressed concern about 
the safety of the workers. Specifically, the local governments 
are worried that the effort to accelerate closure may result in 
safety violations. What steps are you taking to ensure worker 
safety during this accelerated closure process? I know that we 
have already gotten rid of a lot of the hazardous materials and 
I think that is a big step towards closure. But what additional 
steps might you be taking?
    Ms. Roberson. We are covering all four corners of the 
world, quite frankly. We have a team of people that we send 
out, because we find that the most effective thing to do is to 
apply new eyes to our activities on a basis that allows them to 
be fresh and to see things that people do not see on an 
everyday basis. That has actually proven to be the most 
effective.
    We are sitting down with our contract managers, going 
through safety statistics. The safety performance at all of our 
sites has been elevated to the Deputy Secretary for review. The 
Deputy Secretary looks at our safety performance on a site-by-
site basis, occurrence-by-occurrence basis, every quarter. So 
the level of attention has increased and the number of 
resources that we are applying has increased, as well as the 
impacts of poor performance in this arena from a consequence 
perspective for our contractors.
    Senator Allard. I would like to move on to another subject, 
and this is for you, Madam Secretary. The DOE announced a new 
Design Basis Threat (DBT) level to increase the amount of 
security at DOE and NNSA facilities in response to the attacks 
on September 11. At sites at which EM manages, but which still 
have NNSA activities, how is each program making sure the 
security requirements are being met across the entire site?
    Ms. Roberson. The one key site that we have that fits that 
category is Savannah River. At the site level, the NNSA 
management staff and EM management staff work together to make 
sure it is integrated, since it is provided by the same 
contract, so it has to be integrated at some point because the 
same contractor provides the service.
    So for those activities that are specific, required 
protection for them, they are funding those, but for the site-
wide activities EM is responsible for those.
    Senator Allard. So they have worked out some cost-share 
agreements and what-not?
    Ms. Roberson. They have worked out the specifics of the 
activities and who is responsible for what at the site level.
    Senator Allard. Is there any confusion remaining about 
their responsibilities between EM and NNSA?
    Ms. Roberson. Not that I am aware of, Mr. Chairman.
    Senator Allard. I have a question on the Price-Anderson 
authority for indemnification for DOE contractors who work on 
nuclear matters. Apparently that expires at the end of this 
calendar year. Can you please describe what difficulties EM 
will have if the Price-Anderson indemnification authority is 
not extended beyond its expiration at the end of this calendar 
year?
    Ms. Roberson. Mr. Chairman, it will likely be the same 
reaction we saw when last we approached this point of not 
knowing whether it was going to be extended or not. The 
contractor has become very concerned about its liability in 
these contracts and that coverage and are resistant to 
progressive changes in the contracts or signing new contracts.
    Senator Allard. Now, are there any contracts you anticipate 
that will be signed in fiscal year 2005 which would be impacted 
by the expiration of the Price-Anderson authority?
    Ms. Roberson. Well, our Idaho contract would be a 2005 new 
contract. I think most of those that are in the procurement 
phase now other than Idaho are 2004. But we will have new 
procurements that are out over this year, so we will clearly 
have other procurements that could be impacted.
    Senator Allard. Very good.
    We are now being joined by Senator Nelson of Florida. Glad 
to have you with us, and if you want to make an opening 
statement we will give you some chance to make an opening 
statement, and then if you have some questions you are welcome 
to pose those.
    Senator Bill Nelson. I take it you have to exit; is that 
correct?
    Senator Allard. Let me see. Let me look at my schedule 
here. Yes. Obviously I am going to have to stay here for a 
little while longer, but yes, at some point in time I would 
like to exit.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. I was racing here to get here, having 
had the delightful duty this afternoon of joining with our 
former colleague and a former member of this committee, Senator 
Max Cleland, as he is being sworn in as a member of the Board 
of Directors of the Exim Bank. I came because I understood you 
had to leave, therefore so I could go on and conduct the 
business. So at your pleasure, Mr. Chairman.
    Senator Allard. I think what I will do is go ahead and let 
you run the meeting. Do not do anything with unanimous consent. 
[Laughter.]
    Then when you are finished, if you will go ahead and 
adjourn the meeting I would appreciate it. Thank you very much.
    Senator Bill Nelson. Thank you. I bring you greetings from 
Senator Max Cleland.
    Senator Allard. Give him my best.
    Senator Bill Nelson [presiding]. He looks better than I 
have seen him look in a long time and is looking forward to 
this new challenge that he is taking on.
    This Strategic Forces Subcommittee hearing is in the midst 
of a busy and short year. I thank you all for coming today. 
Among many of the legacies of the Cold War, we have as the 
subject matter of today copious amounts of waste materials that 
were stored or improperly disposed of, hundreds of highly 
contaminated facilities, thousands of square miles of 
contaminated soil, and millions of gallons of contaminated 
ground and surface water.
    All of this has to be cleaned up and decontaminated, torn 
down or otherwise put in a safe, stable, long-term closure, 
treated, and permanently and safely disposed of. The focused 
effort to deal with the waste, the soil and water 
contamination, and the excess facilities actually began back in 
1989, and considerable progress has been made.
    So I am going to dwell in three areas to discuss: one long-
term, one mid-term, one near-term. The DOE has a long-term 
responsibility to ensure that the cleanup, including the 
demolition of contaminated facilities, is fully completed. As 
noted last year, just one DOE-owned site, the Pinellas plant in 
Florida, has closed. Rocky Flats, Fernald, and Mound will 
hopefully close in 2006. Others, such as Hanford, will have 
another 30 years to go.
    How DOE plans to maintain its commitment to cleanup in the 
long term is one of the issues that I would like you to 
continue to discuss. Last year, DOE created LM to address some 
aspects of the future management issues. In the 2005 budget DOE 
has proposed to create another new office, the Office of Future 
Liabilities. How these two offices and the EM office all fit 
together is something I want to find out about.
    Ms. Roberson and Mr. Owen, I hope you can help unravel and 
explain some of these roles for all three of the offices, 
including why three offices are more efficient than one.
    The DOE and the contractors continue to assure us that 
Rocky Flats will be closed by 2006. If this closure schedule is 
met, it will be a remarkable achievement and the result of a 
concentrated effort of a number of parties such as DOE, the 
contractor, Congress, community, the State, and the EPA; all 
focused on accelerating the cleanup.
    The Rocky Flats model could be used as a model for other 
site and facility closures, Ms. Roberson. I know you are trying 
to do this. A key aspect of that model, however, was the 
decision to provide substantial additional amounts of money up 
front to accelerate the cleanup. ``The DOE fiscal year budget 
request for 2005 represents a peak year of our investment 
strategy to accelerate cleanup and risk reduction.'' This 
implies that in future years the budget will be reduced. I 
think many sites were under the impression that the budget 
would level off when Rocky Flats was closed and the funds freed 
up as a result of the closure would be available for 
accelerated cleanup at other sites. That is another issue I 
want to discuss.
    DOE has worked aggressively to develop accelerated cleanup 
schedules at other sites. There are at last two key elements to 
this accelerated pace. The first is fully funding the contracts 
to support the commitments made by the contractors. That is the 
money issue I just mentioned. The second is renegotiating the 
various cleanup agreements with the States and the EPA in ways 
that will reduce the scope and cost of the cleanup.
    Ms. Roberson, while I would like to hear from you today 
about the general success of this effort, I am interested in 
one particular area of the work, which is dealing with the WIR 
spent nuclear fuel. This effort is an area where DOE's plans 
have been challenged in court, and I understand DOE is 
considering a number of potential options to resolve the issue.
    So we welcome you all today, and where some of this has 
already been covered then let us not repeat. From those general 
comments, if you could start from there, and then I will go on 
in with some specific questions.
    Ms. Roberson. Thank you, Senator. We actually had a fairly 
lengthy discussion on the WIR. So I would be glad to answer 
specific questions, but I think we actually had a long response 
on the record at this point, sir.
    Two things, if I can. The issue of the budget leveling out, 
I would like to address that; and then I would be glad to 
explain the relationship between EM and the proposed Office of 
Future Liabilities in conjunction with Mr. Owen on LM.
    In 1997 the DOE developed what was called Path to Closure, 
which was a complex-wide strategy for cleanup which included 
holding all sites level in funding except the closure sites, 
Rocky, Fernald, and Mound. The then-Assistant Secretary of EM, 
Al Alm, went from State to State, talked with the regulators, 
governor's office, and others to reach this agreement. It is 
documented in a document that was provided to Congress. Those 
States would agree to hold their budget level while they 
supported additional investment at Fernald, Mound, and Rocky to 
accelerate cleanup. Once those cleanups were completed, that 
delta in budget would be reinvested in those States.
    When we completed the Top-to-Bottom Review in February 
2002, one of the recommendations was that, one, the States did 
not seem to remain committed to that strategy; and two, that 
the risk was growing at the other sites and we needed to make 
the same commitment to those States. There was born the 
Accelerated Cleanup Program for the complex, which resulted in 
an increased budget for all sites, not just the closure sites. 
So we have been very clear with our discussions and 
negotiations with the States that the Path to Closure strategy 
of holding everybody, holding the EM program at a $5 billion 
budget annually, completing the cleanup of three closure sites, 
and then reinvesting that budget in the others was not the 
strategy we were moving forward; we were making an increased 
investment in all of the sites. That discussion did occur with 
the States as we reached agreement with them on the accelerated 
cleanup program.
    EM has a very extensive project baseline to complete. I 
think the DOE has looked forward and said there are a host of 
facilities yet to be cleaned up; we need to plan and we need an 
office that can look objectively and work between the programs 
to identify when facilities would become available or property 
would become available for cleanup. That is the intended 
purpose of the Office of Future Liabilities.
    The actual management structure has not been decided. But 
Senator, I know you can understand what we are trying to do is 
make sure we do not find ourselves overwhelmed like we have 
been before, where we have two or three programs negotiating 
with one State, one set of State regulators, on different 
elements of environmental compliance requirements or trying to 
operate a facility turned over to EM that sits in the middle of 
an operating complex.
    I think forethought and planning are necessary and that is 
what that office is intended to do.
    I will let Mr. Owen talk about the rest.
    Mr. Owen. If I could add, Senator, from the Office of 
Future Liabilities, on those sites that Ms. Roberson's program 
has identified for accelerated closure, remediation activities, 
those sites where we know the course of action are coming to 
the Office of Future Liabilities once she has completed her 
job.
    It was recognized by the Secretary a while back as he went 
about organizing the Office of Future Liabilities that Ms. 
Roberson's mission is to very specifically, with a large amount 
of money, accomplish a tremendous amount of remediation work at 
some very environmentally contaminated sites. She is going to 
do it ahead of schedule, tremendously ahead of schedule, and 
tremendously under budget. Let us let her focus on that. Why 
would the official responsible for devising successful 
accelerated remediation strategies at the same time be 
responsible for devising a means of continuing to deliver 
pension and health benefits to the affected retired contractor 
workers? It seemed logical to put that into a different office 
and let that office focus on that, the legacy of what is going 
to be left over when she has cleaned it and turned Rocky Flats, 
for example, into a wildlife preserve. Then my office would be 
capable of, and we were responsible for, what we hope at that 
stage of the game is a much more passive, low dollar effort--it 
will only need small amounts of money--to surveil, to maintain, 
to monitor the remediations that she has put into place and 
make sure that they are successful and they are tended to and 
maintained properly.
    So it allows her to focus on her mission and we identified 
new evolving missions for my office to focus on, the legacy 
things, the pensions, the benefits, the surveillance and 
monitoring, and keeping hundreds of thousands of cubic feet of 
records from these sites.
    Ms. Roberson. So if I may try to put the three pieces of 
this together, you have front-end planning, and we are focused 
very much on projectizing the cleanup program. You have front-
end planning of what is to come and how best to manage it so 
that we keep control of our finances and our practices. That is 
Office of Future Liabilities. You have environmental 
remediation, responsible for the physical cleanup; and LM for 
the after-cleanup activities long-term.
    Senator Bill Nelson. In the Natural Resources Defense 
Council (NRDC) suit challenging DOE's plans to deal with the 
tanks, alledging that DOE does not have the option as a matter 
of law to leave the tanks in place, even with some small 
amounts of waste, the suit goes on to say that DOE does not 
have the ability to treat and segregate the waste removed as 
low-level and high-level waste. Up to this point, the NRDC has 
been successful in its litigation and the matter is currently 
on appeal to the Ninth Circuit.
    Is there any reason to believe that this case should be 
settled?
    Ms. Roberson. I am certainly not the legal representation 
for the Department, but I certainly am not aware of an approach 
for settlement or discussions to that vein.
    Senator Bill Nelson. Could you get us an answer for the 
record?
    Ms. Roberson. Yes, absolutely, sir.
    [The information referred to follows:]

    DOE is very interested in resolving the status of its cleanup plans 
at these sites but firmly believes that this cannot be done through a 
series of settlement agreements. The Department's cleanup plans for the 
91 million gallons of tank wastes in Idaho, Hanford and Savannah River 
depend on DOE being able to classify lower activity waste from 
reprocessing as low-level or transuranic (TRU) waste. However, the 
Idaho District Court decision struck down the portions of DOE's Order 
435.1 that address when waste from reprocessing may be classified as 
other than high-level waste. If DOE were to proceed with cleanup 
activities that depend on DOE being able to classify some of the waste 
in the tanks as low-level or TRU waste, it would be making hundred-
million-dollar-plus investments in technologies with no confidence that 
it had the authority to classify the waste as it had done, and hence 
with no assurance that the waste form it spent this money creating had 
a disposal pathway.
    The District Court decision said very little about what kind of 
waste classification criteria it believed might be lawful. Thus, the 
Department faces the prospect that any decisions it makes to classify 
tank waste as other than high-level waste would readily be the subject 
of legal challenge. Therefore, DOE has concluded that it should only 
move forward with large investments to turn tank waste into material 
slated to be disposed of as low-level or TRU waste if there is a 
satisfactory resolution of the legal uncertainty either by the courts 
or by new legislation.
    Entering into settlement agreements with the various parties to the 
lawsuit would not provide the Department the needed legal certainty. 
Potential legal challenges are not limited just to the parties to the 
current lawsuit. They could come from many other groups or individuals. 
Also, settlement would not necessarily prevent the Idaho District Court 
decision from being cited as precedent. Therefore, unless the district 
court decision is either reversed on appeal or modified by new 
legislation, it will continue to be a significant obstacle to DOE's 
ability to proceed with its longstanding--and State approved--tank 
closure plans.

    Senator Bill Nelson. To complicate this matter further, DOE 
has submitted a $350 million fiscal year budget request that is 
contingent on either legislation that would allow DOE to carry 
out its plans or the litigation being resolved in DOE's favor. 
DOE therefore is using the $350 million as an incentive for the 
involved States to pursue and obtain legislation or to withdraw 
from the litigation.
    If there is no legislation this year, what will you do?
    Ms. Roberson. Well, Senator Nelson, we will likely not be 
in a position to proceed with the work that $350 million was 
intended to buy. Let me clarify one thing. The plans that we 
propose to carry forward are plans that were negotiated with 
the host States for those sites. We are not proposing to do 
something inconsistent with the triparty agreement at Hanford. 
In fact, it supports the triparty agreement. We are not trying 
to do something inconsistent with our clean water permit at 
Savannah River. It is consistent. We close two tanks using this 
process at Savannah River. We are not proposing to do something 
inconsistent at Idaho. We have approved closure plans at Idaho 
that we cannot implement.
    The issue for us with the $350 million is that it was 
intended to pay for stabilizing our processing material into a 
form that would be disposed of in a means other than going to a 
geologic repository. Those activities, we believe, because of 
the judge's ruling are indeed at risk of proceeding.
    Senator Bill Nelson. So if there is no legislation this 
year, what will you do?
    Ms. Roberson. There are certain activities we planned in 
our high-level waste program that we cannot proceed with until 
there is resolution one way or the other.
    Senator Bill Nelson. What about if the litigation is not 
resolved this year? What will you do?
    Ms. Roberson. We will not proceed with those activities 
until there is some resolution in this matter one way or the 
other. The judge cautioned us not to proceed with plans that 
were in place, and these were clearly the plans that were in 
place.
    Senator Bill Nelson. Is it the same answer if the 
litigation is not resolved in DOE's favor?
    Ms. Roberson. Or in favor of the processes that have been 
developed and incorporated into our cleanup plans with our host 
States.
    Senator Bill Nelson. Well, what about the construction of 
the Hanford waste plant? Will it be stopped under any of these 
three scenarios: no legislation, no resolution of the 
litigation, or resolution of the litigation adverse to DOE?
    Ms. Roberson. At this point, the Department's belief is 
that construction of a vitrification plant, because its primary 
purpose is preparation of material to go to a geologic 
repository, is not an issue. There is a small part of the 
construction of that facility that is to prepare waste for 
something other than a geologic repository, but we do not 
believe we have encroached upon that yet.
    So our plan at this point is to continue with construction 
of a plant.
    Senator Bill Nelson. When do you plan to submit 
legislation?
    Ms. Roberson. Can I get back to you really quick on that?
    Senator Bill Nelson. Yes.
    Ms. Roberson. Thank you, sir.
    [The information referred to follows:]

    DOE transmitted an initial legislative proposal to Congress last 
summer (August 1, 2003) to remedy this waste incidental to reprocessing 
problem. Since that time, we have been in discussions with affected 
States over the impacts the Idaho District Court decision has had on 
our activities at Hanford, the Idaho National Laboratory and the 
Savannah River Site. We attempted to address issues the States raised 
about our initial proposed legislative approach. We did reach agreement 
with the State of South Carolina. The Senate included a provision based 
on that agreement in section 3116 of the Fiscal Year 2005 Defense 
Authorization Bill. The administration has indicated its strong support 
for this provision.

    Senator Bill Nelson. It is clear that the EM office would 
like to go out of business, whether it is by 2025 or maybe 2012 
or some other date. The crystal ball is murky. At any date, 
there will still be cleanup to be done. If it closes in 2012, 
there will be substantial cleanup work remaining. In 
preparation for closing the EM office, you have stopped taking 
new cleanup work and the office is in the process of shifting 
responsibility for the newly generated waste as well as other 
activities to other DOE program offices.
    There is a goal to close EM. When will that happen?
    Ms. Roberson. There is a goal to complete the scope of work 
that the EM program is responsible for, and our current 
baseline says that we can do that around the time frame of 
2032. We are challenged to continue to accelerate that, but DOE 
has proposed the Office of Future Liabilities begin the 
planning and develop management options for carrying out the 
future cleanup of those facilities that are currently active 
today because of ongoing operations. The Department has not 
precluded EM as one of those options, but it is keeping the 
options open because we have learned valuable management 
lessons as to how to do this.
    So the DOE has not made a decision as to whether that would 
be EM, an EM-2, or not. It simply has not made a management 
decision. It is focused on how to manage and what the rate of 
return would be for ongoing operations today as they complete 
those missions.
    Senator Bill Nelson. So there is a plan that lays out that 
path to closure?
    Ms. Roberson. For EM?
    Senator Bill Nelson. Yes.
    Ms. Roberson. I would say the Top-to-Bottom Review is the 
first strategic plan, and we have recently done an update to 
that and provided it to Congress. There is a status of the Top-
to-Bottom Review that has been recently provided to Congress, 
too.
    Senator Bill Nelson. Well, once you close it what work will 
still need to be done and who will do it?
    Ms. Roberson. When we say ``close,'' we are speaking of 
completing the work the program is currently responsible for. 
Once cleanup is completed at a particular site, if there is no 
ongoing operation, LM would step in. If there are ongoing 
operations, the Department is attempting to develop a plan as 
to how that cleanup would occur and when it would become 
necessary.
    So I cannot tell you the answer because the Department is 
venturing into the planning process for that work that is 
currently not in EM.
    Senator Bill Nelson. So you are going to move some of those 
activities to LM and the Department has proposed in this budget 
a new Office of Future Liabilities and it will apparently take 
the new cleanup projects?
    Ms. Roberson. No, sir.
    Senator Bill Nelson. That is not so?
    Ms. Roberson. No. It will do the planning for sure and 
provide management options for the DOE to make a decision. One 
of those options will likely be EM. I do not know, but they are 
going to look at the management structure and propose options 
based upon when that work would become available for cleanup.
    Senator Bill Nelson. Well, would that new office take over 
the old EM activities when EM goes out of business?
    Ms. Roberson. When EM goes out of business for the scope of 
work that it has, it should be complete. So there would not be 
cleanup intended for that office to take over at all.
    Senator Bill Nelson. What about the newly generated waste?
    Ms. Roberson. The newly generated waste is proposed to stay 
with the generating organizations. So when they cease to 
operate, there is no more newly generated waste to be passed 
on.
    Senator Bill Nelson. So you are saying that when EM goes 
out of business there is not going to be any remaining work 
done by this LM, and if there is any future waste it is going 
to be assigned to whoever the generating office is?
    Ms. Roberson. When EM completes cleanup at a site and there 
is no ongoing mission, there is not another landlord, the NNSA 
does not have an ongoing mission, as in the case of Los Alamos. 
NNSA is the landlord. They have an ongoing mission there. That 
would not transfer to LM. Once we complete the cleanup scope 
that we have, NNSA still remains the landlord and it is still 
their site, so that it would not move.
    Mr. Owen. Also, LM will take on some functions, but 
ideally, as I believe I said earlier this afternoon, it would 
be in comparison to the fevered pace that EM is conducting 
today at, say, Rocky. It would be a fairly passive activity, 
where we would be conducting long-term surveillance and 
maintenance and stewardship activities. We would be monitoring 
pump-and-treat ground wells, making certain that containment 
cells are kept in good order, that the appropriate engineering 
and institutional controls are kept up, and the records of 
those activities are available to the public.
    It would be a much lower level of activity conducted by LM, 
because Ms. Roberson's organization actually ideally has been 
successful in remediating the site, removing the vast majority 
of what ever could possibly be threatening to human health and 
the environment. It is our job then to monitor and make certain 
that that is indeed the case.
    Senator Bill Nelson. Tell me, what is this new creature 
called the Office of Future Liabilities?
    Ms. Roberson. The Office of Future Liabilities is intended 
to do planning to work with all the programs that have 
operations and facilities that are not in the EM program now, 
to ascertain when the missions will end, when facilities would 
be available for cleanup, or when sites would be available for 
cleanup, and to lay that out in a time line that allows the DOE 
to make informed management decisions as to how to carry out 
that work.
    So it is initially a planning function only, planning for 
the scope of work and proposing management options for how to 
carry out that work.
    Senator Bill Nelson. Let us talk to you, Mr. Owen, about 
LM.
    Mr. Owen. Yes, sir.
    Senator Bill Nelson. One of your primary responsibilities 
will be to continue the health insurance and retirement 
benefits for workers from the closed DOE sites and facilities. 
Do you believe that any legislation is needed to carry out your 
mission to protect the workers?
    Mr. Owen. Several years ago when we looked at this pending 
liability, this pending legacy that we needed to manage, we 
very carefully looked at it and determined that we felt we 
could devise a model to deliver those services successfully to 
the rightful recipients without requesting legislation. As we 
continue to work through the process, we have run across a 
number of hurdles, but we have worked around them internally. 
We are getting a tremendous amount of cooperation from the U.S. 
Department of Labor on the Employee Retirement Income Security 
Act (ERISA), as well as the Internal Revenue Service (IRS).
    At this hour we do not believe that legislation is needed. 
We appreciate the inquiry as to if legislation will be needed. 
We may encounter problems that would cause us to conclude that 
we need legislation, but right now we believe we are on a 
course that will allow us to accomplish it.
    On a side note, we are doing it successfully, even though 
we are going to change the model a little bit, for the former 
contractor workers at the Pinellas plant outside of Tampa. That 
is a group of former contractor workers, where we are getting 
the job done now and we are planning to continue to be able to 
do that for those workers. It will be a different model than we 
are following for those people now.
    But my office budget request does actually include the 
pension dollars for the former contractor employees at the 
Pinellas site.
    Senator Bill Nelson. Could any legislation help you to 
simplify the whole thing?
    Mr. Owen. I would not rule that out. I do not think I could 
give you a comprehensive answer at this time, Senator, but I 
will keep that in mind. But as we move forward, realize that 
there is an interest here that, if something needs to be 
statutorily put in place or legislatively clarified, that we 
would welcome the opportunity to come and work with you and 
your staff.
    There are a lot of issues involved in doing this, sir. But 
right now things are working and it is coming together. 
Tomorrow morning it may be a different story. We will blow the 
whistle if it is. We will let you know.
    Senator Bill Nelson. Ms. Roberson, does each facility have 
the full amount of funds anticipated in each contract?
    Ms. Roberson. I believe we have requested the full amount 
of funds anticipated in each of our contracts.
    Senator Bill Nelson. Would you give us a funding plan by 
the major prime contractor for the next 5 years?
    Ms. Roberson. I can give you that if we have contracts that 
go for 5 years. That would be a subset of those contracts we 
have in place. For those we can.
    Senator Bill Nelson. What would a contract typically go 
for?
    Ms. Roberson. Well, they start at different points. They 
may be 5-year contracts, but if it started in 2000 then there 
is 1 year. A number of our larger contracts do expire in the 
next 2 years.
    Senator Bill Nelson. All right. Well, give us what you have 
in the remaining.
    Ms. Roberson. Yes, we will do that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. Keeping Rocky Flats as well as the 
other cleanups on the accelerated cleanup schedule, that is 
important. Many of the other sites apparently do not have 
enough money to keep their cleanup programs on schedule. Money, 
that is one need. But there is also the need to ship nuclear 
waste and other nuclear material to Savannah River. As a 
receiving site for the plutonium wastes from Rocky Flats and 
other materials from other sites, Savannah River is playing a 
very important key role in supporting the cleanup.
    The perceived delay in 2002 in the Mixed-Oxide (MOX) Fuel 
Fabrication (MOFF) Facility that is going to be built at 
Savannah River to process the plutonium has strained relations, 
to say the least, with the governor of South Carolina and the 
DOE. This year there is a new concern about a delay in 
construction of the MOFF Facility. So what impact would a delay 
in that plant construction have on the cleanup and can you give 
us some notion of its impact by this time?
    Ms. Roberson. Actually, Senator, since that is an NNSA 
project, I would like to confer with them and respond for the 
record if I might.
    [The information referred to follows:]

    I believe the Department is endeavoring to mitigate the impact of 
any delay in the construction of the MOFF Facility. Consolidating all 
of EM's surplus plutonium, approximately 13 metric tons, is a key 
element of EM's cleanup plans and the Department's national security 
goals. Although the Department is evaluating the consolidation of the 
approximately 13 metric tons at the Savannah River Site, no decision 
has been made. Any decision to consolidate surplus plutonium would be 
subject to appropriate National Environmental Policy Act review.

    Senator Bill Nelson. Well, what I am looking for is a 1-
year delay, 2-year delay, 5-year delay? What impact would it 
have on your program?
    Ms. Roberson. I would really need to confer with them. I do 
not know what a 1-year delay would mean from an operating 
capability without talking to them first. So if I could, we 
will respond, but I can't speak for their plans right now.
    Senator Bill Nelson. Do any of the staff have any further 
questions that you want to ask?
    Ms. Roberson. Oh, that is not fair. [Laughter.]
    Senator Bill Nelson. Anybody in the audience want to ask 
any questions? [No response.]
    We are going to keep the record open for 3 days and also we 
will keep the record open to receive the information that we 
have requested. Instead of asking some additional questions, I 
am going to submit some in writing to you for the committee.
    Everybody have a good afternoon and the meeting is 
adjourned.
    Ms. Roberson. Thank you, Senator.
    Senator Bill Nelson. Thank you.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

                      SECURE TRANSFORMATION ASSETS

    1. Senator Allard. Secretary Roberson, are you satisfied that the 
National Nuclear Security Administration (NNSA) has enough secure 
transportation assets to meet Environmental Management's (EM) 
transportation needs during the next several years?
    Ms. Roberson. In recognition of the multiple program demands for 
secure transportation assets, the Secure Transportation Advisory Board 
has been formed. This board, which includes a member from my staff, is 
very effective in prioritizing needs and helping to ensure that 
programs, such as EM, are able to meet its commitments successfully.
    However, the Department is facing a challenge to ensure that there 
are adequate Federal agents (couriers) hired and trained to meet the 
increased demands. This challenge is further complicated by competition 
by other agencies for these same resources. As the agent force 
increases, it will enable the NNSA to ensure EM that our commitments in 
the next few years can be met.

                      OFFICE OF LEGACY MANAGEMENT

    2. Senator Allard. Mr. Owen, what is the regulatory structure of 
the Office of Legacy Management (LM)?
    Mr. Owen. LM is responsible for long-term surveillance and 
maintenance activities at more than 60 sites (with an additional 45 
anticipated over the next 5 years) across the country where active 
environmental remediation has been completed. LM is also responsible 
for overseeing workforce restructuring of contractor employees 
operating at the Department of Energy's (DOE) sites and for overseeing 
benefit continuity for contractor employees after site closure.
    LM's long-term surveillance and maintenance work is conducted under 
a variety of legal and regulatory frameworks. Work at many of our 
current sites is subject to the Uranium Mill Tailings Radiation Control 
Act. LM conducts activities at these sites under a license from the 
Nuclear Regulatory Commission (NRC) in accordance with NRC regulations. 
Additionally, a number of our sites fall under the Comprehensive 
Environmental Response Compensation and Liability Act and operate in 
accordance with U.S. Environmental Protection Agency (EPA) 
requirements. OLM must also comply with a variety of applicable state 
requirements.
    Workforce restructuring of contractor employees at DOE sites is 
conducted consistent with section 3161 of the National Defense 
Authorization Act for Fiscal Year 1993. Distribution of funds for the 
retired contractor workforce on sites where active environmental 
remediation has been completed is conducted in accordance with the 
Employee Retirement Income Security Act (ERISA), U.S. Department of 
Labor rules and regulations, the Internal Revenue Service (IRS) 
regulations, and applicable State laws and regulations.

    3. Senator Allard. Mr. Owen, there could be massive legal changes 
in the DOE's fiduciary responsibilities as sites close and 
relationships with the traditional contractors change. How does DOE see 
its role post-closure?
    Mr. Owen. The DOE will ensure that there are effective mechanisms 
in place to assure continuity of benefits for contractor employees 
after site closure. As in the case of ongoing sites, DOE's role will 
include contracting with the plan sponsor(s), providing funding, 
approving allowable costs, and providing appropriate contract 
oversight. The Department is not now the plan fiduciary of any 
contractor benefit plans and will not become the fiduciary after 
closure.

    4. Senator Allard. Mr. Owen, what legal, accounting, benefit 
specialist, and actuarial resources does DOE have to perform that role?
    Mr. Owen. The Department has created LM to ensure that legacy 
responsibilities are effectively and efficiently managed. LM will work 
with the Office of General Counsel, the Office of the Chief Financial 
Officer, the Contractor Human Resource Management Office, and other DOE 
offices, as needed, to address post-closure requirements. Actuarial 
consultants for additional legal, benefit, and actuarial expertise also 
have been retained to assist the Department to ensure legacy 
responsibilities are effectively and efficiently managed.

    5. Senator Allard. Mr. Owen, is there a need for more resources 
here?
    Mr. Owen. The Department has assembled an integrated team to 
develop and implement the post closure benefit program that includes 
key members of my staff as leaders and participants. At this time, the 
Department believes these resources, together with actuarial 
consultants who have been retained to provide additional legal, 
benefit, and actuarial expertise, are sufficient to implement the 
program and oversee contractor performance. We will routinely assess 
staff skills and levels to ensure that the post-closure benefit program 
is managed effectively and efficiently.

    6. Senator Allard. Mr. Owen, what framework, if any, does DOE have 
in place to effectively review the contractors' obligations and costs 
for pension and post-retirement benefits on an ongoing basis?
    Mr. Owen. The Department reviews contractor obligations and costs 
for pension and other post-retirement benefits under the Federal 
Acquisition Regulation (FAR) cost principles and pursuant to DOE Order 
350.1 or a special clause(s) pertaining to compensation and benefits. 
LM will analyze and evaluate existing processes and determine if 
additional mechanisms are needed for the administration of post-closure 
retirement benefits.

                  CLARIFYING THE DEFINITION OF CLOSURE

    7. Senator Allard. Secretary Roberson, how does the EM program plan 
to close gap between physical closure and regulatory closure?
    Ms. Roberson. The EM program will complete its cleanup mission and 
attain physical closure (e.g., all waste removed or adequately 
contained, all required engineering systems constructed and operating 
properly) in accordance with regulatory agreements, permits, and 
decision documents. Once EM has completed all necessary remedy 
documentation (e.g., Records of Decision, remedial action workplans) 
and transitions any remaining long-term response action management 
responsibilities (e.g., surveillance and maintenance of containment 
cells, operation and maintenance of ground water treatment systems) to 
LM or to the Program Secretarial Office responsible for ongoing 
missions at the site, the receiving organization will be responsible 
for final regulatory closeout. In some cases, regulatory closeout may 
occur years after EM completion. Accordingly, EM is responsible for 
providing the receiving organizations with all essential information to 
ensure they are fully equipped to conduct long-term stewardship, 
confirm remedies are performing as intended and ultimately demonstrate 
to our regulators that final objectives have been attained and 
regulatory closeout can proceed. We are working closely with LM and 
other Program Secretarial Offices in developing site-specific 
transition plans that will outline regulatory requirements (e.g., 
surveillance and maintenance, institutional controls), personnel and 
funding needs, and other activities (e.g., public outreach, records 
management) needed to provide for a smooth transition from one program 
element to another.

                          F-CANYON DISPOSITION

    8. Senator Allard. Secretary Roberson, what is the current status 
of the decontamination and decommissioning (D&D) of the F-Canyon?
    Ms. Roberson. Limited decommissioning of several of the support 
facilities will begin later this year. We are in the planning stages to 
determine final disposition of the facility.

    9. Senator Allard. Secretary Roberson, is it your understanding 
that the Defense Nuclear Facilities Safety Board (DNFSB) is satisfied 
with your current plans and progress with the D&D of F-Canyon?
    Ms. Roberson. DOE is not aware of any DNFSB issues or concerns 
associated with the plans and progress of F-Canyon deactivation. We are 
in the planning stages to determine final disposition of the facility.

                    ACCELERATED COMPLETION SCHEDULE

    10. Senator Allard. Secretary Roberson, the fiscal year 2005 budget 
request for the 2012 and 2035 accelerated closure accounts is less than 
in fiscal year 2004. How will accelerated completion be accomplished 
with less funding?
    Ms. Roberson. The reduction between fiscal year 2004 and fiscal 
year 2005 in the Defense Site Acceleration Completion, 2012 and 2035 
Accelerated Completions accounts, is due to the decision to show 
separately the funding associated with the Waste Incidental to 
Reprocessing (WIR) court ruling. The $350 million in fiscal year 2005 
is for activities that are planned to be performed in the 2012 and 2035 
Accelerated Completions accounts, should the legal issue be 
satisfactorily resolved. The following table displays the increases to 
the Defense Site Acceleration Completion, 2012 and 2035 Accelerated 
Completions accounts when the WIR-related funding is incorporated.

                                            [In Thousands of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Year
                                               -----------------------------------------------------------------
                                                                                                        2005
             Appropriation/Account                  2003         2004         2005         2005     Adjusted vs.
                                                 Comparable   Comparable    Request      Adjusted    Fiscal Year
                                                                                         for WIR        2004
----------------------------------------------------------------------------------------------------------------
Defense Site Acceleration Completion
  2006 Accelerated Completions................   $1,234,037   $1,239,018   $1,251,799   $1,251,799       $12,781
  2012 Accelerated Completions................    2,102,613    2,199,338    2,150,641    2,247,941        48,603
  2035 Accelerated Completions................    1,811,563    1,918,375    1,893,339    2,146,039       227,664
  Safeguards and Security.....................      254,747      291,124      265,059      265,059      (26,065)
  Technology Development and Deployment.......      113,679       66,116       60,142       60,142       (5,974)
  HLW Legislative Proposal....................            0            0      350,000            0             0
                                               -----------------------------------------------------------------
    Total.....................................   $5,516,639   $5,713,971   $5,970,980   $5,970,980      $257,009
----------------------------------------------------------------------------------------------------------------


                       POST-CLOSURE LEGAL STATUS

    11. Senator Allard. Secretary Roberson, will participants in 
individual pension/benefit plans have standing to sue DOE, either 
directly or as third-party beneficiaries, to enforce promises made in 
employment contracts?
    Ms. Roberson. The primary rights of participants in pension and 
other benefit plans to enforce promises regarding the plans made in 
their employment contracts are against their employers (the 
contractors). They may also have rights against the plan fiduciaries. 
DOE is not a party to either the plans or to the employment contracts 
and is not a fiduciary of these plans. The participants have no third-
party beneficiary status to sue under DOE's contracts with the 
contractors.

    12. Senator Allard. Secretary Roberson, what is the impact of State 
law on contractor obligations where the contractor, like the University 
of California, is a State entity?
    Ms. Roberson. Where a DOE contractor, like the University of 
California, is a (pure) State entity (not operating through a venture 
involving non-State entities), the formation of the plan documents and 
any trust, as well as the legal status of the employing contractor and 
its labor-management relations, are all primarily State law matters. 
The contractor's plans would not be covered by ERISA and the 
contractor's agreements concerning benefits would be a matter of State 
law regarding employment matters. Federal laws such as the National 
Labor Relations Act which may impact determination of benefits promised 
in other contexts would not be applicable.

                          POST-CLOSURE ENTITY

    13. Senator Allard. Secretary Roberson, DOE presently plans to 
establish an entity to regulate long-term pension and benefit matters 
after site closure. This will, it appears, be a very large entity with 
a very large responsibility. Does DOE have the resources to effectively 
monitor such an entity?
    Ms. Roberson. The Department has in place an integrated team to 
oversee the post-closure benefit program. LM staff is an integral part 
of this team and will ensure that the appropriate resources are brought 
to bear to oversee this responsibility. Staff needs assessments are 
continuously being performed to ensure that adequate quantity and the 
right skills are on board to perform management and monitoring 
responsibilities.

    14. Senator Allard. Secretary Roberson, how will DOE resist being 
drawn into benefit determinations and caving in to political pressure 
for benefit increases, when so many contractor employees are close to 
retirement?
    Ms. Roberson. DOE will retain its arms-length relationship with 
contractor employees by contracting with the plan sponsor(s) 
responsible for any plan amendments which would increase or decrease 
benefits to retirees. DOE will retain the right to approve or 
disapprove of all plan amendments. DOE currently reviews and approves 
plan amendments against established benchmarks to prevent benefits from 
being out of line with those in comparable industries.

    15. Senator Allard. Secretary Roberson, will these changes 
(especially in view of section 3161 of the National Defense 
Authorization Act for Fiscal Year 1993) encourage employees and 
retirees to look directly to DOE for these things, thus moving away 
from the Manhattan Project paradigm of the government's working through 
contractors in these matters?
    Ms. Roberson. While Section 3161 of the National Defense 
Authorization Act for Fiscal Year 1993 directed DOE to mitigate the 
impact on contractor employees and their communities of the 
Department's changing mission, it did not alter the relationship 
between DOE and its prime contractor employees. DOE is consulting with 
the Department of Labor and the IRS regarding its approach to providing 
continuity of post-closure benefits. They have been consistent in their 
advice and counsel to have a DOE prime contractor(s) continue as a plan 
sponsor(s) and fiduciaries.

                        POST-CLOSURE OBLIGATIONS

    16. Senator Allard. Secretary Roberson, the General Accounting 
Office is investigating the size and duration of DOE obligations for 
contractor post-retirement benefits after site closure. Proposed Cost 
Accounting Standard (CAS) 419, which would have regulated the 
allocation of costs for health benefits for government contractors, was 
recently withdrawn because of industry concerns about exposure to these 
costs, and a desire that the government bear more of the risk of 
rapidly increasing medical costs. What are your thoughts on this?
    Ms. Roberson. Withdrawal of CAS 419 would not have a direct and/or 
immediate impact on DOE contracts due to current DOE policy that 
requires cash basis or pay-as-you-go accounting for post-retirement 
benefits (PRB) (other than pension plans).
    The proposed CAS 419, Accounting for the Costs of Post-Retirement 
Benefit Plans Sponsored by Government Contractors, would have required 
accrual accounting for PRB plans when benefits meet the following 
criteria: (1) documented in writing, (2) communicated to employees, (3) 
non-forfeitable once earned, and (4) legally enforceable. DOE 
contractors' PRBs, like most commercially sponsored PRBs, meet some of 
these criteria, but may not meet all of the proposed CAS 419 criteria.
    While pre-funding of PRBs may be desirable, the DOE contractor 
liability for post retirement benefits has been accruing for 50+ years. 
Converting to accrual accounting (pre-funded) from pay-as-you-go 
accounting would result in a significant transitional liability. 
Additionally, unlike pension plans, PRBs cannot be funded through tax 
favored funding vehicles.

    17. Senator Allard. Secretary Roberson, when the main operational 
mission of the sites is completed and the great bulk of costs remaining 
are post-operational retiree benefits, what incentive is there for the 
contractors (who are working under various kinds of contracts which 
effectively provide for cost reimbursement) to control these costs?
    Ms. Roberson. We believe the Department has tools available to it 
that it can use in developing appropriate contractual arrangements that 
will allow a significant measure of cost control. These include 
contract incentives to implement efficiencies in plan administration 
and reasonableness determinations with respect to the allowability of 
costs that can take into account relevant industry comparators (e.g., 
industry competition and geographical location) consistent with other 
applicable laws and rules.

                      TECHNOLOGIES AND INNOVATIONS

    18. Senator Allard. Secretary Roberson, what is the EM program 
doing to encourage new cleanup technologies and innovations to help 
further accelerate cleanup at EM sites?
    Ms. Roberson. Of fundamental importance are the cleanup contracts 
that provide strong financial incentives for contractors to bring the 
safest and most efficient technologies to bear on the site cleanup 
contracts. The progress at Rocky Flats is a result of such a contract 
change. The emerging success there isue not only to its project 
management approach but also to a great number of new and improved 
technologies. In addition, we fund selected activities to ensure the 
sites have the best available scientific and technological background 
and advice with which to proceed with the best, viable technical 
solutions and technologies.

    19. Senator Allard. Secretary Roberson, does the EM program 
encourage new technologies to be introduced into the existing cleanup 
framework?
    Ms. Roberson. Absolutely. We are doing this in two ways. First, we 
are creating strong incentives for contractors to bring the safest and 
most efficient technologies to bear on the site cleanup contracts. 
Second, we fund Technical Solutions, Closure Projects, and Alternatives 
Projects within the Technology Development and Deployment program to 
ensure the sites have the best available scientific and technological 
background, advice, and confidence with which to proceed. These 
programs directly stimulate the use of the best, viable technical 
solutions and technologies.

    20. Senator Allard. Secretary Roberson, how would a company or 
other entity introduce their new technology into the existing EM 
contractor framework?
    Ms. Roberson. By far the greatest opportunity is through the sites 
and their site cleanup contractors who are searching for the best 
available solutions and who will be responsible for verifying that a 
vendor's claims are supported. In addition, as we pursue alternatives 
projects, procurements are advertised for commercial response. 
Companies and teams of companies are encouraged to submit their 
proposals.

    21. Senator Allard. Secretary Roberson, how does the EM program 
assess whether a new technology may be a viable cleanup option?
    Ms. Roberson. In most cases, the vendors present testing and field 
operational experience for DOE assessment and decisionmaking. 
Treatability studies and other technology demonstrations may be 
conducted to further support such assessments.

                       ACCELERATE RISK REDUCTION

    22. Senator Allard. Secretary Roberson, in your written testimony 
you focus on the benefits of accelerating risk reduction as the best 
way to increase safety and reduce the cost of cleanup. Are there any 
statutory or regulatory obstacles preventing the EM program from 
accelerating risk reduction which should be changed to help increase 
safety and reduce the cost of cleanup?
    Ms. Roberson. We have identified one statutory change that would be 
extremely important for proceeding with the accelerated cleanup 
program. This legislation would clarify the Department's authority to 
separate and dispose of tank waste according to the risk it presents. 
The Department submitted a legislative proposal on this subject last 
August and since then has been in discussion with the affected States 
and Congressional delegations to craft a consensus on a legislative 
solution. As you are aware, these efforts resulted in agreement with 
the State of South Carolina. We appreciate the State's agreement on a 
legislative approach, and we appreciate the committee's consideration 
of this approach with respect to the Savannah River Site in the 
National Defense Authorization Act for Fiscal Year 2005. Clarification 
of the Department's authority to classify waste remains critical to 
implementation of accelerated cleanup plans at Idaho, Hanford, and the 
Savannah River Site.
    The Department has not identified any additional statutory changes 
it would recommend to execute accelerated cleanup. Nonetheless, the 
cleanup program continues to implement various initiatives (e.g., 
baseline validation reviews, acquisition strategies, and development of 
site Risk-Based End State documents) that may, at some point in the 
future, lead to identification of the need for additional statutory 
changes. Should these initiatives lead to identification of additional 
changes to support accelerated cleanup, the Department will make 
appropriate recommendations to Congress.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                         INTEGRATED TECHNOLOGY

    23. Senator Bill Nelson. Secretary Roberson, with a program as 
complex as the EM program, it would seem that a reasonable investment 
should be made in improving the technologies and methods that will be 
utilized to accomplish this mission. Technology improvements can only 
be achieved through a technology program that is able to look to the 
future, rather than dealing with the day-to-day challenges of 
implementation. The DOE EM program has spent the last year implementing 
its accelerated cleanup program and is currently in the process of 
another reorganization to streamline its processes to provide better 
focus on its core mission and to reduce the risks imposed by the legacy 
of our nuclear weapons programs. In testimony provided to the Energy 
and Water Appropriations Subcommittee last year, you indicated that you 
had instituted an integrated technology development and deployment 
program to focus on ``high-payoff'' site closure and remediation 
problems. How does this integrated technology development and 
deployment program plan on focusing on the longer term research and 
development necessary to ensure that continual improvement is achieved 
as you embark on what you now assert is a 35-year mission to complete 
the EM cleanup objectives?
    Ms. Roberson. In 2003, EM consolidated its basic and applied 
research activities with those in the Office of Science. Since 2003, 
for longer-term research and development, DOE's Office of Science is 
leading the way to yield the greatest benefit. To assist in clarifying 
these research needs, EM (and more recently the Office of Science) 
commissioned a series of reports conducted by the National Research 
Council. To date, the Council recommended additional research in 
subsurface contamination, high-level waste, facility deactivation and 
decontamination, I transuranic and mixed wastes, and DOE's excess 
nuclear materials and spent nuclear fuel. The Office of Science is 
using these recommendations as a basis for their research.

                    FLORIDA INTERNATIONAL UNIVERSITY

    24. Senator Bill Nelson. Secretary Roberson, Florida International 
University (FIU) has been a fertile ground to seek solutions to long-
term challenges. Would you agree that the support the EM program has 
received from academic institutions has significantly contributed to 
the development of the solutions that have allowed you to have be 
optimistic that EM will accelerate cleanup and closure of the many DOE 
sites and facilities?
    Ms. Roberson. We have worked cooperatively with FIU to identify 
beneficial activities to support EM's technology needs. FIU technology 
activities support several DOE sites including Savannah River, Mound, 
Oak Ridge Rocky Flats, and Hanford as well as providing technical 
support to help solve EM complex-wide issues.


    SUPPORT OF INSTITUTIONS TRYING TO SOLVE TECHNOLOGICAL CHALLENGES

    25. Senator Bill Nelson. Secretary Roberson, will you continue to 
support the ongoing role of these institutions in assisting the 
Department solve the considerable technological challenges yet to be 
identified?
    Ms. Roberson. The EM Office of Cleanup Technologies and DOE site 
offices will continue to work with these institutions to align their 
expertise, as appropriate, to address site specific or complex-wide 
technical issues that are challenging accelerated cleanup. Areas of 
technical support provided by these institutions include waste 
characterization and dissolution, instrumentation, decontamination and 
decommissioning, robotics, and university curriculum development.

                            BUDGET DECISIONS

    26. Senator Bill Nelson. Secretary Roberson, the two largest 
cleanup programs with a 2006 site closure date are Rocky Flats, 
Colorado, and Fernald, Ohio. The DOE increased the Rocky Flats by $21.7 
million for fiscal year 2005. Fernald, on the other hand, was reduced. 
Why is the Fernald budget being cut this close to closure?
    Ms. Roberson. The fiscal year 2004 budget for Fernald included 
increased funding for significant scope associated with Silos 1, 2, and 
3. In fiscal year 2004, the construction of the Silos 1 and 2 treatment 
facility and the Silos 1, 2, and 3 retrieval facilities will be 
completed. Remediation of the Waste Pits will be completed before the 
end of fiscal year 2005. The funding requested for Fernald in fiscal 
year 2005 reflects the completion of these major activities and 
progress on the critical path. In addition, the request for safeguards 
and security funding has been reduced in fiscal year 2005 due to the 
progress in accelerated cleanup and reducing the site footprint.

    27. Senator Bill Nelson. Secretary Roberson, other major budget 
losers include the Idaho National Engineering and Environmental 
Laboratory (INEEL), cut $94 million, or 18.5 percent; Paducah, 
Kentucky, cut $32 million, or 17.1 percent; and Savannah River Site, 
cut $76 million, or 5.7 percent. At a time when DOE is trying to 
accelerate cleanup, why are funds being reduced for these sites?
    Ms. Roberson. What appears to be decreases at the Savannah River 
Site and the INEEL in fiscal year 2005, results from the decision not 
to include funding associated with those activities impacted by the WIR 
court ruling in the site budgets, but rather to show that funding in a 
separate proposal. There is $350 million in fiscal year 2005 for the 
planned activities to be perfomled should the legal issue be 
satisfactorily resolved.
    The Paducah decreases in fiscal year 2005 are due to work 
completions in fiscal year 2004, i.e., the north/south diversion ditch 
project; the dismantling and removal of all piping and equipment from 
sectors 1 and 9 in building C-410; and preparation of sectors 2 and 3 
for dismantling and piping equipment removal.

    28. Senator Bill Nelson. Secretary Roberson, although informal 
estimates show that only a third of the DOE's EM budget goes for 
environmental restoration (i.e., cleanup), the DOE budget continues to 
lack a clear delineation between funds going to real cleanup and funds 
going toward waste management. Why doesn't the DOE separate 
environmental restoration and waste management in the budget?
    Ms. Roberson. EM implemented a new budget structure in fiscal year 
2004 to clearly distinguish the scope and resources that directly 
support EM's core accelerated cleanup and risk reduction mission versus 
those activities that indirectly relate to on-the-ground cleanup. It 
also distinguishes waste management activities, which are an integral 
part of EM's mission-related cleanup activities, from environmental 
restoration activities.
    EM's new budget structure consolidates direct cleanup activities 
such as waste management and environmental restoration into 
predominately two appropriations--the Defense and Non-Defense Site 
Acceleration Completion. Over 80 percent of EM's fiscal year 2005 
request (approximately $6.1 billion of $7.434 billion) is in these two 
mission-related cleanup appropriations.
    To support the new budget structure, for the Defense and Non-
Defense Site Acceleration Completion Appropriations, major mission-
related cleanup activities are categorized at the lower-level project 
baseline summary (PBS) structure. Among the direct cleanup activities 
categorized are waste management activities (operation of waste 
disposal facilities, solid waste disposition, and radioactive liquid 
tank waste stabilization and disposition) and environmental restoration 
activities (soil and water remediation). With such a structure, the EM 
program is capable of ``isolating'' the costs associated with each 
major direct cleanup activity at each EM site.

    29. Senator Bill Nelson. Secretary Roberson, you have always 
considered Rocky Flats to be the model for accelerated cleanup. 
However, the estimated life-cycle costs for cleanup of Rocky Flats have 
increased more than $210 million in the past year. In addition, the 
fiscal year 2005 request indicates that accurate estimates of future 
costs for some major activities at Rocky Flats cannot be determined 
``until EM conducts the next life-cycle cost estimate.'' What will the 
life-cycle costs be at Rocky Flats?
    Ms. Roberson. The increase in the life-cycle cost estimate for the 
Rocky Flats Site is due primarily to an increase in estimated post-
closure contract liabilities such as pension and health care benefits, 
not an increase in cleanup costs. We are in the process of collecting 
updated life-cycle costs from our sites. We will be able to provide the 
updated life-cycle cost estimate for the Rocky Flats Site after 
September 30, 2004.

                            HIGH-LEVEL WASTE

    30. Senator Bill Nelson. Secretary Roberson, the budget request 
includes a ``high-level waste proposal'' that would create a $350 
million contingency fund for high level waste tanks at Hanford, the 
INEEL, and Savannah River Site. Does DOE intend to stop all above 
ground waste treatment and handling work at these sites in the event 
that the litigation is not resolved?
    Ms. Roberson. DOE believes it can proceed with above-ground 
treatment and stabilization of the waste from reprocessing that is 
intended to be disposed of in the Federal geologic repository for spent 
fuel under the District Court decision. However, it can be done only to 
the extent those actions are independent of plans with respect to the 
lower activity fraction of the waste slated for disposal elsewhere. 
Therefore, at Savannah River, DOE continues to transfer high-activity 
tank waste sludges to the Defense Waste Processing Facility, where 
these wastes are treated into a vitrified glass waste form for disposal 
as high-level waste. Similarly, at Hanford, DOE is constructing a Waste 
Treatment Plant that will separate tank wastes into a high-activity 
fraction (92.5 percent of the tank waste radioactivity) for 
vitrification into a glass waste form for geologic disposal as high-
level waste.
    DOE's plans for above-ground stabilization and treatment of lower-
activity portions of the waste from reprocessing planned to be disposed 
as low-level or transuranic (TRU) waste have been jeopardized by a 
district court decision that invalidated the DOE order under which 
these decisions are made.

    31. Senator Bill Nelson. Secretary Roberson, specifically what 
activities does the DOE believe it cannot do regarding cleanup and 
closure of the high-level waste tanks at Hanford, INEEL, and Savannah 
River Site, based on the recent court order?
    Ms. Roberson. The activities are outlined on pages 291-292 of the 
DOE budget request for EM. In general, the activities involve either 
activities to complete operational closure of tanks at the three sites, 
which are predicated on classification of the residues as low-level 
waste, or activities involving removal, stabilization and disposal of 
non-residue waste in the tanks that DOE anticipated classifying as low-
level or TRU waste.
    If the Department were to proceed with these activities that depend 
on DOE being able to classify some tank waste as low-level or TRU 
waste, it would be making hundred-million-dollar-plus investments in 
facilities and technologies--with no confidence that it has the 
authority to classify the waste as it had planned to do, and hence no 
assurance that the waste form has a disposal pathway. The Department 
has concluded that it should only execute these cleanup actions if the 
appeals court overturns the lower court decision, or legislation from 
Congress affirms the Department's authority to classify these materials 
as low-level or TRU waste that is incidental to reprocessing.

    32. Senator Bill Nelson. Secretary Roberson, how will the $350 
million high-level waste fund be divided among the sites presuming an 
agreement is reached between DOE, the litigants, and the States and 
regulators? Please provide a detailed breakdown by site by project.
    Ms. Roberson. At this time, we anticipate the site-specific 
activities will include the following. However, these allocations may 
change depending on the exact nature of the resolution and the manner 
in which delays have affected project baselines.

        Hanford ($64.1 million, 2035 Accelerated Completions Account):

                <bullet> Begin to retrieve and package wastes from 8 to 
                20 tanks for disposal as TRU waste at the Waste 
                Isolation Pilot Plant.
                <bullet> Pursue supplemental low-activity waste 
                technologies to prepare that waste for disposal as low-
                level waste.
                <bullet> Proceed with final stabilization of residues 
                for tank closures.

        Idaho ($97.3 million, 2012 Accelerated Completions Account):

                <bullet> Begin design of a facility to treat and 
                stabilize the approximate 1 million gallons of liquid 
                sodium-bearing wastes remaining in the Idaho tanks in 
                order to dispose of it as TRU waste.
                <bullet> Proceed with final stabilization of residues 
                for tank closures.

        Savannah River Site ($188.6 million, 2035 Accelerated 
        Completions Account):

                <bullet> Initiate detailed design and construction of 
                the Salt Waste Processing Facility (to separate certain 
                tank wastes into high-activity and low-activity 
                fractions for subsequent treatment and disposal).
                <bullet> Proceed with an in-tank process to remove low-
                curie salt tank wastes for on-site disposal as low-
                level waste.
                <bullet> Proceed with activities to separate actinides 
                (some TRU isotopes and some strontium) from tank 
                wastes, so that the actinides would be processed 
                through the Defense Waste Processing Facility and 
                disposed of as high-level waste and remaining as low-
                level waste.
                <bullet> Grout residual tank waste for on-site disposal 
                in the Saltstone vaults as low-level waste.
                <bullet> Proceed with final stabilization of residues 
                for tank closure.

                          ACCELERATED CLEANUP

    33. Senator Bill Nelson. Secretary Roberson, the DOE was supposed 
to report to Congress within 60 days of enactment of the Fiscal Year 
2004 Energy and Water Development Appropriations Act (i.e., by February 
1, 2004) regarding proposed statutory changes for its ``Accelerated 
Cleanup'' program. When can we expect this report and what changes will 
DOE propose?
    Ms. Roberson. I apologize for the tardiness of our response, but 
thank you for the opportunity to identify statutory changes critical to 
accelerated risk reduction, cleanup, and closure of Department sites. 
You should receive our formal response shortly.
    We have identified one statutory change for the accelerated cleanup 
program that the Department formally recommended to Congress in August 
2003. This legislation would clarify the Department's authority to 
separate and dispose of tank waste according to the risk it presents. 
The Department has been in discussion with the affected States and 
congressional delegations in an attempt to agree on a legislative 
solution. Clarification of the Department's authority to classify waste 
remains critical to implementation of accelerated cleanup plans at 
Idaho, Hanford, and the Savannah River Site. These discussions resulted 
in agreement with the State of South Carolina on a legislative 
approach, and we appreciate the committee's consideration of this 
approach with respect to the Savannah River Site in the National 
Defense Authorization Act for Fiscal Year 2005.
    The Department has not identified any additional statutory changes 
needed to execute accelerated cleanup. However, the cleanup program 
continues to implement various initiatives (e.g., baseline validation 
reviews, acquisition strategies, and development of site Risk-Based End 
State documents) that may, at some point in the future, lead to 
identification of additional desirable statutory changes. Should these 
initiatives lead to identification of additional changes to support 
accelerated cleanup, the Department will inform Congress.

    34. Senator Bill Nelson. Secretary Roberson, the Risk-Based End 
States (RBES) project is based on the premise that cleanup should focus 
on the risks to human health and safety, and protection of the 
environment consistent with the future use of the property. It appears 
that in some instances the level of cleanup may be less than the level 
previously agreed to under the various cleanup agreements with the 
States. Even before the site RBES vision statements were finalized, 
several State governments and EPA regional offices, including Ohio and 
California, weighed in with strong objections. How is DOE addressing 
the concerns of EPA and these States?
    Ms. Roberson. Stakeholder involvement is an essential part of the 
RBES process. The RBES documents will remain drafts for quite a while 
until we believe that we have adequately and openly addressed any 
issues or concerns with the public and with the regulators. This does 
not overtake the regulatory process. It provides a visible basis for us 
and for the public to understand what we may propose in the process.

    35. Senator Bill Nelson. Secretary Roberson, DOE is attempting an 
ambitious ``Accelerated Cleanup'' program while at the same time 
attempting to negotiate a transition of cleanup responsibilities away 
from EM to other offices, including a new LM, and while also 
restructuring the budget to create new accounts for funding cleanup and 
waste management. What comments and concerns has DOE received from 
stakeholders about these initiatives and about how they will be 
implemented?
    Ms. Roberson. Stakeholder comments about these initiatives and how 
they will be implemented are generally supportive. There have been, 
however, some specific concerns expressed. The transition of certain 
activities from the EM office to other offices has been praised for 
bringing better organization and efficiency to the cleanup effort. 
Concerns have centered on the necessity of working with a number of 
different DOE offices rather than a single EM entity. Stakeholders, 
regulators, and local government officials have also expressed concern 
that after years of developing a close working relationship on numerous 
levels with EM, they will have to begin the process allover with a 
number of different offices. The ability of EM and other offices that 
share responsibilities to act in a coordinated manner so as to avoid 
confusion and having important actions ``fall through the cracks'' is 
another issue of concern.
    The restructuring of the budget to create new accounts has met 
widespread support from interested parties. Stakeholders generally feel 
that the changes have brought about greater transparency and 
accountability and have resulted in a budget that is much easier for a 
layperson to follow. The concerns expressed have centered on the usual 
issues of funding sufficiency and certainty.

                      OFFICE OF LEGACY MANAGEMENT

    36. Senator Bill Nelson. Mr. Owen, DOE's Weldon Springs site in 
Missouri is one of the first sites to be transferred to LM. DOE and the 
State of Missouri signed an agreement to provide funding for monitoring 
agreements. DOE has since withdrawn support for the agreement. Many 
more sites are planned to be transferred to LM. Will DOE reinstate 
funds for monitoring agreements for States and communities?
    Mr. Owen. LM is responsible for over 60 sites across the country; 
one of these is the Weldon Spring Site in St. Charles County, Missouri. 
Since 1993, DOE has provided over $5,000,000, through a grant, to the 
State of Missouri for its participation in the remediation of the 
Weldon Spring Site. DOE continues to provide funding to the State 
through the existing grant but has reduced the level of funding from an 
average of $450,000 per year to $65,000 in 2004. We believe this is an 
appropriate amount for the State's workload in 2004. This reduction is 
commensurate with the overall reduction in work at the site from over 
$60,000,000 per year in active remediation to roughly $1,000,000 a year 
focused on surveillance and maintenance. In addition, DOE continues to 
fund the Weldon Spring Citizens Commission as an integral component of 
our public participation efforts and St. Charles County to perform 
independent monitoring of ground water.
    LM expects to assume responsibility for an additional 45 sites over 
the next 5 years. DOE intends to continue to compensate affected State 
and local governments for work that is required to ensure the 
protection of human health and the environment at our sites.

    37. Senator Bill Nelson. Mr. Owen, what is the current status of 
the claims under the Energy Employees Occupational Illness Compensation 
Program Act?
    Mr. Owen. As of September 3, 2004, the DOE has effectively 
completed its work on 8,197--data acquisition from DOE sites and case 
processing. This number includes 3,755 completed/closed cases--
applicants have either received a determination or their cases were 
closed for lack of eligibility or the applicant withdrew. In addition 
another 14,971 cases are currently being developed. Lastly, 2,213 cases 
are in th queue awaiting development.

    38. Senator Bill Nelson. Mr. Owen, how do those numbers compare to 
fiscal year 2003 and fiscal year 2002?
    Mr. Owen. The Department's Physician Panel rule governing the 
programs procedures became effective on September 13, 2002. At this 
point the Department began processing cases, but by the end of fiscal 
year 2002, no cases had gone through the Physician Panel determination 
process. At the end of fiscal year 2002, the Department had received 
approximately 12,000 cases. While the Department began processing cases 
immediately after the rule became effective, the first few months after 
the rule became effective, the program office spent the majority of its 
resources setting up the program (establishing procedures, developing 
processes, hiring contractors and staff, etc.).

    39. Senator Bill Nelson. Mr. Owen, what remedies is DOE looking at 
to improve the situation for the ``Cold War'' veterans?
    Mr. Owen. For the past 10 years, the Department has assisted and 
continues to assist ``Cold War'' contractor employees by providing 
benefits consistent with section 3161 of the National Defense 
Authorization Act for Fiscal Year 1993. The focus of the program when 
it began about 10 years ago was to assist individuals whose careers 
were dedicated to weapons production. The majority of those individuals 
have now retired. LM is now also responsible for oversight of benefit 
continuity for contractor employees at site closure. The Department 
believes that there are progressive benefit programs in place to 
address the needs of contractor employees at site closure, some of whom 
are ``Cold War'' employees, and carefully reviews those programs.

    40. Senator Bill Nelson. Mr. Owen, the risk based end states draft 
headquarters documents reference a modification process for changing 
the site end states in the future. The modification process is not 
specified in those documents. Once the sites are transferred, are there 
provisions for modifying the site end states within LM?
    Mr. Owen. LM is working closely with the EM office in the 
development and review of the RBES documents. LM conducts annual 
inspections at sites where we are required to perform long-term 
surveillance and maintenance. One component of that annual inspection 
is to evaluate potential future changes in the use of the site and/or 
the surrounding area. A decision to change a site's land use would be 
dependent on the relevant land use controls and appropriate 
consultation with the affected Federal, State, local, and tribal 
governments and/or adjacent landowners.

    [Whereupon, at 4:00 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                   STRATEGIC FORCES AND CAPABILITIES

    The subcommittee met, pursuant to notice, at 9:32 a.m., in 
room SR-222, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Cornyn, and 
Bill Nelson.
    Majority staff member present: L. David Cherington, 
counsel.
    Minority staff member present: Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Michael N. Berger, Bridget E. 
Ward, and Nicholas W. West.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; Russell J. Thomasson, assistant to 
Senator Cornyn; and William K. Sutey, assistant to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I am going to call the Strategic Forces 
Subcommittee hearing to order here. I am going to go ahead and 
make an opening statement. My hope is by the time I finish my 
opening statement, we will have some minority members here, 
then we can go ahead with testimony. We will maybe give Senator 
Cornyn an opportunity to make an opening statement, if he would 
like.
    This hearing will come to order. I want to welcome all of 
you here. I am pleased to welcome our witnesses today: 
Administrator of the National Nuclear Security Administration 
(NNSA) and Under Secretary of Energy Linton F. Brooks, and 
Admiral James O. Ellis, Jr., Commander, U.S. Strategic Command 
(STRATCOM).
    Gentlemen, I thank you both for your service to our Nation 
and for taking the time and effort to join us here today.
    We are here to receive testimony on U.S. strategic forces 
and capabilities. I would venture an informed guess that no 
command in the U.S. military has gone through more changes than 
STRATCOM over the last couple of years. These changes reflect 
the rapid evolution of the international security environment, 
the merger of Space Command and Strategic Command, and 
previously unassigned new missions now assigned to STRATCOM.
    There is no more important task for this subcommittee than 
to exercise its oversight functions with respect to U.S. 
nuclear forces. Nuclear weapons remain the most awesome tool in 
our arsenal. I cannot foresee any circumstances in which 
nuclear weapons will cease to play a central role in our 
deterrence posture. The safety, security, reliability, and 
effectiveness of these weapons remains paramount.
    The Department of Defense (DOD) concluded in its 2001 
Nuclear Posture Review (NPR) that a new, more flexible, 
adaptive strategic triad was needed to deal with new threats. 
These threats are uncertain to their origins, but certainly 
quite different than those posed in the Cold War. Rather than 
rely exclusively on a nuclear triad of land, sea-based 
intercontinental ballistic missiles (ICBMs), and long-range 
bombers to deter a single adversary, the NPR outlined a new 
triad consisting of offensive strike forces, both nuclear and 
non-nuclear, defensive systems, both active and passive, and an 
infrastructure capable of supporting these systems. These are 
all supported by robust command, control, and intelligence 
capabilities.
    The purpose of these capabilities is not simply to deter, 
but to assure our allies and to dissuade, deter and, if 
necessary, defeat our adversaries. The new missions assigned to 
STRATCOM reflect these new strategic realities with which we 
must deal. Strategic does not equate to nuclear anymore. 
Strategic could mean an information operation to disable an 
adversary command and control network. Strategic could mean a 
conventional munition delivered precisely on a weapons of mass 
destruction (WMD) target, targets that once could easily be 
defeated with nuclear weapons are now or will be held at risk 
with non-nuclear systems.
    I believe that these new options raise the nuclear 
threshold higher than it has ever been. I am aware that much 
work is already being done. Studies are proceeding on the new 
shape of Global Strike. One purpose of this hearing is to more 
fully explore the full range of strategic capabilities the 
Nation needs to achieve prompt, decisive results, when 
required, and to understand the scope of the programs that 
support these capabilities.
    None of this is to say that defenses and advanced non-
nuclear weapons and delivery systems can deter or defeat the 
entire range of threats. Our legacy nuclear weapons and 
delivery systems will remain important to hold certain targets 
at risk and for no other reason than their enormous destructive 
power remains a powerful deterrent.
    There are no new nuclear weapons initiatives in the budget 
request for fiscal year 2005. Over the last 2 years, we have 
also debated whether advanced nuclear concepts may contribute 
to our ability to hold at risk emerging threats. In both the 
fiscal year 2003 and fiscal year 2004 requests, the Department 
of Energy (DOE) requested funding or legislation for several 
nuclear weapons initiatives, including the feasibility study on 
the Robust Nuclear Earth Penetrator (RNEP) and Advanced 
Concepts Initiative research.
    As a result of these debates, I believe we were able to put 
some safety checks in place which will allow research and 
feasibility studies to continue while still allowing Congress 
the final say on more advanced development. It is my view that 
we found a good balance between nuclear weapons research and 
studies versus engineering development in subsequent phases.
    A series of recent reports, including the NPR, to Congress 
by the panel to assess the reliability, safety, and security of 
the United States nuclear stockpile, known as the Foster Panel 
reports, and the report of the commission on maintaining the 
United States nuclear weapons expertise, known as the Chiles 
Report, pointed out the importance of sustaining key parts of 
the third leg of the new triad, the nuclear weapons 
infrastructure and expertise in the nuclear weapons program.
    The advanced concepts initiative provides a new outlook to 
ensure our weapons scientists, engineers, and technicians have 
opportunities to conduct research and studies to ensure that 
they are able to maintain their skills and the abilities to 
respond to military requirements sent or to be sent from the 
DOD.
    The feasibility study on the RNEP is an example of an 
advanced concept which seeks to meet a specific military 
requirement of the DOD. There could be a variety of advanced 
concepts which address reliability, safety, or security issues, 
and ensure our weapons labs and plants are ready to deliver is 
paramount to our Nation's nuclear weapons program.
    The balance we achieve is in the requirement that should 
the decision be taken to move beyond research for feasibility 
studies for the RNEP or low-yield nuclear weapons, the 
administration must first receive a specific authorization from 
Congress. This will keep Congress informed of these latter 
phases of nuclear weapons development and will provide ample 
opportunity for a vigorous debate on these issues to occur at 
that time.
    We do not want our nuclear weapons scientists to be afraid 
to think for fear of breaking the law. We should let our 
scientists think about the science of nuclear weapons. We 
should let the policy makers of both the administration and 
Congress decide, based on accepted facts established by solid 
research, whether we should proceed forward with new or 
modified nuclear weapons.
    There are several other issues that I believe we need to 
explore in some depth in this hearing. Several projects key to 
the success of the Science-Based Stockpile Stewardship Program 
are struggling for a variety of reasons. These include the 
National Ignition Facility, the Modern Pit Facility, and the 
Mixed Oxide (MOX) Facility.
    Safeguards and security, especially the new design basis 
threat requirements, remain a significant concern. I am still 
not satisfied that NNSA has provided enough transparency in its 
budget to request for Readiness in Technical Base and 
Facilities (RTBF). In my view, we cannot afford to defer 
maintenance until we end up with a dilapidated and potentially 
dangerous nuclear weapons complex.
    I believe that the development and construction of modern 
facilities, the research encouraged by the Advanced Concepts 
Initiative, and maintaining the infrastructure across the NNSA 
complex are seed corn for the future of our nuclear deterrent 
forces.
    Ambassador Brooks, I hope that during your testimony and 
the question period we can get a better assessment of how NNSA 
is addressing challenges in each of these areas.
    Now I would like to recognize other members of the 
committee that are here. I will start with my good friend from 
Texas, Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. I guess that was 
an easy choice, given the conflicts that I know members have 
with other committee meetings. Indeed, I am going to have to 
leave here momentarily, but I did want to say to the Ambassador 
and Admiral, thank you for being here this morning to talk 
about this very important subject. We certainly do not want the 
occasion to pass without thanking you again for your service to 
our country.
    As we transform our country's defense and meet new and 
emerging threats, you both play a critical role in redefining 
and reshaping our nuclear security and strategic forces for the 
21st century. I believe that I would adopt everything that 
Chairman Allard has said about the importance of that issue, 
particularly when it comes to developing responsive nuclear 
weapons infrastructure.
    That is, in many ways, as important as strike forces in 
meeting our defense objectives. The capabilities of the 
defense, technical, and manufacturing infrastructure provide 
the ability to quickly respond to new or emerging threats. I 
believe that, Ambassador Brooks, in your statement you pointed 
out that physically restoring the capability to produce 
plutonium pits in sufficient quantities will be essential to 
responsive nuclear weapons infrastructure. Chairman Allard made 
the same reference.
    The Modern Pit Facility or Pit Rework Facility will support 
the pit remanufacturing needs of the entire stockpile. This 
capability is important, even if we never produce another 
nuclear, another new weapon. I strongly support the building of 
a Modern Pit Facility and encourage members to fully fund this 
effort.
    With that, I would say once again thank you very much for 
being here and look forward to reading your testimony.
    I will have to leave, Mr. Chairman, for another committee 
meeting, but thank you for conducting this important hearing.
    Senator Allard. Well, thank you, Senator Cornyn, for being 
here. You are an active player on this committee, and it is a 
delight to have you on this subcommittee. The ranking member, 
Senator Nelson, will be here shortly, I am told. What I thought 
we would do is we will proceed with the testimony from the 
panel. Then when he arrives, we will give him an opportunity to 
make his opening statement.
    So which of you would like to go first? Ambassador Brooks.

   STATEMENT OF AMBASSADOR LINTON F. BROOKS, ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ambassador Brooks. Thanks, sir, and thank you for the 
opportunity to talk about the administration's views on nuclear 
policy. I am especially pleased to be joined by Admiral Ellis, 
who is a friend and colleague of long standing. He will be 
speaking from the military perspective.
    I have submitted a written statement and would like, with 
your permission, to summarize it at this time.
    Senator Allard. Without objection, both of your full 
statements will be made a part of the record.
    Ambassador Brooks. In May 2001, President Bush spoke at the 
National Defense University (NDU), and he articulated his 
vision for nuclear weapons. ``Nuclear weapons still have a 
vital role to play in our security and that of our allies. I am 
committed to achieving a credible deterrent with the lowest 
possible number of nuclear weapons, consistent with our 
national security needs.''
    The President in that statement and elsewhere recognized 
that a full decade after the Cold War, it was time to do a 
fundamental reexamination of the post-Cold War role of nuclear 
weapons. The results of that examination were codified in the 
December 2001 NPR, which is setting the direction for our 
nuclear forces for the next decade and beyond.
    That review reaffirmed that nuclear weapons remain crucial, 
but consistent with the change in the international 
environment, it also represented a radical departure from the 
past. It was, in my view, the most fundamental rethinking of 
the roles and purposes of nuclear weapons in the quarter 
century.
    Among the many changes in the NPR, three seem to me to be 
particularly important. Instead of focusing on deterring the 
nuclear threat posed by a single specific enemy, as we did 
during the Cold War, it established the need for a 
capabilities-based force to accomplish four distinct policy 
goals.
    Second, instead of treating nuclear weapons in isolation, 
it considered them as an integrated component of American 
military power, allowing us to use other means to achieve 
objectives that previously could only have been addressed with 
nuclear weapons.
    Third, and perhaps most important, instead of treating the 
future as static and predictable, it recognized requirements 
could change and U.S. nuclear forces must be prepared to 
respond to those changes.
    Under this new thinking, our nuclear forces serve four 
goals. First, to assure allies of our commitment to them and 
our ability to make good on that commitment. The implications 
of this goal are that our forces have to be effective. They 
have to be reliable and they have to be seen that way by our 
allies. Assurance serves our nonproliferation objectives, 
because those allies with the capability to develop nuclear 
weapons for themselves do not need to because they have 
confidence in the continued reliability of the U.S. nuclear 
umbrella.
    Second, our nuclear forces serve to dissuade potential 
adversaries from trying to match our capabilities. That means 
that we need a combination of forces and infrastructures so 
that no potential power can have any hope of matching our 
capability and thus will be dissuaded from trying.
    Third, our nuclear forces have to fulfill their traditional 
role of deterring threats. That implies an ability to hold at 
risk those elements of power that a potential adversary values.
    Finally, the NPR called for forces capable of defending and 
defeating those threats that for whatever reason could not be 
deterred.
    Those first two policy goals help determine the size of our 
force. The second two policy goals help determine the nature of 
those forces.
    As you said in your opening statement, Mr. Chairman, if 
Admiral Ellis and I had appeared before you a few years ago, we 
would have spoken of a triad. We would have spoken of ICBMs and 
submarine-launched ballistic missiles (SLBMs) and bombers and 
how they work together. The NPR broadens that concept to a new 
triad of strike capabilities, both nuclear and non-nuclear, 
active and passive defenses, especially ballistic missile 
defense (BMD), research and development (R&D), and an 
industrial infrastructure.
    Now, there have been some press reports that the new triad 
in the NPR somehow increased reliance on nuclear forces. That 
is not true. In fact, they continued the trend of the past 
decade toward a reduced reliance. By having a new emphasis on 
BMD, we are no longer as dependent on offensive strike to 
enforce deterrence. By strengthening non-nuclear strike forces, 
we are no longer as dependent on nuclear weapons for the 
offensive component of deterrence.
    Our new approach was coupled with a judgment that we no 
longer need to plan as if Russia represented an immediate 
threat. That was the basis for the dramatic reduction in 
deployed forces codified in the Moscow Treaty. Over the next 8 
years, the United States will reduce deployed warheads by about 
two-thirds from today's level.
    The experience of the last decade and a half and our 
difficulty in predicting the future make it unwise for us to 
base our security on false assumptions that we can predict the 
future. Thus, while we reduce our deployed weapons, we have to 
plan against an uncertain future. Specifically, we have to be 
ready to respond to both unforeseen technical problems and 
unanticipated geopolitical changes.
    One part of that response is a non-deployed stockpile. As 
part of its plan to implement the NPR, the administration is 
assessing the long-term requirements for non-deployed weapons. 
Congress has requested it be provided with the results of that 
assessment in a revised stockpile plan. We are working to 
complete that task as soon as possible. While we regret the 
delay in submitting the plan, the importance of nuclear weapons 
to our security makes it imperative to conduct a thorough 
review.
    Now, I am not able to provide specifics, and I could not do 
so in an unclassified forum in any case, but let me give you 
some of the considerations involved in such a review.
    The 2012 nuclear stockpile will be substantially reduced 
from current levels. The reductions will not lower the 
stockpile to the 1,700 to 2,200 weapons called for in the 
Moscow Treaty. We will always need additional weapons beyond 
those that are deployed for logistics spares and to conduct 
surveillance testing.
    In addition, we will need warheads to meet our commitments 
to our allies. We will maintain a small number of warheads for 
U.S. nonstrategic nuclear forces. Finally, we will retain 
warheads over and above those deployed as a hedge against 
geopolitical and technical risk so that we can augment the 
operationally-deployed force in the event that world events 
require. We will also need to preserve diversity in our force 
so that a problem in one system does to result in a major 
degradation in our capability.
    One of the many new concepts in the NPR, and the most 
important for me personally, is the idea of a robust industrial 
base--what we are coming to call a responsive nuclear weapons 
infrastructure--is as important as strike forces or defenses in 
achieving our long-term defense goals.
    Defense scientific, technical, and manufacturing 
infrastructure must provide us the means to respond to new 
challenges. If we can do this, if we can produce new or 
replacement warheads on a short time scale, if we can respond 
to technical surprise, then we can go much further in reducing 
the stockpile we have to maintain on hand.
    In my written testimony, I discuss in some detail the 
characteristics of a responsive infrastructure. I would like to 
highlight only one area right now, and that is underground 
nuclear test readiness. I need to make it very clear, as the 
President has made it very clear, that we have no plans to 
resume testing. Our efforts to improve test readiness are a 
hedge against the possibility of a problem arising that cannot 
be confirmed or a fix certified without a test. Our goal is to 
achieve the 18-month test readiness posture called for in the 
Defense Authorization Act. That is an appropriate time, because 
it represents a typical time to diagnose a problem, design a 
test, confirm the problem, and certify a fix.
    A responsive infrastructure has both an intellectual and a 
physical dimension. Intellectually, our proposals to examine 
advanced concepts will help train scientists and engineers who 
have to provide the design underpinning for the infrastructure 
of the future. Physically, as you mentioned in your opening 
statement, one of the most important steps is restoring a 
capability to produce plutonium pits.
    The Modern Pit Facility (MPF), or what I am coming to call 
more accurately the Pit Rework Facility, will support the 
remanufacturing needs of the stockpile. As you said in your 
statement and Senator Cornyn said, we need this facility even 
if the United States never produces another new weapon. All 
existing plutonium pits will ultimately need to be rebuilt due 
to aging effects caused by radioactive decay.
    Let me turn to two particularly contentious elements of the 
administration's budget request and describe how they relate to 
the principles we have been discussing. In 2005 we propose to 
continue a modest research effort on the Advanced Concepts 
Initiative and to continue the RNEP feasibility and cost study. 
There has been a lot of discussion of these two programs. So I 
want to review them in some detail.
    We intend to use Advanced Concepts funds to investigate new 
ideas, not necessarily new weapons. For example, we are 
beginning a study examining the feasibility of adapting an 
existing nuclear warhead to provide a cruise missile capability 
that has enhanced safety and use control. We are looking at the 
feasibility of improving warhead design margins so that we can 
have continued high confidence as we get farther away from 
nuclear testing. We are in discussion with the Air Force about 
examining the utility of nuclear weapons to destroy chemical 
and biological agents, although we have made no decisions on 
that.
    Perhaps the single most controversial request in our budget 
is continued funding for the RNEP. This study is to determine 
whether an existing nuclear warhead, either the B-61 bomb or 
the B-83 bomb, could be adapted without nuclear testing to 
improve our ability to hold at risk hard and deeply buried 
targets.
    I want to correct some misconceptions. There is a clear 
military utility to this weapon. It has been recognized for 
almost a decade. That is why the DOD asked for it to be 
studied. The DOD submitted a classified report to this 
committee last year, which remains valid and provides some 
additional details inappropriate for this session.
    Second, despite this utility, we are only going to move 
beyond the study stage if the President approves it and if the 
funds are authorized and appropriated by Congress. We included 
funds in our out-year projections only to preserve the 
President's option. There will be no decision until the study 
is completed. The law is very clear, the beginning development 
engineering will require specific congressional approval.
    Finally, even if the study proves that the weapon is 
feasible, the President decides to proceed with it, and 
Congress agrees with that decision, this weapon would not 
change the policy goal of deterrence. Deterrence requires that 
we be able to hold at risk things that an adversary values. In 
our effort to determine the effectiveness of this earth 
penetrating weapon, it reflects not a change in deterrence, but 
a continued emphasis on it. Once again, I refer you to the 
classified reports submitted last year.
    I would like to conclude by addressing three misconceptions 
raised both by Members of Congress and by others about our 
efforts. First, there is the suggestion that you referred to in 
your opening statement that we sought repeal of the prohibition 
on low-yield warhead development in order to develop and field 
new, low-yield nuclear weapons.
    Second, there is the perception that in doing so we are 
going to blur the distinction between nuclear and conventional 
weapons and make nuclear use more likely.
    Finally, there is a perception that nuclear weapons R&D 
will undercut our nonproliferation efforts. All three of those 
perceptions are wrong. Press accounts have spoken of 
administration plans to develop new low-yield weapons, but 
there are no such plans. Such warhead concepts could not in any 
case proceed to full-scale development, much less production, 
unless Congress authorizes and appropriates the funds.
    The repeal of the prohibition on low-yield warhead 
development simply removed the chilling effect on our ability 
to think, because somehow those thoughts ``could lead to'' 
designs of less than five kilotons.
    None of our efforts are blurring the distinction between 
conventional and nuclear weapons or making nuclear use more 
likely. The U.S. stockpile has had warheads capable of 
producing very low-yields for decades. At the height of the 
Cold War, thousands of these warheads were deployed. The simple 
possession of these weapons never made nuclear use by the 
United States more likely, even in regional confrontations 
where their use might not have provoked a Soviet response. Only 
the President can authorize use of nuclear weapons. No 
President would employ any nuclear weapon of any yield except 
in the gravest of circumstances. The nuclear threshold for the 
United States has been, is, and always will be high.
    Finally, our major nonproliferation objective is to prevent 
rogue states and terrorists from acquiring WMD. Neither the 
Advanced Concept Initiative efforts nor studies of earth-
penetrating weapons will increase incentives for terrorists to 
acquire such weapons. Those incentives are already high. Our 
efforts are not likely to have any impact on rogue states, 
whose proliferation activities appear independent of U.S. 
nuclear programs.
    Over the past decade, we have seen significant cuts in the 
number of U.S. weapons. We have taken weapons off alert. We 
have ended nuclear testing. We have ended weapons production. 
There is no evidence that that had any effect whatsoever on the 
behavior of the North Koreas or the Irans of the world.
    Further, for more responsible states, our efforts are also 
not going to hurt nonproliferation. Once again, we have an 
example. The same weapon that I am trying to see if I can get 
to penetrate into rock we decided to have penetrate into frozen 
soil in the mid-1990s. That decision was taken just before the 
last review conferences of the Nonproliferation Treaty (NPT) 
and appears to have had no impact on the success of the world's 
reaffirmation of nonproliferation norms.
    Mr. Chairman, the United States is going to continue to 
lead the way to a safer world through deep reductions in 
nuclear forces, through Nunn-Lugar and Cooperative Threat 
Reduction (CTR) efforts. But we will have to continue to 
maintain an effective, reliable, and capable nuclear force as a 
hedge against an uncertain future.
    Our efforts to reduce the stockpile to the minimum 
consistent with national security, to address options for 
stockpile transformation, and to restore a responsive nuclear 
weapons infrastructure are key elements of the administration's 
national security strategy. Carrying these out is in the 
national interest and poses no risk to our nonproliferation 
objectives.
    This concludes my statement, sir. After you have heard from 
Admiral Ellis, I look forward to your questions.
    [The prepared statement of Ambassador Brooks follows:]

           Prepared Statement by Ambassador Linton F. Brooks

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the administration's views on nuclear policy, U.S. 
nuclear forces, the nuclear weapons stockpile to support those forces, 
and ongoing work on implementing the 2001 Nuclear Posture Review (NPR). 
I also want to thank all of the members for their strong support for 
our critical national security activities. Before I begin my remarks, I 
would like to say how pleased I am to be on this panel today with my 
friend and colleague, Admiral James Ellis, Commander of the United 
States Strategic Command (STRATCOM), who will present the military 
perspective on the same issues.

                 OVERVIEW OF THE NUCLEAR POSTURE REVIEW

    Since before he took office, President Bush has been committed to 
achieving a credible deterrent with the lowest number of nuclear 
weapons consistent with current and future national security 
requirements. On May 1, 2001, at the National Defense University (NDU), 
he articulated his vision:

        Nuclear weapons still have a vital role to play in our security 
        and that of our allies. We can, and will, change the size, the 
        composition, the character of our nuclear forces in a way that 
        reflects the reality that the Cold War is over. I am committed 
        to achieving a credible deterrent with the lowest-possible 
        number of nuclear weapons consistent with our national security 
        needs, including our obligations to our allies. My goal is to 
        move quickly to reduce nuclear forces. The United States will 
        lead by example to achieve our interests and the interests for 
        peace in the world.

    The President recognized clearly that, almost a decade after the 
collapse of the Soviet Union, it was time to conduct a fundamental 
examination of the role of nuclear weapons in the post-Cold War world. 
The results of that reexamination were described in the December 2001 
NPR. The purpose of that review was to set forth the direction for 
American nuclear forces over the next decade and beyond. Let me 
highlight some key points about the review.
    The NPR reassessed the role of nuclear forces and their 
contribution toward meeting defense policy goals. It reaffirmed that 
nuclear weapons, for the foreseeable future, will remain a crucial 
element of U.S. national security strategy. But, consistent with the 
changed international environment, the NPR represented a radical 
departure from the past and the most fundamental re-thinking of the 
roles and purposes of nuclear weapons in almost a quarter-century. 
Among the many changes, three are the most important:

        <bullet> Instead of focusing on deterring the nuclear threat 
        posed by a single, specific enemy, as in the Cold War, it 
        established the need for a capabilities-based force to 
        accomplish four distinct defense policy goals.
        <bullet> Instead of treating nuclear weapons in isolation, it 
        considered them as an integrated component of American military 
        power, thus allowing us to achieve national security objectives 
        through other means that previously could only have been 
        addressed with nuclear weapons.
        <bullet> Instead of treating the future as static and 
        predictable, it recognized that requirements could change and 
        that U.S. nuclear forces must be prepared to respond to those 
        changes, including by increasing the fraction of the force that 
        is deployed.

    Let me discuss each of these in turn.

                THE POLICY GOALS OF U.S. NUCLEAR FORCES

    Under the new thinking of the NPR, our nuclear forces serve four 
goals:

        <bullet> To assure allies of our commitment to them and our 
        ability to make good on that commitment. The implications of 
        this goal are that forces must be effective and reliable. 
        Assurance serves our non-proliferation objectives because those 
        allies with the capability to develop nuclear weapons can 
        continue to forego doing so, safe in the knowledge of the 
        reliability of the U.S. nuclear umbrella.
        <bullet> To dissuade potential adversaries from trying to match 
        our capabilities or from engaging in strategic competition. 
        This requires that we maintain a combination of forces and 
        infrastructure so that no potential power can have any hope of 
        matching our capability and will be dissuaded from attempting 
        to do so.
        <bullet> To deter any threats that do emerge. This implies an 
        ability to hold at risk those elements of power that a 
        potential adversary values. I will say more on this point in a 
        moment.
        <bullet> To defend against and defeat those threats that, for 
        whatever reason, we do not deter.

    The first two policy goals help determine the size of our nuclear 
forces, while the second two govern the nature of those forces. As the 
committee will readily see, these goals are, in a sense, the goals of 
our entire military. That is why Admiral Ellis often says that we 
should, perhaps, refer to the NPR more generally as a Strategic Posture 
Review.

                             THE NEW TRIAD

    Had Admiral Ellis and I appeared before you a few years ago, we 
would have spoken of a ``triad'' of strategic nuclear forces. This 
triad included bombers, intercontinental ballistic missiles (ICBMs), 
and submarine launched ballistic missiles (SLBMs), each with unique 
strengths that operated synergistically to ensure our ability to 
retaliate under any condition of war initiation. The NPR broadens our 
thinking to encompass a new triad of flexible response capabilities 
consisting of:

        <bullet> Non-nuclear and nuclear strike capabilities including 
        systems for command and control,
        <bullet> Active and passive defenses including ballistic 
        missile defenses (BMD),
        <bullet> Research and development (R&D) and industrial 
        infrastructure needed to develop, build, and maintain nuclear 
        offensive forces and defensive systems.

    To provide a practical means to implement this new, integrated 
approach, the President established a new STRATCOM, with responsibility 
for Global Strike--both nuclear and non-nuclear--and for integrating 
missile defenses with offenses.
    Contrary to some press reports, this new triad--and the NPR 
generally--continued the trend of the past decade towards a reduced 
reliance on nuclear forces in U.S. national security strategy. The new 
emphasis on BMD means that the U.S. will no longer be as heavily 
dependent on offensive strike forces to enforce deterrence as it was 
during the Cold War. The strengthening of non-nuclear strike forces--
including precision conventional strike and information operations--
means that the U.S. will be less dependent than it has been in the past 
on nuclear forces to provide offensive deterrent capabilities.

                 PRESENT AND FUTURE NUCLEAR STOCKPILES

    Our new approach, coupled with the judgment that we no longer need 
to plan our forces as if Russia presented an immediate threat to the 
United States, was the basis for dramatic reductions--codified in the 
Moscow Treaty--in operationally-deployed strategic nuclear forces. Over 
the next 8 years, the United States will cut the number of deployed 
warheads by approximately two-thirds from today's level. But the 
experience of the past decade and a half makes it clear that it is 
unwise for us to base our security on the false belief that we can 
predict the future. Thus, while dramatically reducing the number of 
deployed weapons, we must plan against an uncertain future.
    Specifically, the United States needs to be prepared to respond to 
both unforeseen technical problems and unanticipated geopolitical 
change. One element of such a response is a responsive infrastructure, 
which I will discuss in a moment. But another component of such a 
response is the non-deployed stockpile. As part of its plan to 
implement the NPR, the administration is conducting an assessment that, 
when completed, will clarify the long-term requirements for non-
deployed weapons. Congress requested such a revised stockpile plan as 
well. The administration is working to complete this complex task as 
soon as possible. While we regret the delay, the importance of nuclear 
weapons to our security makes it imperative to conduct a thorough 
review.
    While I am not prepared to provide specifics--and could not do so 
in an unclassified forum in any case--I can provide some of the 
considerations factoring into the review. The 2012 nuclear stockpile 
will be substantially reduced from current levels. But reductions will 
not lower the stockpile to 1,700-2,200 total warheads. Additional 
warheads over and above the operationally-deployed strategic warheads 
will be needed for routine maintenance of the stockpile including as 
logistics spares and to replace those warheads eliminated during 
destructive surveillance testing.
    In addition, a small number of warheads (reduced by 90 percent from 
Cold War levels) for U.S. non-strategic nuclear forces will be 
retained, among other things, to meet commitments to allies.
    Finally, warheads over and above the operationally-deployed force 
will be retained over the near term for prudent risk management in 
connection with mitigating geopolitical and technical risks. In 
particular, sufficient warheads will be retained to augment the 
operationally-deployed force in the event that world events require a 
more robust deterrence posture.
    We also must preserve diversity of warhead types in the overall 
stockpile in order to mitigate technical risks. Although we are making 
progress in restoring a responsive nuclear weapons production 
infrastructure, we are not yet able to produce replacement warheads in 
sufficient quantity to respond if a technical problem called into 
question the safety or reliability of one or more warheads critical to 
our Nation's deterrent. Thus, for example, we are planning to deploy 
two types of ICBM warheads--the W87 and W78--and will retain sufficient 
numbers of these two types in reserve so that if a technical failure 
occurred in one type, there would be sufficient warheads of the other 
type to restore the operationally-deployed ICBM force. We seek to apply 
this approach, where appropriate, to other nuclear delivery means.

               RESPONSIVE NUCLEAR WEAPONS INFRASTRUCTURE

    Of the many new concepts in the NPR, one of the most important is 
formal recognition that a robust defense R&D and industrial base--a key 
element of which is a responsive nuclear weapons infrastructure--is as 
important as strike forces or defenses in achieving our overall defense 
goals. The demonstrated capabilities of the defense scientific, 
technical, and manufacturing infrastructure, including its ability to 
sustain and adapt, provides the U.S. with the means to respond to new, 
unexpected, or emerging threats in a timely manner.
    If we can employ this infrastructure to produce new or replacement 
warheads on a timescale in which geopolitical threats could emerge, or 
in response to stockpile ``surprise'', then we can go much further in 
reducing the standing stockpile and meet the President's vision of the 
smallest stockpile consistent with our Nation's security.
    By ``responsive'' we refer to the resilience of the nuclear weapons 
enterprise to unanticipated events or emerging threats, and the ability 
to anticipate innovations by an adversary and to counter them before 
our deterrent is degraded--all the while continuing to carry out the 
day-to-day activities in support of the stockpile. Unanticipated events 
could include complete failure of a deployed warhead type. Emerging 
threats could call for new or modified warhead development, or for 
providing additional warheads for force augmentation.
    A key measure of ``responsiveness'' is how long it would take to 
carry out certain activities to address stockpile ``surprise'' or deal 
with new or emerging threats. Specific goals have been established for 
several activities; our progress towards meeting them is an important 
measure of the success of our program:

        <bullet> Fix stockpile problems: The ability to assess a 
        stockpile problem, once one has been identified, and then 
        design, develop, implement, and certify a fix will depend on 
        the nature and scope of the problem. For a relatively minor 
        problem, our goal is to be able to deploy warheads modified to 
        overcome the problem within 1 year.
        <bullet> Adapt weapons: Our goal is to achieve a capability to 
        modify or repackage existing warheads within 18 months of a 
        decision to enter engineering development. I note that under 
        current law such a step would require congressional approval.
        <bullet> New warhead design, development, and initial 
        production: Our goal is to be able to design, develop, and 
        begin production of a new warhead within 3-4 years of a 
        decision to enter engineering development. Among other things 
        this capability is critical to reduce reliance on warheads that 
        are beyond their life expectancies. Once again, congressional 
        approval would be required. While there are no current plans to 
        develop new weapons, maintaining the capability is an important 
        pre-requisite to extensive reductions.
        <bullet> Quantity production of new warheads: Our goal is to 
        maintain sufficient production capacity to produce new warheads 
        in sufficient quantities to meet any defense needs that arise 
        without disrupting ongoing refurbishments. In the near term, 
        refurbishment demands, starting later this decade and 
        continuing until about 2014, will dominate production capacity.
        <bullet> Support for force augmentation: We must assure that 
        services such as warhead transportation, tritium support, etc., 
        are not ``long poles in the tent'' for force augmentation--they 
        must be capable of being carried out on a time scale consistent 
        with the Department of Defense's (DOD) ability to deploy 
        weapons.
        <bullet> Underground nuclear test readiness: We have no plan to 
        resume testing; our efforts to improve test readiness are a 
        prudent hedge against the possibility of a problem arising in 
        the stockpile that cannot be confirmed, or a fix certified, 
        without a nuclear test. Our goal is to achieve an 18-month test 
        readiness posture as directed by the Defense Authorization Act. 
        Eighteen months is appropriate because that is a typical time 
        to diagnose a problem and design a test to confirm the problem 
        or certify the fix.

    A responsive infrastructure has both intellectual and physical 
dimensions. Intellectually, the administration's proposals to examine 
new advanced concepts will allow us to train the scientists and 
engineers who must provide the design underpinning for a responsive 
infrastructure. Physically restoring a capability to produce plutonium 
pits in sufficient quantities will be essential. The Modern Pit 
Facility (MPF)--or, more accurately, a pit rework facility--will 
support the pit remanufacturing needs of the entire stockpile. It is 
important to understand that we need this facility even if the United 
States never produces another new weapon. All existing plutonium pits 
will ultimately need to be rebuilt due to aging effects, for example, 
caused by radioactive decay of plutonium.
    We are just beginning the transformation to a responsive nuclear 
weapons infrastructure. I call for your support in this important 
endeavor.

                         NEAR TERM IMPLICATIONS

    Let me now discuss two specific elements of the administration's 
budget request and how they relate to the principles we have been 
discussing. The NPR highlighted the importance of ensuring that the 
weapons complex can adjust to the changing requirements of nuclear 
deterrence in the coming decades. In fiscal year 2005, we propose 
continuing a modest research effort on advanced concepts to meet 
potential new or emerging requirements. We also propose continuing the 
Robust Nuclear Earth Penetrator (RNEP) feasibility and cost study now 
underway.
    Because there has been a great deal of discussion on the 
implications of these two programs, I would like to review them in some 
detail. We intend to use advanced concepts funds to investigate new 
ideas, not necessarily new weapons. For example, we are beginning a 
study examining the feasibility of adapting an existing nuclear warhead 
to provide a cruise missile capability that incorporates enhanced 
safety and user control. Some additional work is underway to examine 
the feasibility of improving warhead design margins in order to ensure 
continued high confidence in warhead reliability without nuclear 
testing. We are also in discussion with the Air Force on examining the 
utility of nuclear weapons to destroy chemical and biological agents, 
although no decisions to study this area have yet been reached. The DOD 
and Department of Energy (DOE) will jointly determine the specific uses 
of the remaining fiscal year 2004 and the proposed fiscal year 2005 
funds.
    Perhaps the single most contentious issue in our budget request is 
continued funding for the RNEP study. This study is to determine 
whether existing warheads--the B61 and the B83--could be adapted 
without nuclear testing to improve our ability to hold at risk 
hardened, deeply buried facilities that may be important to a future 
adversary. I want to correct several misconceptions about this effort:

        <bullet> There is a clear military utility to such a weapon, 
        which is why the DOD asked for it to be studied. A classified 
        report was submitted to this committee last year on this 
        subject and remains valid.
        <bullet> Despite this utility, we will move beyond the study 
        stage only if the President approves and funds are authorized 
        and appropriated by Congress. We included funds in our out-year 
        projections only to preserve the President's options. No 
        decision will be made until the study is completed. The law is 
        clear that beginning development engineering requires 
        congressional approval.
        <bullet> Even if deployed, this weapon does not represent a 
        change from our policy goal of deterrence. Deterrence requires 
        we be able to hold at risk that which an adversary values. Our 
        efforts to determine the potential effectiveness of an earth 
        penetrating weapon reflect a continued emphasis on enhancing 
        deterrence. Once again I refer you to the classified report 
        submitted last year.
Nuclear Misconceptions
    Let me conclude my statement by addressing three misconceptions 
that have been raised both by Members of Congress and by others:

        <bullet> That we sought repeal of the prohibition on low-yield 
        warhead development in order to develop and field new, low-
        yield nuclear weapons;
        <bullet> That in doing so we will blur the distinction between 
        nuclear and conventional weapons, making nuclear use more 
        likely; and
        <bullet> That nuclear weapons R&D necessarily undercuts U.S. 
        nonproliferation efforts.

    While press accounts have spoken of administration plans to develop 
new, low-yield weapons, there are no such plans. Nor does repeal of the 
prohibition on low-yield warhead development commit the United States 
to developing, producing or deploying new, low-yield warheads. Such 
warhead concepts could not in any case proceed to full-scale 
development, much less production and deployment, unless Congress 
authorizes and appropriates the funds required. Repeal of this vague 
restriction simply removed the chilling effect on scientific inquiry 
that has hampered our scientists' ability to explore technical options 
of any yield because such options ``could lead to'' designs of less 
than five kilotons. Our scientists need the freedom to explore new 
concepts both to maintain and exercise their intellectual capabilities 
and to respond to needs that one day might be articulated by this or a 
future President.
    Nor are U.S. R&D programs blurring the line between conventional 
and nuclear weapons, making nuclear use more likely. This is not simply 
an assertion, but is empirically based. Recall that from the 1950s and 
continuing through today, the U.S. nuclear stockpile has contained 
warheads capable of producing very low nuclear yields. At the height of 
the Cold War many thousands of these warheads were deployed, but never 
used--even in regional confrontations where their use would not 
necessarily have provoked a Soviet response. There is no evidence that 
the simple possession of these weapons made nuclear use by the United 
States more likely. To be clear, only the President can authorize use 
of U.S. nuclear weapons and no President would be inclined to employ 
any nuclear weapon, irrespective of its explosive power, in anything 
but the gravest of circumstances. Simply put, the nuclear threshold for 
the United States has been, is, and always will be very high.
    Along these lines, the NPR emphasized an increasing potential to 
base deterrence more on non-nuclear and missile defense capabilities, 
and called for development of high-precision, advanced conventional 
weapons to replace nuclear systems, where possible, to further reduce 
our reliance on nuclear forces to deter aggression.
    Finally, the major U.S. nonproliferation objective is to prevent 
rogue states and terrorist groups from acquiring weapons of mass 
destruction (WMD) and systems for their delivery. Neither advanced 
concepts efforts nor studies of an earth-penetrating weapon will 
increase incentives for terrorists to acquire such weapons--those 
incentives are already high and are unrelated to U.S. capabilities. Nor 
are they likely to have any impact on rogue states, whose proliferation 
activities march forward independently of the U.S. nuclear program. 
Over the past decade we have seen very significant reductions in the 
numbers of U.S. (and Russian) nuclear weapons, reductions in the alert 
levels of nuclear forces, and the abandonment of U.S. nuclear testing. 
No new warheads have been deployed and there has been little U.S. 
nuclear modernization. There is absolutely no evidence that these 
developments have caused North Korea or Iran to slow down covert 
programs to acquire capabilities to produce nuclear weapons. On the 
contrary, those programs have accelerated during this period.

                               CONCLUSION

    Mr. Chairman, the United States will continue to lead the way to a 
safer world through the deep reductions in nuclear forces codified by 
the Moscow Treaty, through Nunn-Lugar and other Cooperative Threat 
Reduction (CTR) efforts, and through other actions. At the same time, 
although conventional forces will assume a larger share of the 
deterrent role, we will maintain an effective, reliable, and capable--
though smaller--nuclear force as a hedge against a future that is 
uncertain and in a world in which substantial nuclear arsenals remain. 
Our ongoing efforts to reduce the current stockpile to the minimum 
consistent with national security requirements, to address options for 
transformation of this smaller stockpile, and to restore a responsive 
nuclear weapons infrastructure are key elements of the administration's 
national security strategy. Carrying out these efforts will pose no 
risk to critical U.S. nonproliferation objectives.
    Mr. Chairman, this concludes my statement. I look forward to your 
questions.

    Senator Allard. Admiral Ellis, we are now ready to hear 
your comments.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman. It is a delight to 
be with you again today, a privilege as well to join with 
Ambassador Brooks in this hearing. As you have already noted, 
the NNSA is a strong and vital partner with STRATCOM and the 
DOD. With their unparalleled expertise, we conduct vital life 
extension and stockpile stewardship programs, as well as 
research and test Advanced Concepts to assess how we can 
further reshape and enhance our strategic capabilities.
    My written statement defines and details the current 
posture of STRATCOM's newly assigned mission areas. I 
appreciate your inclusion of that in the record, as you 
indicated, sir.
    On March 11, I testified before the full Senate Armed 
Services Committee, as you recall, at a hearing on our missile 
defense mission. I have the opportunity to testify before this 
subcommittee once again tomorrow afternoon to discuss the 
important issues regarding one of our most important legacy 
missions, that of space operations.
    The focus today, as you have noted, is on the strategic 
deterrent mission and strategic capabilities, nuclear, 
conventional, kinetic, non-kinetic, Information Operations 
(IO), and Special Operations Forces (SOF), and the 
opportunities we now have to shape a dramatically different 
strategic future for our command and for our Nation.
    As you recall, on January 10, 2003, the President signed 
Change Two to the Unified Command Plan (UCP) and assigned 
STRATCOM, as you noted, four previously unassigned 
responsibilities. Those are Global Strike, Global Missile 
Defense (GMD), DOD IO, and command, control, communications, 
computers, intelligence, surveillance, and reconnaissance 
(C\4\ISR).
    With the assignment of this unique combination of global 
roles, responsibilities, authorities, and capabilities under a 
single unified command, we have taken the opportunity to 
recapture the classic definition of the term ``strategic'' that 
is essential to the conduct and success of large-scale military 
operations.
    In January of this year, I reported to the President that 
STRATCOM had achieved full operational capability (FOC) for 
oversight and direction of all of these assigned missions. Each 
mission area itself continues to develop. Three missions, 
Global Strike, IO, and C\4\ISR are progressing towards full 
operational capability in 2004. GMD, the fourth mission area, 
will achieve Initial Defense Operations (IDO) in the months 
ahead. It has been, as you noted, a tremendous year of change 
and progress incorporating new missions and building a new 
organization-all while focusing support to other regional 
combatant commanders (RCCs) during Operation Iraqi Freedom 
(OIF) and the broader global war on terrorism.
    Also during 2003, STRATCOM had many key accomplishments to 
include: developed a Global Strike concept plan and validated 
the plan through a series of regional exercises; established a 
Global Operation Center (GOC) and Global Integration Center 
(GIC) to command, control, and integrate support to the joint 
warfighter wherever he or she might be on the face of the 
Earth; and accepted transfer of responsibility for the 
production of reconnaissance operations planning from the Joint 
Staff, a first step in achieving global ISR integration.
    We developed a Joint Forces Headquarters for IO (JFHQ-IO) 
within the overall headquarters structure and established 
functional relationships with the National Security Agency 
(NSA), Defense Information Systems Agency, Defense Intelligence 
Agency (DIA), and National Geospatial-Intelligence Agency. We 
provided federated intelligence support to Central Command 
(CENTCOM) and to Pacific Command (PACOM), producing over 3,000 
products covering four geographic areas and over 12,000 points 
of interest.
    We recognize there are many opportunities and challenges 
that still lie ahead, and I and all of my colleagues at 
STRATCOM remain committed to working with our strong and 
growing team of partners to address each one. Opportunities to 
move our command forward include continuing the implementation 
of the NPR while refining the way ahead through ongoing 
strategic capabilities assessments. I might parenthetically add 
that given its breadth and scope, as Ambassador Brooks so 
eloquently described it, it might have been more appropriately 
named the Strategic Posture Review for the implications that it 
has to my command and to the Nation.
    This effort will enable continued reduction in the Nation's 
nuclear arsenal even as we examine future deterrent concepts, 
sustain the safety and surety of the stockpile, and modernize, 
for our partners in the NNSA, the Nation's technical 
infrastructure.
    We are also going to be exploring new concepts of ISR that 
will permit collating and fusing data collected by the 
Intelligence Community and DOD sources. Our goal is to aid the 
Nation's military and civilian leaders. As they move rapidly up 
the continuum, we all must travel from data to information to 
knowledge and to wisdom. We are also embracing the concept that 
ISR in a real sense has a deterrent character all its own.
    We are going to be simultaneously employing a national 
missile defense test bed to provide the Nation with a 
rudimentary defensive capability even as we support the Missile 
Defense Agency (MDA) as it incrementally refines and evolves a 
future multilayered GMD system. We will be delivering, I 
believe, on the full potential of the DOD IO by supporting real 
advances in the incorporation of computer network attack and 
defense, electronic warfare, psychological operations, 
strategic deception, and operational security, all elements of 
DOD IO into our mission areas.
    In conclusion, as STRATCOM continues to shape the heart of 
the Nation's strategic capability, a fundamental principle 
remains. Deterrence has credibility only to the extent that we 
back it up with capability, determination, and resolve. 
STRATCOM provides credibility through its cohesive package of 
both new and legacy missions even as we explore new deterrent 
concepts to serve the Nation in a very different future.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Admiral Ellis follows:]

          Prepared Statement by Adm. James O. Ellis, Jr., USN

                            I. INTRODUCTION

    Chairman Allard, Senator Nelson, and distinguished members of the 
subcommittee, it is an honor to once again appear before you, 
representing the outstanding men and women of United States Strategic 
Command (STRATCOM) and to review the strategic and space capabilities 
that remain vital contributors to our Nation's security. During my last 
appearance before your subcommittee, I outlined how STRATCOM, our 
components, and task forces were crafting a new command focused on 
integrating space capabilities, deterring a wider array of potential 
adversaries, and recasting the Nation's global military capabilities 
for the demands of the 21st century.
    Today, I can report that the finest soldiers, sailors, airmen, and 
marines--representing active duty, the National Guard, and the 
Reserves--joined by a cadre of talented civilians, have made tremendous 
progress in maturing the missions of the new STRATCOM.
    As you recall, on January 10, 2003, the President signed Change Two 
to the Unified Command Plan (UCP) and tasked STRATCOM specifically with 
four previously unassigned responsibilities. These are: Global Strike, 
Global Missile Defense (GMD) Integration, Department of Defense (DOD) 
Information Operations (IO), and command, control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR). 
This unique combination of roles, responsibilities, authorities and 
capabilities, under a single unified command brought with it new 
opportunities to recapture the classic definition of the term 
``strategic'': essential to the conduct of large scale military 
operations. In this strategic context, we also have been given the 
opportunity to support our Nation's security requirements around the 
globe by directly supporting the regional combatant commanders (RCCs) 
and their deployed forces.
    On January 1, 2004, I was pleased to report to the President of the 
United States that STRATCOM has completed reorganization and achieved 
full operational capability (FOC) for oversight and direction of all 
assigned missions. Each mission area continues to develop and, as we 
apply resources to each, we are moving to reach and maintain FOC in 
those four areas by the end of this year. Three of our missions, Global 
Strike, Global Integrated IO, and Global C\4\ISR, are on track and 
progressing toward FOC during 2004. GMD, the fourth newly assigned 
mission, will achieve Initial Defensive Operations (IDO) in the months 
ahead and will support concomitant achievement of STRATCOM oversight 
FOC.
    There is still much work to do and we have outlined five major, 
near-term goals for STRATCOM, each of which has the potential to add 
significantly to our national defense.
    These opportunities include:

        <bullet> Proactively moving to enhance the security of our 
        critical space systems. This will enable us to maintain an 
        advantage in space while denying an asymmetric avenue of attack 
        for our adversaries. In concert with service and Office of 
        Secretary of Defense (OSD) partners, we are crafting a step-by-
        step plan that approaches the problem in manageable increments.
        <bullet> Continuing the implementation of the Nuclear Posture 
        Review (NPR) while refining the way ahead through the ongoing 
        Strategic Capabilities Assessment. This effort will enable 
        continued reduction in the Nation's nuclear arsenal even as we 
        examine future deterrent concepts, sustain the safety and 
        surety of the stockpile, and modernize, through our partners at 
        the National Nuclear Security Administration (NNSA), the 
        Nation's technical infrastructure.
        <bullet> Exploring new concepts of ISR that will permit 
        collating and fusing data collected by the Intelligence 
        Community and defense sources. Our goal is to aid the Nation's 
        military and civilian leaders to move rapidly up the continuum 
        from data to information to knowledge to wisdom.
        <bullet> Simultaneously employing a nascent missile defense 
        test bed to provide the Nation with a rudimentary defensive 
        capability even as we support the Missile Defense Agency (MDA) 
        as it incrementally refines and evolves a future multi-layered 
        GMD system.
        <bullet> Delivering on the full potential of DOD IO by 
        supporting real advances in the incorporation of computer 
        network attack and defense, electronic warfare, psychological 
        operations, strategic deception, and operational security into 
        our mission areas.

           II. PROGRESS OF THE ``NEW'' U.S. STRATEGIC COMMAND

    It was a year of tremendous change and progress--incorporating new 
missions and crafting a new organization--all while primarily focused 
on supporting Operation Iraqi Freedom (OIF) and the broader global war 
on terrorism. During the past year, this command and our components 
have:

        <bullet> Developed a Global Strike Strategic Concept, validated 
        it through a series of exercises and gained final approval of a 
        Global Strike plan.
        <bullet> Developed a Missile Defense Concept of Operations 
        (CONOP) with plans in place to support operator training, 
        evolutionary testing and system employment for GMD at IDO.
        <bullet> Developed a C\4\ CONOP and established a Global 
        Operation Center (GOC) and Global Integration Center (GIC) to 
        command, control, and integrate support to the joint 
        warfighter.
        <bullet> Transitioned the Space Operations Center in Colorado 
        Springs to the Space Operations Watch in the GOC in Omaha.
        <bullet> Hosted Senior Warfighter's Forum to identify combatant 
        commands' requirements for future satellite communications 
        capabilities.
        <bullet> Accepted transfer of responsibility for production of 
        the Sensitive Reconnaissance Operations plan from the Joint 
        Staff, a first step in achieving global ISR integration.
        <bullet> Formed Joint Force Headquarters (JFHQ) IO within the 
        overall headquarters structure, commanded by the Deputy 
        Commander, STRATCOM.
        <bullet> Established strong, functional relationships with the 
        National Security Agency (NSA), Defense Information Systems 
        Agency, Defense Intelligence Agency (DIA), and the National 
        Geospatial-Intelligence Agency.
        <bullet> Provided federated intelligence support to U.S. 
        Central Command (CENTCOM) and U.S. Pacific Command (PACOM), 
        producing over 3,000 products covering four geographic areas 
        covering over 12,000 points of interest.
        <bullet> Procured, prioritized, and allocated military and 
        commercial satellite bandwidth to support the critical 
        communication needs of the combatant commanders.
        <bullet> Forward deployed STRATCOM support teams with reach-
        back capabilities for strike planning, intelligence, and space 
        and information operations.
        <bullet> Transmitted theater early warning data on missile 
        launches to RCCs.
        <bullet> Through the Army's Space and Missile Defense Command, 
        provided successful Space Based Blue Force Tracking 
        capabilities for Special Operations Forces (SOF).
        <bullet> Through the Joint Information Operations Center 
        (JIOC), fully integrated IO into OIF operational planning, 
        contributing directly to shaping of the operation and elements 
        of its combat success.

                      III. NEWLY ASSIGNED MISSIONS

Global Strike
    The Global Strike mission embodies STRATCOM's ``capabilities-
based'' strategy and employs various assets to execute limited-
duration, extended-range, and precision kinetic and/or non-kinetic 
strikes anywhere on the globe. Our adaptive planning process is being 
upgraded with the goal of accelerating development of courses of action 
for rapid presentation to our national leadership. When fully realized 
we will be able to dramatically shrink response timelines.
    This new construct also provides the Nation with a combatant 
command that effectively works across traditional regional boundaries 
and addresses potential threats with a global perspective. We are 
strengthening formal relationships through extensive coordination with 
RCCs, Services, the Joint Staff, and the OSD.

Information Operations
    As with our other global responsibilities STRATCOM is tasked with 
integrating and coordinating DOD IO across regional areas of 
responsibility (AORs). Core pillars of IO include computer network 
defense, computer network attack, military deception, operations 
security, psychological operations, and electronic warfare. The 
recently published DOD IO Roadmap also supports collaboration of broad 
IO efforts across the DOD, the Intelligence Community, and other 
national-level organizations in coordinated support of operations 
directed by the RCCs.
    The ability to quantify IO effects is another area of concerted 
effort at STRATCOM. Initial conclusions from advanced concept 
technology demonstrations and a number of experiments all recommend 
establishing a national test range for IO. STRATCOM is working closely 
with the OSD in establishing the requirements for just such a test 
range. This range will help us define effects in understandable terms, 
quantify systems' performance and provide assurance that the elements 
of IO will achieve the desired effects while avoiding unintended 
consequences.

    <bullet> Organizing for Success
    In April 2003, we formed a JFHQ-IO within our overall headquarters 
structure. This interim move enables STRATCOM to provide IO support 
directly to warfighters while, at the same time, developing our 
internal structure and nurturing these evolving capabilities.
    In the past year, we have successfully integrated Computer Network 
Exploitation and Attack mission areas. The Network Attack Support Staff 
was established to function as the Computer Network Attack planning 
interface between the combatant commanders and the Intelligence 
Community. This component has significantly streamlined the planning 
process and contributed directly to the maturation of our efforts.

    <bullet> Support to global war on terrorism
    STRATCOM provides tailored, deployable Strategic Support Teams that 
combine the capabilities of the JIOC, located in San Antonio, with 
support elements from many other STRATCOM functional mission areas. 
Additionally, as we prosecute the war on terrorism, effective IO is 
becoming even more essential to our success. Supporting U.S. Special 
Operations Command (SOCOM), U.S. Southern Command (SOUTHCOM), PACOM, 
U.S. European Command (EUCOM), and CENTCOM for global war on terrorism 
and IO planning, JFHQ-IO works to provide an IO perspective, broader 
and deeper than any one RCC staff can, thus allowing us to better 
achieve required global effects in support of national strategic 
objectives. Our GIC will interface with other organizations to provide 
Time Sensitive Planning (TSP) as well as Crisis Action Planning. TSP 
oversight expertise will reside in the GIC and will formalize and 
codify STRATCOM's standard operating procedures, drawing on all 
organizational elements so as to provide global effects in support of 
all combatant commanders.

    <bullet> The Way Ahead
    The future of global IO requires us to better define our 
operational battlespace. STRATCOM is developing a common operational 
picture based on inputs from all available DOD and intelligence 
sources. We are also developing measures of effectiveness, with 
corresponding metrics, allowing us to gauge the success or failure of a 
specific IO course of action.
    The challenge is melding the art and science of IO with emerging 
technologies, training, and educating senior warfighters in these 
concepts, and, most importantly, developing a cadre of military leaders 
with sound IO skills.

Global Ballistic Missile Defense (GBMD)
    In my statement presented to the full Senate Armed Services 
Committee on March 11, 2004, I discussed the status of STRATCOM's GBMD 
mission. Missile defense concepts have evolved from separate efforts 
focused on the terminal intercept of short and medium range ballistic 
missiles. The single entity of GBMD now includes mid-course intercept 
of intercontinental ballistic missiles (ICBMs), and, in the years 
ahead, development of a multi-layered missile defense system 
contributing to the defense of the U.S., our allies, and our interests 
abroad. STRATCOM is developing the GBMD CONOP and the battle management 
architecture in order to provide full capabilities for RCCs defensive 
employment.
    The IDO is the first increment of a capabilities-based approach in 
developing and providing GBMD. Initial capability will include the 
ability to detect a launch, display the data for decision makers, relay 
command and control execution decisions, and then to fire a ground-
based interceptor. Our plan calls for a continued assessment of the 
Ballistic Missile Defense System (BMDS) capabilities as they are 
developed and fielded by the MDA. Fielding a layered and integrated 
GBMD system is best accomplished in a spiral manner. An initial 
capability, followed by evolutionary improvements, provides commanders 
with both operational flexibility and an increased range of system 
design options based on extensive testing and assessment

Global C4
    Future ISR systems, along with new weapons platforms, are expected 
to at least double the current demand on the global communications 
infrastructure. (During Operation Enduring Freedom (OEF), General Tommy 
Franks required 32 times more bandwidth than did General Norman 
Schwarzkopf during Operation Desert Storm (ODS).) Change Two of the UCP 
directs STRATCOM to coordinate C\4\ capabilities in support of 
strategic force employment.

    <bullet> Providing Robust Communications Architectures
    The DOD is developing the Global Information Grid--Bandwidth 
Expansion (GIG-BE) to address the growing bandwidth requirements. This 
program is key to enabling the vision of universal situational 
awareness for the warfighter. GIG-BE is scheduled to provide a fiber 
connection to over 100 sites by the end of fiscal year 2005, providing 
much needed, wideband terrestrial connectivity. Once completed, GIG-BE 
will provide a robust, optical Internet Protocol Network that the 
warfighter can post and access information at multiple levels of 
classification.

    <bullet> Information Assurance (IA)
    The DOD established the Information Assurance Vulnerability 
Management (IAVM) program in 1998 to notify combatant commands, 
Services, and DOD agencies about network vulnerability alerts and 
countermeasures information. In our assigned role of directing DOD-wide 
computer network defense, the IAVM program is one of the key means we 
use to rapidly update the security of DOD computers.
    We are working to improve our ability to automatically apply 
software patches across large networks, correct vulnerabilities 
identified through the IAVM process, and automatically verify patch 
compliance. This is a formidable challenge; DOD networks are complex, 
with over 3 million computers and a wide variety of operational 
configurations. Our partnership with industry will help us develop the 
best approach.
    The warfighter of today accesses information by sifting through 
networks stratified by classification and membership. The GIG-BE will 
result in a more easily accessible network providing multi-level 
security information to authorized users. Enforcing need-to-know while 
enabling need-to-share presents DOD IA personnel the challenge of 
moving from a defense-in-depth mindset to an IA-throughout approach.
    As the DOD moves from the Defense Information Infrastructure (DII) 
to the GIG-BE, it also brings a new approach to network defense. With 
the DII, our efforts were focused on defense in-depth, with layers of 
defense to keep intruders from breaching our information fortress. In 
contrast, the GIG focuses on defense throughout. This concept 
incorporates a model that recognizes intrusions may occur, and allows 
the network to remain functional even as the infection is being cured.

    <bullet> Transformational Communication System (TCS)
    A second fundamental requirement for our information networks is to 
achieve the ``Power to the Edge'' vision of John Stenbit, former 
Assistant Secretary of Defense for Networks and Information 
Integration. He said, ``We must replace top-down operations with 
distributed operations--and use information technology to empower 
whomever is in need of a solution, regardless of where that individual 
is.''
    Developing this type of network requires reshaping our security 
philosophy and technology. Identity management must focus on end users, 
applications, and services. This will enable distributed computing 
between allied components using applications able to securely 
communicate with other applications. STRATCOM is working closely with 
the OSD staff and the Transformational Communications Office to develop 
the policies and architectures needed to realize the vision of the TCS.

ISR
    Change Two of the UCP tasks STRATCOM with planning, integrating, 
and coordinating DOD ISR in support of strategic and global operations. 
Day-to-day operational control of DOD ISR assets will typically remain 
with the RCCs.
    STRATCOM is applying its unique global focus to planning and 
executing the DOD ISR mission. In effect, DOD ISR will be employed as a 
weapon system against specific strategic objectives and priorities. 
Each platform allocation will be planned to achieve specific effects 
and will be evaluated against that objective. New relationships and 
mechanisms are being developed to bring existing expertise and 
capabilities together in new, more powerful ways.
    To fulfill this mission, STRATCOM has organized intelligence and 
operations into an ISR Division that is unique among combatant 
commands. By integrating the operations and intelligence elements of 
the DOD ISR mission, we provide a holistic view of DOD ISR to increase 
the synergy between those who determine the requirements, those who 
conduct the operations to satisfy those requirements, and the end-users 
of collected and processed intelligence.
    The initial focus of our ISR Division is completion of the recently 
approved DOD ISR Implementation Plan. The timeline for transfer of the 
DOD ISR processes identified in the ISR Implementation Plan began with 
the sensitive reconnaissance operations approval process in December 
2003 and will end with the ISR allocation process in October 2004. We 
have just completed observing the latest bi-annual allocation process 
and started identifying steps necessary to transfer the process to 
STRATCOM by the fall of 2004.
    In addition to fulfilling current ISR requirements, STRATCOM is 
actively engaged in determining future airborne ISR needs. As the 
combatant command lead for DOD Airborne ISR, we will have visibility 
into the requirements from the theaters. Combining a composite list of 
theater requirements with emerging technologies allows us to develop a 
comprehensive list of capabilities to better support the RCCs. We will 
work closely with U.S. Joint Forces Command (JFCOM) to fully integrate 
DOD ISR into architecture and doctrine development. However, to be 
truly effective, we must find a more efficient means to influence the 
shape of DOD ISR procurement programs. The overarching goal is a more 
efficient, effective, responsive, and coordinated DOD ISR capability 
across the globe. With the responsibility for both DOD ISR allocation 
and advocacy, STRATCOM is uniquely positioned to provide a global view 
of both intelligence needs and required future capabilities.
    All of this effort will also support the objectives for 
intelligence sharing set by the Under Secretary of Defense for 
Intelligence. His office is crafting policies and supporting 
architecture to horizontally integrate collected intelligence from the 
theaters with the information acquired by the national agencies. 
STRATCOM sees this as a significant step toward providing all users 
with better insight into collected intelligence and enabling the 
sharing of essential information among all legitimate users. We believe 
this concept will significantly enhance intelligence available to all 
users and showcase the operational potential of future persistent 
intelligence collectors such as Space-Based Radar (SBR).

                 IV. FUTURE OF NUCLEAR FORCE STRUCTURE

Sustainment and Modernization
    <bullet> ICBMs
    ICBMs have been a mainstay of strategic deterrence for decades, 
providing prompt responsiveness, high reliability, accuracy, rapid and 
flexible targeting, and a high state of alert readiness. With 
Peacekeeper deactivation proceeding as planned, Minuteman III will soon 
be our Nation's only remaining land-based strategic deterrent. 
Recognizing the importance of the Minuteman III weapon system, the Air 
Force has implemented an aggressive life extension program for the 
Minuteman III ICBM force to ensure weapon system reliability through 
2020.
    We appreciate Congress' continued strong support for ICBM weapon 
systems by funding reliability upgrades to critical components of the 
Minuteman III. These include the Guidance Replacement Program, 
Propulsion Replacement Program, Propulsion System Engine Life 
Extension, Safety Enhanced Vehicle Program, and Command and Control, 
Security and Cryptography Upgrades. Finally, we support an analysis of 
alternatives (AOA) that will examine follow-on systems to the Minuteman 
III.

    <bullet> Bomber Force
    The long-range bomber fleet is the second essential element of the 
Nation's strategic deterrent force as well as a primary element of our 
conventional Global Strike capability. The B-52 Avionics Midlife 
Improvement Program remains a high priority for STRATCOM and is 
critical to sustaining the platform into the next decade. Of equal 
concern is keeping the B-2 radar replacement program on track.
    The viability of our bombers in a nuclear and conventional role 
requires unimpeded access to increased bandwidth as well as secure, 
survivable, and endurable global communication capabilities inherent in 
the next generation satellite communication constellations. Robust 
command and control, coupled with the recently demonstrated value of 
real-time, in-flight bomber weapon re-targeting, require that we 
continue to synchronize the fielding of bomber communication terminals 
with the launches of advanced communications satellites.

    <bullet> Strategic Ballistic Missile Submarine (SSBN)
    The final leg of strategic deterrence is the D5 Submarine Launched 
Ballistic Missile. Life extension (LE) and back-fit programs will 
provide a standardized fleet of 14 Ohio class SSBNs capable of 
employing D5 Trident II missiles for the full hull life of these 
submarines (extended to 45 years). The last two submarines awaiting 
upgrade will complete their D5 back-fit and refueling overhauls in 
fiscal year 2007 and fiscal year 2008. D5 LE upgrades the guidance and 
missile electronics on fielded D5 missiles and procures additional 
missiles to meet system reliability and accuracy testing needs for the 
life of the program, while also providing a sufficient quantity of 
missiles to fully load out 12 SSBNs.
    The conversion of the four Ohio class SSBNs to Guided Missile 
Submarines (SSGNs) is an example of modifying existing platforms, 
concepts and capabilities for a dramatically different military role. 
SSGN conversions are on schedule and are being completed in conjunction 
with scheduled Engineering Refueling Overhauls (EROs). The boats will 
be equipped with conventional cruise missiles, extensive special 
operations capability, and will be assigned evolving new missions. The 
U.S.S. Ohio, U.S.S. Florida, and U.S.S. Michigan have entered ERO and 
are proceeding on an aggressive conversion schedule with deliveries 
scheduled for 2005 and 2006. The U.S.S. Georgia is scheduled for ERO in 
2004 and conversion will be completed by 2007.

    <bullet> Stockpile Stewardship
    In addition to our vital life extension and modernization programs, 
we are working closely with our partners in the Department of Energy 
(DOE), DOD, and Congress to ensure our nuclear stockpile remains safe, 
reliable, and credible. As the Nation's nuclear stockpile continues to 
age, we must carefully monitor its condition. Through the NNSA's 
Science-Based Stockpile Stewardship Program, we continue to improve our 
surveillance, modeling, and simulation tools and processes in order to 
provide the critical data on aging effects, component reliability, and 
physics phenomena we require in the absence of nuclear weapon testing. 
Past reductions in nuclear weapon infrastructure capacity require that 
the essential warhead life extension programs be carefully sequenced 
with scheduled warhead dismantlement so as to provide just-in-time 
delivery to meet operational deterrent force requirements. We are 
working closely with the NNSA, the national laboratories, and plants to 
shape their support to our future stockpile. With the production 
complexes operating near peak capacity, we will need to optimize the 
balance between essential life extension programs and dismantlement 
work.
    A 2003 congressionally-mandated panel, led by Dr. John Foster, Jr., 
reported that our nuclear weapons program must be balanced between 
maintaining the existing warheads and the need to transform elements of 
the existing stockpile for the future. As we reduce our nuclear forces 
toward the goal of 1,700-2,200 operationally-deployed strategic nuclear 
warheads by 2012, we must concurrently analyze and research advanced 
concepts in order to realize the vision of the Foster Panel and the 
NPR. The results of this research will, in turn, enable objective, 
fact-based discussions on very important deterrence and policy issues.

    <bullet> Assessment and Testing
    The United States' nuclear stockpile has a weighted average age of 
over 20 years, and we are the only nuclear power without a current 
capability to build a complete nuclear weapon. The Science-Based 
Stockpile Stewardship Program supports ongoing research and development 
(R&D) of new advanced technologies and analytical tools to assess the 
health of our aging stockpile without a current need for underground 
testing.
    Since 2000, the DOE has used the Advanced Computing Initiative as 
an integral part of the Science-Based Stockpile Stewardship Program to 
analytically simulate nuclear explosions. These computational experts 
and their physicist colleagues in our technical laboratories are a 
national treasure, trained to make sense of torrents of information 
obtained from those simulations to certify the safety and reliability 
of the current stockpile.

                          V. SPACE OPERATIONS

    Across DOD, space is both a major integrator of missions and a 
global enabler for our forces. Our space assets gather and disseminate 
real-time data on virtually any location on the globe, as well as 
provide essential command and control capabilities to forces anywhere 
on the planet. That is why STRATCOM elected to embed space operations 
throughout our organization rather than treating it as a specific, 
stove-piped mission area. U.S. dependence on space, and the potential 
corresponding vulnerabilities, demand that our national security space 
interests be addressed as top national security priorities. Our focus 
includes:

Improving U.S. Launch Capabilities
    New capabilities are required to enable rapid augmentation, 
replacement, or repair of satellites lost due to component failure or 
adversary action. STRATCOM looks to the Air Force, the National 
Aeronautics and Space Administration (NASA), and industry partners to 
expedite delivery of a more effective, next-generation launch system.
Resolving Space System Vulnerabilities
    Operations in Iraq demonstrated that adversaries can and will 
challenge our ability to use space assets. The attempts to jam our 
global positioning system (GPS) and degrade the accuracy of our 
precision weapons, in Navy parlance, were a ``shot across the bow.'' 
DOD must be able to monitor the health of our essential systems, 
advance our space situational awareness, and respond appropriately to 
sustain our national on-orbit capabilities. In support of the 
leadership of the DOD Executive Agent for Space, Peter Teets, STRATCOM 
is fully engaged in assessing and strengthening all elements of our 
space systems.

Space Based Infrared System (SBIRS)
    The potential provided by the developing SBIRS will be a key 
contributor to greater capabilities in the mission areas of theater and 
global missile warning, missile defense, technical intelligence, and 
battlespace characterization to support real-time warfighting 
operations. As designed, SBIRS will expand our ability to detect 
shorter-range missiles with systems designed for both tactical and 
strategic requirements. Once operational, SBIRS will not only represent 
our primary source of initial warning, but will also represent the 
first link in the chain of a layered, integrated missile defense. 
Deployment of a capability such as SBIRS is essential to replace legacy 
systems, some elements of which are now operating well beyond their 
intended life.

Satellite Communications
    Military satellite communications will remain our primary means of 
providing dedicated, secure, and/or hardened command and control 
capabilities for worldwide military operations. During the past year, 
we launched the final satellites to complete the Defense Satellite 
Communications System (DSCS), Milstar, and Ultra High Frequency (UHF) 
follow-on constellations. These systems have served us well for decades 
and many have lived far beyond their projected life expectancy. As a 
result of this extended service life, deployment of more modern and 
more capable replacements is needed immediately. The capabilities 
represented by these programs will be sustained and improved with the 
launch of the next generation of satellite systems beginning with the 
Wideband Gapfiller Satellite in fiscal year 2005 and continuing through 
the launches of the Advanced Extremely High Frequency (AEHF) and Mobile 
User Objective System (MUOS).
    The Wideband Gapfiller program consists of five high capacity 
satellites launched from fiscal year 2005-2010 that will replace the 
aging DSCS and Global Broadcast Service satellites, providing DOD with 
high-capacity, wideband service for the Nation.
    The AEHF program is the follow-on to Milstar. Currently scheduled 
to launch three satellites during fiscal year 2007-2009, AEHF provides 
up to 10 times the capacity of Milstar, a significant increase in 
coverage, and the ability to support twice as many networks. It will 
support national, strategic, and tactical users requiring protected, 
anti-jam, survivable communications for national crises, Emergency 
Action Message dissemination, Integrated Tactical Warning/Attack 
Assessment, missile defense, presidential secure voice conferencing, 
and interoperability with selected international partners.
    The MUOS will field five UHF satellites to provide the warfighter 
on-demand, high capacity communications to ISR, and weapons system 
platforms on the move. This system is designed to alleviate the need to 
purchase expensive, commercial satellite services. MUOS launches 
currently are scheduled for fiscal year 2009-2011.
    Investments in replacement technology and capacity will help 
maintain the U.S. as the pre-eminent space faring nation well into the 
future. STRATCOM will remain engaged as these programs are developed 
and procured to monitor progress and ensure warfighter requirements are 
clearly articulated.
    STRATCOM is working with the Joint Staff, the Defense Information 
Systems Agency (DISA), and, as appropriate, the commercial satellite 
industry to develop a methodology whereby DOD can assure future 
satellite communications systems are designed, funded, fielded, and 
sustained as an end-to-end communication system. In the past, complex 
communications systems routinely were procured in parallel, as separate 
elements, and often by many organizations. Due to increased system 
complexity and the number of segments involved, an end-to-end 
synchronized acquisition process is essential. We must streamline the 
process and develop a procedure to centrally fund and manage seamless, 
integrated, on-demand capable satellite communication services to meet 
national security needs.

                 VI. GLOBAL INTEGRATION AND COOPERATION

Integrating the GOC
    On April 15, 2003, STRATCOM published an overarching operational 
concept to incorporate changes driven by the assignment of our global 
missions. Central to this document is the creation of the GOC. The GOC 
and its supporting command elements will enable STRATCOM to provide 
responsive support to the President, Secretary of Defense, combatant 
commanders, and agencies. Additionally, the GOC, with support of our 
components, will develop and leverage global battlefield situational 
awareness and present decision makers with full spectrum courses of 
action that integrate all STRATCOM's missions and capabilities.
    Within the GOC, we will also perform space operations including 
space control, space support, and force enhancement. The GOC will 
enable STRATCOM to better execute our assigned missions by providing 
improved responsiveness and better command and control of our missions 
by placing the responsibility for mission support and execution under a 
single integrated operations center.
    The Combatant Commander's Integrated Command and Control System 
(CCIC\2\S) is the integrated battle management command and control 
engine for STRATCOM. CCIC\2\S integrates fixed and mobile command and 
control systems to support our missions and RCCs. CCIC\2\S must be 
responsive to the combatant commander's vision and ``evolve to a highly 
responsive and cost-effective sensor-to-decisionmaker-to-shooter 
capability.'' It supports spiral development and delivery of air 
defense, missile warning, space surveillance and defense, and common 
command and control service capabilities.

                   VII. CHALLENGES AND OPPORTUNITIES

Strengthening Components and Agency Relationships
    We continue to seek the proper composition and alignment of 
components to accomplish our missions while allowing flexibility as our 
missions evolve. In this area, we have accomplished the following:

        <bullet> On October 1, 2003, the Commandant of the Marine Corps 
        directed the activation of a Marine Corps service component 
        command called U.S. Marine Corps Forces, STRATCOM (MARFORSTRAT) 
        to support our mission areas.
        <bullet> We established command relationships to leverage 
        capabilities of the NSA, DISA, and JIOC to provide an armory of 
        IO capabilities.
        <bullet> The Cruise Missile Support Activities previously 
        assigned to PACOM and JFCOM were realigned under STRATCOM to 
        enhance Global Strike capabilities.

    We have become more efficient in organizing our components and are 
still exploring several opportunities for further realignment of 
component support in order to avoid unnecessary and duplicative 
headquarters growth. In those instances, we are seeking mechanisms 
allowing us to interface with appropriate senior leadership to access 
the centers of excellence and proven capabilities resident within their 
subordinate organizations. We call it ``capabilities-based componency'' 
and it is a construct defined by access to, versus ownership of, 
resources essential to the accomplishment of our diverse missions.
    Partnerships with civilian agencies, private industry, and academia 
are also vital to successful accomplishment of our missions. As we 
continue to establish new relationships and enhance existing ones, we 
remain focused on refining effective and efficient processes in the 
common pursuit of enhanced national security.

Strengthening Reach-back Capabilities, Joint Exercises, and Training
    DOD is transitioning toward smaller, more agile forces, decreasing 
the forward footprint of our personnel in theater. To enable mission 
success for these agile forces, we must provide improved situational 
awareness and command and control capabilities. This requires 
unprecedented reach-back to planning capabilities, intelligence 
products, and other specialized expertise.
    A DOD oversight committee is crafting a roadmap for leveraging 
technologies to provide seamless distributed operations, or reach-back 
to supporting commands and elements. Developing GIG-BE will greatly 
improve this reach-back capability. By moving digits, not people, we 
reduce not only transportation and support costs, but the number of 
personnel placed in harm's way. Reach-back capabilities proved highly 
successful during OIF in supporting targeting, planning, and IO.
    In parallel, a specialized team of 35 personnel was sent to support 
CENTCOM by providing specialized space and information operations 
planning and execution support. Referred to as a Space and Information 
Operations Element, this team represents a first step in developing 
connectivity back to our headquarters for broader access to specific 
STRATCOM expertise, making our entire headquarters a trusted agent for 
the RCC.
    In the future, we anticipate opportunities for STRATCOM Support 
Teams to train and/or exercise regularly with the RCCs, thereby 
building relationships that are well understood before crisis or 
conflict looms. If requested by the RCC, they will be forward deployed 
in time of conflict. Alternatively, if that commander were comfortable 
with reach-back support from this team, they would provide the regional 
commander with the full spectrum of capabilities from our GIC at Offutt 
Air Force Base.
    As STRATCOM continues to mature our recently assigned global 
missions, we must develop robust training and exercise programs to test 
the tactics, techniques, and procedures envisioned in our integrated 
concept of operations. Our annual major exercise, Global Guardian, has 
traditionally been a nuclear operations-focused exercise. We are 
dramatically reshaping that construct and creating a new exercise 
series that better captures the broad range of new responsibilities 
while still supporting the essential zero-defect focus on our legacy 
mission. The Strike Directorate continues to coordinate with RCCs on 
the command and control structure required to simulate integration of 
full spectrum Global Strike missions into future regional exercises.
    In December 2003, we successfully demonstrated support to a RCC 
(PACOM) in Terminal Fury 04 in the areas of Global Strike, IO, Space 
Operations, and ISR. Using extensive reach-back opportunities and 
Strategic Support Teams, it afforded STRATCOM the opportunity to gain 
hands-on experience in areas such as planning, executing, and 
recovering Global Strike missions across regional boundaries. By 
working closely with PACOM in this exercise, we further developed a 
regional context and improved capabilities in our new mission areas to 
extend to all RCCs. The coming year undoubtedly promises new challenges 
and greater opportunities.

                            VIII. CONCLUSION

    As STRATCOM reshapes the heart of the Nation's strategic 
capability, we are required to study new deterrence concepts to provide 
the President with a wider range of military options that bring to bear 
every element of national power. The warrior Sun Tzu said, ``To win 
without fighting is best.'' A fundamental principle remains that 
deterrence has credibility only to the extent we back it up with 
capability, determination, and resolve. STRATCOM provides credibility 
through its cohesive package of both new and legacy missions, even as 
we explore new deterrent concepts to serve the Nation in a very 
different future.
    STRATCOM is ready to meet the challenges of the future. We are 
mindful of the magnitude of the task before us, and confident in the 
talent of our staff, our components, and our mission partners. In the 
words of Abraham Lincoln, ``The dogmas of the quiet past are inadequate 
to the stormy present. The occasion is piled high with difficulty, and 
we must rise with the occasion. As our case is new, so we must think 
anew, and act anew.''
    I appreciate your continued support and look forward to reporting 
our progress to you in the future as we continue to build the new 
STRATCOM.

    Senator Allard. I want to thank both of you for your 
statements.
    Admiral Ellis, a recent news article stated that U.S. war 
planning ``is allowing strategic nuclear capabilities to become 
but one component of a spectrum of potential strategic 
responses to global terrorism and rogue nations rather than a 
separate level of capability.'' As commander of STRATCOM, you 
are responsible for much of this planning. Do you consider 
nuclear capabilities to be just another component on a spectrum 
of capabilities or do you consider them to be a separate level 
of capability?
    Admiral Ellis. I absolutely do not consider them to be just 
another element of that continuum, sir. As Ambassador Brooks 
noted in his statement, the decision that any President, 
current or future, might have to make with regard to employment 
of those forces would clearly be the most significant decision 
he or she ever made in their lifetime. We very clearly 
understand the difference. We very clearly understand the 
difference in security and surety that comes with our oversight 
and stewardship of the nuclear capabilities.
    As you are well aware, and as we could address in a more 
classified forum, there are very distinct and separate command 
and control elements and processes and security elements in 
place to ensure that the President, and only the President, in 
the direst of circumstances can authorize the employment of 
those systems. So I believe it is incorrect to characterize 
them as just elements in a continuum of kinetic options. I can 
assure you that in STRATCOM and the DOD that is not the way 
they are viewed.
    Senator Allard. Just for the record, maybe you would just 
go through the steps that most commanders have to go through to 
get authorization to use nuclear weapons. You mentioned the 
President's authorization and I would just like to have you go 
through those steps for us.
    Admiral Ellis. Yes, sir. The details of that, of course, 
are appropriately classified. As you alluded to, it is only 
after presidential and senior civilian leadership consultation 
with senior military leadership, including the Secretary of 
Defense, me, my staff, and other involved combatant commanders, 
that those decisions are weighed and assessed.
    Then, should there be no other option--and I emphasize 
that, as always, these weapons are weapons of last resort--
should there be no other option in this hypothetical scenario 
that you described, then there are very rigorous coded 
capabilities that ensure that we authenticate the identity of 
the leaders in the chain of command. Those authorizations are 
very carefully and rigorously conveyed exactly as spoken and 
within the scope and context in which they were delivered to 
the operating forces through robust, hardened global command 
and control capabilities that we also oversee at STRATCOM.
    So there are a number of checks and balances. There are 
various layers of oversight that have to be employed 
simultaneously to ensure that no one individual can take these 
actions without the authorization of the Nation's senior 
leadership. I can assure you that we continue to review, 
exercise, and examine those processes and procedures regularly 
at my staff level and above, and we are committed to sustaining 
that level of certainty as we reshape the capabilities for the 
future.
    Senator Allard. So to your knowledge, the level of control 
over nuclear weapons has not been diminished in any way. There 
are not any initiatives which you are aware of that would 
reduce positive control over nuclear forces.
    Admiral Ellis. Absolutely not, sir. In fact, just the 
contrary. We are exploring, as is appropriate, ways in which we 
can bring into being new technology to further enhance the 
already rigorous controls that are in place.
    Ambassador Brooks. That is one of the potential uses for 
the Advanced Concept Initiative, by the way.
    Senator Allard. Thank you, Ambassador Brooks.
    Admiral Ellis, I am worried that our adversaries are 
adapting to our ability to hit targets with extraordinary 
precision in part by hardening their assets or burying them 
deep underground. I know the DOD has identified literally 
thousands of these types of targets. What is the relationship 
between these hard and deeply buried targets in your concept of 
strategic targets?
    Admiral Ellis. Sir, the hard and deeply buried targets that 
you characterize represent a very important subset of a broader 
set of targets that might be appropriate for the application of 
strategic force. I emphasize that that includes strategic force 
as we now define it, including both conventional, non-kinetic, 
and SOF, as well as the classic legacy nuclear missions that 
have historically resided at STRATCOM.
    They are a unique target set. They are proliferating, as 
you note, on a global scale. There are more of them than the 
Intelligence Community is able to discern, or get hints about, 
more appropriately, as the years go by. A large number of them 
can be dealt with by conventional means. But there is a subset 
on the hard and deeply buried side that are very demanding 
targets for conventional forces and in some cases cannot be 
dealt with by conventional forces as we know them, which brings 
into context three important issues here.
    The first is that we need to continue to advance our 
development of conventional capabilities to further broaden our 
ability to deal with these target sets. We also need to enhance 
our ISR capabilities so that we can better identify and 
characterize these targets. To no one's surprise, if it is 
important enough to be hard and deeply buried on the part of an 
adversary, it is also likely to be deceptively camouflaged, to 
be protected by robust air defenses, and to have multiple 
levels of command and control and support and communications 
associated with it.
    So, in any way that you would characterize it, it is a very 
demanding target set. It is one that we are interested in, 
because it is obviously a critical node in either the 
communications for military forces or the leadership control of 
potential adversaries. So they are appropriate military 
targets. They have tremendous complexity associated with them. 
We are in favor of exploring all concepts, the full spectrum of 
concepts that might be brought to bear to deal with them, if it 
is so deemed necessary by the Nation's leadership.
    Senator Allard. Can you give us a sense of what proportion 
of these targets you think can be defeated today with non-
nuclear means and whether that proportion will change over 
time?
    Admiral Ellis. Well, I would rather not get into exact 
numbers, because that might be classified. A significant 
percentage of them can be dealt with by conventional means. 
That would be the way in which we would intend to employ them. 
However, as you noted in your statement, adversaries have a way 
of responding to our capability. As they see capabilities 
coming on line, it is within their purview to dig deeper and to 
make these systems harder.
    So I would anticipate that unless we advance further down 
this continuum of capabilities and systems that can deal with 
this target set, that those that we cannot deal with might 
continue to grow in the years ahead. How significant that 
growth is, I defer to the Intelligence Community. Even in that 
context, it is fair to say that they would not sit here and 
tell you that they had located all of those that are known to 
exist in the world today.
    So even the numbers as we currently define them probably do 
not include all those that are actually in use.
    Senator Allard. How important are prompt, precise delivery 
systems to the effort to defeat the hard and deeply buried 
targets?
    Admiral Ellis. We think that prompt and precise delivery 
systems are key elements to the ability to counter those 
capabilities, such as a storage area for something that the 
adversary values very highly. Ambassador Brooks talks about 
some elements that that might include. Whether it is a 
leadership location or a command and control capability for 
military forces that could be used against us or our allies, 
there is a time criticality associated with that in some 
context. That needs to be part of planning for any strike 
mission.
    There are little things that have to be dealt with. What is 
the range of the systems that you have to employ? How fast do 
they respond? In other words, how fast do they go, or are they 
in the local area? Then the accuracy and precision element 
ensures that it requires the minimum number of strike passages, 
if you are using a manned system, for example, so you expose 
fewer people to that risk, or it involves fewer numbers of 
weapons that have to be employed to achieve the desired 
results.
    It also very importantly minimizes any associated 
collateral damage, of which we are always concerned in the 
military, as well as looking at targeting options. So for a 
number of reasons, the things that you describe--range, 
precision, and appropriate sizing--are important elements of 
weapons systems of whatever character that we assess for use 
against this target set in the future.
    Senator Allard. I understand that acquisition efforts 
related to the defeat of hard and deeply buried targets 
leverage capabilities in many programs and are well coordinated 
by the Office of Secretary of Defense (OSD). I am a little 
concerned, however, that this approach may leave the Services, 
each of which has many competing priorities, in a position in 
which they might not respond adequately to some of STRATCOM's 
unique requirements.
    Where do you believe these efforts fall short of providing 
you the complete tool kit you need to strike at the full range 
of strategic targets?
    Admiral Ellis. Well, as Ambassador Brooks noted when he 
described the NPR, and as I call it, the Strategic Posture 
Review, the assumptions predicated that allowed us to draw down 
the numbers that he described were based to some degree on the 
creation of advanced conventional capabilities.
    While many of these capabilities are still in the 
developmental or requirements generation phases, it is fair to 
say that they compete with other priorities that the Services 
have. My role as a combatant commander is to make my input 
appropriately heard in the venues that I have. As you are well 
aware, there is a joint capabilities process that has been 
defined in the DOD into which I will make inputs and continue 
to make inputs that address the need for these issues. Then 
those are reviewed and collated and, with the support of the 
Secretary and the Chairman, apportioned through guidance to the 
Services to be dealt with.
    One of the challenges we face, of course, is that, just as 
with nuclear weapons, many of these advanced conventional 
capabilities are niche capabilities. In other words, they are 
not intended to be procured in the thousands. They are not 
intended to be carried on every strike platform in the 
inventory. They are not intended necessarily to be used against 
mobile, all-weather targets, and the like. In that context, 
they sometimes do not compete as well in the analysis of 
alternatives (AOA) with other systems that may have broader 
application.
    I think it is important for my voice to be heard in 
articulating how essential these advanced conventional 
capabilities, even though they may be viewed or defined as 
niche capabilities, are to advancing our Global Strike 
capability and our ability to deal with hard and deeply buried 
targets.
    Senator Allard. Well, in that regard, do you think the 
acquisition approach is sound and your unique requirements will 
be met in a timely way?
    Admiral Ellis. I think the process is sound, sir. It is up 
to me to continue to be a loud voice and an articulate voice to 
the extent we can inject that on a regular basis into the 
consideration of alternatives for the future. I can assure you 
that within the OSD and his staff there is great support for 
advancing these capabilities. We have now begun to see a 
consideration of advanced concepts that might serve us well in 
the future.
    But it is important that we understand the difference 
between paper programs and real capabilities. There are things 
that could be addressed in the near term through the Defense 
Threat Reduction Agency (DTRA) and other organizations that are 
very able to quickly respond to this. There is also a set of 
long-term issues that need to be considered as we look to the 
future and contemplate what a Global Strike capability needs to 
look like 10 or 20 years hence.
    Senator Allard. We have talked about hard and deeply buried 
targets. We use the terms kinetic and non-kinetic, and I wonder 
if you would go into more detail on the value of both these 
facets of the effort to defeat hard and deeply buried targets, 
the other facet being flexible planning.
    Admiral Ellis. Yes, sir. Within the level of classification 
of this hearing, it is fair to say that kinetic is well 
understood. We have talked a little bit about that. Ambassador 
Brooks alluded to it in discussions of concepts that NNSA is 
beginning to examine. I have talked about it in terms of 
conventional capabilities that I think are needed for the 
future. Those are the kinetic things, the things that explode 
and destroy.
    The non-kinetic piece is an opportunity that is just 
beginning to come into being and deals with issues of disabling 
from long distances support elements that are necessary to 
sustain targets or items of interest. Those can include power 
grids. They can include other capabilities that might be 
brought down electronically, if you will. There are jamming 
capabilities, active electronic warfare. There are computer 
network techniques that are beginning to be explored that 
consider how we might be able to, at least for a specified 
period of time, draw down the capabilities of an adversary 
without the requirements to target them kinetically.
    I emphasize that while these are tremendously exciting 
concepts, they have not delivered yet on the level that would 
allow me confidently to offer them as an alternative to kinetic 
solutions at this time. However, I do believe that this is a 
capability the Nation needs to pursue for the reasons that you 
have described earlier. I think it certainly is something that, 
under our IO responsibilities newly assigned to STRATCOM, we 
are aggressively moving forward with the support of agencies 
and Services in that effort.
    Senator Allard. Well, and it raises the threshold, I think, 
for whether we would have to use nuclear means or not.
    Admiral Ellis. Yes, sir. The focus that Ambassador Brooks 
noted with regard to the NPR is absolutely essential. What it 
is tasked to do and what it tasked us to do is provide the 
Nation's leaders with a much broader range of capabilities to 
deal with threats to the Nation. All of those have a deterrent 
character, and they also have a capabilities character. They 
are not necessarily nuclear in character.
    So the point that you raise is absolutely right. The more 
options, opportunities, or choices that we can offer the 
Nation's leadership before they have to regrettably consider 
that last resort nuclear system, the higher we continue to 
raise the threshold. It is fair to say that the threshold is 
higher now than it once was. We are working every day to 
implement the NPR, which in my view will continue to raise that 
threshold in the years ahead.
    Senator Allard. Now I would like to call on the ranking 
member, Senator Nelson, for an opening statement and some 
questions.
    Senator Bill Nelson. To save time, Mr. Chairman, if you 
will just submit my statement for the record.
    Senator Allard. Very good. Without objection.
    [The prepared statement of Senator Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Thank you Senator Allard. I would like to join you in welcoming our 
witnesses. We have many issues to discuss this morning. Senator Allard 
highlighted some of them, and I would like to highlight a few as well.
    I look forward to hearing from Admiral Ellis about his year of 
change--integrating the former space and strategic commands into one 
command and taking on a host of new responsibilities under the Unified 
Command Plan Change Two. Ambassador Brooks, we look forward to hearing 
from you about the activities of the National Nuclear Security 
Administration, including the challenge of meeting the security 
standards associated with the new design basis threat, the progress of 
the Stockpile Stewardship Program, and the efforts to downsize and 
modernize the nuclear weapons complex.
    In addition, I would hope to be able discuss issues associated with 
bombers, such as reversing portions of the B-1 retirement plan, 
maintaining the bomber modernization programs for the B-2 and the B-52, 
and the work that is beginning on the bombers of the future. What does 
long-range Global Strike look like in the future?
    I would also like to hear from each of our witness the progress 
being made in implementing the Nuclear Posture Review (NPR) and the 
Moscow Treaty. What is the progress in reducing the overall size of the 
nuclear weapons stockpile, not just the number of operationally-
deployed nuclear warheads. One additional aspect of the Moscow Treaty 
that I would like to discuss is how operationally-deployed warheads are 
going to be counted to achieve the goal of 1,700 to 2,200 deployed 
warheads by 2012.
    Related to the issue of counting, is a recent press report 
asserting the decision in the NPR to download all of the Minuteman III 
intercontinental ballistic missiles (ICBMs) to a single warhead 
configuration is being reconsidered. Such a decision would have a 
direct impact on the mix of warheads deployed and would most directly 
impact the number of warheads on Trident submarines.
    Last year there we had considerable debate and discussion in the 
Senate on the Robust Nuclear Earth Penetrator (RNEP), Advanced Concepts 
Initiative, and the repeal of the ban on research and development (R&D) 
of nuclear weapons with yields below 5 kilotons, and nuclear test 
readiness. The RNEP and the Advanced Concept work was routinely 
described as being studies only and that there were no plans to produce 
or deploy new or modified nuclear weapons. Clearly this is no longer 
the case with the RNEP. I would like to here from both of our witnesses 
about the capabilities of the RNEP, and understand the military 
requirements, value, and utility.
    We have much more to discuss, so I will conclude by again welcoming 
our witnesses. This hearing is always interesting.
    Thank you Senator Allard.

    Senator Bill Nelson. Admiral Ellis, in September of this 
year, the administration plans to deploy a long-range missile 
defense system. Are you going to be the person responsible for 
this defense and also responsible if the defense fails against 
a real enemy missile?
    Admiral Ellis. Yes, sir.
    Senator Bill Nelson. Since you are responsible for the 
development of the concept of operations (CONOPs) for this 
missile defense system that will be fielded, what is the 
process for developing this concept? What are your planning 
assumptions?
    Admiral Ellis. Thank you, sir. That is a great question. As 
we discussed in front of the full committee on March 11, the 
role of STRATCOM, as you describe it, is to take the 
capabilities that are being developed by General Kadish in the 
MDA, which might as well be called the Missile Development and 
Acquisition Agency, and move it into the operational realm as 
we begin to put this test bed in place over the next--in the 
months ahead.
    The role that I have is to, as you described, define the 
CONOPs, to begin the training and integration, to provide the 
command and control capabilities, to ensure that the Services 
provide well-trained and aware crews, and to ensure that the 
assumptions with regard to its employment and weapons release 
doctrine and those types of things are clearly understood and 
reviewed prior to this capability beginning to be in place 
conceptually by the end of this year.
    The assumptions that we made are based on sharing the data 
that has been currently provided through the tests that have 
been conducted and the simulations that have also been 
conducted in developing this system. You heard from Mr. 
Christie and Ron Kadish about the way in which their teams or 
elements have come together to share that database. Well, 
STRATCOM also accesses that database to help us understand the 
capabilities that we are likely to have as this, as the 
Secretary calls it, rudimentary capability comes on line later 
this year.
    All of those issues help us ensure that we understand 
realistically what this system is capable of doing in this test 
mode. We have a process in place that allows us to bring online 
a limited alert capability at the same time as we continue the 
spiral development process. This has to occur simultaneously as 
the MDA continues to move or evolve this system into the forms 
that it will take in the years ahead.
    So we draw on their data. We understand and draw from their 
experience with legacy systems. We have significant expertise 
from the Army involved in this, as you are well aware, and draw 
air defense expertise to make sure, from a doctrinal 
standpoint, we are asking the right questions. We are under no 
illusions as to what we will or will not have when the IDO 
capability comes on line. But we do believe that it will add 
value to what we have. It will be a capability that is in the 
field anyway for testing and development and we believe it is 
appropriate to draw on it to the extent that it can provide 
capabilities to the Nation to enhance our Nation's security and 
defense.
    Senator Bill Nelson. Well, since you are the one 
responsible for its success or failure, would you like to see 
it operationally tested in a combat-like way as soon as 
possible?
    Admiral Ellis. The continuing testing that Mr. Christie and 
Ron Kadish are pursuing is, in my view, going as aggressively 
as is appropriate and prudent. In other words, as capabilities 
deliver, they are tested and assessed. Changes are immediately 
made to reflect the lessons that are learned. A system of this 
scale and complexity is unique in the history of the Nation. It 
requires a global range, if you will, in order to put all these 
elements in place.
    So in my view, there is a logic in putting it in place 
where it was intended to operationally serve. So I think from 
an operational standpoint, that is about as realistic an 
operational environment as we could expect, the actual sites 
from which it will be expected to be operated with all of its 
elements, as you are so well aware, including Fort Greely and 
Vandenberg and the Shemya Radar Facility and all of those 
capabilities.
    So I think we are putting it into an operational scenario, 
operational environment, even as we continue to refine and 
advance the testing. So I think that will enhance significantly 
the operational character of the tests that will unfold in the 
years ahead.
    Senator Bill Nelson. Admiral, I know something about 
rockets. If there is a rocket being developed where you have 
one test and you have four tests canceled over the course of 
the last year, I do not think I would want to ride that kind of 
rocket. Is that not what has happened?
    Admiral Ellis. Well, I cannot speak for Ron Kadish and 
would not presume to, sir, but my understanding is that the 
tests have not been canceled. They have been rescheduled, as 
reflective of the incremental testing program that is underway. 
In other words, Ron's team, MDA's team, has discerned that 
there were technical issues, just as we described, that needed 
to be addressed. They are addressing those. When those are 
addressed, then the incremental testing program will continue, 
as indeed elements of it are scheduled to continue this year.
    Now clearly, and perhaps optimistically, when those 
schedules were crafted last year, there was a sense that we 
might be further along. But as you are well aware, there are 
technical challenges that have arisen along the way, as there 
are in any developmental program. Adjustment of the test 
program to reflect the readiness to do those testings, I think, 
is not inappropriate.
    Senator Bill Nelson. So you, as the operational officer in 
charge, are satisfied with the way that they are going to turn 
over an operational system to you on a major weapons system 
with the amount of testing and so-called independent testing 
that has occurred thus far.
    Admiral Ellis. Well, if they were sitting here with me, I 
do not think either Mr. Christie or Ron Kadish or I would say 
that any of us are ever satisfied, and I do not think that is 
the right term. We understand where we are in terms of system 
maturity. We understand the elements of the system that have 
been tested, boosters and kill vehicles and radars along the 
way. We understand how they are being brought together for this 
IDO capability. That is where we will be when the first of 
these elements are put into place, or the last of them are put 
into place, to create this system sometime later this year in 
all likelihood.
    So that is the process we have. We are assessing, fairly 
candidly with the help of MDA and Operational Test and 
Evaluation (OT&E), what capabilities that really represents. In 
that context, then, we will craft, as you noted, the CONOPs and 
the procedures for its employment in support of the Nation's 
security.
    Senator Bill Nelson. I would not want to be in your shoes 
to accept the operational responsibility for something that had 
not been tested any more than this. In wartime, we have to do 
whatever we have to do. I am not sitting here as an opponent of 
national missile defense, but I am sitting here as someone who 
has to ask the hard questions. How can you make something 
operational that has not been properly researched, developed, 
and tested? That is the question that I will continue to ask.
    The Air Force has established two offices to study options 
for long-range strike options. Is STRATCOM fully engaged with 
the Air Force effort to study options and conduct an AOA?
    Admiral Ellis. Yes, sir, we are. Well, all of our unified 
commands are joint commands. My deputy actually is an Air Force 
three-star officer and has attended some of those sessions. We 
are working with each of the Services as they examine concepts, 
as I discussed in my dialogue with Senator Allard, that might 
serve our long-range strike needs for the future.
    Senator Bill Nelson. Do you think that manned long-range 
bombers should be a part of the long-range strike capability?
    Admiral Ellis. I do not think we know the answer to all of 
that yet, sir. What I am supporting is broad consideration of 
all concepts. Some of them can employ modifications to existing 
systems, conventional in character. Some of them can employ 
concepts that perhaps are long dwell unmanned aerial vehicles 
(UAVs) that can orbit in a target area with high-speed weapons. 
Manned bombers are certainly something that needs to be brought 
into the equation.
    The issue we have to avoid, I think, is we do not want to 
get locked into merely sequential procurement of what we 
already have without an honest and dispassionate assessment of 
what the future and what technology can bring us. While I am 
not in any position to give you the answer, STRATCOM continues 
to fully support the careful study of all options that might 
contribute to this capability.
    Senator Bill Nelson. One of the options being considered is 
a bomber variant of the F-22. What do you think about that?
    Admiral Ellis. Well, I would have to see the specifications 
on it and what the tradeoffs are with regard to--as a pilot 
myself, and I know you understand, there are elements that come 
with manned platforms that are different than those that come 
with unmanned. There are range issues and refueling and support 
requirements and what kind of environment it will be considered 
or designed to operate from, an air defense environment and the 
like.
    So again, I do not think it is possible right now, absent 
completion of these studies, to pick an answer. But I think all 
of them ought to be put on the table in a fair and objective 
process and weighed against one another to satisfy the Nation's 
security needs. This is again one of those things that is 
inevitably going to have to compete with other requirements. 
There is certainly the view that we are not going to be able to 
buy newer versions of everything we have, nor should we. We 
ought to consider how we can best meet this need in the future.
    Senator Bill Nelson. What about other long-range strike 
options, such as the Falcon?
    Admiral Ellis. We believe that that, too, is one that 
offers promise in terms of the criteria that I identified with 
Senator Allard a short time ago. In other words, we are looking 
for something that has long range. We are looking for something 
that has speed of response. We are looking for something that 
has precision and lethality, if we decide to use it.
    Certainly, the Falcon has promise, although it is an 
evolving concept potentially in each of those areas.
    Senator Bill Nelson. The Secretary of Defense told the 
House Armed Services Committee to develop and provide a CONOP 
for a Common Arrow Vehicle (CAV), ``that precludes any 
perception of CAV launch intent prior to conducting any 
development launches of CAV.'' Then Peter Teets also submitted 
a report. What do you think about that? Do you think it would 
be subject to the Strategic Arms Reduction Treaty (START)?
    Admiral Ellis. Not as currently structured, sir. The START 
has some exclusions on space launch facilities and areas of 
interest. So their issues would have to be clearly reviewed to 
make sure they are treaty compliant. There are now procedures 
for information exchange amongst interested parties with regard 
to schedule and intent.
    So I would not say that those policy issues are 
insurmountable obstacles to consideration of the value of a CAV 
concept, as we examine future concepts.
    Senator Bill Nelson. Did you already talk with the chairman 
about the process by which there would be a requirement for a 
new nuclear weapon to be developed?
    Admiral Ellis. No, sir. We did not address that 
specifically.
    Senator Bill Nelson. Well, would this process be the same 
for a modification of an existing nuclear weapon to meet a 
military purpose?
    Admiral Ellis. Yes, sir. The essential elements would be 
the same up to and including congressional oversight in any 
process that deals with modification to an existing nuclear 
capability.
    Senator Bill Nelson. For both of you, the NNSA plans $135 
million to complete the studies on RNEP. This is substantially 
more than the $45 million that was announced back in 2003. Why 
has the cost grown so substantially?
    Ambassador Brooks. I think the $135 million figure is based 
on a misreading of what we put in our out-year project. Some of 
that is completion of study. Some of that, as I alluded to in 
my opening statement, is a place holder in case, at the 
completion of the study, the President and Congress elect to go 
forward.
    I think that the total cost of the study is closer to $70 
million, although I will correct that for the record if I am 
wrong. The cost has gone up in part because we have discovered 
the problem is more complex. We have involved more of the 
weapons complex. In looking at it, we had not envisioned deeply 
involving, for example, the Y12 Plant, but we have. I can give 
you a more detailed answer for the record, if that is all 
right, sir.
    Senator Bill Nelson. Okay, I would appreciate that. I 
understand that in your planning you have to put in a certain 
amount of padding, which is just good planning.
    [The information referred to follows:]

    We never expected the RNEP Phase 6.2/2A study to cost $135 million, 
but we did not make it clear in our fiscal year 2005 submission. When 
we formulated the fiscal year 2005 request, we anticipated the cost of 
the study to be approximately $71 million. These costs can be 
attributed to: congressionally imposed funding reductions and delays 
(reporting requirements), addition of the production plants to help 
assess design feasibility, and an independent review of competing 
designs.
    As a result of the 50-percent funding reduction in fiscal year 2004 
for the RNEP, as well as a better understanding of the RNEP study and 
the need to balance priorities across the nuclear complex, we are 
studying the funding profile for RNEP in fiscal year 2006 and beyond.

    Senator Allard. I think here on this issue, you are kind of 
caught between a rock and a hard spot, Senator Nelson, on this. 
If you do not put in the money, then somehow or other they 
think you are hiding it. If you do put it in and you are 
straightforward, then you can be accused of trying.
    I looked at this figure, too, and that obviously sticks out 
there. On the other hand, I think we need to have some estimate 
in case they decide to move ahead with that, about where those 
future costs would be. I think this had quite a bit of 
discussion in the hearing yesterday. Is that right?
    Ambassador Brooks. Yes, sir, Mr. Chairman, it did. Our view 
was twofold. First, that our interpretation of what Congress 
expected and what we need internally when we went to 
meaningfully estimate out-year budgets, was that we ought to do 
the very best we can. Second, we thought that we are, after 
all, preserving an option for the President. If the President 
has no option within your budget, that seemed to us 
inappropriate. So that is why we chose to display these figures 
in the 5-year projection.
    But, of course, a projection is a projection. We decide on 
spending a year at a time. But in doing that, it is 
appropriate, it seemed to us, for Congress to understand what 
the future projections might be. But I stress again, we cannot 
get to that future without an affirmative decision by Congress, 
quite apart from the appropriations process.
    Senator Allard. Senator Nelson, I would like to have this 
hearing pretty well wrapped up by 11:30. I thought at this 
point in time we would exchange at 10-minute intervals, if that 
is okay with you.
    Senator Bill Nelson. Okay. I have a bunch of constituents 
waiting on me.
    Senator Allard. Okay.
    Senator Bill Nelson. Do you think I could finish a few more 
questions?
    Senator Allard. Go ahead, and then I will wrap up behind 
that. We will accommodate you on that.
    Senator Bill Nelson. Good.
    You have in your 2005 budget request the plans to spend 
$135 million to complete the phase 6.2/6.2A study on the RNEP. 
This is substantially more than was announced in fiscal year 
2003 for the RNEP. It is on your congressional budget. You 
spell out with specificity in the years ahead the cumulative 
percentage progress in completing the phase such-and-such 
activities of the RNEP. So in 2004, complete 17 percent of 
scheduled RNEP; 2005, complete 56 percent of RNEP; 2006, 
complete 100 percent of scheduled RNEP.
    Ambassador Brooks. Yes, sir. But, Senator, that is true. 
Let me try again. The number you are looking at for 2006 
includes some money to complete the study, the phase 6.2A 
study, and some other money to move into phase 6.3. That 
additional money could not be spent without a congressional 
declaration.
    So completing the phase 6.2A study will not cost $135 
million. It will cost more than the $45 million we told you 
last year. But it will not cost $135 million. If the budget 
document leads you to a different impression, then we did a bad 
job of drafting the budget document. I will correct it both for 
the record and for other committees.
    Senator Bill Nelson. Admiral Ellis, is it your conclusion 
that the nuclear weapons stockpile remains safe, secure, and 
reliable, and that there is no need to conduct an underground 
nuclear weapons test?
    Admiral Ellis. Yes, sir, that is my conclusion.
    Senator Bill Nelson. All right.
    Ambassador, does the NNSA have adequate funding in its 2005 
budget to allow it to meet the new security requirements 
arising from the new Design Basis Threat (DBT) at the end of 
2006?
    Ambassador Brooks. Yes, sir, it does. I believe that we may 
need additional 2004 money. I anticipate there will be a 
reprogramming request submitted to this and other committees in 
the relatively near future.
    Senator Bill Nelson. So you think it makes sense maybe to 
have some of those improvements sooner.
    Ambassador Brooks. Yes, sir. For some of them, it is not 
just a question of making sense. You would like everything 
soon. But we put in place mitigating measures. Some of those 
mitigating measures are simply more expensive. Mitigation 
usually is a euphemism for putting more guards in places by 
increasing overtime.
    Senator Bill Nelson. Do you need any help from us with 
regard to transportation?
    Ambassador Brooks. I am in a slightly awkward position, 
because the administration has not completely finished the 
reprogramming request. If there were a reprogramming request 
about to come up, I would expect that there is a good chance 
that we would have a few million dollars for transportation in 
order to support emptying Hanford of plutonium on the schedule 
that the department would like to make.
    Senator Bill Nelson. Admiral, there is a fellow named Dr. 
Younger that said we are taking a fundamentally new look, a 
clean sheet of paper look, at what to do when we need to defend 
the country from a strategic perspective. Do you agree with 
that?
    Admiral Ellis. Yes, sir. As I alluded to earlier, the 
concepts that now are part of the new STRATCOM broadened the 
concept of what is strategic in character. I believe that we 
need to understand and appreciate that much of what we do adds 
to the deterrent value of our Nation's security efforts, 
including ISR, the missile defense piece, and our advanced and 
overwhelming conventional capabilities, as they evolve.
    So there are many contributors to deterrence. I think that 
is an appropriate way to view it. Indeed, the fundamental 
purpose of the NPR was to broaden the number of options to 
enhance our deterrence and to raise the nuclear threshold.
    Senator Bill Nelson. Do you support conventional weapons, 
warheads, on deployed ICBMs?
    Admiral Ellis. I support consideration of that as part of a 
broader address, all of the advanced conventional capabilities, 
as I said earlier, because I think there are elements dealing 
with range and response times that are going to increasingly 
challenge us into the future. That, coupled with accuracy and 
effectiveness, some of those could be dealt with by a construct 
that you described, just as they could be dealt with by other 
concepts that are also under consideration.
    Senator Bill Nelson. Well, Dr. Younger was also saying he 
was not talking about 10-year development cycles. He was 
talking about 90 days. What do you think about his ideas of 90-
day development cycles? What would be the effect on the ground 
in the United States if such 90-day time frame would be put on 
conventional warhead on a Minuteman II ICBM?
    Admiral Ellis. Well, not understanding the context in which 
Steve Younger made those remarks, I cannot approach it 
directly. If he was talking about the challenges we face with 
long development times and how long it takes us to take a 
concept from conception to delivery, then I certainly am 
empathetic with shortening those time lines.
    I do believe, as I addressed with the chairman, that there 
are near-term issues that can be addressed very quickly by 
employing modifications of existing systems and the like or 
there are then also longer term efforts that will have to play 
out as technologies and capabilities need to be reviewed and 
assessed. I think Steve Younger's view, I infer from those 
remarks, was that he could do it on the shorter end rather than 
the longer end. Whether 90 days or not is the right value, I 
could not say, sir.
    Senator Bill Nelson. There is some indication from Pratt 
Whitney that the replacement program may be delayed. Tell us 
about that.
    Admiral Ellis. Yes, sir. As they may have told you, they 
have had two incidents at their Pratt Whitney facility in San 
Jose with regard to propellant mixing in support of the 
Minuteman program and others that have forced them, in concert 
with the overarching corporate leadership, to consider other 
alternatives. They have now done that. They have shifted the 
location in which that propellant element for the first stage 
of the Minuteman is mixed to a new facility run by ATK in Utah.
    They have not recaptured schedule. They have lost time as a 
result of that. However, I have spoken personally with the 
corporate leadership, and they believe that by the end of the 
year, they will be back in production for the Propulsion 
Reliability Program (PRP), which is the final upgrade to the 
Minuteman III process to deal with some long-identified 
technical challenges.
    Senator Bill Nelson. Replacing W62 with W87, I understand 
that is being reconsidered.
    Admiral Ellis. That is news to me, sir.
    Ambassador Brooks. That is news to me, too, and it is very 
hard for me to believe that it would be reconsidered without 
one of us being involved in it.
    Admiral Ellis. The rationale for that was because of the 
modern capabilities that are associated with the W87. It made 
sense to do that as the Peacekeeper force was retiring, and 
that process is well underway. So it would seem to be a logical 
thing to do to employ the newer capabilities over the longer 
term by transferring it to the Minuteman system. But I will 
have to take that one for the record.
    [The information referred to follows:]

    During a Strategic Forces Subcommittee hearing on March 25, 2004, 
Admiral Ellis provided Senator Nelson with more details. The exchange 
follows:

          Senator Bill Nelson. Yesterday, Admiral Ellis, we had talked 
        in the full committee about the Minuteman III. The Nuclear 
        Posture Review (NPR) and the Moscow Treaty achieved the bulk of 
        the reductions in the deployed nuclear warheads by retiring the 
        Peacekeeper and taking the Multiple Indepently-Targetable 
        Reentry Vehicles (MIRVs), de-MIRVing the Minuteman IIIs, so 
        that each Minuteman III has one instead of multiple warheads.
          There was a recent press report that suggested that the 
        decision to have one warhead on each of the 500 Minuteman IIIs 
        was being reconsidered. Is there any truth to that press 
        report?
          Admiral Ellis. I am aware of no reconsideration of that, sir, 
        and I believe that the modernization program of which we spoke 
        yesterday is still on track as you and I understand it.
          Senator Bill Nelson. Is there any plan to retain MIRVed 
        Minuteman IIIs?
          Admiral Ellis. I am not aware of any program at all, sir, in 
        that construct. Now, as with all posture and policy reviews, 
        someone may have hypothesized as we look at alternative 
        structures for the future and what combination of reduced 
        vehicle numbers could allow us to do that. I can assure you 
        that there is nothing in the program of record that alters the 
        information that either you or I have been given about the way 
        ahead for the program with regard to Minuteman III.

    Ambassador Brooks. Yes, sir. But I am familiar with most 
thinking on future nuclear weapons. There may be somebody 
somewhere who is thinking it, because there are always people 
somewhere who are thinking everything. That is not under active 
consideration at any significant level in the DOD or DOE.
    Senator Bill Nelson. Mr. Ambassador, what is the impact on 
the repeal of the ban on R&D of new yield nuclear weapons? How 
does that impact on the U.S. nonproliferation goals?
    Ambassador Brooks. I believe it does not impact at all, 
sir. Congress asked us for a report which sets forth our 
rationale in some detail. I expect that report to be here 
within a few days. But let me walk through the basic 
conclusions.
    First of all, look at people who might wish to acquire 
nuclear capabilities. Start with the most benign ones, our 
friends and allies. Our friends and allies want to know that we 
are acting to maintain the reliability and security of our 
forces. So they are not threatened by this.
    Terrorists do not care what we do, because they have 
motivations of their own. There is no particular evidence that 
the rogue states are influenced one way or the other by whether 
we are thinking about any particular form of weapon. After all, 
over the last 10 years, we have cut forces. We have taken 
forces off alert. We have ended testing. It has not appeared to 
affect the Irans and the North Koreas of the world.
    So the remaining question is that large body of states that 
helped form the nonproliferation norm that is codified in the 
NPR. There, I believe, the repeal of the ban does not make any 
difference. What we choose to do with it makes a difference. 
If, as some in the press have claimed, we were seeking to 
develop low-yield weapons and blur the distinction between 
conventional and nuclear weapons, I think that would affect our 
nonproliferation goals. Since we are not planning to do any of 
those things, I do not think there is any impact on them, sir.
    Senator Bill Nelson. Mr. Chairman, I have a couple more 
questions. I will submit them for the record, and we can get 
answers.
    I would just like the two of you all to give us some 
assurance. Our committee staff has been trying with no success 
for over a year to get a briefing on the end-to-end review, 
which was a joint DOD/DOE review. It has been completed for 2 
years. Will you all arrange a briefing for this subcommittee 
and our staff?
    Admiral Ellis. I will certainly convey that request to the 
DOD, sir.
    Senator Bill Nelson. To whom?
    Admiral Ellis. To the Secretary and the staff. Yes, sir.
    Senator Bill Nelson. All right. Will you report back 
directly to me?
    Admiral Ellis. Yes, sir.
    Senator Bill Nelson. Okay. On the answer?
    Admiral Ellis. Yes, sir.
    Senator Bill Nelson. All right. Mr. Chairman, if we can 
submit it for the record, this is the chart on the national 
missile defense testing showing that, in 2003, the test planned 
after the decision to deploy. In 2003, you had a failed test. 
Then you had three tests that were canceled. In 2004, you had 
one test and three additional tests canceled.
    For the life of me, it is hard for me to understand, even 
as someone who would like to see a national missile defense 
system work, because that gives us certain strategic 
advantages. I do not know if you have that kind of testing 
schedule and then it is canceled, how you can say that it is 
ready to go operationally and put it in the field.
    You do not have to answer that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Admiral Ellis. No, sir. Well, I think I have given you the 
only answer that I can, that while that snapshot is certainly, 
I am sure, accurate for the 2-year slice, the broader continuum 
of evolutionary testing started before that and will continue 
beyond that at a pace that is as rapid as the technology and 
system supports. I am committed to that and I know Ron Kadish 
and the MDA are committed to that, and so are our other 
contractors and folks who are proceeding with the system.
    We do not want testing in advance of readiness for testing. 
I think that is the element that is reflected there.
    Senator Bill Nelson. If you were Ron Kadish and running 
that program, you would be satisfied in doing exactly what he 
is doing?
    Admiral Ellis. I would be satisfied that he is pursuing 
this as aggressively as it can possibly be done given the level 
of technology and the time line that we are on. Yes, sir.
    Senator Allard. Senator Nelson, I have a couple questions I 
would like to ask in response to that. Maybe you want to be 
here while I ask those questions. But, we have no defense.
    Senator Bill Nelson. I would accept your gracious 
opportunity, but I have these people out there waiting on me.
    Senator Allard. Very good. Well, we will go ahead.
    Senator Bill Nelson. Thank you so much.
    Senator Allard. We have no defenses against long-range 
ballistic missile development today. I have a series of short 
questions in regard to that. We had a whole hearing in the full 
committee on missile defense. I hate to tromp over the same 
issues again. But just for this record and this subcommittee, 
do you support the use of the missile defense test bed to 
provide limited operational capability? Yes or no?
    Admiral Ellis. Yes, sir.
    Senator Allard. Does such a capability contribute to 
deterrence? Yes or no?
    Admiral Ellis. Absolutely.
    Senator Allard. Does such a capability provide a useful 
strategic option?
    Admiral Ellis. Yes, it does.
    Senator Allard. Does such a capability raise the nuclear 
threshold?
    Admiral Ellis. It certainly does.
    Senator Allard. Thank you.
    I want to clarify for the record the funding issue that we 
talked about, Ambassador Brooks. I want this to be clear. Has 
the NNSA decided to proceed to phase 6.3 engineering 
development of the RNEP?
    Ambassador Brooks. No, sir.
    Senator Allard. Thank you for your question.
    I want to go back to the nuclear weapons stockpile and just 
ask a few questions in regard to that for both you, Admiral 
Ellis and Ambassador Brooks. Following the NPR, which 
envisioned reducing our nuclear weapons stockpile from around 
6,000 nuclear warheads to between 1,700 and 2,200 
operationally-deployed nuclear weapons, the Appropriations 
Committee has included language in their bill requiring the 
nuclear stockpile to be included with the fiscal year 2005 
budget request.
    To date, the plan has not been delivered. When do you 
anticipate the plan will be delivered?
    Ambassador Brooks. I think the Secretary of Defense 
testified that it would be delivered ``in the spring.'' It is 
being worked at the highest levels. On the other hand, there is 
probably nothing more important than getting this right. It has 
taken us longer to get it right than we anticipated, and we 
regret the delay. I am very reluctant to give you a specific 
date that I cannot deliver on.
    Senator Allard. There are a number of people reviewing it, 
a number of offices reviewing it, I understand.
    Ambassador Brooks. Well, yes, sir. But more importantly, 
the importance of this will require personal involvement by 
both my cabinet officer and the Secretary of Defense, and 
ultimately by the President.
    Senator Allard. I understand it is over at the DOD now. 
They are reviewing it.
    Ambassador Brooks. Yes, sir. It is being worked actively.
    Senator Allard. Okay. Funding for the nuclear weapons 
initiatives were reduced by the House Energy and Water 
Appropriations Subcommittee until the nuclear stockpile plan is 
received. That subcommittee asserted that NNSA should not be 
moving forward with initiatives when they do not know the size 
and character of the stockpile. Is that a proper 
characterization?
    Ambassador Brooks. That is certainly a proper 
characterization of what the committee did.
    Senator Allard. Well, what about their allegation? Is that 
a proper characterization?
    Ambassador Brooks. What the committee did was two things. 
They fenced off certain parts of the advanced concepts money 
until we had presented this plan. They suggested it would be 
inappropriate to make any further decisions on the MPF, 
including a selection of the site for it, until the plan had 
been submitted.
    That is part of the normal process of congressional 
oversight. With regard to the MPF, the committee also reduced 
the funding. With that reduced funding, we are focusing on 
design aspects that will be required wherever the site 
selection leads us.
    I do not believe that that step alone is hampering the 
program. Naturally, I would prefer to have those restrictions 
off. I would prefer to have the plan the committee wanted up 
here, too.
    Senator Allard. Let me ask this next question then. Can the 
NNSA and DOD do research and conduct activities on the nuclear 
weapons initiatives without a complete nuclear weapons 
stockpile plan?
    Ambassador Brooks. We are allowed to use $2 million of the 
$6 million that was provided without the stockpile plan. The 
remaining $4 million has to wait until 90 days after the 
stockpile plan has been submitted.
    Senator Allard. You are kind of focusing on the restriction 
there.
    Admiral Ellis. Yes, sir. The fact of the matter is we 
certainly have a number of initiatives that can proceed 
comfortably without a precise definition of stockpile character 
at decades--so that is a fair statement. We do not need that in 
that level of detail or specificity in order to continue to 
advance the issues in which we have a shared interest.
    Ambassador Brooks. I will follow up.
    Senator Allard. Do you want to amend your statement here a 
little bit?
    Ambassador Brooks. Yes, sir. [Laughter.]
    Senator Allard. We will strike that. [Laughter.]
    Ambassador Brooks. The kind of thinking that we do under 
the Advanced Concepts Initiative is not directly related to the 
specific future size of the stockpile. So there is no direct 
need in order to do that thinking for us to settle on a future 
stockpile plan. There are simply different parts of the 
intellectual spectrum.
    Senator Allard. What activities are appropriate for NNSA to 
proceed with, based on current assumptions of the nuclear 
weapons stockpile plan?
    Ambassador Brooks. I believe that it is appropriate for us 
to continue Advanced Concepts Initiatives because we need to 
both maintain a robust intellectual capability at our design 
labs and also make sure that as we get to a smaller stockpile 
we are not passing up any opportunities to improve safety and 
security and reliability.
    Senator Allard. Ambassador, I would think world events 
would have some impact on your plan, as we see a change in the 
global landscape and the defense capabilities improve.
    Ambassador Brooks. That is certainly true. The most obvious 
example is one we have already discussed, the RNEP. We see, as 
we have submitted to Congress, a change in the global landscape 
in that more and more countries, some of whom we may need to 
deter, are using the option of hardening and deeply burying 
targets. So that makes it appropriate for us to think about how 
the Nation responds to it both in a non-nuclear sense, as 
Admiral Ellis described, and in a nuclear sense.
    We also believe it is important for us to continue with the 
so-called responsive infrastructure. Because as the world 
changes, it may be necessary to alter what we have deployed. 
One way to do that is to be able to respond not from fully 
operational weapons in warehouses, but from an infrastructure 
capability.
    We think it is important to continue all of the efforts at 
life extension and stockpile stewardship, because, once again, 
with a smaller force and no prospect of significant new 
weapons, we have to extend the life of current weapons. We have 
to make sure that they are effective and reliable. That is the 
reason Congress has been, and we are grateful for it, 
supportive of our stockpile stewardship efforts.
    Senator Allard. By having an operating MPF, an active 
Advanced Concept research program, and enhanced test readiness 
and revitalized infrastructure, will not the United States be 
able to reduce the quantities of nuclear weapons even further 
in a future nuclear weapons stockpile plan?
    Ambassador Brooks. Absolutely, sir.
    Senator Allard. Thank you.
    The Science-Based Stockpile Stewardship Program was 
designed to use scientific tools and technology to maintain a 
reliable, safe, and secure nuclear weapons stockpile without 
the need for underground nuclear tests. Can you please provide 
an update on how the Science-Based Stockpile Stewardship 
Program is proceeding?
    Ambassador Brooks. It is proceeding well. The program 
includes a large number of components. We are working on each 
of them.
    Senator Allard. What is the biggest challenge?
    Ambassador Brooks. I think the biggest challenge is to make 
sure that we find ways to gather data about conditions that do 
not exist in nature on Earth except in a nuclear explosion. So, 
for example, we will start stockpile stewardship experiments at 
the National Emission Facility later this year. We are moving 
forward to use that facility more and more over the coming 
decades to gather data that cannot be gathered any other way.
    We are continuing a program of so-called subcritical 
experiments. We are working to overcome some of the problems 
with the dual axis radiography facility at Los Alamos so that 
we can gather data on the phenomenon of implosions. It is 
probably a mistake to look at a single silver bullet. The idea 
is to have a robust array of tools, which in the aggregate will 
provide a good scientific, theoretical scientific basis for 
what has historically been something between an empirical 
science and an art.
    Senator Allard. To what extent can the Science-Based 
Stockpile Stewardship Program help to certify reliability, 
safety, and security of our nuclear stockpile?
    Ambassador Brooks. Well, we believe it is crucial to that 
certification. We see no reason at the moment to foresee a time 
when we would not be able to conduct that certification. But 
the enhanced test readiness is necessary as a hedge if we ever 
find that we cannot certify without an actual experiment 
involving nuclear yield.
    Senator Allard. For how long do you estimate we can 
continue to certify the nuclear stockpile as reliable, safe, 
and secure without the need to conduct a full-scale underground 
nuclear test?
    Ambassador Brooks. I do not think there is a responsible 
answer to that. I cannot see a time when we will not be. But we 
look at this in a very formal, very rigorous way. Each year, 
the laboratory directors look at it. Admiral Ellis looks at it 
separately. What we can tell you for sure is we do not need it 
today. What we can tell you is we do not see any reason to 
believe we will need it tomorrow. But this is something you 
have to look at continuously because of the complexity of the 
phenomenon involved.
    Senator Allard. Admiral Ellis, how important are the 
nuclear weapons initiatives, including RNEP, the MPF, and 
enhanced test readdress program to you?
    Admiral Ellis. Well, as I addressed in my opening remarks, 
Mr. Chairman, as you fully understand, we partner with NNSA 
through each of these elements. While some of them are more 
directly linked to satisfying our military needs--and RNEP's 
consideration as one of several alternatives to deal with hard 
and deeply buried targets is an example of that--it is also 
fair to say that the ability to understand and to ensure the 
safety and security of the stockpile in the future is 
absolutely an essential element to deterrence in and of itself.
    In other words, we have to have confidence in this 
stockpile in order to assure that potential adversaries might 
have the same kind of confidence and to enable the deterrent 
character that is the primary focus of the stockpile. So 
clearly, Ambassador Brooks' success and the success of the 
great team that he leads is an essential part of our shared 
collective national success in establishing a credible arsenal, 
be it of smaller size and more modern focus to better meet the 
national security challenges that confront us.
    Senator Allard. Admiral, I would like to follow up on the 
command and control. Strategic command and control in the not 
so recent past was oriented toward the need to communicate in 
very stressful conditions orders related to planned nuclear 
strike options for nuclear weapons delivery platforms. The 
broader range of missions and weapons and platforms for which 
your command now has considerable responsibilities within the 
new triad clearly requires more flexible command and control. 
Would you assess the progress being made in achieving this 
flexibility? What command and control capabilities will you 
need in the future?
    Admiral Ellis. Yes, sir. I would be delighted. In fact, as 
you are well aware, sir, some of this almost actually bleeds 
over into tomorrow's hearing, because many of these are spaced-
based capabilities and the like, as we deal with specific 
satellite communications capabilities and the like. But in a 
broader sense, it is clear that effective command and control 
will remain an essential element of not just oversight of the 
nuclear capabilities, the deterrent capabilities that we have 
had for years, but more and more the oversight and employment 
of the global or the newer definition of strategic capabilities 
that we face for the future.
    Our challenge now is to make sure that we are in concert 
with the guidance out of the OSD. John Stenbit articulated a 
lot about the Global Information Grid (GIG) and the 
standardization of the architecture and the formats that are 
necessary for us to be a part of that.
    We are working at our level to establish a national command 
and control capability that better serves the needs of the 
Nation's combatant commanders down to the theater commander 
level. We are partnering with Joint Forces Command (JFCOM), who 
has the responsibility for effective command and control at the 
theater level and below. The intent is to provide a seamless 
GIG command and control capability for all of our forces.
    The elements that are important to me are in our command 
and control information system that we are modernizing. How do 
we integrate that with the BMD capabilities and their command 
and control battle management system and the like? So we bring 
those together in an effective way, make them part of that 
larger architecture that Mr. Stenbit used to describe. They 
collectively serve the national command and control needs 
rather than the classic version of nuclear command and control. 
It is now in reality a national command and control system. We 
are very much actively involved in supporting all of those 
efforts.
    Senator Allard. Now I understand that the Air Force has 
stood up a long-range strike office to develop an AOA for the 
Joint Requirements Oversight Council (JROC) and another office 
to look at the future bombers. How are you in your command 
involved in these efforts?
    Admiral Ellis. Well, as I mentioned in the earlier 
question, sir, we are very actively involved in that. The JROC 
is using a new process to validate requirements. It is called 
the Joint Capabilities Integration and Development System 
(JCIDS). It still smells like a rose, but it is the JCIDS.
    Senator Allard. It is hard to keep up with all these new 
acronyms.
    Admiral Ellis. Yes, sir, it is, even for those of us in 
uniform. The process is designed to be more responsive. In some 
cases, we are specifically tasked to identify those 
requirements for capabilities that are ours, such as long-range 
Global Strike, for example. My command is responsible for 
delivering by the end of this year a statement of the 
requirements for that.
    At the action level, in reality, my Air Force staff is very 
much involved with the Air Force as they begin to explore these 
concepts. We participate in many of their armament summits and 
things of this nature. We understand the value of that 
expertise and access it wherever we find it. We do not believe 
that perfect knowledge or insight resides solely in STRATCOM. 
We need to go where others are aggressively trying to work 
these problems in support of us. So we are very much involved, 
Mr. Chairman.
    Senator Allard. I just wanted to give Ambassador Brooks a 
little bit of a break here, Admiral Ellis.
    Admiral Ellis. That is fine.
    Senator Allard. So I will give him a little bit of a break, 
and then get back to him. Ambassador, we were talking about 
this Science-Based Stockpile Stewardship Program. The National 
Ignition Facility (NIF) is a key facility in the Science-Based 
Stockpile Stewardship Program. When fully constructed, it will 
allow weapons scientists to aim 192 lasers at a BB-sized target 
simulating the temperatures and conditions of a nuclear 
explosion but at a much smaller scale.
    Can you report to us on the progress of the NIF?
    Ambassador Brooks. Yes, sir. We are generally pleased with 
the progress. Several years ago, there were management issues 
there. But in recent years, the NIF has been consistently 
meeting milestones ahead of schedule. It is today the most 
powerful laser in the world with only 4 of those 192 beams 
operating. We will begin Stockpile Stewardship experiments on 
it later this year.
    We had thought that we might need to delay the actual 
ignition in the NIF from 2010 to 2014. But a recent analysis 
that Dr. Beckner has conducted has allowed to recover the 2010 
date for ignition. While ignition is important, and it is 
important to Stockpile Stewardship, the experiments we conduct 
between now and 2010 will also be important.
    So I believe this facility is a clear example of a success. 
It is the largest single stockpile stewardship project we have, 
though and so it requires fairly constant supervision. But 
right now, they are doing a remarkable job. I mean, 3 million 
workdays without a loss.
    Senator Allard. Well, that is good news. You are under 
budget and ahead of schedule. We always like to hear that on 
this side of the table. You say that it is extremely important 
to the Science-Based Stockpile Stewardship Program, correct?
    Ambassador Brooks. Yes, sir.
    Senator Allard. The MPF would provide the United States the 
capability to manufacture plutonium pits for our nuclear 
weapons stockpile. The United States is the only nuclear nation 
without this capability. If the pit of a nuclear warhead-type 
failed, either due to a design flaw or an aging defect, what 
would happen to that class of weapons if we do not have an MPF?
    Ambassador Brooks. Well, it depends very much on the nature 
of the failure. It could be something that would not meet its 
military characteristics. It could, I guess, conceptually be 
something that would no longer have any utility. What we know--
and it is important to distinguish between what we know and 
what we do not--is that plutonium is a very difficult metal to 
fully understand with its multiple phases.
    We know that it ages due to radioactive decay, which 
changes the nature of the metallurgy. We know that when you 
attempt to initiate a nuclear explosion, getting things exactly 
right--I am being a little fuzzy because of classification--is 
important.
    What we do not know is how long plutonium can age before 
the problems become significant enough so that it effects 
military characteristics. Our analysis suggests a time before 
45 and 60 years. So we need to be able to establish a 
capability to remanufacture all the pits we are going to 
exchange before they get to that time frame.
    The only capability we have now is an interim capability 
thus far focused only on a single warhead, the W88 at Los 
Alamos. Los Alamos will manufacture the first actual Stockpile 
War Reserve W88 in 2007. We have learned, I think the director 
of Los Alamos started to say, about 43 separate technical 
processes that had to be carefully qualified. Some of these are 
a little bit of an art. Some of them are more of an engineering 
science.
    So we march forward with understanding how we will need to 
design an MPF. We assume that there is some risk in any 
significant delay to the current design of the MPF. Some would 
argue, the Foster Panel you mentioned earlier, that we are 
accepting unacceptable risk by not having it in operation until 
the next of the next decade. We are comfortable with the 
schedule that we have set forth. We would not be comfortable 
with a significant delay.
    Senator Allard. One of the issues that has always been 
important to me is security.
    Ambassador Brooks. Yes, sir.
    Senator Allard. My colleague, Senator Nelson, had a 
security question for Admiral Ellis. I now have a security 
question for you, Ambassador. After the September 11 attacks, 
the Secretary of Energy increased the security requirements for 
facilities across the nuclear weapons complex. The security 
requirements for the DOE are known as a DBT. Are you confident 
the facilities across the nuclear weapons complex will be able 
to meet the security requirements of the new DBT by the target 
date of 2006?
    Ambassador Brooks. Yes, I am. Equally important, I am 
confident that nuclear materials are not at risk right now.
    Senator Allard. Very good. Thank you.
    Admiral Ellis. If I might add to that, sir?
    Senator Allard. Admiral Ellis.
    Admiral Ellis. When I answered very quickly Senator 
Nelson's question prior to his departure, I did not want to 
infer that we, too, are not continuing to review and upgrade 
the security associated with our end of the nuclear stockpile 
storage. That is, of course, at the launch facilities, in terms 
of the ICBM, the ports where the SSBNs deploy from, and our own 
capabilities at the bomber bases and weapons storage sites.
    So we, too, have adopted a new DBT. We are continuing to 
upgrade what is reflective of the new security environment. It 
is not fair to say that everything has been done that needs to 
be done. But it is fair to say that we have had a very 
aggressive scrub of this, a great deal additionally has been 
done by the Services, and a clear roadmap and way ahead has 
been identified. We will continue to enhance our capability to 
deal with an increasingly robust postulated threat in the years 
ahead.
    So we, too, are focused on that. We are not sitting on our 
laurels here. We understand there is work that needs to be 
done, and we are pursuing that.
    Senator Allard. Well, thank you. I have one question, and 
then we will draw this hearing to a close.
    Admiral Ellis, every year this committee asks the Services 
for their unfunded priorities lists. As you review programs 
that meet STRATCOM priorities, can you identify any particular 
acquisition efforts that you believe have not been adequately 
resources?
    Admiral Ellis. We have to be very careful, understanding 
the balance that inevitably is a part of the process, both here 
with the committee and the Hill, but also within the DOD. I 
highlighted some issues earlier about the advanced conventional 
capabilities and the things that are an important part of 
understanding this new triad, that sometimes I think we use 
that phrase a bit too glibly. We do not fully articulate what 
the elements of that are.
    In addition to the classic nuclear piece were, of course, 
the advanced conventional capabilities that need to mature and 
fairly rapidly in order to supplement and complement and enable 
that draw-down that you discussed. The infrastructure piece 
that Ambassador Brooks is responsible for, the missile defense 
capability, as the defensive element, for the first time the 
Nation will now have a defensive element to its deterrent 
posture that we have not had before. Then there is the very 
insightful question that you asked me, about the command and 
control capabilities to knit all that together as an effective 
whole.
    If I had some areas in which I would like to focus, it 
would be on those elements of the new triad, to ensure that we 
do not just focus on one corner of that, because it has to grow 
as an entity, not as an individual element. So while there is 
attention being paid to it, we need to continue to refine the 
balance of those elements of that new triad in order to 
continue to enhance the Nation's deterrent capabilities for, as 
I said, a much different future.
    Senator Allard. Okay. I want to thank you both for showing 
up to testify before the subcommittee. We do have some other 
questions we will submit to you that we did not have time to 
cover this morning. But if you could respond to those promptly 
and get those responses back to this committee within a short 
period of time, we would certainly appreciate it.
    Again, thank you for your dedication and for the great job 
you are doing. With that, we will call the subcommittee to a 
close.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

                   LEGACY COMMAND AND CONTROL SYSTEMS

    1. Senator Allard. Admiral Ellis, what is the status of legacy 
command and control (C\2\) systems? Will these systems be sustained and 
serve as the technical basis for secure nuclear command in the future, 
or will they be replaced as part of the more general effort to upgrade 
C\2\ capabilities?
    Admiral Ellis. I respectfully defer to Ambassador Brooks on 
specifics related to the National Nuclear Security Agency's (NNSA) 
fiscal year 2005 budget request.
    Over the last few years, knowing that Net Centric operations were 
on the horizon, we have and continue to move forward to modernize our 
C\2\ systems to better support IT-based hardware and software. United 
States Strategic Command (STRATCOM) just completed one of the most 
modern and secure facilities called the Situation Room, which takes 
complete advantage of state-of-the-art technology and provides our 
senior decision makers the capability to communicate and collaborate 
with supporting forces, other combatant commanders and national 
leadership while maintaining global situational awareness. We are now 
in the process of doing a full upgrade and modernization of our fixed 
command center to bring this facility on par with the Situation Room.

                       LONG-RANGE STRIKE SYSTEMS

    2. Senator Allard. Admiral Ellis, when the Services talk about 
long-range strike or Global Strike, they often tend to talk in terms of 
theater systems such as tactical aircraft. What methodologies do you 
use to compare requirements for long-range strike systems in 
combination with requirements for theater systems?
    Admiral Ellis. Two years ago, while we were first developing Global 
Strike as it appears in Unified Command Plan (UCP) 02, Change 2, the 
Air Force was also developing a concept for prompt Global Strike. 
Admittedly, this coincidental use of similar terms has created some 
confusion. STRATCOM's UCP-defined Global Strike mission is a joint, 
integrated mission combining kinetic and nonkinetic means to achieve 
rapidly planned/rapidly approved/rapidly executed, long-range, 
strategic effects. STRATCOM's prompt Global Strike processes are built 
around rapid collaborative planning and senior-level approval. 
Therefore, the product of a prompt Global Strike planning effort could 
be the approval of a theater-based strike package or a long-range 
strike package, both of which could be called ``Global Strikes.'' The 
Air Force's prompt Global Strike capabilities can provide an element of 
the joint mission assigned to STRATCOM. The Air Force's prompt Global 
Strike capabilities, however, also support geographic combatant 
commander's requirements.
    STRATCOM will consider all Service capabilities (Air Force and 
others) that meet our basic requirements of: long-range, speed of 
response, precision and lethality. STRATCOM is developing a Global 
Operations Center that will look across all blue forces available 
during crisis planning in order to develop the most effective Global 
Strike courses of action (COAs). To the extent of their availability, 
theater forces (such as tactical aircraft) will be considered during 
COA development.

                           NUCLEAR DETERRENCE

    3. Senator Allard. Admiral Ellis, STRATCOM has absorbed several new 
missions in addition to its traditional mission of nuclear deterrence. 
These include missile defense coordination; coordinating, planning, and 
conducting intelligence, surveillance, and reconnaissance (ISR) 
missions; information operation; and Global Strike. In addition, 
STRATCOM and Space Command were merged into the new Strategic Command. 
How is your command dealing with the huge workload of absorbing this 
new mission and what challenges in this process have you found most 
difficult to overcome?
    Admiral Ellis. The President established STRATCOM to provide a 
practical means to implement and integrate a new triad of global 
response capabilities. We have the responsibility for Global Strike--
both kinetic and non-kinetic--and for integrating missile defenses with 
a broad-spectrum of flexible offensive and support capabilities. There 
is a synergy in integrating these facets into one command and we are 
proceeding well down the road on gaining full operational capabilities 
for each newly assigned mission. We are addressing opportunities to 
gain capabilities in space system technology and advanced conventional 
strike.

                              BOMBER FLEET

    4. Senator Allard. Admiral Ellis, from your perspective as STRATCOM 
commander, is the bomber fleet properly sized and would you recommend 
any changes to the current structure of the bomber fleet?
    Admiral Ellis. The adequacy of the overall bomber fleet size and 
composition must be examined from the global perspective of the Air 
Force; but from a STRATCOM perspective, the current bomber fleet size 
is adequate to meet the needs of the operational plans they support.

    5. Senator Allard. Admiral Ellis, what are the most important 
upgrades to current generation bombers and are these initiatives 
adequately supported?
    Admiral Ellis. We are carefully monitoring the progress of two 
critical bomber upgrade programs: Advanced Extremely High Frequency 
(AEHF) terminal integration for the B-2 is key to gaining the 
capability of survivable, robust, and secure two-way satellite 
communications in a stressed environment.
    Additionally, the International Civil Aviation Organization will no 
longer grant waivers to very high frequency (VHF)-equipped aircraft 
that are unable to receive and transmit in 8.33 khz increments. B-52s 
will gain that important capability from the Global Air Traffic 
Management Program. Without it, they will not be able to operate out of 
European airfields, if the need arises.

                     NUCLEAR WEAPONS STOCKPILE PLAN

    6. Senator Allard. Ambassador Brooks and Admiral Ellis, during the 
hearing, there may have been some confusion about a line of questions 
on the Nuclear Weapons Stockpile Plan (NWSP). Please provide for the 
record your view on why, even without a final NWSP, the NNSA should 
proceed in fiscal year 2005 with the following four nuclear weapons 
initiatives: the Advanced Concepts Initiative; the feasibility study on 
the Robust Nuclear Earth Penetrator (RNEP); the design and 
environmental assessment work on the Modern Pit Facility (MPF); and 
enhanced test readiness. How would you respond to critics who claim you 
should not do any work on these four initiatives without a final NWSP?
    Ambassador Brooks. These four initiatives, in large part, are 
independent of the details of the revised 2012 NWSP. That plan will 
determine the number of warheads and warhead types from the legacy, 
Cold War stockpile that we will need to maintain between now and 2012. 
The Advanced Concepts Initiative and the RNEP Phase 6.2 study address 
options to transform that stockpile in the years beyond 2012; nothing 
in the revised stockpile plan would obviate the need for these two 
efforts. Moreover, so long as our Nation requires safe and reliable 
nuclear forces for its security, a test readiness program is a prudent 
hedge against a failure of a warhead critical to our deterrent that 
cannot be resolved without nuclear testing--this need is independent of 
the revised stockpile plan. Finally, irrespective of the size of the 
nuclear stockpile, and even if we never deploy another new warhead, we 
will still need an MPF to produce replacement pits for warheads whose 
pits will have aged out. The size and capacity of that facility will, 
of course, depend on the size and composition of the nuclear stockpile 
as well as on pit lifetime. In view of these uncertainties, MPF 
planning underway is exploring options at the low end of the range of 
plausible plant production capacities--if are planning assumptions are 
wrong there is plenty of time before construction begins to adjust 
plant capacity accordingly.
    Admiral Ellis. The four initiatives you cite are independent of 
each other and the NWSP. The NWSP is focused on numbers and types of 
weapons. Neither the RNEP study nor any Advanced Concepts would be 
reflected in the plan until and unless approved for development and 
production. The design and environmental assessment for the MPF do not 
require the details of the NWSP during these initial stages, and 
enhanced test readiness is an infrastructure issue and not sensitive to 
the size of the stockpile.

    7. Senator Allard. Ambassador Brooks and Admiral Ellis, would 
active programs in these four initiatives help the Department of 
Defense (DOD) to complete the NWSP and could active programs in these 
four initiatives help to reduce the number of nuclear weapons in the 
operationally-deployed and response force?
    Ambassador Brooks. Certain of these initiatives could indeed help 
to reduce the number of nuclear weapons that are in the operationally-
deployed or responsive forces. For example, our current plan is to 
maintain some additional warheads in the nuclear stockpile as 
reliability replacements for warheads that experience age-related 
problems that could call into question their safety or reliability. 
Planning for an MPF is a critical step in restoring our production 
infrastructure. An ability for timely production of replacement 
warheads to address technical problems that arise would mean that we 
would not need to maintain as many warheads in the overall stockpile.
    Admiral Ellis. None of these initiatives have any bearing on 
reducing the number of weapons in the stockpile in the near term. 
However, in the long term, once a responsive infrastructure is 
implemented (for example, the MPF), it could possibly support deeper 
stockpile reductions.

    8. Senator Allard. Ambassador Brooks and Admiral Ellis, considering 
continuing advances in defense technologies and intelligence 
capabilities, constantly changing geopolitical balances, and other 
factors discussed in the Nuclear Posture Review (NPR), is the NWSP ever 
truly completed?
    Ambassador Brooks. No, it is not truly ever completed. We typically 
update the NWSP annually.
    Admiral Ellis. Through the annual review process mandated by the 
President, the NWSP is designed to be a living document. It generally 
articulates policy guidance, details a snapshot in time in the life of 
the stockpile, and outlines the vision and goals for the foreseeable 
future.

    9. Senator Allard. Ambassador Brooks and Admiral Ellis, in general, 
please indicate the level of complexities required to complete the 
NWSP.
    Ambassador Brooks. The stockpile plan is an interagency effort and 
is prepared jointly by the DOD and the Department of Energy (DOE). Once 
both Secretaries concur on the document it is sent to the White House 
for approval by the President. Because these are typically complex 
issues and critical to our Nation's security, understanding their full 
implications and then reaching agreement on specific options is a 
lengthy and time-consuming process.
    Admiral Ellis. The DOD and NNSA analysts spend thousands of man-
hours examining stockpile alternatives. Analysts examine potential 
changes in the strategic environment (a new threat or reliability 
concern) and the ability to react to a changed environment via weapons 
retained in the stockpile and a more responsive infrastructure.

    10. Senator Allard. Ambassador Brooks and Admiral Ellis, does the 
NNSA have enough information about what will be included in the NWSP to 
prudently proceed with the four initiatives?
    Ambassador Brooks. Yes. These four initiatives in large part are 
independent of the details of the size and composition of the nuclear 
weapons stockpile. Even if we never deploy another new warhead, we will 
still need an MPF to produce replacement pits for warheads whose pits 
have reached the end of their service lives. The size and capacity of 
that facility will, of course, depend on the size and composition of 
the nuclear stockpile as well as on pit lifetime. MPF planning underway 
is exploring options at the low end of the range of plausible plant 
production capacities. If we are wrong in our planning assumptions, 
there is plenty of time before construction begins to adjust plant 
capacity accordingly.
    Admiral Ellis. Yes.

    11. Senator Allard. Ambassador Brooks and Admiral Ellis, would 
reasonably anticipated modifications to the NWSP cause any changes to 
the research or other activities planned for the four initiatives in 
fiscal year 2005?
    Ambassador Brooks. No. There are no research or other activities 
planned to be underway on these four initiatives in fiscal year 2005 
that would need to be changed based on anticipated modifications to the 
revised 2012 NWSP. These initiatives will ensure that we can sustain 
and, in the case of planning for an MPF, restore our nuclear weapons 
capabilities in the period well beyond 2012.
    Admiral Ellis. No, none.

                        PRICE-ANDERSON AUTHORITY

    12. Senator Allard. Ambassador Brooks, Price-Anderson authority is 
the indemnification protection for DOE contractors who work on nuclear 
matter and it expires at the end of this calendar year. What would the 
impact be on the DOE if the Price-Anderson indemnification authority is 
not extended beyond its expiration at the end of this calendar year?
    Ambassador Brooks. NNSA utilizes the Price-Anderson authority to 
indemnify its contractors against public liability arising from a 
nuclear incident. If the authority to indemnify is not extended NNSA 
will utilize the authority fund in Public Law 85-804 to provide its 
contractors protection as nearly approximate to Price-Anderson as 
possible. This was done in the late 1980s when Price-Anderson authority 
had expired. Because Public Law 85-804 authority is not specifically 
tailored to address the risks associated with Atomic Energy Act work, 
its protections under the best of circumstances is not as good as 
Price-Anderson and may leave the public with less protection in the 
event of a nuclear incident.
    NNSA will conduct at least two significant procurement actions, 
beginning in 2004, with award expected in 2005: the management and 
operating contracts for Los Alamos National Laboratory and the Nevada 
Test Site. If the Price-Anderson indemnity is not available there may 
be a chilling effect on competition. At least one firm has informed 
NNSA that it would not propose in the absence of Price-Anderson 
authority.

    13. Senator Allard. Ambassador Brooks, are there any contracts 
which you anticipate will be signed in fiscal year 2005 which would be 
impacted by the expiration of Price-Anderson authority?
    Ambassador Brooks. As noted in the response to Question 12, NNSA 
expects to sign management and operating contracts for Los Alamos 
National Laboratory and the Nevada Test Site in 2005. In addition, the 
management and operating contracts for the Kansas City Plant, the Y-12 
Plant and the Pantex Plant expire in 2005; each of these contracts has 
an option to extend the period of performance for 5 years.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                              B-1 BOMBERS

    14. Senator Bill Nelson. Admiral Ellis, the Air Force has 
apparently decided to return to service 7 of the 23 B-1 bombers that 
were slated for retirement. General Moseley has indicated that an 
additional 10 of the 23 may be available to bring back to service. Of 
those 10, apparently 5 are in fairly good condition such that they 
would be easier to recover. The remaining six are apparently too far in 
the retirement process to be brought back. Recognizing that the B-1 is 
no longer nuclear capable, but given your expanded responsibilities for 
Global Strike, would you support bringing back more than seven bombers, 
if it were feasible?
    Admiral Ellis. As one of many users of the B-1, STRATCOM is not in 
a position to evaluate the overall needs of the Air Force for this 
important system. However, from a STRATCOM perspective, the current 
fleet is adequate to meet our needs.

                          B-2 AND B-52 BOMBERS

    15. Senator Bill Nelson. Admiral Ellis, during Operation Iraqi 
Freedom the B-2s and B-52s flew 5 percent of the sorties but dropped 65 
percent of the ordnance. Are you satisfied that the programs to 
maintain and upgrade the capabilities of the B-2 and B-52 are 
adequately funded and on track?
    Admiral Ellis. We are carefully monitoring the progress of two 
critical bomber upgrade programs:
    AEHF terminal integration for the B-2 is key to gaining the 
capability of survivable, robust, and secure two-way satellite 
communications in a stressed environment.
    Additionally, the International Civil Aviation Organization will no 
longer grant waivers to VHF-equipped aircraft that are unable to 
receive and transmit in 8.33 khz increments. B-52s will gain that 
important capability from the Global Air Traffic Management Program. 
Without it, they will not be able to operate out of European airfields, 
if the need arises.

    16. Senator Bill Nelson. Admiral Ellis, only 76 of the 93 aircraft 
in the B-52 fleet are being upgraded and modernized. In your view 
should the entire fleet, including the attrition reserve aircraft, be 
upgraded and modernized?
    Admiral Ellis. The Air Force has conducted studies over the past 
several years to determine the right mix of bombers to fund, and I am 
satisfied with their evaluation.

           NUCLEAR WEAPONS TESTING AND STOCKPILE RELIABILITY

    17. Senator Bill Nelson. Ambassador Brooks, the DOE will, according 
to its plan, complete the process to achieve a 24-month test readiness 
by early fiscal year 2005 and then complete the process to achieve an 
18-month test readiness by the end of fiscal year 2005. This is 1 year 
earlier than the direction contained in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2004. Why is DOE moving so 
quickly to achieve the 18-month test readiness posture?
    Ambassador Brooks. The Department's actions are consistent with 
congressional direction. Section 3113 of the NDAA for Fiscal Year 2004 
requires that the Secretary of Energy, not later than October 1, 2006, 
achieve a readiness to conduct an underground nuclear test within 18 
months. Our fiscal year 2005 request was to enable us to meet this 
congressional requirement. However, funding cuts and delays from 
continuing resolutions have caused a slip in the timeframe somewhat, to 
about the second quarter of fiscal year 2006.
    As the President has made clear, we have no intention of resuming 
testing; our plans to improve test readiness are a prudent hedge 
against the possibility of a problem arising in the stockpile that 
cannot be confirmed, or a fix certified, without a nuclear test.

    18. Senator Bill Nelson. Admiral Ellis, does this rush to achieve 
an 18-month test readiness test posture signify that the DOE wants to 
resume nuclear weapons testing to support the development of a new 
nuclear weapon or to test an advanced nuclear weapons concept?
    Admiral Ellis. The DOD currently has no requirement to develop a 
new nuclear weapon or to test an advanced nuclear weapon concept in an 
underground testing environment.

                   ADVANCED NUCLEAR WEAPONS CONCEPTS

    19. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, on 
March 17, 2004, the DOE submitted a report on its plans for $2 million 
of $6 million appropriated for fiscal year 2004 for advanced nuclear 
weapons concepts. In discussing the reason that the administration 
requested the repeal of the ban on low-yield weapons research and 
development the report states: ``A revitalized nuclear weapons advanced 
concepts effort is a core element of NNSA's ability to respond, in a 
timely manner, to DOD's nuclear weapons needs.'' What are the needs of 
the DOD to which the DOE is responding that could only be addressed 
with repeal of the ban on low-yield nuclear weapons research?
    Ambassador Brooks. Repeal of the ban on low-yield nuclear weapons 
research was not undertaken in order to meet a specific DOD requirement 
for a new, low-yield warhead. Rather, we sought repeal to ensure that 
we had the freedom to explore the full range of advanced nuclear 
warhead concepts without the chilling effect on scientific inquiry that 
the law represented.
    Admiral Ellis. There is great value in investigating a deterrent 
strategy that is global in nature and includes the most effective mix 
of capabilities available, including nuclear, advanced conventional, 
nonkinetic, and Special Operation Forces. The DOD is interested in 
conducting rigorous studies of all new technologies, and examining the 
merits of precision, increased penetration, and reduced yields for our 
nuclear weapons that will provide a broad-spectrum of capabilities that 
may prove effective against new or emerging threats, such as select 
hard and deeply buried targets.

                  REQUIREMENTS FOR NEW NUCLEAR WEAPONS

    20. Senator Bill Nelson. Admiral Ellis, what is the process by 
which a military requirement for a new nuclear weapon would be 
developed and what is the process by which a military requirement would 
be developed for a modification of an existing nuclear weapon to meet a 
new military purpose? At what stage in the 6.X process would such a 
requirement be developed?
    Admiral Ellis. The process for developing and processing 
requirements for a new nuclear weapon is administered by the Nuclear 
Weapons Council and follows the life-cycle known as Phase 1 through 
Phase 7. The key document that captures the DOD requirement for the 
weapon is the Military Characteristics (MC) for the weapon. Each weapon 
in the stockpile has an MC document.
    When establishing a military requirement that could result in a 
modification to an existing weapon to meet new military mission needs, 
one would follow what is referred to as the 6.X process, overseen by 
the Nuclear Weapons Council. The 6.X process consists of the following 
phases: Concept Assessment, 6.1; Feasibility Study and Option Down 
Select, 6.2; Design Definition and Cost Study, 6.2A; Development 
Engineering, 6.3; Production Engineering, 6.4; First Production, 6.5; 
and Full-Scale Production, 6.6.
    Depending on whether the weapon is new or modified, the development 
phase of the process would be Phase 3 or 6.3.

                    ROBUST NUCLEAR EARTH PENETRATOR

    21. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, the 
NNSA, according to its fiscal year 2005 budget request, will spend $135 
million to complete the phase 6.2/6.2A study on the RNEP. This is 
substantially more than the $45 million that was announced in fiscal 
year 2003 when the first funding for the RNEP was requested. Why has 
the cost grown so substantially and what activities are covered in this 
amount?
    Ambassador Brooks. The cost to complete the RNEP Phase 6.2/6.2A 
study has not increased. Included in the ``out-years'' request in our 
fiscal year 2005 Future Years Nuclear Security Plan (FYNSP) is the 
funding that would be required in fiscal year 2006 and beyond should a 
decision be made to advance RNEP into full-scale engineering 
development. I must emphasize that no decision has been made to do 
this, nor do we anticipate such a decision until after the RNEP study 
is completed. Our inclusion of these funds in the FYNSP ``out-year'' 
budget request was a prudent ``placeholder'' in the event a decision is 
made in fiscal year 2006 to develop the RNEP system.
    Admiral Ellis. I respectfully defer to Ambassador Brooks on 
specifics related to NNSA's fiscal year 2005 budget request.

    [Whereupon, at 11:24 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

            NATIONAL SECURITY SPACE PROGRAMS AND MANAGEMENT

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Akaka, Bill 
Nelson, and E. Benjamin Nelson.
    Majority staff member present: Brian R. Green, professional 
staff member.
    Minority staff member present: Kenneth M. Crosswait, 
professional staff member.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Bridget E. Ward.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; and William K. Sutey, assistant to 
Senator Bill Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. We call the subcommittee to order and, just 
to let our witnesses know about what we are facing here, we 
have a 2:45 vote. I am going to make an opening statement and 
we will let Senator Nelson, the ranking member, make an opening 
statement, and we will go as far as we can with the testimony 
and then we will go vote and come back.
    If I have other Republicans set up over here, or somebody 
shows up on the other side, we may have an opportunity to let 
them make their statement or you continue to make your 
statements, and we will run down and vote and come back, so we 
can keep it going so we can get out of here and keep you on 
time as best we can.
    We meet today to receive testimony on the space programs of 
the Department of Defense (DOD). I want to first welcome 
Senator Bill Nelson, my ranking member on the Strategic Forces 
Subcommittee. I know you share my keen interest in space issues 
and I look forward to working with you closely in this area.
    I am also pleased to welcome the witnesses today: the 
Honorable Peter B. Teets, Under Secretary of the Air Force; 
Admiral James O. Ellis, Commander, United States Strategic 
Command (STRATCOM); General Lance Lord, Commander, Air Force 
Space Command (AFSPC); and retired Vice Admiral Arthur 
Cebrowski, Director of Force Transformation in the Office of 
the Secretary of Defense (OSD).
    Admiral Ellis, it is good to see you again today. We had an 
opportunity to hear from each other yesterday. I thank you all 
for your service to the Nation and for taking time out from 
your very busy schedules to join us here today.
    Our space forces today are the most capable they have ever 
been and they provide our military a decisive advantage over 
our adversaries. The stories of how space contributed to our 
rapid victory over Saddam's forces in Iraq last year are well 
known and praise for how well our space forces performed is 
well justified.
    The space assets that provide these tremendous capabilities 
were developed by extraordinarily talented individuals. There 
is no denying their great success. At the same time, however, 
many space acquisition programs have had long, difficult 
development histories. Space-based Infrared Radar System 
(SBIRS)-High, Advanced Extremely High Frequency (AEHF), and 
Evolved Expendable Launch Vehicle (EELV) programs, and the 
Future Imagery Architecture (FIA) program, to name a few, have 
experienced significant problems in the past few years.
    I think many people are concerned, with considerable 
justification, that space programs are so often fraught with 
such great difficulties. Difficulties that manifest themselves 
in increased costs, schedule delays, and technical 
complications.
    Secretary Teets, I commend you for your reforms of the 
space acquisition process as you try to control risks and 
minimize these problems. I also believe it is to your great 
credit that you commissioned the Young Panel, a joint Air 
Force-Defense Science Board (DSB) group of experts, to explore 
some of the causes of these difficulties. The task force 
identified five causes for the cost growth and schedule delays 
in National Security Space (NSS) programs, including cost as 
the primary management driver in, as opposed to mission 
success; unrealistic cost estimates and unrealistic budgets; 
inadequate requirements definition and requirements 
instability; erosion in the government's ability to lead and 
manage the space acquisition process; and industrial management 
failures.
    The General Accounting Office (GAO) also put out a recent 
report on this subject that in some ways parallels the Young 
Report, but GAO also identified the use of immature 
technologies as a prominent cause of these difficulties.
    We might add to this inventory of causes the fact that 
space is a very challenging environment in which to operate. As 
I have dealt with some of the programs in the authorization 
process over the past few years, I have wondered if some of the 
problems are simply inherent in the way we develop and operate 
our space capabilities. The process it seems to me goes 
something like this:
    Space launch continues to be very expensive, so we do not 
launch very often. With launch both infrequent and expensive, 
we must build the most capable spacecraft we can and we build 
them to last a long time. That means we use the most advanced 
technology we can in constellations of just a few satellites. 
So we use the most sophisticated technologies in just a few 
platforms, with very limited opportunities to improve in an 
evolutionary manner. We also try to make such a system work 
perfectly the first time it is launched and the first time it 
functions in its operational environment.
    It seems to me that it is this set of challenges that makes 
these programs so difficult. I am encouraged that the Air Force 
budget includes funding for Operationally Responsive Launch 
(ORL). The intent of that program, if I understand it 
correctly, is to try to reduce launch costs and time lines, at 
least for small payloads.
    I also note that the Secretary and Chief of Staff of the 
Air Force have testified before the full committee on the 
importance of responsive space capabilities, and I know Admiral 
Cebrowski's office has sponsored some very interesting 
initiatives in this area. Admiral Cebrowski, I read your 
prepared statement for today's hearing with great interest. The 
business model today, focused on large, complex satellites, 
evolved for good reason and has provided us with remarkable 
capabilities. It does seem to me that technology has advanced 
to the point that an additional approach to space capabilities, 
one that features much smaller satellites, more frequent 
launches, and operational and technical agility, must be 
examined more thoroughly and could provide great advantages.
    I am very interested in exploring these ideas of how new 
capabilities might fit into future architectures and how this 
new approach could achieve significant capabilities for the 
warfighter at lower risk. This needs to be a high priority. I 
am concerned that the Department has not adequately resourced 
this approach this year, particularly as it pertains to small 
satellites.
    I also intend to determine if additional funding or 
legislation might be useful to accelerate the progress that has 
already been made to date by the Air Force and the Office of 
Force Transformation (OFT).
    I commend the Air Force for its interest in ORL and OFT for 
its transformational vision. I am convinced that this new 
approach holds great promise that must be aggressively 
explored. At the same time, I fully understand that we have 
ongoing space programs that will continue to provide very 
important capabilities and that business models and technical 
approaches do not change overnight.
    I look forward to exploring with our witnesses the status 
of current programs, the challenges they face, and how we might 
meet these challenges successfully.
    Gentlemen, I know how busy you are and appreciate your 
willingness to appear before our subcommittee and I look 
forward to your testimony.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Mr. Chairman, I will boil down my 
opening statement to five words: access to space and technical 
challenges. That will be the essence of my line of inquiry, and 
I will submit a statement for the record.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Thank you Senator Allard. I would like to join you in welcoming our 
witnesses this afternoon.
    This is an important hearing and it is a pleasure to have each of 
our witnesses here today. As the United States becomes increasingly 
dependent on space for a wide variety of functions, from ATM machines 
to operations in Iraq, to maintaining vigilance through our 
intelligence, surveillance, and reconnaissance (ISR) assets, we must 
ensure that we always maintain access to space and to our space assets.
    Maintaining our access to space--ensuring that the ability to 
launch satellites as and when needed--is critically important to 
national security. Put simply, we would not be the same country if we 
were not able to maintain assured access to space.
    The program that will allow us to maintain this access in the near 
term is the Evolved Expendable Launch Vehicle (EELV) program. This 
program has its share of issues at the moment, not the least of which 
is cost. We will, I am sure, have an opportunity to have a full 
discussion of the EELV program today.
    A longstanding concern of mine, and one that I believe I share with 
you, Senator Allard, is the fact that with most all of the National 
Security Space (NSS) satellite programs are experiencing some sort of 
technical difficulty. They are over budget and behind schedule--some by 
significant amounts of time and money. Curiously, the reasons for these 
problems vary with the program. It is not just the more mature programs 
that are of concern. Some of the newer programs are so technically 
aggressive that although they may not yet be over budget or behind 
schedule, it is probably only a matter of time before they, too, will 
be beset with problems.
    Today, I would like to focus on a few of the satellite programs 
that are of particular concern to me, the Transformational 
Communications satellite, the Advanced Extremely High Frequency (AEHF) 
satellite, the Space-based Radar (SBR), and the Space-Based Infrared 
System (SBIRS)-High.
    Also of concern, from a policy perspective, are space programs in 
the Missile Defense Agency (MDA). Today, I would like to discuss the 
policy and programmatic issues associated with these MDA space 
programs. It appears that these programs may be the beginning of a 
change in U.S. policy with respect to space weapons.
    The last area that I hope to discuss is where we go in the future. 
I would very much like to hear from each of our witnesses their visions 
for NSS in the future. Where will we be in 5, 10, or 20 years?
    Secretary Teets, I want to note the attention you have given to 
ensuring that we also have the people that we need to ensure our 
ability to utilize space as a national asset. This is a real challenge 
and I want to thank you for your efforts and your dedication to the 
space professionals.
    Thank you Senator Allard, and to our witnesses, it is a pleasure to 
have you all with us. Collectively you bring many years of space 
wisdom.

    Senator Ben Nelson. The other Senator Nelson.
    Senator Allard. Right.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I want to welcome all of you today, but especially my good 
friend Admiral Ellis, the Commander of STRATCOM. Although it is 
newly expanded, STRATCOM already has a very proud legacy and an 
opportunity for the future. So many of the missions that will 
be talked about in the future and a lot of the planning will, 
in the words of my colleague from Florida, involve space.
    I know we are all interested in how this will affect 
preparedness, how it will help the American people feel more 
secure and have more security in the world.
    I thank you very much for being here, thank you for taking 
on this responsibility, and look forward to your comments.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    We are just checking on the bell here to make sure we are 
not having a vote that is getting started. I welcome the panel 
here, and we thought we would start with Dr. Teets, Under 
Secretary of the Air Force and Director of the National 
Reconnaissance Office (NRO). It is always good to hear from 
you, Dr. Teets.
    Then after each of you have had your testimony, we will 
proceed with 10-minute rounds of questions and comments from 
the members of the committee.
    Dr. Teets.

 STATEMENT OF HON. PETER B. TEETS, UNDER SECRETARY OF THE AIR 
       FORCE AND DIRECTOR, NATIONAL RECONNAISSANCE OFFICE

    Dr. Teets. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. I am very pleased to be here today 
and to have an opportunity to make some remarks. I have 
submitted a written statement for the record, and with your 
permission would like to ask that it be entered into the 
record, but I do have a few brief opening remarks I would like 
to make today.
    Senator Allard. All of your full statements will be entered 
in the record and please proceed.
    Dr. Teets. Thank you.
    I am particularly honored to be here with Admiral Ellis, 
General Lord, and Admiral Cebrowski. Over the course of my 
tenure, I have had the good fortune of working closely with 
these three gentlemen, and indeed I think that does emphasize 
the importance that we place on jointness in our NSS endeavors. 
We have worked hard together as a team to define a way ahead 
that will provide a strong NSS program that meets the needs of 
all the military services as well as the Intelligence 
Community.
    The President's budget request, along with our efforts to 
develop and maintain our team of space professionals, will 
enable us to sustain America's preeminence in space. In my 
multiple roles as the DOD's Executive Agent for Space, Under 
Secretary of the Air Force, and the Director of the NRO, I have 
set five priorities for our NSS efforts in this year of 2004. 
They are:

          Number one, achieving mission success in operations 
        and in acquisition;
          Number two, developing and maintaining a team of 
        space professionals;
          Number three, integrating space capabilities for 
        national intelligence and warfighting;
          Number four, producing innovative solutions for the 
        most challenging national security problems; and
          Number five, ensuring freedom of action in space.

    These priorities have shaped the fiscal year 2005 budget 
for our DOD space programs and I see substantial improvement in 
capabilities in every mission area as we recapitalize our space 
assets in the years ahead.
    The funding requested in the President's budget for fiscal 
year 2005 allows us to evolve capabilities in current 
constellations while planned investments in new space systems 
will provide significant increases in performance, supporting 
the full range of intelligence and military operations, to 
include the global war on terrorism.
    We are aggressively pursuing two major initiatives that 
will deliver transformational capabilities to military and 
intelligence operations. First, the Transformation 
Communications Architecture (TCA) will provide vast 
improvements in data rates, expanded accesses, communications 
on the move, the Internet protocol-based connectivity. As a 
part of that architecture, the Transformational Communications 
Satellite (TSAT) will be a revolutionary change in satellite 
communications for the warfighter and for national intelligence 
users, and is an enabler of horizontal integration, allowing 
our fighting forces to have near-real-time intelligence, 
surveillance, and reconnaissance (ISR) at their fingertips.
    TSAT will provide an unprecedented connectivity with 
Internet-like capabilities that extends the global information 
grid to deployed and mobile users worldwide and will deliver an 
order of magnitude increase in capacity. The program entered 
design phase this past January and as a result we recently 
awarded two contracts, for technology risk reduction and design 
development. We plan to launch the first TSAT in November 2011.
    Second, we are moving to more persistent surveillance with 
Space-Based Radar (SBR) and other innovative capabilities. SBR 
will provide a start on persistent global situational awareness 
and target tracking capability as part of a horizontally 
integrated DOD-wide and national system of systems. Radar from 
space will provide day-night, all-weather, worldwide, multi-
theater surveillance on demand.
    In fiscal year 2005 we plan to focus on concept definition, 
risk reduction, and systems engineering activities, all leading 
to a system requirements review in the third quarter of fiscal 
year 2005 and a system design review as early as fiscal year 
2006. These activities are part of the study phase, which will 
culminate in a downselect award and a decision to enter design 
phase in mid-fiscal year 2006.
    As I look over our NSS program, there are areas that 
require our vigilant attention and we plan to work these areas 
hard in the coming months, placing emphasis on each of these 
areas in future budget deliberations.
    For some of our constellations, our replenishment strategy 
provides very little margin if there is a launch failure, a 
premature on-orbit failure, or a significant program delay. 
While I am confident in the systems we are developing, true 
capability is the result of end-to-end performance in support 
of the user. Greater emphasis is needed on synchronization of 
fielding ground and air receivers and terminals to match on-
orbit capabilities.
    The aggressive DOD to Intelligence Community horizontal 
integration effort to better integrate and exploit ground, air, 
and space remote sensing capabilities remains a priority for 
us.
    We have taken steps to strengthen the acquisition process 
for NSS programs, but there is still much to do. We are 
committed to building credible management reserves into our 
acquisition program so that the program managers (PMs) will 
have the resources available to solve problems in a timely way.
    Mission success in all phases of space operations and 
acquisition continues to be my highest priority. We made steady 
progress on space programs during the past year and the 
President's fiscal year 2005 budget request, along with efforts 
to enhance the space profession, will enable us to continue 
that progress.
    I appreciate the continued support that Congress and this 
committee have given to help deliver these vital capabilities 
and I look forward to working with you as we continue to 
develop, produce, launch, and operate critical space systems 
that deliver vital capabilities to this great Nation.
    Mr. Chairman, this concludes my opening remarks and I look 
forward to your questions.
    [The prepared statement of Dr. Teets follows:]

               Prepared Statement by Hon. Peter B. Teets

                              INTRODUCTION

    It is my distinct honor to appear before the subcommittee today 
representing the world's finest air and space force, and to be joined 
by leaders of our National Security Space (NSS) activities: General 
Lance Lord, Commander of Air Force Space Command (AFSPC); Admiral James 
Ellis, Jr., Commander of U.S. Strategic Command (STRATCOM); Admiral 
(Ret.) Arthur Cebrowski, Director of Force Transformation, Office of 
the Secretary of Defense (OSD). Our appearance here, together, 
underscores the importance of jointness in our NSS endeavors.
    Given the role of this committee, and my role in overseeing NSS 
activities as Under Secretary of the Air Force, Director of the 
National Reconnaissance Office (NRO), and the Department of Defense 
(DOD) Executive Agent for Space, I will concentrate my remarks today on 
the five priorities I have set for our NSS efforts for 2004. They are: 
(1) achieving mission success in operations and acquisition; (2) 
developing and maintaining a team of space professionals; (3) 
integrating space capabilities for national intelligence and 
warfighting; (4) producing innovative solutions for the most 
challenging national security problems; and (5) ensuring freedom of 
action in space. These priorities are my focus for this year and are 
supported in the fiscal year 2005 budget for our DOD and NRO space 
programs.

         ACHIEVE MISSION SUCCESS IN OPERATIONS AND ACQUISITION

    Our ongoing activities in support of the global war on terrorism 
highlight the fact that our space capabilities have become increasingly 
integrated in our national intelligence and warfighting operations. 
Space systems are unique assets--they provide global persistence, 
perspective, and access unhindered by geographic or political 
boundaries. Our space systems, whether integrated with airborne and 
surface sensors, or acting alone over areas of high risk or denied 
access, provide critical surveillance and reconnaissance information to 
national decisionmakers and combatant commanders. They are also the 
primary sources for global environmental monitoring and weather 
forecasting data, global communications, missile warning, precision 
navigation and timing to troops on the ground, ships at sea, aircraft 
in flight, and weapons en route to targets. These space capabilities 
enabled the tremendous success our joint warfighters achieved during 
combat operations in Afghanistan and Iraq and will continue to be a 
cornerstone for success in future conflicts.
    Our success in conflict relies on a mixture of technologies, 
tactics, and people, including military members, government civilians, 
and contractors. During Operation Iraqi Freedom (OIF), Air Force Space 
Command crews and their contractor mission partners developed new 
tactics and procedures to achieve the highest global positioning system 
(GPS) accuracy possible to support combat operations; as a result, we 
were able to strike legitimate regime targets with pinpoint accuracy 
while minimizing collateral damage, protecting civilian lives, and 
reducing re-strike requirements. Also, in a prime example of the 
benefits provided by integrating sources, coalition forces used a 
mixture of space, airborne, and surface sensors to detect Iraqi theater 
ballistic missile launches, protecting lives while allowing our troops 
to sustain their operations tempo.
    To maintain our asymmetric advantages in space, we must continue to 
provide our warfighters with the most capable and reliable systems 
possible. We have eight NSS launches planned for calendar year 2004, 
which focus on sustaining and improving existing military and 
intelligence satellite constellations. This year, we will launch three 
GPS Imaging Infrared (IIR) satellites, and on February 14, 2004, I was 
pleased to be present as our Air Force and industry team successfully 
launched a Defense Support Program (DSP) satellite to augment our 
strategic missile warning capabilities. This launch, and the launch of 
an NRO payload in the last quarter of calendar year 2004--one of three 
NRO launches this year--mark the last Titan launches from Cape 
Canaveral after 45 years of test and operations. Now our focus is 
shifting to the Evolved Expendable Launch Vehicle (EELV) system for our 
future space launch missions. In support of this transition, we plan to 
launch the first heavy lift Delta IV EELV this year, giving us the 
capability to launch our heaviest communications and national security 
payloads. Our budget this year supports an anticipated price increase 
in future EELV buys, due largely to the downturn in the commercial 
launch market.
    Mission success in operations must be accompanied by mission 
success in acquisitions. We have benefited greatly from the 
recommendations of the joint Defense Science Board (DSB) and Air Force 
Scientific Advisory Board task force on Acquisition of National 
Security Space Programs, led by A. Thomas Young. One of their 
recommendations, with which I strongly agree, is that mission success 
should be the primary driver of a program, not cost and schedule.
    As programs are established, strong systems engineering practices 
need to be employed. Management of requirements, early risk reduction 
activity, rigorous design discipline, periodic independent program 
assessment, and thorough component subsystem and system level test 
activities need to be built into the program at the onset. Program 
Managers must have unencumbered schedule and financial reserves at 
their disposal to solve problems that arise during program execution.
    In an effort to institutionalize this thinking, and following an 
extensive coordination process with OSD and the Joint Staff, I signed 
the new NSS Acquisition Policy 03-01 on October 6, 2003. Using this 
process, we have conducted Defense Space Acquisition Boards that 
approved Space-Based Radar's (SBR) entry into the Study Phase and 
Transformational Satellite's (TSAT) entry into the design phase. In 
each case, an Independent Program Assessment Team and an Independent 
Cost Assessment Team identified key risk areas and made excellent 
recommendations on how to best manage the risks inherent in these 
complex and vital programs. In concert with the Joint Staff, the 
Intelligence Community, and the OSD, we are implementing these 
recommendations so that these critical programs have the necessary 
foundation to assure their future mission success.
    In addition to the institution of NSS 03-01, we have made great 
strides in developing better cost estimates. In a joint effort with the 
Director of the OSD Cost Analysis Improvement Group (CAIG), we now have 
a strong space system cost estimating capability in place; and, with 
the CAIG leading the Independent Cost Assessment Teams, have 
incorporated the process on SBR and TSAT.
    NSS 03-01 and its companion directive in the NRO, in their current 
forms, have provided excellent insight into our programs. Yet, we are 
learning with each program acquisition milestone decision, and will 
update the policies later this year.

           DEVELOP AND MAINTAIN A TEAM OF SPACE PROFESSIONALS

    In order to preserve our advantage as the leading space faring 
nation, we must ensure we have a strategy to guarantee availability of 
the most crucial element of space power--our space professionals. 
People remain central to our success in space, and meeting the serious 
challenges of today, and the future, requires a total force approach. 
We will continue to develop well-educated, motivated, and competent 
people who are skilled in the demands of the space medium.
    Operationally, they must understand the tactical environment they 
support, as well as the space-unique tactics, techniques, and 
procedures needed. Technically, they must be schooled in the 
acquisition of space systems, the requirements of the vehicles that 
operate in space, and the development of space-related research, 
science, and technology. Our space professionals must be sensitive to 
the needs of the many and varied end-users of space capabilities, and 
be able to formulate and articulate new space doctrine to fully control 
and exploit the medium of space in support of our Nation's security 
objectives. They must be able to develop new technologies, systems, 
training methods, concepts of operations (CONOPs) and organizations 
that will continue to sustain the U.S. as a world leader in space. The 
new systems they develop must be able to achieve desirable effects at 
all levels of conflict. Furthermore, they must ensure these systems are 
interoperable with and integrated into architectures that support the 
creation of lethal and non-lethal effects. The backbone of our joint 
and interagency space operations capabilities will continue to be 
individuals of exceptional dedication and ability.
    In order to develop and maintain our space professionals, we are 
implementing the Secretary of the Air Force-approved Space Professional 
Strategy, and the DOD Space Human Capital Resources Strategy. These 
strategies describe a professional development construct that is 
comprehensive and recognizes the unique roles that officers, enlisted 
personnel, and government civilians play in NSS. As we implement these 
strategies, our objective is to ensure the space cadres of all the 
Services possess the necessary education, skills and experiences, at 
all levels, to meet NSS needs.

 INTEGRATE SPACE CAPABILITIES FOR NATIONAL INTELLIGENCE AND WARFIGHTING

    We continue to make dramatic improvements integrating our manned 
and unmanned terrestrial, maritime, air, and space systems for joint 
warfighting and intelligence collection, and have seen dramatic 
results. In OIF, the difference was not so much the introduction of new 
capabilities, but rather the integration of existing space capabilities 
to produce desired effects. Using existing systems in new ways, 
applying new ideas, and making new connections between information 
providers and information users is truly at the heart of our 
transformation and integration efforts. Our synchronization of end-user 
and space segment capabilities, and the improvement of our enterprise-
wide vertical and horizontal integration efforts are prime examples of 
our ability to transform our warfighting and intelligence gathering 
capabilities through integration.
    However, true transformational integration requires more than the 
use of existing capabilities in new and innovative ways. We need to 
make integration a priority throughout the enterprise. As we attempt to 
increase our worldwide persistent situational awareness, we need to 
bring a true system of systems approach to the fielding of new 
capabilities. SBR, for example, is not being developed in a vacuum. As 
we work through the early development of this system, which offers the 
promise of a start on a persistent surveillance architecture, we are 
ensuring that other systems in development, such as TSAT and the NRO's 
Optical Relay Communications Architecture (ORCA), are not just 
interoperable with SBR, but are truly integrated from operational 
concept to employment.
    We continue to integrate our warfighting needs and our intelligence 
collection activities. The Space-Based Infrared System (SBIRS) will not 
only replace the veteran DSP platform, but will also meet the demands 
for much greater capability in the mission areas of missile defense, 
battlespace characterization to support real-time warfighting 
operations, and technical intelligence. However, technical challenges 
associated with electromagnetic interference have continued to delay 
the two highly-elliptical orbit payloads. These payloads, currently 
scheduled for delivery in fiscal years 2004 and 2005, will perform at 
the crossroads of defense and intelligence needs, and we're managing 
them to ensure the missions of both communities.
    Another aspect of integration is to ensure that the defense and 
intelligence space organizations work together as a team. As the DOD 
Executive Agent for Space, I strongly encourage unifying efforts across 
all of the space stakeholders--ensuring integration remains a priority, 
not an afterthought. In support of this unity of effort, we continue to 
integrate our corporate processes. Our planning, programming, 
budgeting, and acquisition efforts embrace an integrated capabilities-
based approach to develop the means necessary to secure our national 
security objectives in the most effective and efficient manner 
possible.
    Yet, unity of effort alone is not enough. Our continuing commitment 
to integration is also shown in the development of our space 
professionals. The DOD has developed a Space Human Capital Resources 
Strategy designed to integrate the space cadres of the military 
services and the Intelligence Community to the maximum extent 
practicable. Among other things, this means that we will be eliminating 
unnecessary redundancies in our space education and training programs 
as well as finding and eliminating gaps in our programs. More 
importantly, it means that space professionals from the four Services 
and the Intelligence Community will be working together more closely, 
earlier in their careers. The best practices and ideas that they each 
bring to the table can truly help push our space capabilities to the 
next level.
    Integration properly done has a synergistic effect. The value of 
our NSS systems, developed with a system of systems approach, using 
integrated corporate processes, and manned by space professionals who 
have been developed in an environment that fosters innovative 
employment, will greatly exceed the sum of the parts.

PRODUCE INNOVATIVE SOLUTIONS FOR THE MOST CHALLENGING NATIONAL SECURITY 
                                PROBLEMS

    Our goal is transparency--we want the ability to see everything and 
know everything, while simultaneously denying our adversaries both the 
ability to do the same, and the knowledge that such capabilities are 
being used against them. We want to always be one step, or more, ahead 
of our adversaries--to be first to see, first to understand, and first 
to act. To do so requires the development of breakthrough technologies 
that would produce new sources and methods for collecting intelligence. 
Thus, our other activities this year support the transformation of 
military satellite systems, with technology maturation and development 
activities in TSAT and SBR; and the modernization of current systems, 
including new jam-resistant capabilities for our GPS constellation.
    We will launch the last of the present generation of GPS satellites 
in fiscal year 2004. In fiscal year 2005, we will begin launching the 
next generation of ``modernized'' GPS satellites, with military-code 
and flexible power capabilities. The generation after next will be 
composed of GPS III satellites, which will include all of the legacy 
capabilities, plus the addition of high-powered, anti-jam military-
code, along with other accuracy, reliability, and data integrity 
improvements.
    As always, communications play a fundamental role in any military 
action. We are modernizing our communications systems, as well as 
preparing for the next leap forward in capability. Last October, the 
Joint Requirements Oversight Council (JROC) approved our 
Transformational Communications Architecture (TCA). Part of the TCA is 
the Wideband Gapfiller System (WGS), which will augment the current 
Defense Satellite Communications System (DSCS) capability.
    Another vital program, which will provide a smooth transition to 
TSAT, is the Advanced Extremely High Frequency (AEHF) system that 
replaces the MILSTAR communications constellation. The first AEHF 
satellite will be launched in fiscal year 2007 and will provide 
survivable, protected satellite communications for strategic and 
tactical users. AEHF represents a significant step forward in 
capability over current systems, providing up to 12 times greater 
capacity than MILSTAR with up to 4,000 simultaneous networks while 
hosting up to 6,000 users per satellite.
    TSAT will be a revolutionary change in satellite communications for 
the warfighter and national intelligence. Our goal is to create an 
``internet in the sky''--making it possible for U.S. marines in a High 
Mobility Multipurpose Wheeled Vehicle (HMMWV), in a faraway land, in 
the middle of a rainstorm, to open up their laptops, request imagery, 
and get it downloaded within seconds. TSAT is an enabler of horizontal 
integration--allowing our fighting forces to have near-real-time 
intelligence, surveillance, and reconnaissance (ISR) at their 
fingertips. TSAT will provide an unprecedented connectivity with 
Internet-like capability that extends the Global Information Grid to 
deployed and mobile users worldwide, and will deliver an order of 
magnitude increase in capacity. The program entered Design Phase this 
past month; and as a result, we recently awarded two contracts for risk 
reduction and design development. We plan to launch the first TSAT in 
November 2011.
    SBR is an important element in our efforts to achieve horizontal 
integration. SBR will provide a start on persistent, global situational 
awareness and target tracking capability as part of a horizontally 
integrated DOD and national system of systems. Radar from space will 
provide the critical element of global persistence, providing day/
night, all weather, worldwide, multi-theater surveillance on-demand. In 
fiscal year 2005, we plan to focus on concept definition, risk 
reduction, and systems engineering activities, all leading to a System 
Requirements Review in third quarter of fiscal year 2005 and a System 
Design Review as early as fiscal year 2006. These activities are part 
of the study phase (concept definition), which will culminate in a 
downselect award and a decision to enter design phase in mid-fiscal 
year 2006.
    Recent conflicts have proven, once again, how vital meteorological 
forecasting is for military operations. Knowing what the weather is in 
any given location allows us to choose the right weapon for the right 
target, and is an invaluable asset for navigation. The National Polar-
orbiting Operational Environmental Satellite System (NPOESS) will 
satisfy both civil and military national security requirements for 
space-based, remotely sensed environmental data that will significantly 
improve weather forecasting and climate prediction. NPOESS is a tri-
agency (DOD/Department of Commerce (DOC)/National Aeronautic and Space 
Administration (NASA) satellite program consolidating the missions and 
programs of DOD's Defense Meteorological Satellite Program (DMSP) and 
DOC's Polar-orbiting Operational Environmental Satellite (POES) systems 
into a single integrated program. An integrated suite of 12 very 
complex instruments will provide visible and infrared cloud-cover 
imagery and other atmospheric, oceanographic, terrestrial, and space 
environmental information. The system is currently in development, with 
a planned first launch in fiscal year 2010.
    We cannot stay on the cutting edge of development without investing 
in science and technology (S&T) efforts. We are actively working with 
the Director, Defense Research and Engineering, and organizations such 
as the Defense Advanced Research Projects Agency (DARPA), the Air Force 
Research Laboratory (AFRL), and the Naval Research Laboratory (NRL), 
along with civil agencies such as NASA on our space S&T effort. With 
their participation, we are documenting our space S&T strategy, which 
will be available this summer. We are also working with DARPA to 
leverage common technologies and applications into the Operationally 
Responsive Space (ORS) program, including next generation propulsion, 
advanced structure, and thermal protection schemes. While we do not 
currently have an operational role in NASA's new space exploration 
program, we will work closely with the agency through our Partnership 
Council to find areas of possible collaboration. These activities build 
on nearly five decades of collaboration with NASA on X-vehicles, 
hypersonic propulsion, and space tests and technology demonstrations.

                   ENSURE FREEDOM OF ACTION IN SPACE

    Americans have come to rely on the unhindered use of space and will 
demand no less in the future. This includes robust capabilities for 
assured launch and space control. While the United States supports the 
peaceful use of space by all, prudence demands that we must be able to 
ensure the United States, its allies, and coalition partners will be 
able to make use of space, while denying that use of space to 
adversaries.
    To ensure freedom of action, we are maintaining assured access to 
space in the near term as we simultaneously investigate entirely new, 
operationally responsive space activities. Today's space surveillance 
capability must evolve into integrated Space Situational Awareness 
(SSA). Space control activities--while taking advantage of SSA--
emphasize first the protection of our national security interests 
against known vulnerabilities and credible threats. We will also pursue 
a mix of capabilities to limit any adversary's ability to deny us free 
access to space and deny an adversary's use of space against us for 
hostile purposes.
    We are proud of the success of both families of EELVs. With six 
successful launches in a row, three from each provider, these are the 
best launch vehicles we've ever produced. However, we are not finished 
yet. Long-term, we are pursuing vehicle concepts that can be launched 
on demand--in hours and days, rather than weeks and months--with the 
vision of fulfilling time-critical warfighter requirements. I've been 
in the launch business for 45 years, and we still launch satellites 
about the same way we did in the 60s. We can do better.
    The intent of ORS is to create a more responsive, reliable, and 
affordable lift family capable of fulfilling both current and future 
launch requirements, and the corresponding responsive and affordable 
satellites. Near term, we plan to demonstrate a more responsive and 
less expensive launch system with capabilities of 1,000 pounds to low 
Earth orbit. Concurrently, Air Force Space Command, AFRL, the NRO, 
DARPA, OSD's Office of Force Transformation, and our national and 
Service laboratories are sponsoring Tactical Satellite (TacSat) 
initiatives focused on responsive satellites, and decreasing the size, 
cost, and timelines of development. The combined efforts of these 
initiatives--operationally responsive launch and satellite 
development--will transform the delivery of space-based capabilities. 
Similarly, our launch ranges must keep pace with modernized launch 
vehicles and future launch manifests.
    Even as we become more operationally responsive, future adversaries 
will try to deny us the asymmetric advantage that space provides us--as 
evidenced by the GPS jamming in Iraq. We must look now to overcome 
future threats that may not be as straightforward. We recently finished 
a broad reaching study to baseline vulnerabilities of our military 
space systems. An action plan is being implemented that will help 
mitigate vulnerabilities in a way that will help ensure the 
availability of space capabilities to our warfighters and national 
decisionmakers. Our efforts currently fall into three areas: SSA, 
Defensive Counter Space (DCS), and Offensive Counter Space (OCS).
    SSA forms the foundation for our counter space actions and includes 
traditional space surveillance, detailed reconnaissance of specific 
space assets, collection and processing of space intelligence data, and 
analysis of the space environment. It also encompasses the use of 
traditional intelligence sources to provide insights into adversary 
space operations. We continue to invest in critical capabilities to 
improve our ability to detect, track and characterize objects in space.
    We are modernizing the current Space Surveillance Network with new 
hardware for selected radar and optical sensors, and plan to integrate 
and fuse this improved sensor data with space intelligence and 
environment data through a command and control system. This will allow 
us to produce a common space picture relevant to the warfighter for 
decisionmaking. Finally, we will increase our surveillance and 
characterization capabilities to new levels when we deploy our new 
space-based sensors: Space Based Space Surveillance (SBSS) and Orbital 
Deep Space Imager (ODSI).
    SBSS will be a constellation of optical sensing satellites in low 
Earth orbit designed to provide timely and accurate information on 
satellite locations. The SBSS constellation is the follow-on to the 
successful Mid-Course Space Experiment/Space Based Visible (MSX/SBV) 
sensor on orbit today. The initial SBSS satellite will launch in fiscal 
year 2007, and improve our ability to detect deep space objects by 80 
percent over the MSX/SBV system. ODSI will be a constellation of 
satellites in geo-synchronous orbit, and will provide significant 
improvement in today's ability to not only track, but also characterize 
objects in space.
    In terms of protecting U.S. space assets, our Defensive Counter 
Space program continues the development of the Rapid Attack 
Identification Detection and Reporting System (RAIDRS) to ensure 
capability to identify and locate attacks on U.S. space systems. The 
first spiral of RAIDRS will include radio frequency interference 
detection, and geo-location for communication satellites, and laser 
dazzling detection for DSP. RAIDRS is one key element of a larger 
strategy to identify and reduce vulnerabilities across the NSS sector. 
Over the past year, we have worked across the NRO, STRATCOM, and other 
organizations to develop an integrated approach for investments in 
protection. This crosscutting effort seeks to deter attacks on U.S. 
space interests by making focused investments in specific programs, as 
well as in generic capabilities like RAIDRS.
    Our OCS program is intended to develop systems to deny adversary 
use of space and assure U.S. space superiority. Earlier this fiscal 
year, we successfully tested and delivered the first Counter 
Communications Systems to the 76th Space Control Squadron at Peterson 
Air Force Base, Colorado. We plan to deliver two more of the first 
generation units in fiscal year 2005 to achieve a Full Operational 
Capability, and will then begin work on the next generation capability. 
We also intend to award a contract for the multi-service Army/Air Force 
Counter Surveillance and Reconnaissance System (CSRS) for final system 
design and development. CSRS is a mobile, transportable system that 
will use reversible effects to counter space-based surveillance and 
reconnaissance satellites. Our goal is to achieve Initial Operational 
Capability in fiscal year 2009.

                               CONCLUSION

    This is an exciting time for the space programs in the DOD and 
Intelligence Community. In spite of the challenges we face, we have the 
most capable space force in the world as proven by recent actions in 
Afghanistan and Iraq. Our accomplishments in calendar year 2003 include 
successful launches of 11 national security satellites and the 
successful launches of both the Atlas V and Delta IV EELVs. In 
addition, we have made great progress in modernizing our current family 
of systems, working toward the next generation of intelligence, 
communications, remote sensing, missile warning, and environmental 
satellites.
    We have identified and are addressing systemic issues in order to 
improve our ability to deliver these vital capabilities. However, space 
programs are challenging--by virtue of the complex technologies, small 
quantities, and the inability to repair them on-orbit. This requires 
up-front investment and attention to practices that are more demanding 
than in most other acquisitions. As long as we continue to expect our 
space systems to provide extremely asymmetric advantages, even after 
years on-orbit, then we will be building systems that are on the 
leading edge of technology. We are working to minimize the 
difficulties; but as we continue to push the technological envelope, 
challenging situations will always be part of the equation.
    I appreciate the continued support Congress and this committee have 
given to help deliver these vital capabilities, and I look forward to 
working with you as we continue to develop, produce, launch, and 
operate critical space systems that deliver vital capabilities to this 
great Nation.

    Senator Allard. Thank you for your testimony. Now we have 
Admiral Ellis, Commander, STRATCOM. Admiral, it is always good 
to have you before us.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Likewise, Senator.
    Mr. Chairman, Senator Nelson, distinguished members of the 
subcommittee: As you noted, it is once again an honor to appear 
before you today representing the outstanding members of 
STRATCOM in Omaha, Nebraska, and that includes, of course, our 
Service components, some of whom are represented here today, 
including Army, Navy, United States Air Force, and now the 
Marine Corps, which also provides an important Service element 
in support of STRATCOM's mission.
    It is my pleasure to testify before you today with Pete 
Teets, Lance Lord, and Art Cebrowski. As the Secretary noted, 
we have met regularly over the past year to address the many 
challenges and opportunities afforded this Nation through our 
preeminent space systems. I look forward to discussing the 
operational and technical aspects of satellite and space launch 
programs from the warfighter's perspective, because indeed that 
is the charter of STRATCOM.
    In previous hearings this year, before both the Senate 
Armed Services Committee and the Strategic Forces Subcommittee, 
we have covered the status of one of our legacy missions, 
strategic deterrence, and each of STRATCOM's newly assigned 
global mission areas: missile defense, Global Strike, 
information operations, and command, control, communications, 
computers, and intelligence, surveillance, and reconnaissance 
(C\4\ISR). Today, of course, we appropriately focus on what 
could be called one of our second legacy missions: space 
operations.
    As you are aware, STRATCOM was created first and foremost 
to provide responsive, integrated, and synchronized combat 
capability and support across all geographic boundaries. Our 
very success in every area continues to be reliant upon our 
ability to operate to, from, in, and through space. Across the 
DOD, space is both a major integrator of missions and a global 
enabler for our forces. Our space assets gather and disseminate 
real-time data on virtually any location on the globe. They 
enable terrestrial forces with precision navigation and timing 
and provide essential command and control capabilities to 
forces anywhere on the planet.
    Eighteen months after the alignment of United States Space 
Command and STRATCOM missions under a new command, I am 
convinced that grouping our Nation's space capability under a 
unified command with global responsibilities in the areas of 
missile defense, Global Strike, information operations, and 
C\4\ISR has accelerated the integration of space into all 
phases of our military operations.
    STRATCOM is tasked to be the space advocate and spokesman 
for the combatant commanders. I work closely with the regional 
combatant commanders (RCCs) to determine requirements and bring 
the warfighter's perspective to the table. My staff is fast 
becoming expert in the technical details so we can provide an 
independent evaluation of the full range of system options. We 
are not tied to single solutions, specific systems or programs, 
but rather advocate broad capabilities.
    Last year, 2003, was a year of tremendous change and 
opportunity at STRATCOM. New missions and new organizations, 
all in the midst of supporting Operation Iraqi Freedom (OIF) 
and the larger global war on terrorism. During the past year 
our success in the space operations realm included: 
transitioning the Space Operations Center in Colorado Springs 
to our Global Operations Center in Omaha; deploying STRATCOM 
support teams with reach-back capabilities for strike planning, 
intelligence, space, and information operations to every 
theater of the globe; transmitting missile early warning data 
to the RCCs; procuring and allocating essential satellite 
communications bandwidth for RCCs; and providing successful 
space-based blue force tracking capabilities for both regular 
and Special Operations Forces (SOF) through our Army component, 
Space and Missile Defense Command.
    None of this could have been accomplished without the 
leadership and efforts of this subcommittee and a host of 
talented Americans such as the gentlemen seated to my right. 
Right now we have an opportunity and the responsibility to 
continue to fundamentally reshape the future of national 
defense by advancing and defending the global integration of 
space capabilities.
    There are many opportunities ahead and I am committed to 
working with our strong and growing team of partners, military, 
agency, and industry, to address each one. We are engaged in 
crafting not only a vision, but a clear and detailed course of 
action in each area. These focus areas include: assured, 
responsive, and affordable access to space; safe and effective 
launch ranges; persistent space surveillance and appropriate 
space control capabilities; reducing the vulnerability of space 
systems and their accompanying global network of ground 
stations and communications links and recapitalizing our space 
assets for the development and fielding of essential 
capabilities, such as those promised by the SBIRS, the Global 
Positioning System (GPS) Constellation, AEHF, and the TSAT.
    In short, STRATCOM and its components continue to partner 
with all those playing an integral role in the defense of our 
Nation to improve the combat effectiveness of our modern joint 
warfighting forces. We are mindful of the magnitude of the task 
before us and confident in the talent of our staff, our 
components, and our mission partners.
    I appreciate your continued support and look forward to 
your questions. Thank you.
    [The prepared statement of Admiral Ellis follows:]

          Prepared Statement by Adm. James O. Ellis, Jr., USN

                            I. INTRODUCTION

    Chairman Allard, Senator Nelson, and distinguished members of the 
subcommittee, it is an honor to once again appear before you, 
representing the outstanding men and women of United States Strategic 
Command (STRATCOM) and to review the strategic and space capabilities 
that remain vital contributors to our Nation's security. During my last 
appearance before your subcommittee, I outlined how STRATCOM, our 
components, and task forces were crafting a new command focused on 
integrating space capabilities, deterring a wider array of potential 
adversaries, and recasting the Nation's global military capabilities 
for the demands of the 21st century.
    Today, I can report that the finest soldiers, sailors, airmen, and 
marines--representing active duty, National Guard, and Reserves--joined 
by a cadre of talented civilians, have made tremendous progress in 
maturing the missions of the new STRATCOM.
    As you recall, on January 10, 2003, the President signed Change Two 
to the Unified Command Plan (UCP) and tasked STRATCOM specifically with 
four previously unassigned responsibilities. These are: Global Strike, 
Global Missile Defense (GMD) Integration, Department of Defense (DOD) 
Information Operations (IO), and command, control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR). 
This unique combination of roles, responsibilities, authorities, and 
capabilities, under a single unified command brought with it new 
opportunities to recapture the classic definition of the term 
``strategic'': essential to the conduct of large scale military 
operations. In this strategic context, we also have been given the 
opportunity to support our Nation's security requirements around the 
globe by directly supporting the regional combatant commanders (RCCs) 
and their deployed forces.
    On January 1, 2004, I was pleased to report to the President of the 
United States that STRATCOM has completed reorganization and achieved 
full operational capability (FOC) for oversight and direction of all 
assigned missions. Each mission area continues to develop and, as we 
apply resources to each, we are moving to reach and maintain FOC in 
those four areas by the end of this year. Three of our missions, Global 
Strike, Global Integrated IO, and Global C\4\ISR, are on track and 
progressing toward FOC during 2004. GMD, the fourth newly assigned 
mission, will achieve Initial Defensive Operations (IDO) in the months 
ahead and will support concomitant achievement of STRATCOM oversight 
FOC.
    There is still much work to do and we have outlined five major, 
near-term goals for STRATCOM, each of which has the potential to add 
significantly to our national defense.
    These opportunities include:

        <bullet> Proactively moving to enhance the security of our 
        critical space systems. This will enable us to maintain an 
        advantage in space while denying an asymmetric avenue of attack 
        for our adversaries. In concert with Service and Office of 
        Secretary of Defense (OSD) partners, we are crafting a step-by-
        step plan that approaches the problem in manageable increments.
        <bullet> Continuing the implementation of the Nuclear Posture 
        Review (NPR) while refining the way ahead through the ongoing 
        Strategic Capabilities Assessment. This effort will enable 
        continued reduction in the Nation's nuclear arsenal even as we 
        examine future deterrent concepts, sustain the safety and 
        surety of the stockpile, and modernize, through our partners at 
        the National Nuclear Security Administration (NNSA), the 
        Nation's technical infrastructure.
        <bullet> Exploring new concepts of ISR that will permit 
        collating and fusing data collected by the Intelligence 
        Community and defense sources. Our goal is to aid the Nation's 
        military and civilian leaders to move rapidly up the continuum 
        from data to information to knowledge to wisdom.
        <bullet> Simultaneously employing a nascent missile defense 
        test bed to provide the Nation with a rudimentary defensive 
        capability even as we support the Missile Defense Agency (MDA) 
        as it incrementally refines and evolves a future multi-layered 
        GMD system.
        <bullet> Delivering on the full potential of DOD IO by 
        supporting real advances in the incorporation of computer 
        network attack and defense, electronic warfare, psychological 
        operations, strategic deception, and operational security into 
        our mission areas.

           II. PROGRESS OF THE ``NEW'' U.S. STRATEGIC COMMAND

    It was a year of tremendous change and progress--incorporating new 
missions and crafting a new organization--all while primarily focused 
on supporting Operation Iraqi Freedom (OIF) and the broader global war 
on terrorism. During the past year this command and our components 
have:

        <bullet> Developed a Global Strike Strategic Concept, validated 
        it through a series of exercises and gained final approval of a 
        Global Strike plan.
        <bullet> Developed a Missile Defense Concept of Operations 
        (CONOP) with plans in place to support operator training, 
        evolutionary testing and system employment for GMD at IDO.
        <bullet> Developed a C\4\ CONOP and established a Global 
        Operation Center (GOC) and Global Integration Center (GIC) to 
        command, control and integrate support to the joint warfighter.
        <bullet> Transitioned the Space Operations Center in Colorado 
        Springs to the Space Operations Watch in the GOC in Omaha.
        <bullet> Hosted Senior Warfighter's Forum to identify combatant 
        commands' requirements for future satellite communications 
        capabilities.
        <bullet> Accepted transfer of responsibility for production of 
        the Sensitive Reconnaissance Operations plan from the Joint 
        Staff, a first step in achieving global ISR integration.
        <bullet> Formed Joint Force Headquarters--Information 
        Operations (JFHQ-IO) within the overall headquarters structure, 
        commanded by the Deputy Commander, STRATCOM.
        <bullet> Established strong, functional relationships with the 
        National Security Agency (NSA), Defense Information Systems 
        Agency, Defense Intelligence Agency (DIA), and the National 
        Geospatial-Intelligence Agency (NGA).
        <bullet> Provided federated intelligence support to Central 
        Command (CENTCOM) and Pacific Command (PACOM), producing over 
        3,000 products covering 4 geographic areas covering over 12,000 
        points of interest.
        <bullet> Procured, prioritized, and allocated military and 
        commercial satellite bandwidth to support the critical 
        communication needs of the combatant commanders.
        <bullet> Forward deployed STRATCOM support teams with reach-
        back capabilities for strike planning, intelligence, and space 
        and information operations.
        <bullet> Transmitted theater early warning data on missile 
        launches to RCCs.
        <bullet> Through the Army's Space and Missile Defense Command, 
        provided successful Space Based Blue Force Tracking 
        capabilities for Special Operations Forces (SOF).
        <bullet> Through the Joint Information Operations Center 
        (JIOC), fully integrated IO into OIF operational planning, 
        contributing directly to shaping of the operation and elements 
        of its combat success.

                      III. NEWLY ASSIGNED MISSIONS

Global Strike
    The Global Strike mission embodies STRATCOM's ``capabilities-
based'' strategy and employs various assets to execute limited-
duration, extended-range, and precision kinetic and/or non-kinetic 
strikes anywhere on the globe. Our adaptive planning process is being 
upgraded with the goal of accelerating development of courses of action 
for rapid presentation to our national leadership. When fully realized 
we will be able to dramatically shrink response timelines.
    This new construct also provides the Nation with a combatant 
command that effectively works across traditional regional boundaries 
and addresses potential threats with a global perspective. We are 
strengthening formal relationships through extensive coordination with 
RCCs, Services, the Joint Staff, and OSD.

Information Operations
    As with our other global responsibilities STRATCOM is tasked with 
integrating and coordinating DOD IO across regional areas of 
responsibility (AORs). Core pillars of IO include computer network 
defense, computer network attack, military deception, operations 
security, psychological operations, and electronic warfare. The 
recently published DOD IO Roadmap also supports collaboration of broad 
IO efforts across the DOD, the Intelligence Community, and other 
national-level organizations in coordinated support of operations 
directed by the RCCs.
    The ability to quantify IO effects is another area of concerted 
effort at STRATCOM. Initial conclusions from advanced concept 
technology demonstrations and a number of experiments all recommend 
establishing a national test range for IO. STRATCOM is working closely 
with OSD in establishing the requirements for just such a test range. 
This range will help us define effects in understandable terms, 
quantify systems' performance and provide assurance that the elements 
of IO will achieve the desired effects while avoiding unintended 
consequences.

    <bullet> Organizing for Success
    In April 2003, we formed a JFHQ-IO within our overall headquarters 
structure. This interim move enables STRATCOM to provide IO support 
directly to warfighters while, at the same time, developing our 
internal structure and nurturing these evolving capabilities.
    In the past year, we have successfully integrated Computer Network 
Exploitation and Attack mission areas. The Network Attack Support Staff 
was established to function as the Computer Network Attack planning 
interface between the combatant commanders and the Intelligence 
Community. This component has significantly streamlined the planning 
process and contributed directly to the maturation of our efforts.

    <bullet> Support to the global war on terrorism
    STRATCOM provides tailored, deployable Strategic Support Teams that 
combine the capabilities of the JIOC, located in San Antonio, with 
support elements from many other STRATCOM functional mission areas. 
Additionally, as we prosecute the war on terrorism, effective IO is 
becoming even more essential to our success. Supporting Special 
Operations Command (SOCOM), Southern Command (SOUTHCOM), PACOM, 
European Command (EUCOM), and CENTCOM for global war on terrorism and 
IO planning, JFHQ-IO works to provide an IO perspective, broader and 
deeper than any one RCC staff can, thus allowing us to better achieve 
required global effects in support of national strategic objectives. 
Our U.S. Strategic GIC will interface with other organizations to 
provide Time Sensitive Planning (TSP) as well as Crisis Action 
Planning. TSP oversight expertise will reside in the GIC and will 
formalize and codify STRATCOM's standard operating procedures, drawing 
on all organizational elements so as to provide global effects in 
support of all combatant commanders.

    <bullet> The Way Ahead
    The future of global IO requires us to better define our 
operational battlespace. STRATCOM is developing a common operational 
picture based on inputs from all available DOD and intelligence 
sources. We are also developing measures of effectiveness, with 
corresponding metrics, allowing us to gauge the success or failure of a 
specific IO course of action.
    The challenge is melding the art and science of IO with emerging 
technologies, training and educated senior warfighters in these 
concepts, and, most importantly, developing a cadre of military leaders 
with sound IO skills.

Global Ballistic Missile Defense (GBMD)
    In my statement presented to the full Senate Armed Services 
Committee on March 11, 2004, I discussed the status of STRATCOM's GBMD 
mission. Missile defense concepts have evolved from separate efforts 
focused on the terminal intercept of short and medium range ballistic 
missiles. The single entity of GBMD now includes mid-course intercept 
of intercontinental ballistic missiles (ICBMs), and, in the years 
ahead, development of a multi-layered missile defense system 
contributing to the defense of the U.S., our allies, and our interests 
abroad. STRATCOM is developing the GBMD concept of operations and the 
battle management architecture in order to provide full capabilities 
for RCCs' defensive employment.
    The IDO is the first increment of a capabilities-based approach in 
developing and providing GBMD. Initial capability will include the 
ability to detect a launch, display the data for decisionmakers, relay 
command and control execution decisions, and then to fire a ground-
based interceptor. Our plan calls for a continued assessment of the 
Ballistic Missile Defense System (BMDS) capabilities as they are 
developed and fielded by the MDA. Fielding a layered and integrated 
GBMD system is best accomplished in a spiral manner. An initial 
capability, followed by evolutionary improvements, provides commanders 
with both operational flexibility and an increased range of system 
design options based on extensive testing and assessment

Global C\4\
    Future ISR systems, along with new weapons platforms, are expected 
to at least double the current demand on the global communications 
infrastructure. (During Operation Enduring Freedom (OEF), General Tommy 
Franks required 32 times more bandwidth than did General Norman 
Schwarzkopf during Operation Desert Storm (ODS).) Change Two of the UCP 
directs STRATCOM to coordinate C\4\ capabilities in support of 
strategic force employment.

    <bullet> Providing Robust Communications Architectures
    The DOD is developing the Global Information Grid--Bandwidth 
Expansion (GIG-BE) to address the growing bandwidth requirements. This 
program is key to enabling the vision of universal situational 
awareness for the warfighter. GIG-BE is scheduled to provide a fiber 
connection to over 100 sites by the end of fiscal year 2005, providing 
much needed, wideband terrestrial connectivity. Once completed, GIG-BE 
will provide a robust, optical Internet Protocol Network that the 
warfighter can post and access information at multiple levels of 
classification.

    <bullet> Information Assurance (IA)
    The DOD established the IA Vulnerability Management (IAVM) program 
in 1998 to notify combatant commands, Services, and DOD agencies about 
network vulnerability alerts and countermeasures information. In our 
assigned role of directing DOD-wide computer network defense, the IAVM 
program is one of the key means we use to rapidly update the security 
of DOD computers.
    We are working to improve our ability to automatically apply 
software patches across large networks, correct vulnerabilities 
identified through the IAVM process, and automatically verify patch 
compliance. This is a formidable challenge; DOD networks are complex, 
with over 3 million computers and a wide variety of operational 
configurations. Our partnership with industry will help us develop the 
best approach.
    The warfighter of today accesses information by sifting through 
networks stratified by classification and membership. The GIG-BE will 
result in a more easily accessible network providing multi-level 
security information to authorized users. Enforcing need-to-know while 
enabling need-to-share presents DOD IA personnel the challenge of 
moving from a defense-in-depth mindset to an IA-throughout approach.
    As the DOD moves from the Defense Information Infrastructure (DII) 
to the GIG-BE, it also brings a new approach to network defense. With 
the DII, our efforts were focused on defense in-depth, with layers of 
defense to keep intruders from breaching our information fortress. In 
contrast, the GIG focuses on defense throughout. This concept 
incorporates a model that recognizes intrusions may occur, and allows 
the network to remain functional even as the infection is being cured.

    <bullet> Transformational Communication System (TCS)
    A second fundamental requirement for our information networks is to 
achieve the ``Power to the Edge'' vision of John Stenbit, former 
Assistant Secretary of Defense for Networks and Information 
Integration. He said, ``We must replace top-down operations with 
distributed operations--and use information technology to empower 
whomever is in need of a solution, regardless of where that individual 
is.''
    Developing this type of network requires reshaping our security 
philosophy and technology. Identity management must focus on end users, 
applications, and services. This will enable distributed computing 
between allied components using applications able to securely 
communicate with other applications. STRATCOM is working closely with 
the OSD staff and the Transformational Communications Office to develop 
the policies and architectures needed to realize the vision of the TCS.

ISR
    Change Two of the UCP tasks STRATCOM with planning, integrating, 
and coordinating DOD ISR in support of strategic and global operations. 
Day-to-day operational control of DOD ISR assets will typically remain 
with the RCCs.
    STRATCOM is applying its unique global focus to planning and 
executing the DOD ISR mission. In effect, DOD ISR will be employed as a 
weapon system against specific strategic objectives and priorities. 
Each platform allocation will be planned to achieve specific effects 
and will be evaluated against that objective. New relationships and 
mechanisms are being developed to bring existing expertise and 
capabilities together in new, more powerful ways.
    To fulfill this mission, STRATCOM has organized intelligence and 
operations into an ISR Division that is unique among combatant 
commands. By integrating the operations and intelligence elements of 
the DOD ISR mission, we provide a holistic view of DOD ISR to increase 
the synergy between those who determine the requirements, those who 
conduct the operations to satisfy those requirements, and the end-users 
of collected and processed intelligence.
    The initial focus of our ISR Division is completion of the recently 
approved DOD ISR Implementation Plan. The timeline for transfer of the 
DOD ISR processes identified in the ISR Implementation Plan began with 
the sensitive reconnaissance operations approval process in December 
2003 and will end with the ISR allocation process in October 2004. We 
have just completed observing the latest bi-annual allocation process 
and started identifying steps necessary to transfer the process to 
STRATCOM by the fall of 2004.
    In addition to fulfilling current ISR requirements, STRATCOM is 
actively engaged in determining future airborne ISR needs. As the 
combatant command lead for DOD Airborne ISR, we will have visibility 
into the requirements from the theaters. Combining a composite list of 
theater requirements with emerging technologies allows us to develop a 
comprehensive list of capabilities to better support the RCCs. We will 
work closely with U.S. Joint Forces Command (JFCOM) to fully integrate 
DOD ISR into architecture and doctrine development. However, to be 
truly effective, we must find a more efficient means to influence the 
shape of DOD ISR procurement programs. The overarching goal is a more 
efficient, effective, responsive, and coordinated DOD ISR capability 
across the globe. With the responsibility for both DOD ISR allocation 
and advocacy, STRATCOM is uniquely positioned to provide a global view 
of both intelligence needs and required future capabilities.
    All of this effort will also support the objectives for 
intelligence sharing set by the Under Secretary of Defense for 
Intelligence. His office is crafting policies and supporting 
architecture to horizontally integrate collected intelligence from the 
theaters with the information acquired by the national agencies. 
STRATCOM sees this as a significant step toward providing all users 
with better insight into collected intelligence and enabling the 
sharing of essential information among all legitimate users. We believe 
this concept will significantly enhance intelligence available to all 
users and showcase the operational potential of future persistent 
intelligence collectors such as Space-Based Radar.

                 IV. FUTURE OF NUCLEAR FORCE STRUCTURE

Sustainment and Modernization
    <bullet> ICBMs
    ICBMs have been a mainstay of strategic deterrence for decades, 
providing prompt responsiveness, high reliability, accuracy, rapid and 
flexible targeting, and a high state of alert readiness. With 
Peacekeeper deactivation proceeding as planned, Minuteman III will soon 
be our Nation's only remaining land-based strategic deterrent. 
Recognizing the importance of the Minuteman III weapon system, the Air 
Force has implemented an aggressive life extension program for the 
Minuteman III ICBM force to ensure weapon system reliability through 
2020.
    We appreciate Congress' continued strong support for ICBM weapon 
systems by funding reliability upgrades to critical components of the 
Minuteman III. These include the Guidance Replacement Program, 
Propulsion Replacement Program, Propulsion System Engine Life 
Extension, Safety Enhanced Vehicle Program, and Command and Control, 
Security and Cryptography Upgrades. Finally, we support an Analysis of 
Alternatives that will examine follow-on systems to the Minuteman III.

    <bullet> Bomber Force
    The long-range bomber fleet is the second essential element of the 
Nation's strategic deterrent force as well as a primary element of our 
conventional Global Strike capability. The B-52 Avionics Midlife 
Improvement Program remains a high priority for STRATCOM and is 
critical to sustaining the platform into the next decade. Of equal 
concern is keeping the B-2 radar replacement program on track.
    The viability of our bombers in a nuclear and conventional role 
requires unimpeded access to increased bandwidth as well as secure, 
survivable, and endurable global communication capabilities inherent in 
the next generation satellite communication constellations. Robust 
command and control, coupled with the recently demonstrated value of 
real-time, in-flight bomber weapon re-targeting, require that we 
continue to synchronize the fielding of bomber communication terminals 
with the launches of advanced communications satellites.

    <bullet> Strategic Ballistic Missile Submarine (SSBN)
    The final leg of strategic deterrence is the D5 Submarine Launched 
Ballistic Missile. Life Extension (LE) and back-fit programs will 
provide a standardized fleet of 14 Ohio Class SSBNs capable of 
employing D5 Trident II missiles for the full hull life of these 
submarines (extended to 45 years). The last two submarines awaiting 
upgrade will complete their D5 back-fit and refueling overhauls in 
fiscal year 2007 and fiscal year 2008. D5 LE upgrades the guidance and 
missile electronics on fielded D5 missiles and procures additional 
missiles to meet system reliability and accuracy testing needs for the 
life of the program, while also providing a sufficient quantity of 
missiles to fully load out 12 SSBNs.
    The conversion of the four Ohio Class SSBNs to Guided Missile 
Submarines (SSGNs) is an example of modifying existing platforms, 
concepts and capabilities for a dramatically different military role. 
SSGN conversions are on schedule and are being completed in conjunction 
with scheduled Engineering Refueling Overhauls (EROs). The boats will 
be equipped with conventional cruise missiles, extensive special 
operations capability, and will be assigned evolving new missions. The 
U.S.S. Ohio, U.S.S. Florida, and U.S.S. Michigan have entered ERO and 
are proceeding on an aggressive conversion schedule with deliveries 
scheduled for 2005 and 2006. The U.S.S. Georgia is scheduled for ERO in 
2004 and conversion will be completed by 2007.

    <bullet> Stockpile Stewardship
    In addition to our vital life extension and modernization programs, 
we are working closely with our partners in the DOD, DOE, and Congress 
to ensure our nuclear stockpile remains safe, reliable, and credible. 
As the Nation's nuclear stockpile continues to age, we must carefully 
monitor its condition. Through the NNSA's Science-Based Stockpile 
Stewardship Program, we continue to improve our surveillance, modeling, 
simulation tools and processes in order to provide the critical data on 
aging effects, component reliability, and physics phenomena we require 
in the absence of nuclear weapon testing. Past reductions in nuclear 
weapon infrastructure capacity require that the essential warhead life 
extension programs be carefully sequenced with scheduled warhead 
dismantlement so as to provide just-in-time delivery to meet 
operational deterrent force requirements. We are working closely with 
the NNSA, the national laboratories, and plants to shape their support 
to our future stockpile. With the production complexes operating near 
peak capacity, we will need to optimize the balance between essential 
life extension programs and dismantlement work.
    A 2003 congressionally mandated panel, led by Dr. John Foster, Jr., 
reported that our nuclear weapons program must be balanced between 
maintaining the existing warheads and the need to transform elements of 
the existing stockpile for the future. As we reduce our nuclear forces 
toward the goal of 1,700-2,200 operationally deployed strategic nuclear 
warheads by 2012, we must concurrently analyze and research advanced 
concepts in order to realize the vision of the Foster Panel and the 
NPR. The results of this research will, in turn, enable objective, 
fact-based discussions on very important deterrence and policy issues.

    <bullet> Assessment and Testing
    The United States' nuclear stockpile has a weighted average age of 
over 20 years, and we are the only nuclear power without a current 
capability to build a complete nuclear weapon. The Science-Based 
Stockpile Stewardship Program supports ongoing research and development 
(R&D) of new advanced technologies and analytical tools to assess the 
health of our aging stockpile without a current need for underground 
testing.
    Since 2000, the DOE has used the Advanced Computing Initiative as 
an integral part of the Science-Based Stockpile Stewardship Program to 
analytically simulate nuclear explosions. These computational experts 
and their physicist colleagues in our technical laboratories are a 
national treasure, trained to make sense of torrents of information 
obtained from those simulations to certify the safety and reliability 
of the current stockpile.

                          V. SPACE OPERATIONS

    Across DOD, space is both a major integrator of missions and a 
global enabler for our forces. Our space assets gather and disseminate 
real-time data on virtually any location on the globe, as well as 
provide essential command and control capabilities to forces anywhere 
on the planet. That is why STRATCOM elected to embed space operations 
throughout our organization rather than treating it as a specific, 
stove-piped mission area. U.S. dependence on space, and the potential 
corresponding vulnerabilities, demand that our National Security Space 
interests be addressed as top national security priorities. Our focus 
includes:

Improving U.S. Launch Capabilities
    New capabilities are required to enable rapid augmentation, 
replacement, or repair of satellites lost due to component failure or 
adversary action. STRATCOM looks to the Air Force, National Aeronautics 
and Space Administration (NASA), and industry partners to expedite 
delivery of a more effective, next-generation launch system.

Resolving Space System Vulnerabilities
    Operations in Iraq demonstrated that adversaries can and will 
challenge our ability to use space assets. The attempts to jam our 
global positioning system (GPS) and degrade the accuracy of our 
precision weapons, in Navy parlance, were a ``shot across the bow.'' 
DOD must be able to monitor the health of our essential systems, 
advance our space situational awareness, and respond appropriately to 
sustain our national on-orbit capabilities. In support of the 
leadership of the DOD Executive Agent for Space, Peter Teets, STRATCOM 
is fully engaged in assessing and strengthening all elements of our 
space systems.

Space Based Infrared System (SBIRS)
    The potential provided by the developing SBIRS will be a key 
contributor to greater capabilities in the mission areas of theater and 
global missile warning, missile defense, technical intelligence and 
battlespace characterization to support real-time warfighting 
operations. As designed, SBIRS will expand our ability to detect 
shorter-range missiles with systems designed for both tactical and 
strategic requirements. Once operational, SBIRS will not only represent 
our primary source of initial warning, but will also represent the 
first link in the chain of a layered, integrated missile defense. 
Deployment of a capability such as SBIRS is essential to replace legacy 
systems, some elements of which are now operating well beyond their 
intended life.

Satellite Communications
    Military satellite communications will remain our primary means of 
providing dedicated, secure and/or hardened command and control 
capabilities for worldwide military operations. During the past year, 
we launched the final satellites to complete the Defense Satellite 
Communications System (DSCS), Milstar, and Ultra High Frequency (UHF) 
follow-on constellations. These systems have served us well for decades 
and many have lived far beyond their projected life expectancy. As a 
result of this extended service life, deployment of more modern and 
more capable replacements is needed immediately. The capabilities 
represented by these programs will be sustained and improved with the 
launch of the next generation of satellite systems beginning with the 
Wideband Gapfiller Satellite in fiscal year 2005 and continuing through 
the launches of the Advanced Extremely High Frequency (AEHF) and Mobile 
User Objective System (MUOS).
    The Wideband Gapfiller program consists of five high capacity 
satellites launched from fiscal year 2005-2010 that will replace the 
aging DSCS and Global Broadcast Service satellites, providing DOD with 
high-capacity, wideband service for the Nation.
    The AEHF program is the follow-on to Milstar. Currently scheduled 
to launch three satellites during fiscal year 2007-2009, AEHF provides 
up to 10 times the capacity of Milstar, a significant increase in 
coverage, and the ability to support twice as many networks. It will 
support national, strategic, and tactical users requiring protected, 
anti-jam, survivable communications for national crises, Emergency 
Action Message dissemination, Integrated Tactical Warning/Attack 
Assessment, missile defense, presidential secure voice conferencing, 
and interoperability with selected international partners.
    The MUOS will field five UHF satellites to provide the warfighter 
on-demand, high capacity communications to ISR, and weapons system 
platforms on the move. This system is designed to alleviate the need to 
purchase expensive, commercial satellite services. MUOS launches 
currently are scheduled for fiscal year 2009-2011.
    Investments in replacement technology and capacity will help 
maintain the U.S. as the pre-eminent space faring nation well into the 
future. STRATCOM will remain engaged as these programs are developed 
and procured to monitor progress and ensure warfighter requirements are 
clearly articulated.
    STRATCOM is working with the Joint Staff, Defense Information 
Systems Agency (DISA), and, as appropriate, the commercial satellite 
industry to develop a methodology whereby DOD can assure future 
satellite communications systems are designed, funded, fielded, and 
sustained as an end-to-end communication system. In the past, complex 
communications systems routinely were procured in parallel, as separate 
elements, and often by many organizations. Due to increased system 
complexity and the number of segments involved, an end-to-end 
synchronized acquisition process is essential. We must streamline the 
process and develop a procedure to centrally fund and manage seamless, 
integrated, on-demand capable satellite communication services to meet 
national security needs.

                 VI. GLOBAL INTEGRATION AND COOPERATION

Integrating the GOC
    On April 15, 2003, STRATCOM published an overarching operational 
concept to incorporate changes driven by the assignment of our global 
missions. Central to this document is the creation of the GOC. The GOC 
and its supporting command elements will enable STRATCOM to provide 
responsive support to the President, Secretary of Defense, combatant 
commanders, and agencies. Additionally, the GOC, with support of our 
components, will develop and leverage global battlefield situational 
awareness and present decisionmakers with full spectrum courses of 
action that integrate all STRATCOM's missions and capabilities.
    Within the GOC, we will also perform space operations including 
space control, space support, and force enhancement. The GOC will 
enable STRATCOM to better execute our assigned missions by providing 
improved responsiveness and better command and control of our missions 
by placing the responsibility for mission support and execution under a 
single integrated operations center.
    The Combatant Commander's Integrated Command and Control System 
(CCIC2S) is the integrated battle management command and control engine 
for STRATCOM. CCIC2S integrates fixed and mobile command and control 
(C2) systems to support our missions and RCCs. CCIC2S must be 
responsive to the combatant commander's vision and ``evolve to a highly 
responsive and cost-effective sensor-to-decision-maker-to-shooter 
capability.'' It supports spiral development and delivery of air 
defense, missile warning, space surveillance and defense, and common C2 
service capabilities.

                   VII. CHALLENGES AND OPPORTUNITIES

Strengthening Components and Agency Relationships
    We continue to seek the proper composition and alignment of 
components to accomplish our missions while allowing flexibility as our 
missions evolve. In this area, we have accomplished the following:

        <bullet> On October 1, 2003, the Commandant of the Marine Corps 
        directed the activation of a Marine Corps service component 
        command called U.S. Marine Corps Forces, STRATCOM (MARFORSTRAT) 
        to support our mission areas.
        <bullet> We established command relationships to leverage 
        capabilities of the NSA, DISA, and JIOC to provide an armory of 
        IO capabilities.
        <bullet> The Cruise Missile Support Activities previously 
        assigned to the PACOM and JFCOM were realigned under STRATCOM 
        to enhance Global Strike capabilities.

    We have become more efficient in organizing our components and are 
still exploring several opportunities for further realignment of 
component support in order to avoid unnecessary and duplicative 
headquarters growth. In those instances, we are seeking mechanisms 
allowing us to interface with appropriate senior leadership to access 
the centers of excellence and proven capabilities resident within their 
subordinate organizations. We call it ``capabilities-based 
componency,'' and it is a construct defined by access to, versus 
ownership of, resources essential to the accomplishment of our diverse 
missions.
    Partnerships with civilian agencies, private industry, and academia 
are also vital to successful accomplishment of our missions. As we 
continue to establish new relationships and enhance existing ones, we 
remain focused on refining effective and efficient processes in the 
common pursuit of enhanced national security.
Strengthening Reach-back Capabilities, Joint Exercises, and Training
    DOD is transitioning toward smaller, more agile forces, decreasing 
the forward footprint of our personnel in theater. To enable mission 
success for these agile forces, we must provide improved situational 
awareness and command and control capabilities. This requires 
unprecedented reach-back to planning capabilities, intelligence 
products, and other specialized expertise.
    A DOD oversight committee is crafting a roadmap for leveraging 
technologies to provide seamless distributed operations, or reach-back 
to supporting commands and elements. Developing GIG-BE will greatly 
improve this reach-back capability. By moving digits, not people, we 
reduce not only transportation and support costs, but the number of 
personnel placed in harm's way. Reach-back capabilities proved highly 
successful during OIF in supporting targeting, planning and information 
operations.
    In parallel, a specialized team of 35 personnel was sent to support 
CENTCOM by providing specialized space and information operations 
planning and execution support. Referred to as a Space and Information 
Operations Element, this team represents a first step in developing 
connectivity back to our headquarters for broader access to specific 
STRATCOM expertise, making our entire headquarters a trusted agent for 
the RCC.
    In the future, we anticipate opportunities for STRATCOM Support 
Teams to train and/or exercise regularly with the RCCs, thereby 
building relationships that are well understood before crisis or 
conflict looms. If requested by the RCC, they will be forward deployed 
in time of conflict. Alternatively, if that commander were comfortable 
with reach-back support from this team, they would provide the regional 
commander with the full spectrum of capabilities from our GIC at Offutt 
Air Force Base.
    As STRATCOM continues to mature our recently assigned global 
missions, we must develop robust training and exercise programs to test 
the tactics, techniques, and procedures envisioned in our integrated 
concept of operations. Our annual major exercise, Global Guardian, has 
traditionally been a nuclear operations-focused exercise. We are 
dramatically reshaping that construct and creating a new exercise 
series that better captures the broad range of new responsibilities 
while still supporting the essential zero-defect focus on our legacy 
mission. The Strike Directorate continues to coordinate with RCCs on 
the command and control structure required to simulate integration of 
full spectrum Global Strike missions into future regional exercises.
    In December 2003, we successfully demonstrated support to a RCC 
(PACOM) in Terminal Fury 04 in the areas of Global Strike, IO, Space 
Operations, and ISR. Using extensive reach-back opportunities and 
Strategic Support Teams, it afforded STRATCOM the opportunity to gain 
hands-on experience in areas such as planning, executing, and 
recovering Global Strike missions across regional boundaries. By 
working closely with PACOM in this exercise, we further developed a 
regional context and improved capabilities in our new mission areas to 
extend to all RCCs. The coming year undoubtedly promises new challenges 
and greater opportunities.

                            VIII. CONCLUSION

    As STRATCOM reshapes the heart of the Nation's strategic 
capability, we are required to study new deterrence concepts to provide 
the President with a wider range of military options that bring to bear 
every element of national power. The warrior Sun Tzu said, ``To win 
without fighting is best.'' A fundamental principle remains that 
deterrence has credibility only to the extent we back it up with 
capability, determination, and resolve. STRATCOM provides credibility 
through its cohesive package of both new and legacy missions, even as 
we explore new deterrent concepts to serve the Nation in a very 
different future.
    STRATCOM is ready to meet the challenges of the future. We are 
mindful of the magnitude of the task before us, and confident in the 
talent of our staff, our components, and our mission partners. In the 
words of Abraham Lincoln, ``The dogmas of the quiet past are inadequate 
to the stormy present. The occasion is piled high with difficulty, and 
we must rise with the occasion. As our case is new, so we must think 
anew, and act anew.''
    I appreciate your continued support and look forward to reporting 
our progress to you in the future as we continue to build the new 
STRATCOM.

    Senator Bill Nelson [presiding]. Thank you, Admiral.
    General Lord.

  STATEMENT OF GEN. LANCE W. LORD, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Lord. Thank you, Senator Nelson and distinguished 
members of the subcommittee. It is my honor today to appear 
with Under Secretary Teets, as well as Admiral Ellis and 
Admiral Cebrowski, to represent the 39,000 hard-working men and 
women of AFSPC. On their behalf, I want to thank you for your 
continued support of our people and our programs.
    Along with our Army and Navy colleagues, as Admiral Ellis 
pointed out, we really put the force behind the Under Secretary 
and Admiral Ellis' priorities. In AFSPC we conduct space and 
missile operations 24-7-365, around the clock every day of the 
year, under the direction of our two Numbered Air Forces. Our 
operations are sustained and supported by both our acquisition 
arm under the command of Lieutenant General Brian Arnold, the 
Space and Missile System Center in Los Angeles, and our 
innovators in the Space Warfare Center.
    We operate because our space capabilities provide what we 
think is a very real transformational effect. It was seen in 
Operation Enduring Freedom (OEF) as well as OIF that space 
capabilities were a helping hand to all joint and coalition 
forces. We certainly demonstrated that in recent combat 
operations. That helping hand we see is backed up by the 
clenched fist of our ready and alert missile forces that are on 
alert every day to continue to deter.
    As we meet today to discuss and talk about the future, it 
is important to remember the truly indispensable power 
provided, as Admiral Ellis said, by these capabilities. We 
think our advantages in space are certainly apparent to us and 
are certainly apparent to our potential adversaries, and we 
must take all appropriate steps to protect our capabilities.
    With your continued support, we will increase our focus on 
space force protection, to include space control and space 
superiority and its critical enabler, space situation 
awareness.
    Thank you for the opportunity to be here today and I look 
forward to your questions.
    [The prepared statement of General Lord follows:]

             Prepared Statement by Gen. Lance W. Lord, USAF

                              INTRODUCTION

    It is my distinct honor to appear before the committee today on 
behalf the 39,000 men and women of the world's finest space and missile 
team--Air Force Space Command (AFSPC). I am honored to appear with 
Under Secretary of the Air Force Peter Teets, the Department of Defense 
(DOD) Executive Agent for Space, Admiral Jim Ellis, the Commander of 
United States Strategic Command (STRATCOM), and retired Vice Admiral 
Arthur Cebrowski, Director of DOD Force Transformation. These leaders 
are a major reason why our space and missile capabilities continue to 
play an ever-increasing transformational role in joint and coalition 
operations. They continue to push advancement of our sentinels on the 
high ground and our ready, safe, and reliable missiles below ground to 
increase the range, speed, and precision of all our forces in conflict 
and, moreover, to deter a conflict before it begins.

                             TRANSFORMATION

    There is no better example of this transformation than we recently 
displayed in Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF). Simultaneously, our forces limited collateral damage, 
delivered humanitarian aid and saved the lives of combatants and 
civilians alike while conducting highly successful combat operations. 
General Franks, former Commander of U.S. Central Command (CENTCOM) told 
Congress, ``The pieces of this operation which have been successful 
would not have been so without space-based assets . . . it's just very 
simply a fact.'' Spacepower continues to improve our battlefield speed, 
precision, lethality, reach and flexibility. As President Bush said on 
May 1, 2003, aboard the U.S.S. Abraham Lincoln, ``Operation Iraqi 
Freedom was carried out with a combination of precision and speed and 
boldness the enemy did not expect, and the world had not seen before. 
From distant bases or ships at sea, we sent planes and missiles that 
could destroy an enemy division, or strike a single bunker.'' In a 
matter of minutes, not weeks, hours, or days as in past wars, 
commanders identified and engaged targets and received timely battle 
damage assessment. Our coalition, and our adversary, got the message: 
spacepower is now in the fight like never before.
    The organizational and structural changes implemented after the 
Space Commission puts AFSPC on an even better footing for the future. 
The synergy between the acquisition arm of the command--the Space and 
Missile Systems Center, the innovators at the Space Warfare Center, the 
Space Numbered Air Force--the 14th Air Force, our missileers in the 
20th Air Force, and our headquarters team is beginning to be realized. 
Our people are always in the fight--either through our ``deployed in 
place mission'' from our sites around the world (some of our men and 
women spent 180 plus days in the missile field last year, for example) 
or the 1,200 people deployed to the theater last year (over 436 members 
still deployed). Our airmen, from the most junior enlisted to the 
senior officers, understand they are all part of the team that doesn't 
just support the warfighter--they provide combat effects 24/7/365.

                              AFSPC VISION

    As Operations Enduring Freedom and Iraqi Freedom continue to wind 
down, I'd like to share a snapshot of our Command Way Ahead. Our 
command vision is to be a full spectrum space combat command preeminent 
in the application of space power for national security and joint 
warfare.
    We've been creating combat effects since well before we stood up as 
a command--I pulled my first Combat Crew Missile Alert in 1969. Our new 
vision is to provide full spectrum effects, from strategic (which has 
always been our strength) to tactical effects using nonkinetic through 
kinetic weapons in full combat synergy with all coalition forces.
    Our framework to achieve that vision is what we call ``Commanding 
the Future.'' This framework enables a complete understanding of our 
progress in all aspects by ensuring: we have the right enterprise and 
are focused both operationally and strategically; we have the right 
partners; we are unleashing human talent to develop space professionals 
with education and certification programs; we are developing new 
wizards who understand all the aspects of the space medium and system 
and creative ways of employment; we are warfighter centric and have the 
proper concepts of operation (CONOPs); and that we can properly 
transition advanced technology to warfighting and increase combat 
effects. Through these ``thrusts,'' we ensure we cover all management 
areas as we execute our command priorities for 2004.

                            AFSPC PRIORITIES

    Our first priority is developing our people to lead us into the 
future, and educating them through Space Professional Development--this 
is significant, as we have formulated a plan that ensures the success 
of our operators, developers, and maintainers as one warfighting space 
cadre. When the Secretary of the Air Force approved the Space 
Professional Development strategy, he took the additional step of 
naming me, in my position as the AFSPC Commander, the Space 
Professional Functional Authority--the only Functional Authority 
residing outside of the Pentagon. We developed, tested and conducted 
space professional education prototypes in 2003, and this year we'll 
bring both the initial Space 100 and the advanced Space 200 courses on-
line for Space Cadre members at the 8-10 year point in their careers. 
Finally, I approved identifying Space Cadre members and associated 
Space Cadre positions using Space Experience Codes (SPECs). These SPECs 
will become the common terminology linking the experiences that 
identify the individual and the position, helping us to inventory 
capabilities and requirements for all Space Professional Cadre members.
    With the proper focus on people, we must improve our capabilities 
and deliver on near term commitments. Improving missile warning systems 
remains one of our top priorities. We need to upgrade our missile 
warning that served us well throughout the Cold War, to be more 
responsive and more capable to our forces in the field. We stretched 
the Defense Support Program (DSP) system hard for tactical missile 
warning, but our forces deserve increased capability to precisely 
determine launch and impact point for both warning and engagement of 
incoming enemy missiles. With just one DSP left to launch, we can't 
wait for a degraded constellation. Degraded strategic and tactical 
missile warning would present significant national security 
challenges--it would severely handicap national missile defense and 
strategic response through tactical warning to warriors in the field. 
We will continue to push Space Based Infrared capabilities in the near 
term.
    We will also maintain our assured access to space with multiple new 
launch vehicles and developing operationally responsive spacelift and 
spacecraft. Our Operationally Responsive Spacelift (ORS) initiative is 
progressing well. The Mission Needs Statement (MNS) was validated by 
the Joint Requirements Oversight Council (JROC) in April 2002 and we're 
in the midst of an ORS analysis of alternatives (AOA) that should be 
completed mid-2004. The fiscal year 2005 presidential budget also 
includes funding for an Air Force/Defense Advanced Research Projects 
Agency (DARPA) demonstration called Force Application and Launch from 
the continental United States (CONUS) (FALCON). However, we are 
stressing our newest, state of the art rockets known as Atlas V and 
Delta IV. These two contractor teams, plus our new group of launch 
professionals--acquirers and space operators now on one team--are all 
focused on mission success in each and every operation leading to 
launch. Our focus is delivering on the promises of the Evolved 
Expendable Launch Vehicle (EELV) fleet and getting toward more 
responsive launch without sacrificing mission success.
    A continuing priority is space superiority and understanding all 
avenues that adversaries could take to counter our capabilities. Space 
superiority is just as important as gaining and maintaining air 
superiority in times of conflict. It is our fundamental duty to ensure 
our advantages in space don't become vulnerabilities. Each time the 
higher ground was sought throughout history, adversaries developed 
capabilities to remove the advantage. We are very concerned about space 
force protection to ensure all our space forces are survivable, and we 
are exploring rapid reconstitution capabilities. However, fundamental 
to space superiority is the capability to detect, categorize and 
counter attacks on spacecraft, ground stations and the links between 
them. Every new contract we let must take into account all appropriate 
space situation awareness and protection measures.
    In 2004, we'll continue modernizing our ICBMs while exploring other 
alternatives for future force application. Our space capabilities were 
the helping hand of our coalition force operations because they were 
backed up by the clenched fist of our missile force--always alert and 
providing ``top cover'' by deterring any adversary from using weapons 
of mass destruction (WMD) against our Nation or our forces around the 
world. In 2003, we strengthened that fist even more with over 200 new 
guidance sets and 80 missiles with new propellant. We'll continue to 
increase those numbers this year and conduct an AOA on the next 
generation Land Based Strategic Deterrent.
    Over the next year, we will also plan for future advancements in 
force enhancement through GPS modernization, Space-Based Radar (SBR) 
development, and advanced satellite communications. GPS has proven its 
worth. It is the world's largest free public utility with numerous 
applications that improve our daily lives. The military value of this 
system is unquestionably the driving force behind our transformation. 
We look forward to launching the next generation of GPS to keep our 
forces on the leading edge. SBR will provide surveillance and target 
tracking around the clock and in all weather. The situational awareness 
provided by the SBR constellation promises to be just as revolutionary 
as GPS has been. We must continue to ensure SBR is responsive to our 
forces in the field and the power of this system is not only used for 
intelligence preparation of the battlespace, but provides the much 
needed capability to ID and track targets in theater, real time. 
Transformational Satellite (TSAT) Communications serve a fundamental 
need of all our expeditionary forces--the expanding need for protected, 
reliable, long haul communication. We are looking hard at the 
interoperability between Intelligence Community and DOD requirements. 
We are also weighing associated affordability/schedule risks and the 
appropriate tradeoffs leading toward a fiscal year 2012 (November 2011) 
TSAT first launch.
    These priorities, executed through the Commanding the Future 
framework, will solve our most pressing needs leading into both near 
and mid term to achieve the needed effects on the battlefield by all 
members of our joint and coalition team. AFSPC will be ready for 
whatever the future brings by continuing to innovate, develop, design, 
launch, and operate leading-edge space and missile systems.
    Thank you again for the opportunity to appear before you today. I 
look forward to your questions.

    Senator Bill Nelson. Thank you, General.
    Admiral.

    STATEMENT OF VICE ADM. ARTHUR K. CEBROWSKI, USN [RET.], 
    DIRECTOR, OFFICE OF FORCE TRANSFORMATION, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Admiral Cebrowski. Thank you, sir. It is a pleasure to be 
here. I suppose what I should do is point out first of all 
that, unlike my colleagues here to my right, I am really not in 
the space business; I am in the transformation business. So I 
am really not here to talk about programmatics for our larger 
space programs or make declarations about what is or might not 
be transformational. I have a fondness for microsatellites, but 
I am really not here to talk about that either, although we are 
moving into the age of the small, the fast, and the many, not 
just in space potentially but in all aspects of military 
operations.
    Actually, I am here to discuss a new and broader and 
complementary business model which could decidedly expand our 
capabilities base, our technical base, and our competitive 
base. I really only have three points about that.
    First, the barriers to competition are falling in several 
key elements of military competition. Space is one of those 
areas, perhaps more than any other area, and consequently the 
question before us is how do we respond to that.
    Second, the old model has a lot of goodness in it, and it 
pushes to the fore competition on the basis of technology and 
technical complexity, where we have the ability to indeed do 
quite well. We need to expand that to a new broader basis for 
competition with new metrics, for example, and metrics which 
are more output-oriented rather than the technical insertion 
piece.
    Lastly, there are a few small but very important steps that 
need to be taken to indeed broaden our space capability and 
bring the new model on line. We are in a position right now 
where we judge the strategic context to demand that we be 
swift, bold, and very specific about what we do. I believe that 
as the major defense power in the world, we must dare to 
compete with ourselves to ensure perfection, to set our own 
standards.
    With that, I am very pleased to be here again and eager for 
your questions.
    [The prepared statement of Admiral Cebrowski follows:]

          Prepared Statement by Adm. Arthur K. Cebrowski, USN

    Chairman Allard, Senator Nelson, and members of the subcommittee, 
I'm honored to have the opportunity to address the subcommittee, and to 
join the leaders of our National Security Space (NSS) team to address 
current space issues so vital to our Nation and our military forces.
    During my April 2002 testimony before the Senate Armed Services 
Committee, I noted that the barriers to competitive entry are falling 
as a result of new technologies made possible in the age of 
information. Nowhere is this truer than in space.
    Now it is 2 years later, and transformation across the force is 
happening much faster than we expected when we announced the journey 
just 28 months ago. Not just a concept and not just action in the 
future, transformation is happening today. It is happening due in large 
part to the information and power derived from our vital space 
capabilities.
    Our space capabilities are a prominent feature of the global 
advantage we currently enjoy. However, the space technology context is 
changing, making possible a movement to an additional business model 
and an expanded business base for space. Cost per kilogram on orbit is 
still a problem. But, capability per kilogram on orbit is soaring due 
to advances in information technology. This makes the alternative model 
feasible. The door for small, micro and nanosatellites is open, 
allowing us to redefine cost and mission criticality curves, increase 
transaction and learning rates and the ability to assume risk. As we 
move towards the age of the small, the fast and the many, it is time to 
start thinking about applying that movement to our model for space. 
Adopting this complementary and broader business model will help us 
ensure space superiority well into a future where space will be yet 
more responsive to our joint military forces. In short, it is within 
our capability to create options, a process which itself can be a 
competitive advantage.
    Operationally Responsive Space (ORS) is that new and complementary 
business model. At its core are: (1) the defining of a joint military 
demand function; and (2) the focus on providing joint military 
capabilities for our operational and tactical level commanders. 
Finally, the model incentivizes output rate and uses a co-evolutionary 
strategy of concept-technology pairing, providing for iterative 
advancement in operational capabilities.

                    PROGRESS OF SPACE TRANSFORMATION

    Our NSS team has made great strides in its short 45-year history. 
Rooted in the Cold War, the NSS program was viewed as a source of 
national power. There was a clear connection between space and our 
strategic deterrent forces. The Nation capitalized on converted weapon 
systems to develop the ability to launch small payloads in low Earth 
orbit. Then we graduated to larger payloads in higher orbits vital for 
detecting the ballistic missile threat posed by the Soviet Union.
    Thirty years later, the military value of space capabilities became 
apparent during Operation Desert Storm (ODS), which many have deemed 
the first space war. In reality, our space forces, like our traditional 
military forces, used a robust Cold War force structure to defeat the 
Iraqi Armed Forces and expel them from Kuwait. Nevertheless, ODS 
highlighted the importance of being able to distribute or 
operationalize these global space utilities to be operationally 
relevant in theater.
    One need only compare ODS with Operation Enduring Freedom (OEF) or 
Operation Iraqi Freedom (OIF) to see how successful we have been at 
operationalizing our global space forces. One of the key differences 
between ODS and OIF is the distribution of satellite-based wideband 
communications down to the tactical level. In ODS our military forces 
numbered 542,000 and they had 99 megabits per second of bandwidth 
available. In OEF/OIF bandwidth rose to 3,200 megabits per second while 
our forces were reduced to 350,000. Satellite communications provided 
the backbone for Blue Force Tracking, shared situational awareness down 
to the individual level and allowed operational and tactical level 
commanders to exploit an unprecedented speed of command. The Nation's 
space capabilities directly impacted speed of maneuver, the tempo of 
the fight, and the boldness and lethality of our forces.
    Additionally, the advances made in missile warning were 
significant. In ODS, using our Defense Support Program (DSP) satellites 
designed to detect the Cold War ballistic missile threat, we were able 
to give rudimentary theater missile warning. However, in the 10 years 
since ODS, advances in ground processing, on-orbit software, 
organizations, command and control and theater warning concept of 
operations made our warning capability dramatically more robust 
allowing for theater battlespace characterization.
    Finally, it is obvious that, in the years leading up to OIF, great 
advances were made in distributing the Global Positioning System (GPS) 
signal to weapons. This has significantly increased our precision 
strike capability.
    These examples of increased bandwidth, theater missile warning 
capability, and precision, show just how important space capabilities 
are to transforming our force and how far we have come in 
operationalizing these capabilities. But all along the way, the 
operational and tactical benefits were what could be teased out of the 
larger NSS systems.

                          THE LINK TO STRATEGY

    One may ask why we need a new model; given the success of our 
existing force. From all indications our space forces are providing us 
with an asymmetric advantage that no adversary currently enjoys. 
Although that is clearly true, evidence suggests that our space 
supremacy is not guaranteed. An adversary might turn our asymmetric 
advantage into an asymmetric vulnerability if we cannot maintain space 
supremacy. The United States is the most heavily space dependent nation 
in the world and that holds true for our joint military forces--this 
will continue to hold true for the foreseeable future.
    Alfred Thayer Mahan, a prominent naval historian and strategist, 
described the oceans as a ``great common.'' Today, space and cyberspace 
must be added to the list of commons that must be controlled. One of 
the recognized barriers to becoming a hegemonic power is the ability to 
operate in and control the commons. Therefore, we can expect nations 
with hegemonic aspirations to try to erode our ability to operate 
effectively in the commons and to achieve the ability to control the 
commons for their own use.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The barriers to entry into space, which were so high during the 
Cold War, have eroded. No longer is space reserved for great power 
nations alone. Space has become much more common, and today a nation 
needs not be a space power to employ space power. The commercial space 
communication and remote sensing industries that emerged in the 1990s 
provide power derived from space, once reserved for the most powerful 
of nations, to weaker nations, organizations and even individuals. 
Additionally, the increasing capabilities of small, micro, and nano 
class satellites have moved them from a segment more suited for 
university backed experiments to a niche with potentially significant 
military utility. Today, nations can contract with universities to not 
only build microsatellites, but also to transfer the knowledge required 
to develop them. The United States, the leader in space, has taken a 
back seat to other nations in exploiting these smaller segments of the 
space industry. As we are at the threshold of transforming ourselves to 
a network centric military, using the coherent effects of distributed 
military forces and systems to achieve commander's intent, the newer 
smaller elements of space capability emerge as a toolset providing 
virtually unlimited potential.
    In the past 2 years, other nations have launched 38 microsatellites 
while our contribution in this segment of the market is very modest. 
Furthermore, our Space Test Program as indicated by the number of 
satellites launched for test is in decline.
    The Cold War attributes of our existing space program limit our 
ability to maintain space superiority required by today's rapidly 
changing strategic environment. Specifically, the mission criticality 
that grew out of the Cold War and the very high cost of our complex and 
highly capable space systems lead to a high consequence of failure. The 
required corresponding risk mitigation strategy incentivizes expensive, 
long lasting, heavy, multi-mission payloads. These same attributes also 
impact our ability to launch our satellites into orbit. They require 
larger, higher cost launch vehicles, with low launch rates and 
significant mission assurance oversight.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
              ATTRIBUTES OF OPERATIONALLY RESPONSIVE SPACE

    ORS is a new approach. Rather than trying to operationalize 
national/global space utilities, this model designs military 
capabilities directly for the operational commander. The key attribute 
of the ORS business model is that the field commanders drive the 
demand. That demand is the joint military capability required to meet 
operational and tactical level needs. Rather than treating our 
operational and tactical level commanders as lesser includeds, this 
business model designs a capability to meet their specific warfighting 
needs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Demand Function
    The operational level of war is a theater level of war, and the 
operational commander is normally established only in a time of 
conflict. This definition helps put the demand function into context. 
The operational commander requires a theater capability to satisfy a 
joint warfighting need (vice a national intelligence need) that is 
available during joint warfighting planning timelines. This demand 
function changes the space calculus and the cost, risk and mission 
criticality variables that incentivize lower cost, smaller, satellites 
and single mission, sub-optimized payloads with shorter life spans. The 
time function for responsiveness is then driven by adaptive contingency 
planning cycles rather than predictive futures or scripted acquisition 
periods. The objective is agility and dynamic fitness, not 
optimization.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Military Capability
    Today's joint force commander requires capabilities that are 
horizontally integrated transmission control protocol/Internet protocol 
(TCP/IP) accessible, flexible, interoperable, joint down to the 
tactical level and are risk tolerant. Increasing the speed of command, 
which proved so vital in OIF and OEF, requires high transaction rates, 
increased information rates and volume, and a tolerance of ambiguity 
from unpredictable demand.

Autonomous
    ORS capabilities necessitate the ability to launch and autonomously 
reach the required orbit without months of state-of-health checks, 
calibrations, and configurations by large squadrons of satellite 
controllers.

Networked
    When space is accessible to the tactical or operational users, it 
changes the manner in which relationships occur and the way that 
organizations behave. While micro or nano satellites may not offer 
technologies that are groundbreaking, they can significantly alter the 
capabilities of a wider user base. The collective produces an 
understanding that is not replicated or deliverable by any single 
analyst or structured hierarchy. Leveraging space access by the entire 
defense establishment changes the methods and techniques that can be 
adopted by future users.
    In a network centric force each satellite becomes a node within a 
tiered network of sensors such as larger space systems, unmanned aerial 
vehicles (UAVs), air and surface assets. A network centric approach 
uses the internet protocols throughout the entire lifecycle of the 
satellite. That means integrating the payload remotely and using the 
internet protocols for preflight testing, command and control, payload 
tasking and data dissemination. This will allow for increased fusion of 
data from multiple platforms while reducing lifecycle costs.

Broadened User Base
    Parenthetically, there is no reason why this must be confined to 
Department of Defense (DOD) needs. Rather, it could mean an organic 
space capability for the larger national security community. One of the 
objectives of ORS is to make space assets and their capabilities 
available to operational and tactical users and an organic part of the 
Joint Task Force (JTF). One specific means to do this is for space to 
use the Secret Internet Protocol Router Network (SIPRNET) to task, 
receive and widely disseminate data. Because the SIPRNET has matured as 
a core U.S. warfighting command and control venue and evolved to be the 
de facto standard as a preferred data sharing service, the cost of 
gathering information has plummeted and the value of shared information 
content has soared. As a result both the richness of information 
improves and the reach of its content expands exponentially.

                        COMPLEMENTING BIG SPACE

    Note that this complementary business model does not replace the 
larger space program. Today, small satellites cannot provide the 
capabilities required to meet all national intelligence needs. However, 
just as we have operationalized our larger space program to meet 
theater needs, these operationally designed theater capabilities will 
also enhance our national and strategic space capabilities. 
Specifically, these satellites will help reduce the burden we are 
currently placing on our national systems and the organizations that 
operate them, enhance the persistence of the national capabilities, 
assist in meeting the force structure requirements mandated by the 
current force planning construct, and help ensure that U.S. forces are 
adaptable to an uncertain future.
    Another role that these systems could provide in the future is the 
ability to reconstitute our larger space capabilities if adversaries 
attempt to negate them. Although, it would not be replenishment in 
kind, it could provide a subset of capabilities for our national and 
military leaders.

                         TEST BED FOR BIG SPACE

    As the pace of change in the information age is accelerating, so 
must the institutional transactions that create capabilities from 
``learning.'' Stagnation of institutional learning comes at the expense 
of creating future advantage. Today our space forces are at risk of 
becoming a strategically fixed target. The cost of sticking to slower 
generational turnover--a cycle that currently runs 15 to 25 years for 
U.S. forces--is likely to be technological surprise that works to our 
disadvantage in future conflicts.
    Besides providing operationally relevant capabilities for the joint 
warfighter, this new business model would serve as a test bed for the 
larger space program by providing a clear vector for science and 
technology investments, enhancing the institutional and individual 
learning curves, and providing increased access to space for critical 
research and development (R&D) payloads. Today, less than 25 percent of 
our space R&D payloads make it into orbit, and this is with a heavy 
reliance on the space shuttle.
    Sound space science and technology stewardship requires that the 
sole superpower compete with itself to avoid stagnation. Getting new 
technologies into space earlier to understand the ramifications and 
inform our conceptual context builds a learning curve for big space and 
provides a look at alternative futures.
    By reducing cost, increasing transaction rates, and developing 
standardized buses and interfaces we change our risk mitigation 
strategy. This will allow the United States to lower the cost of 
placing payloads into low Earth orbit and simultaneously increase our 
ability to put R&D payloads into space. Additionally, these same 
attributes will allow sub-optimized, simpler ``wooden round'' payloads 
to be launched into orbit.
    However, the most important aspect of the test bed is the 
institutional and individual learning that will take place. As an 
institution, we will learn there are alternative methods and processes 
to conduct space operations that could not have been developed through 
our larger space program. Additionally, the smaller satellite programs 
will provide great venues to pair seasoned space expertise with new 
prospects, allowing them to ``cut their teeth'' in an area where 
failure is a data point.

GENERATIONAL SCIENCE AND TECHNOLOGY--BRIDGING THE TECHNOLOGY/OPERATIONS 
                                  GAP
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Finally, this business model uses a co-evolutionary process, 
pairing concepts and technologies in an effort to start influencing 
change immediately. The co-evolutionary techniques guide the ORS 
approach to instantiating these capabilities. The techniques are used 
to stimulate disruptive innovation through the continuous development 
and refinement of operational concepts, processes, technologies and 
organizations. This approach should influence technology, policy, 
concepts of operations, acquisition processes and public/private 
partnerships.
    ORS provides the ability to conduct a strategy of generational 
science and technology (S&T) and acquisition. This new business model 
brings the United States ``back to the future.'' The ORS model is 
similar to the space model of the 1960s and 1970s. All space systems 
started small and in low Earth orbit and grew bigger and higher as 
technology and operational requirements matured.
    Analysis of the development of the GPS satellite constellation 
provides some key attributes that are readopted in our model.
Creating leverage by targeting the investment of relatively small 
        research and development dollars and the role of research 
        laboratories.
    The GPS grew out of work done by the Service laboratories. The 
Naval Research Laboratory and Air Force Research Laboratory were both 
targeting the investment of relatively small R&D dollars towards key 
technologies required to develop the system. When it became apparent 
that DOD could not continue to fund two unique systems, the two labs 
were directed to get together over a Labor Day weekend and come up with 
a single approach. The best attributes of both approaches were put 
together in the final system. It was determined that the Navy had the 
best clocks and orbits and the Air Force had the best signal structure. 
The DOD directed the Air Force to take the lead in operationalizing the 
system and the Naval Research Laboratory was funded for continued 
research and development. In our ORS business model we view the 
research labs as matched filters for technology concept pairing to 
address operational needs.

Affordable access to space
    The successful development of the GPS constellation relied on 
testing clocks in space. The Naval Research Lab was able to get ``free 
piggy back'' rides to space using excess capacity on the Agena rocket. 
The cost, timelines, and risk associated with getting piggyback 
research and development payloads to space today hinder our ability to 
advance space technologies.

Generational Approach
    The GPS actually grew out of a series of lab sponsored experimental 
microsatellites. In all there were 15 navigational microsatellites and 
8 R&D satellites. Combined, these satellites served as stepping-stones 
to the operational GPS. They provided intermediate capabilities to 
begin developing operational concepts directly impacting the final 
orbital parameters adopted for the operational system.
    Our business model seeks to embed experimental capabilities into 
combatant commanders warfighting experiments. By doing so, we can 
mature the operational concepts in parallel with the technology. By 
increasing transaction rates, next generation technology and 
operational concepts can be embedded into future payloads, leading to 
increased capability for the warfighter.

Public/Private Partnerships
    Another key attribute of the GPS acquisition program was the 
public/private partnership between the Services and Rockwell, which won 
the contract to build the first block of operational satellites. For 
about a year, engineers from Rockwell worked with the Service 
laboratories to learn all the lessons to be learned prior to developing 
the operational system. This public/private team was crucial to the 
success of the acquisition program. Currently, our S&T strategy falls 
short on several fronts. First, access to space does not afford a 
robust space S&T and R&D program. Second, there is a gap in translating 
R&D into operational capabilities. The new business model and co-
evolutionary approach seek to bridge this gap.

                             THE WAY AHEAD

    Over the past year, the DOD has taken great steps in embracing this 
new business model. My office funded the TacSat-1 experiment with the 
goal of providing an operationally relevant capability to the warfigher 
in less than a year for $15 million. Although we expect to be right on 
the margins of both metrics with a planned early summer launch, a lot 
of progress has been made in our institutional processes.
    The Air Force, under the leadership of Mr. Teets, General Jumper, 
and General Lord, has provided outstanding support to our ORS 
experiment. They have crafted a customized mission assurance approach 
for the oversight of a new commercial launch vehicle consistent with 
the nature of the TacSat-1 experiment. Additionally, they have worked 
closely with the commercial launch provider to come up with innovative 
safety processes that will ensure public safety. At the same time, they 
have been willing to accept risk in operational suitability and 
effectiveness. This process is ongoing, and real organizational 
learning is happening in the Air Force and in the commercial launch 
company.
    Our TacSat-1 experiment has set the baseline for a co-evolutionary 
concept/technology pairing process and has helped shape a stronger 
relationship between Service laboratories. The Air Force is following 
our TacSat-1 with a TacSat-2 that builds on the modest capabilities 
provided by our first instantiation. This is a realistic first step of 
generational science and technology efforts.
    Critical to achieving the agility and flexibility demanded by an 
ORS model we must develop standards for modular/scalable satellite 
buses. This must be a part of our future plans and will allow us to 
increase the utility margin of smaller satellites.
    We have forged a healthy relationship with the Pacific Command 
(PACOM) to imbed these capabilities into their annual combatant 
commander exercises.
    TacSat-1 has also served to strengthen interagency relationships. 
The Office of Force Transformation has capitalized on the National 
Aeronautics and Space Administration's and the Air Force and Army Space 
Battlelabs' work with the Virtual Mission Operations Center. This has 
allowed Internet-based payload tasking and data dissemination. 
Additionally, we have forged a partnership with the Federal Aviation 
Administration, the commercial space regulators, to ensure proper 
liability and indemnification levels.
    Finally, taking a more macro view, DOD is stepping up to making 
operationally responsive space a near-term capability. General Jumper, 
the Air Force Chief of Staff, recently announced the Air Force's Joint 
Warfighting Space concept. The Air Force is leading a joint team to 
investigate operationally responsive space technology vectors and 
Strategic Command is engaged to help define the corresponding vectors 
for operational concepts.
    The leaders I am privileged to testify with today are taking the 
right steps to move this concept, currently in its infancy, into an 
operational warfighting capability.

    Senator Bill Nelson. Thank you.
    Let us start, Admiral Ellis and Dr. Teets, and talk about 
assured access to space. You know the flap that is going on 
between Boeing and Lockheed Martin. There are some in the DOD 
that would like to have only one line and there are arguments 
for that and there are arguments against it. Could both of you 
address that issue of keeping open two lines for EELVs?
    Dr. Teets. All right, sir, I would be pleased to start. I 
have a very strong and firm conviction that we need to maintain 
our two families of EELVs, the Atlas family and the Delta 
family. I say that from the experience that we had when at one 
point in time our Nation decided to put all our space delivery 
capability on the space shuttle and it suffered an accident. As 
a result our capabilities were put into question for a while. 
Fortunately, Secretary Aldridge had the foresight to have pre-
ordered some 10 Titan IV EELVs to be used in an emergency 
situation and we pushed our way through that.
    I believe that our Nation's space capabilities are now so 
important that we cannot get ourselves into a position where a 
single launch incident--maybe it is close to a pad and you lose 
the pad. You still have to be able to pull yourself together 
and launch again in the relatively near future. So I feel it is 
very important for us to have two families of launch vehicles 
that can give us that delivery capability, sir.
    Senator Bill Nelson. Admiral.
    Admiral Ellis. I would certainly echo Mr. Teets' comments, 
Senator Nelson, from a number of perspectives. This is an 
absolutely essential capability that the Nation must have. 
Clearly there are some costs associated with that, but even 
those are under debate. The real issue is the cost of not 
having that.
    I sometimes speak of Pascal's wager, which highlights the 
difference between the probabilities of an outcome and the 
consequences of an outcome. The consequences of being denied 
access in any significant measure to space by the failures that 
Mr. Teets hypothesized are grave and severe for this Nation and 
for the warfighters that we support.
    So I think it is prudent that, until we get more detail or 
definition on the way ahead with some of the ORS initiatives, 
that a prudent course of action, indeed in the larger scale, a 
more affordable course of action, is to maintain both of those 
avenues.
    Senator Bill Nelson. I agree with both of you.
    Mr. Chairman, I am going to run make the vote.
    Senator Allard. We will give you the benefit of your time 
when you return.
    In the mean time, I want to follow up a little bit on his 
line of questioning. I have supported the idea that we have two 
space launch vendors and felt that we had some redundancy there 
in the system. Recently we received a Nunn-McCurdy notice that 
the program through which we buy launch services, the EELV 
program, is more than 25 percent over cost. The way I 
understand how that works, it triggers a review of the program 
to determine if other approaches can meet the operational 
requirements.
    What is the status of that review and what alternatives are 
being considered? Dr. Teets?
    Dr. Teets. The review is in process now, Mr. Chairman, and 
the alternative that is being looked at is to go to a single 
family of launch vehicles and to compare that with the 
presently planned course. The reason that the Nunn-McCurdy 
breach occurred has to do with really the fallout from the 
commercial marketplace and the fact that both of our providers 
of launch services based their first round of EELV pricing on a 
strong supplemental commercial market. That supplemental market 
has not materialized and as a result we are essentially on 
notice that the next time we go out to buy EELVs, we are likely 
to see a significant increase in price.
    Therefore, we have found it necessary to declare this Nunn-
McCurdy breach, and that triggered the analysis of alternatives 
(AOA).
    We expect to meet with Mike Wynn, the acting Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics, in the latter part of April, and at that point in 
time a review will be held of what those analysis of 
alternatives tell us and we will determine a recommended course 
forward.
    Senator Allard. A follow-up on that. Now, of the budget 
request for the EELV for the 2005 budget year, how much is 
specifically for assured access and what would happen if that 
funding were not approved?
    Dr. Teets. Actually, as we formulated our 5-year plan we 
anticipated additional pricing to accommodate this reduction in 
commercial launch activity. So as a result, while the EELV 
budget request is I believe $38 million, we really need that to 
be able to sustain our current activity for assured access, 
which includes maintaining these two families of launch 
systems.
    Senator Allard. Now, in the past the EELV contracts were 
structured such that infrastructure costs were included in the 
costs of the launch. What is your view on how infrastructure 
costs should be handled in the future? Should the Air Force 
fund them directly or do you believe that the contractor should 
include them in their launch costs?
    Dr. Teets. I would like to maintain some amount of 
competition in the EELV activity going forward, but I do think 
it is important for us to develop a strategy which does not 
cause either supplier to go into a death spiral of trying to be 
competitive or face extinction. Therefore, I think it important 
for us to find the right acquisition strategy that will allow 
us to fund infrastructure costs for both the Atlas family of 
vehicles as well as the Delta family of vehicles, but then move 
in a direction where we can incentivize the contractors to 
invest in their particular product line, to keep their best 
people assigned to those products, and to have some of the 
benefits that competition can bring to us.
    We are in the process right now of trying to formulate that 
strategy, and I expect that by the early part of this summer we 
will have our strategy in place, sir.
    Senator Allard. I would be very interested to know what you 
come up with there. If you would keep us informed we would 
appreciate it.
    Dr. Teets. We would be happy to do so, Mr. Chairman.
    Senator Allard. It seems to me that both EELV vendors have 
performed well technically, but it is also obvious that there 
are concerns about both. One vendor has been sanctioned and is 
under continuing investigation for violations of fair 
procurement practices during the original EELV competition. The 
other relies on a Russian rocket engine at the urging of the 
U.S. Government, but that fact potentially adds one element of 
uncertainty in the program.
    I understand we are buying all the data we need to co-
produce the Russian engines, but the cost of building a 
production facility is quite steep. I am sure you are aware of 
that.
    What is your view of the advantages and disadvantages of 
downselecting to one EELV vendor? Would such an approach 
provide any cost savings?
    Dr. Teets. As I mentioned to you earlier, there is an AOA 
that is ongoing that will put some factual information behind 
the very question that you are asking. My own view is that we 
should proceed to the next step of determining whether or not 
this rocket engine that you referred to, that has been 
developed and designed in Russia--it is the RD-180 engine--
whether or not it can indeed be produced here in the U.S. and, 
if it can, at what price would it be able to be produced?
    That needs to be a part of this trade study that we are 
looking at. I think it would be highly desirable for us to have 
a production capability. I do not know that it is practical in 
terms of being able to afford it. I do know that if you look at 
an alternative of going to a single supplier it would be an 
imperative to have the capability to produce here.
    Senator Allard. What is the status of the investigation 
into Boeing's violation of the Procurement Integrity Act and 
have any other further violations been discovered?
    Dr. Teets. The violations of the Procurement Integrity Act 
have resulted in Boeing's suspension. There are two Boeing 
companies that were suspended by the Air Force last summer. 
Since that point in time, Boeing has responded in a strong way 
to deal with the problems that were found in those two 
companies' behavior, and I would say that they have 
aggressively sought the root cause of the problem.
    They have commissioned Senator Rudman to do an independent 
study of their ethics and awareness program. He has reported 
back out. They have embraced all of the recommendations in 
Senator Rudman's report.
    We in the Air Force legal shop have been dealing 
extensively with Boeing to establish an administrative 
agreement which would allow us to have full insight, awareness, 
and knowledge of their ethics program and the way they are 
conducting their business practices going forward. When that 
administrative agreement is properly put into place, I do 
believe that we will be able to lift the suspension with 
confidence that Boeing has in place a system that will ensure 
that they are a responsible contractor in those two companies 
that we deal with for launch services.
    Senator Allard. So your feeling is that they are well on a 
process. The sanctions have had their effect; they are doing 
what you anticipated they would accomplish, and that the 
corrective actions by Boeing are adequate?
    Dr. Teets. All indications are that that is the case, Mr. 
Chairman. As I say, the Air Force legal department is in the 
process right now of concluding an administrative agreement 
which will allow us to lift the suspension. Now, it would be 
hard for me to predict exactly how long it is going to be 
before that administrative agreement is in place, but as soon 
as it is we will be very confident that they are a responsible 
contractor.
    Senator Allard. How much time do I have left? Okay, I am 
going to yield to Senator Nelson. I have just 1 minute left and 
I want to approach this next line of questioning when I have 
the full time period.
    Senator Ben Nelson. If you would like to go ahead and 
finish, that would be okay with me.
    Senator Allard. No, I have about 5 minutes worth here on 
the next round.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Admiral Ellis, yesterday I know you testified that DOD 
needs to enhance its ISR capabilities to better locate hidden 
targets which could be camouflaged or protected by robust air 
defenses. I think ISR is important in every environment, 
including space obviously, and ISR is obviously one of the new 
missions STRATCOM has been given.
    Our staff did a little checking with the folks at STRATCOM 
and discovered a strong desire for better technology to improve 
the collection capabilities of mission area experts which would 
improve ISR. The difficulty seems to be taking information or 
intelligence that currently fits on about 15 computer monitors 
and trying to transform that into a single monitor for easy 
application. That has not been achieved at this point in time.
    I hope I am not tattling on some of the folks back home. I 
think it is something we must absolutely have. Is there a way 
that we could be helpful in achieving that kind of technology, 
if you are interested in it as well, as I assume you are?
    Admiral Ellis. Yes, sir. Of course I am very interested in 
it. What you have described, in a very real sense, is at the 
tactical level. It is reflective of the challenges that Mr. 
Teets and I, and General Lord and others, have been undertaking 
under the broader rubric of horizontal integration. In our 
headquarters, for example, we look at disparate feeds or 
databases and how we blend those all together into a coherent, 
integrated process. Of course, that is something that we are 
pursuing with our own processes and upgrades within the 
headquarters, and continued support for Air Force funding of 
that, of course, would be greatly appreciated.
    However, in a broader sense, it really mirrors the 
challenges that we face between the operational world and the 
various elements that contribute so effectively to intelligence 
collection, and how do we bring those together in a 
collaborative way. Particularly, as this next generation of ISR 
platforms begin to be more rigorously defined technically, and 
that would include SBIRS, SBR, and the like, there will be an 
important element of bringing those capabilities together at 
the source, if you will, and then providing them through the 
appropriate processes to those that need them, wherever that 
might be, in the operational world or in the Intelligence 
Community.
    So we are focused on that. We are aware that, while this 
presents challenges, it also gives us an opportunity as these 
systems evolve and mature to fundamentally address this with a 
clean sheet of paper and a different approach. We are excited 
about it, while we do not in any way minimize the challenges 
that will be a part of its successful execution.
    Senator Ben Nelson. Do you have any idea whether we are 
talking 6 months or 6 years when it comes to developing the 
technology, assuming that the Air Force budget is okay?
    Admiral Ellis. On the technology side, we well understand 
how to work protocols and those types of things. So as you 
could infer from my first answer, there are various levels to 
this challenge, and I am comfortable that we are on track to 
integrate the current pieces from a technology standpoint, from 
a shared format standpoint.
    The broader ones will involve legitimately some significant 
cultural issues and organizational requirements.
    Senator Ben Nelson. It is not all technology?
    Admiral Ellis. No, sir. There are huge issues, legitimate 
issues, in terms of information sharing and sensitive sources 
and those types of things that will need to be addressed as we 
move through this, and obviously ways to protect that, to 
protect sources, to have multi-level security, all of those 
elements will have to come together to ensure our success in 
this effort.
    We are working collectively again with other elements 
within the OSD to move that forward as quickly as possible. Mr. 
Teets has been a big driver of that because he was the first to 
recognize that as this technology advances the requirements for 
this type of integration also advances and there is an 
opportunity here.
    I defer to him if there is anything you would like to add, 
sir.
    Dr. Teets. I would just add that it has been a real 
pleasure to work with Admiral Ellis and General Lord and others 
within the military community to try and tackle this problem of 
horizontal integration, as we call it. I think we are making 
headway and it is hard work, but one of the things we tried to 
do when we put out the request for proposal for the SBR system 
was to insist upon an agreement for a concept of operations for 
how we would operate the SBR. That pulled together various 
elements of the Intelligence Community and the DOD. I think we 
are making headway.
    Senator Ben Nelson. Thank you.
    General Lord, out in western Nebraska, as I know you know, 
it is home to some intercontinental ballistic missile (ICBM) 
launch control centers and silos that are currently managed by 
or staffed by active duty U.S. Air Force personnel that are 
assigned to Warren Air Force Base in Wyoming. There are other 
silos in Wyoming and Colorado as well. Is that a role that 
perhaps the Air National Guard or Air Force Reserves could 
play? Is there a role that could be played by Reserve and Guard 
units in helping staff those facilities to release active duty 
staff for other responsibilities?
    General Lord. Yes, sir, that is a very good question. We 
have looked at that a couple times, trying to make the ICBM 
mission a total force mission with Guard and Reserve support. 
One of the stumbling blocks we come into is a program called 
the Personal Reliability Program (PRP) which each individual 
has to be certified under. Historically it has been difficult 
to have people that are not on continuous active duty to be 
part of that program. But we have asked that same question and 
we should have an answer fairly soon about is this a good way 
to go and get some help and relief in that program. I would be 
glad to report back to you.
    Senator Ben Nelson. Well, it would be consistent with, I 
think, where some of the transformation for the Air Force might 
be heading, to where Northern Command (NORTHCOM) might be 
heading in terms of having Reserve and Guard personnel do 
things that are done here at home currently by active duty 
personnel, which obviously then would obviate the need for 
deployment and mobilization for other parts of the world, if 
they can do more of the tasks here at home.
    General Lord. Yes, sir. I might add that we have five 
squadrons of one flight from the Guard in the space business, 
not part of the ICBM side, and eight squadrons in one flight in 
the Reserves that are part of what we do in space day-to-day. 
So, we want to take as many steps forward as we can in the 
total force and we will continue to look hard at the ICBM 
mission.
    Sir, if you do not mind I would like to follow up on 
something Secretary Teets and Admiral Ellis talked about.
    Senator Ben Nelson. Oh, please.
    General Lord. We experimented right before Christmas this 
year with something to help Admiral Ellis and certainly Mr. 
Teets and others in the space business to do just what you 
asked us about, and that is the integration of these 
capabilities. It is something we call the Single Integrated 
Space Picture, with which we are able to draw on all these 
sensors, show what is available when, and put this together in 
a coherent kind of picture so that I can inform my combatant 
commander what is available at any given time with respect to 
space assets, what we are looking at, where those are.
    It is a pretty comprehensive look. We are going to continue 
to refine that over the next year, and hopefully by the end of 
this fiscal year we will be able to have something that he is 
really proud of. We are experimenting with it right now at the 
14th Air Force, our Space Air Operations Center in California, 
and we are starting to learn, and we will be able to, I think, 
set the basis for some of this integration you talked about. So 
we are on the way.
    Senator Ben Nelson. I commend you as you try to work 
through some cultural, security, and technical issues to bring 
this all together, because clearly that will be beneficial for 
the entire military. To have it currently unified and then 
functioning for combatant commanders as well as for other staff 
requirements is a definite advantage for national security.
    I thank you.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    I am going to ask you about some of your testimony, Admiral 
Cebrowski, and then I thought perhaps maybe I would ask General 
Lord some questions. I have not adequately welcomed you to 
Washington, General Lord; I am glad you are here.
    Admiral Cebrowski, I know your office has been a leader in 
looking at transformational space concepts. I understand your 
office is interested in exploring the notion of a new business 
model for space. In this new model, as I understand it, field 
commanders would drive demand and more frequent launches of 
small satellites, individually less capable but responsive and 
potentially available in large numbers, would meet warfighter 
needs.
    Could you summarize what you think the critical advantages 
of this approach are?
    Admiral Cebrowski. Yes, sir. Thank you. The overall shift 
is from a supplier-centered approach to a demand-centered 
approach on this important capability. This is a common 
business phenomenon and a common business approach to move one 
towards excellence. So one adopts output models and looks and 
adopts the perspective of the customer.
    I might add that this is meant to augment the larger space 
capability, because one of the objectives is to broaden the 
larger capabilities that we have. This is not about deserting 
one capability to pursue another because that would defeat the 
purpose of the approach.
    It is also clear that in the current state of development 
one cannot really realistically be thinking about supplanting 
the capabilities of the larger space program. On the other 
hand, we could significantly reduce the burden that is being 
placed on the larger space systems from both an organizational 
point of view and a risk point of view. We could enhance 
persistence. We could increase adaptability. We could provide 
some measure of a reconstitution capability in this.
    We could essentially, you might say, popularize the use of 
space, broadening the user base across the military and indeed 
in other agencies of government. Also, it would broaden the 
industrial base, and one of the targets here would be to 
achieve or focus on mass customization rather than the somewhat 
elusive dream of mass production.
    Of course, there is a significant research and development 
(R&D) component in this that we should expect as well.
    Senator Allard. What do you think are the keys to 
establishing this new business model?
    Admiral Cebrowski. I think that an entry fee item right off 
the bat is to make our larger space business model healthy, 
pursuing the management initiatives that were talked about in 
the DSB study and that Secretary Teets is pursuing.
    But next, getting to the model itself, there is a need to 
develop and implement standards and protocols for modular and 
scalable satellite capabilities specifically in the bus 
structure itself. This then becomes a unifying principle which 
both suppliers and users can point to, whether you are talking 
about launch vehicle suppliers, payload manufacturers, 
integrators, and indeed the users themselves. This is a vital 
step, I believe, that we take in doing this.
    Of course, we must also develop a process wherein 
operational commanders can play a role very vigorously moving 
forward. You must expand the team, with multiple laboratories, 
multiple suppliers, and multiple combatant commanders playing 
roles in here.
    We must also avoid the tendency to let this model simply 
graduate into the larger space model. I think, for example, 
about IBM, which spun off the PC and then spun it back into its 
larger institution, where it was essentially killed and the 
process had to be begun afresh. So there are some cautions in 
there.
    I think that, working with STRATCOM and the Joint Forces 
Command (JFCOM), we have to develop an aggressive 
experimentation and prototyping plan for this. These items that 
I have pointed out are also essentially coincident with the 
plan by General Jumper for his warfighting space concept 
development.
    Senator Allard. How important is standardization and spiral 
development in the development of these transformational 
concepts?
    Admiral Cebrowski. It is actually critically important. A 
model for this is really the Internet itself. The Internet 
itself has a consortium called the World Wide Web Consortium 
(W3C), which is responsible for determining the standards and 
protocols for the Internet. Once we achieved these standards 
and protocols, the Internet was allowed to bloom, and the base 
of suppliers and users also blossomed. So this is a very 
critical step.
    Senator Allard. Now, you in your testimony note that you do 
not supplant big space, but you also state that new, smaller 
elements of space capability emerge as a tool set providing 
virtually unlimited potential. It seems to me that this new 
model is very important, but not be able to meet all of the 
military requirements. Do you agree, and what kind of missions 
and payloads do you believe are most appropriate to smaller 
satellites?
    Admiral Cebrowski. If one looks at the history, and I think 
I mentioned this in my testimony, the GPS is of course a 
massive and vital capability for our society. Others really 
grew out of an experimentation program which was based in small 
satellites. So one can see that there is growth, and since it 
has already been demonstrated in the area of navigation, it has 
already been demonstrated in the area of sensing, and to a 
somewhat lesser degree in communications. So it is not so much 
a matter of which area one can apply it. It can be applied in a 
great deal of areas, the ones I mentioned as well as 
environmental measurements. There is not the capability there 
to do some of the things that very large systems can do.
    A small satellite now is thought of as for sensing purposes 
a very small aperture, and consequently it is limited. But the 
technology is at hand where you may be able to launch several 
of them, network them, and develop the phenomenon of the 
distributed aperture, which would significantly enhance the 
capability.
    Senator Allard. I want to give General Lord, Admiral Ellis, 
and Secretary Teets an opportunity to talk a little bit about 
their views on whether the small satellite can or should fulfil 
any operational missions in the near term. Maybe, General Lord, 
you would like to respond?
    General Lord. Thank you very much, Mr. Chairman. We agree 
with Admiral Cebrowski in terms of what the small satellites 
are capable of doing. We are engaged with him and his TacSat-1 
demonstration program that will launch, hopefully here in the 
next several months, with an initial kind of put on 
communications capability.
    I agree with what the Admiral said about it. In some things 
you can not probably replace larger missions that are done 
because the satellites are bigger with apertures, although we 
have demonstrated some other techniques. Our chief, General 
Jumper, and the Secretary, as well as Dr. Teets, have pushed us 
to work hard in this area, and we have a plan to encourage the 
small satellite business to continue to grow along with TacSat-
1 and TacSat-2 and then others after that. Along with our space 
test program in an area the chief has asked us to work on, 
joint warfighting space, which looks at just these kinds of 
capabilities--tactically responsive, small payloads, available 
to a theater commander in a certain circumstance given whatever 
his or her needs are depending on the situation.
    So we see this as a very fruitful effort for the future.
    Senator Allard. Admiral Ellis.
    Admiral Ellis. Yes, sir. We would certainly agree, as I 
speak for the combatant commanders. Given the sophistication 
and numbers of our ISR resources, we are forced to make 
prioritization decisions in time of crisis or conflict. We 
literally skew much of our orientation, our constellations, and 
even our air-breather platforms to focus on the area of 
conflict and provide legitimate and appropriate support of the 
RCCs.
    In other words, they are forced to make choices and stop 
looking or monitoring or reduce our awareness in other parts of 
the globe. This capability has the possibility of reversing 
that paradigm, where you do not have to move all of the major 
long-dwell on orbit sensors. You are able to more quickly 
respond with an alert capability that you can launch into orbit 
in support of the regional combatant commanders.
    So it offers us a great deal more potential in that regard, 
and we are excited about the concept and would like to see the 
developmental effort that Admiral Cebrowski has under way.
    Senator Allard. Secretary Teets.
    Dr. Teets. Yes, I am very supportive of the entire ORL 
initiative, including what Admiral Cebrowski is doing. You 
recognize, too, that we have funded an ORL line and General 
Arnold out at Space and Missile Center is in the process of a 
competition right now. They have nine competitors involved in 
proposing on ORL capabilities. The objective here is to be able 
to launch 1,000 pounds into low Earth orbit for under $10 
million recurring costs and do it in a matter of days and 
hours, not months, weeks, or years.
    At the same time, we have some people at the Air Force 
Research Laboratory and also at the National Reconnaissance 
Office that are looking at what kind of responsive 1,000-pound 
satellite missions can do to augment a conflict in a particular 
region. If we can get operationally responsive to the point 
where we could on a matter of a day or 2 call-up and be able to 
launch an ISR asset at a particular inclination to optimize on 
a particular theater of operations, Admiral Ellis would be able 
to provide ISR capability to that combatant commander in a 
matter of hours. That would be extremely helpful.
    Senator Allard. Thank you.
    Senator Nelson, we will have you finish off your time on 
the first round of questioning. I will then call on Senator 
Akaka, and I will come back to you, get Senator Akaka, and then 
we will have completed the second round.
    Senator Bill Nelson. When I raced out to vote, I had talked 
about dual access, dual lines. General Lord, I did not get a 
chance to ask you to respond.
    General Lord. Sir, I support that, having been down at the 
Cape to see both teams in action. Both the Atlas and the Delta 
teams, sitting on the launch console with the folks down there, 
I must tell you that those teams are coming together very well 
into a good operational team and a launch business. I agree 
with my colleagues here on the panel that I think it is 
important to have assured access with two providers, keep the 
competition, and we have 39 successful launches in a row since 
our broad area review and we want to continue that. Should we 
have an incident where we would lose one, we want to continue 
to have access with our vital payloads we need to get into 
space. So I think that is the best way to go operationally, is 
to have two opportunities.
    Senator Bill Nelson. Mr. Secretary, you had said while I 
was gone that your general counsel is having a session with 
some of the Boeing executives about corporate ethics. Do you 
want to expand on that?
    Dr. Teets. Yes, sir, I would be happy to. Boeing has 
responded quite strongly to the violation of the Procurement 
Integrity Act that caused two of their companies to be 
suspended. They have done a lot of work internally. They have 
hired an outside consultant, Senator Rudman, as a matter of 
fact, to give them recommendations. They have listened to those 
recommendations and they have implemented corrective actions.
    The comment I made was that we were in the process right 
now in our Air Force legal department of trying to construct 
with Boeing an administrative agreement that, once in place, 
would allow us to proceed with confidence that they are now a 
responsible contractor and that we can count on them as a 
contractor that we are willing to deal with and therefore lift 
the suspension. That is in work right at the present time.
    Senator Bill Nelson. What corporate executive resignations 
have occurred as a result of this scenario?
    Dr. Teets. I would say that the widely publicized 
resignations of Mike Sears and Darlene Druyen are the ones that 
I am familiar with.
    Senator Bill Nelson. They are who? What are their 
positions?
    Dr. Teets. Mike Sears is the former Chief Financial Officer 
(CFO) for Boeing, and Darlene Druyen was a former acquisition 
or contracting person for Boeing.
    Senator Bill Nelson. So the highest corporate executive to 
resign was the CFO?
    Dr. Teets. Correct.
    Senator Bill Nelson. The Chief Operating Officer (COO) and 
the Chief Executive Officer (CEO), has there been any 
discussion there of acceptance of responsibility?
    Dr. Teets. Forgive me here, but I should have mentioned the 
CEO of Boeing over the course of some time last fall did in 
fact resign and Boeing has a new CEO named Harry Stonecipher. 
Phil Condit resigned. Now, I am not trying to say that Phil 
Condit resigned as a result of this ethics violation that 
occurred, but he chose to leave the company some time last 
fall.
    Senator Bill Nelson. When did the ethics violation come to 
the light of day as an acknowledged fact?
    Dr. Teets. It came to light about a year ago, and the Air 
Force decided to suspend Boeing in July of last year.
    Senator Bill Nelson. July?
    Senator Allard. Senator Nelson, permit me to interrupt you.
    The names that you mentioned, did they resign as a result 
of the tanker issue or bidding of the EELV issue? I was under 
the assumption that they resigned because of the tanker issue.
    Dr. Teets. It is a complex kind of a picture. I am not sure 
I am qualified to tell you why they chose to resign. I know 
that there has been a lot of activity over this ethics 
violation that the Air Force suspended the two companies for. 
There have been other items in the news media as well.
    So I cannot tell you why people resigned. I can tell you 
that the three that I mentioned, Phil Condit, Mike Sears, and 
Darlene Druyen, I do know that they all did resign at some 
point during the course of last year.
    Senator Allard. Thank you.
    Senator Bill Nelson. Sears and the lady that you mentioned, 
did they resign or did they get fired?
    Dr. Teets. I guess technically they were asked to leave.
    Senator Bill Nelson. In the case of the CEO?
    Dr. Teets. I believe Phil Condit resigned.
    Senator Bill Nelson. So do I take it from our discussion 
here that you will make the decision on the second line for the 
EELV prior to Boeing coming off of suspension?
    Dr. Teets. It is hard for me to predict the exact date when 
Boeing would come off of suspension. I do think that those two 
decisions can be uncoupled because I feel very confident that 
Boeing now, under the leadership of Harry Stonecipher, is 
taking this ethics violation very seriously. They recognize 
that a vitally important part of their business depends on 
their ability to properly deal with the United States 
Government and they are putting into place strong corrective 
actions. They are putting into place an ethics program which 
has substance and teeth to it, and I am confident that they 
will indeed emerge from this suspension as a healthy, 
responsible contractor.
    Senator Bill Nelson. How much more is this going to cost 
the U.S. taxpayer as a result of the Boeing suspension?
    Dr. Teets. It is not possible for me to be able to estimate 
that, sir. I do not know the answer to that.
    Senator Bill Nelson. There are going to be additional 
costs, correct?
    Dr. Teets. I think when the Boeing Company comes out from 
under suspension in many ways they will be a stronger company 
than they were before. Certainly the high ethical standards and 
a program of instituting standards of business practices within 
their organizations will serve them well. I think in an end 
result in really reduced costs as opposed to increased costs.
    So it is real hard to estimate something like that.
    Senator Bill Nelson. Well, what about just the contract 
price? Boeing underbid the other company. So had that been on 
the up and up, by going with those eight or nine flights that 
you awarded to the other company how much is the differential 
there?
    Dr. Teets. The differential there I think is estimated 
somewhere just under $200 million.
    Senator Bill Nelson. Per flight?
    Dr. Teets. No, no. Total, the total number of launches that 
were re-awarded to Atlas family from the Delta family.
    Senator Bill Nelson. How about the cost in lost time?
    Dr. Teets. Again, there has been some time lost. It is 
awfully hard to estimate those costs. I do not have a good 
handle on that, to be candid.
    Senator Bill Nelson. Has national security been compromised 
as a result of this fiasco?
    Dr. Teets. Not to my knowledge. I do not think that 
national security has been compromised.
    Senator Bill Nelson. How about in the sense of any delay of 
the flights?
    Dr. Teets. I think the flights are largely driven by the 
readiness of the satellites to fly. I do not think that we are 
seeing delays in launch due to the suspension of Boeing.
    Senator Bill Nelson. Would you provide for the record an 
overall analysis of what the additional cost to the U.S. 
Government will be as a result of the Boeing suspension?
    Dr. Teets. I will indeed.
    [The information referred to follows:]

    Currently the Government's total cost as a result of the Boeing 
Procurement Integrity Act violation is estimated at $257 million 
(fiscal year 2004-2009.)
    Of the total reported increase in EELV program costs, $8,640 
million (total year money) through 2020, or approximately 63 percent is 
attributable to the downturn in the commercial market.

    Senator Bill Nelson. So with the way we are rocking along 
now with the contracts given to Lockheed, can you tell this 
committee that we will have assured access to space?
    Dr. Teets. I believe that the way we are proceeding 
maximizes the probability of having assured access to space. 
Now, it is hard to guarantee assured access to space with the 
kind of fragile infrastructure that we have today. Two 
incidents, one on an Atlas and one on a Delta, would leave us 
hard-pressed to launch National Security Spacecraft any time 
soon.
    I will say that with two strong launch vehicle families, I 
think we maximize the probability of being able to have access 
to space when we need it.
    Senator Bill Nelson. I have a number of other questions, 
but I want to give our colleague from Hawaii a chance.
    Senator Allard. I need to check with the time here because 
my watch says he has used 10 minutes. He has used 10 minutes. 
So now when we get around to the second round I intended for 
Senator Nelson to be able to use that time which he did not 
complete on the first round of questioning. How much time is 
left from that?
    Senator Bill Nelson. It is just going to be you and me, so 
it does not make any difference.
    Senator Allard. I want to be fair with everybody.
    Senator Bill Nelson. I want to give him a chance.
    Senator Allard. He will get a chance.
    So he has 6 minutes on the second round. Okay, very good.
    Senator Akaka, you have 10 minutes.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for having this hearing on NSS programs, as well as 
on the defense authorization request.
    I would like to touch on the National Space Policy and 
direct my question to Secretary Teets. I believe that we are 
currently operating under the National Space Policy issued 
under the Clinton administration in 1996. Space weaponization 
is not mentioned anywhere in this document. Yet the Missile 
Defense Agency (MDA) has requested $75.5 million in fiscal year 
2005 for space weapons-related programs.
    If the current administration plans to develop space 
weapons and take space policy in a drastically new direction, 
as it appears to be doing with that request of $75.5 million, 
why has a new National Space Policy not been issued on that?
    Dr. Teets. Senator, I believe that we are proceeding in 
full compliance with the National Space Policy. I think that 
one of the dictums that we have is to be certain that we have 
freedom to operate in space, and we have implemented an 
aggressive space control activity which starts out with trying 
to understand better what these 10,000 objects that are 
orbiting our Earth really are made up of. We have a catalogue 
of those objects today, but we cannot tell you much about those 
objects. We want to learn more about space situational 
awareness.
    We also want to make certain that we are able to defend our 
own space assets so that we can in fact be able to continue to 
enjoy the asymmetric advantage that we currently have by 
operating our space systems.
    Then, third, we are in fact looking at some offensive 
counter-space capability and we have emphasized in that 
reversible effects. Those offensive space capabilities today 
are ground-based. So I would just simply say that we are, I do 
believe, operating in full compliance with the National Space 
Policy.
    Senator Akaka. My question was why a new policy has not 
been issued.
    I want to direct the next question to Admiral Ellis, and it 
is something that is close to home. Starting in September, when 
the Bush administration plans to deploy a national defense 
against long-range missile attack, you will be the person 
responsible for protecting all 50 States from such an attack. I 
understand that because of the radar coverage limitations with 
the current system, in order to protect the State of Hawaii 
from an attack from North Korea, a Navy ship will be required 
to be stationed off the North Korean coast. This ship will 
provide radar coverage for the system.
    The question then arises to whether the Navy is committed 
to placing a ship on station off the coast of North Korea to 
provide the necessary radar coverage. Secretary of the Navy 
Gordon England reportedly stated this week that the Navy would 
provide virtually continuous deployment of a ship off North 
Korea. What does ``virtually continuous'' mean? Will a Navy 
ship be on station 24 hours a day, 7 days a week, to protect 
Hawaii from a long-range missile attack starting in September?
    Admiral Ellis. As we discussed, Senator Akaka, during our 
hearing together on March 11, the Navy contribution to the 
missile defense capability is just as you describe. It is a 
radar tracking capability that will provide initial cuing in 
addition to our overhead sensors and the like. They complement 
the other ground-based radars, which are more optimally suited 
to defend other elements of the entire defended area, which I 
can assure you includes the great State of Hawaii.
    The Navy has committed to identifying ships and to 
upgrading their radar configuration so as to provide that on-
station capability of which the Secretary spoke, and that 
commitment is real. There are milestones that are being met to 
provide the capability that he described.
    Senator Akaka. Mr. Chairman, I have another question for 
Secretary Teets. I have a statement that I would like to have 
placed in the record.
    Senator Allard. We would be glad to make that a part of the 
record, Senator Akaka.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Mr. Chairman, thank you for holding today's hearing.
    Space-based technology has become integral to this country's 
national security. The first Gulf War was nicknamed the ``Space War'' 
because of the important role that guidance, reconnaissance, and 
communications satellites played in the U.S. victory. That war marked a 
watershed moment in the military's perception of, and reliance on, 
space. Today, we are able to call upon space assets to improve the 
strength and accuracy of military campaigns. Because of this, American 
soldiers are safer.
    While space is commonly used to aid military operations, it has 
been kept free of weapons and combat. It is not the practice of the 
United States to attack other assets in space nor to attack land 
targets from space.
    However, the fiscal year 2005 budget request for the Missile 
Defense Agency (MDA) indicates that the administration wishes to change 
this policy. MDA has requested $75.5 million for space weapons-related 
programs.
    Of that, $65 million is earmarked for the Near Field Infrared 
Experiment (N-FIRE). While the main purpose of this program is 
described as information gathering, there is concern that the N-FIRE 
could pave the way to space weapons development.
    N-FIRE involves a kill vehicle-like projectile that is fired out of 
a satellite. The projectile is supposed to maneuver close to a missile 
for inspection. This is a feat much more difficult than actually 
hitting the missile. Essentially, if MDA successfully develops the N-
FIRE satellite, it would be much closer to developing a space-based 
weapon.
    I am troubled by this slippery path on which we are embarking. 
Space weaponization should be subjected to a public debate, not slipped 
in through the backdoor. This is a decision that should be made by the 
country, not just the administration.
    The United States has avoided space weaponization for national 
security reasons. We have more assets at risk in space than any other 
nation. Our defense would be crippled if our communications and 
intelligence satellites were attacked. A decision to introduce weapons 
to space would be precedent-setting and could trigger a space arms 
race. In the long run, U.S. national security would be jeopardized, not 
enhanced, by a move to weaponize space.
    The administration's budget proposal this year cut funding to many 
key homeland security and domestic programs. How can we afford to 
invest over $75 million in space weaponization when the administration 
proposes to cut programs that will produce clear, immediate benefits to 
the United States?
    Space-based technology plays a critical role in the U.S. military, 
and I want to ensure that the space programs that aid U.S. national 
security are well developed and fully funded.
    I thank our witnesses for being here today, and I look forward to 
hearing from you on this important subject.

    Senator Akaka. Thank you.
    Secretary Teets, the Near-Field Infrared Experiment (N-
FIRE), which is scheduled for launch in fiscal year 2006, will 
develop a satellite that can deploy a kill vehicle towards a 
missile. It is my understanding that this portion of the 
program would enable MDA to develop technology that can be 
applied to space-based weapons.
    My question to you is: Is the N-FIRE program intended to 
pursue space weapon capabilities? If not, what safeguards are 
being placed on the N-FIRE program to stop it from turning into 
such a program?
    Dr. Teets. I think it is true that the kind of capability 
that N-FIRE will have could with a different concept of 
operations (CONOP) be used as a space-based weapon capability. 
There is no such CONOP that I am aware of that is under 
consideration at this point in time, and this N-FIRE sensor 
will indeed be a sensor that looks at infrared plume real close 
up and personal.
    Senator Akaka. Secretary Teets, according to the MDA the N-
FIRE is needed because the data it gathers can be used to make 
missile defense interceptors better at target discrimination.
    Dr. Teets. Right.
    Senator Akaka. However, it is my understanding that the 
observation capabilities N-FIRE will offer can be achieved by a 
number of other less costly and complex methods, such as air or 
ground-based sensors. Can you explain what observation 
capabilities N-FIRE will give us that cannot be achieved by 
other means?
    Dr. Teets. I sit on a board and meet quarterly with General 
Kadish and I have a general feeling for what they are doing, 
but I am not real close to this program.
    But as I understand it, the objective of N-FIREs is to get 
an infrared sensor very close to the plume of an accelerating 
reentry vehicle, and understand then and characterize the 
infrared characteristics of that target in the closing end 
game. I do not know how else you can do that. If you are going 
to get close to it you are not going to do it with an airplane, 
I do not think. But again, it is not a subject that I really 
have studied in depth, sir.
    Senator Akaka. Admiral Ellis, I would like to ask you to 
provide something for the record.
    Admiral Ellis. Certainly, sir.
    Senator Akaka. Could you provide the committee with a 
description of the milestones you mentioned for a 24-7 
deployment of a naval radar to protect Hawaii?
    Admiral Ellis. I would be delighted to describe for you the 
naval contribution to the missile defense system in its 
entirety and I look forward to doing that, sir.
    [The information referred to follows:]

    The Navy is poised to contribute significantly in fielding initial 
sea based missile defense capabilities to meet the near term ballistic 
missile threat to our homeland, our deployed forces, and our friends 
and allies. They are working closely under the authority of the Missile 
Defense Agency (MDA) to deliver this much-needed capability to the 
Nation's combatant commanders.
    As part of the President's Directive to accelerate the fielding of 
a Ballistic Missile Defense (BMD) Initial Defensive Operations (IDO) 
capability in 2004, the Navy is providing a capability in select 
Arleigh Burke-class destroyers (DDGs) to conduct Long Range 
Surveillance and Tracking (LRS&T) of ballistic missiles. These ships 
will provide cueing and tracking data to support ground-based elements 
of our layered defense system. As with other military missions, the 
combatant commander will be responsible for assessing indications and 
warning and other intelligence in his evaluation of risk, and his 
subsequent deployment of assets to effect a readiness posture. National 
policy and operational directives will determine whether coverage is 
continuous or virtually continuous.
    Presently, MDA plans to equip 15 DDGs and 3 cruisers (CGs) with BMD 
capability, both for LRS&T and firing of the SM-3. SM-3 procurement 
numbers will be based on input from the combatant commanders and 
determined by the Program Objective Memorandum process.
    Since November 2002, the Aegis BMD Program Office has successfully 
completed two of three intercepts with the Standard Missile 3 (SM-3 
Block 0) from the U.S.S. Lake Erie and is on track to support emergency 
deployment of a sea-based mid-course engagement capability by spring 
2005.
    The Navy is also evaluating the benefits associated with developing 
a Sea-based Terminal Missile Defense capability. A viable regional and 
terminal sea based ballistic missile defense system is important to 
ensure the safety of U.S. forces and the flow of U.S. forces through 
foreign ports and airfields when required.

    Senator Akaka. Thank you very much, Mr. Chairman. My time 
has expired. I will submit the other questions for the record.
    Senator Allard. Thank you, Senator Akaka.
    Senator Nelson for 6 minutes.
    Senator Bill Nelson. Yesterday, Admiral Ellis, we had 
talked in the full committee about the Minuteman III. The 
Nuclear Posture Review (NPR) and the Moscow Treaty achieved the 
bulk of the reductions in the deployed nuclear warheads by 
retiring the Peacekeeper and taking the Multiple Indepently-
Targetable Reentry Vehicles (MIRVs), de-MIRVing the Minuteman 
IIIs, so that each Minuteman III has one instead of multiple 
warheads.
    There was a recent press report that suggested that the 
decision to have one warhead on each of the 500 Minuteman IIIs 
was being reconsidered. Is there any truth to that press 
report?
    Admiral Ellis. I am aware of no reconsideration of that, 
sir, and I believe that the modernization program of which we 
spoke yesterday is still on track as you and I understand it.
    Senator Bill Nelson. Is there any plan to retain MIRVed 
Minuteman IIIs?
    Admiral Ellis. I am not aware of any program at all, sir, 
in that construct. Now, as with all posture and policy reviews, 
someone may have hypothesized as we look at alternative 
structures for the future and what combination of reduced 
vehicle numbers could allow us to do that. I can assure you 
that there is nothing in the program of record that alters the 
information that either you or I have been given about the way 
ahead for the program with regard to Minuteman III.
    Senator Bill Nelson. Following up also our conversation of 
yesterday on missile defense, you are the combatant commander 
that has the responsibility for its success and you accept the 
responsibility if it fails against a real enemy missile; is 
that correct?
    Admiral Ellis. Yes, sir, I have the overarching role for 
integrating and coordinating that and making those capabilities 
available to the RCCs, who of course, if it were ever required, 
would be the ones to employ it.
    Senator Bill Nelson. Would you like to see the national 
missile defense system operationally tested in a combat-like 
way as soon as possible?
    Admiral Ellis. My belief is that that effort is under way, 
sir. Over an extended period of time, as we get through the 
developmental test phase and we put these capabilities into the 
operational environment where they would be called upon to 
serve, and even as we continue to evolve follow-on phases of 
that spiral development, we will take advantage of those 
nascent capabilities that are immediately available as we work 
towards, as Mr. Christie and General Kadish testified on March 
11, an ultimate test program that more completely evaluates all 
dimensions of that system.
    Senator Bill Nelson. The key criteria for operational 
testing are independence and combat realism. Do you think that 
this system being deployed is combat-realistic?
    Admiral Ellis. Well, there are obviously elements that 
cannot, and hopefully never will be tested from a full 
operational capability (FOC), the launch of threat missiles and 
the like from potential adversaries. I do believe that the 
elemental testing that is under way will characterize the 
dynamics and the environment in which this system is intended 
to operate. They will refine and identify the sensor 
capabilities. We will assess the command and control linkage, 
command, and control processes and procedures that are an 
important part of all of that. That will then be brought 
together in a comprehensive way, with Mr. Christie's 
Operational Test and Evaluation (OT&E) team, the Joint Theater 
Air and Missile Defense Organization (JTAMDO) team, the MDA, 
and my own personnel. I believe that we will get to those 
operational elements as we can define them over time as this 
system evolves towards future capabilities.
    Senator Bill Nelson. Help me understand. Is your answer yes 
or no that you would like to see this system operationally 
tested in a combat-like way as soon as possible?
    Admiral Ellis. Ultimately, I think that is where we are 
going.
    Senator Bill Nelson. When would that in your mind be 
operationally tested?
    Admiral Ellis. That is going to be contingent on the 
assessments that we make in the early phases on what successes 
we have and what technical challenges are delivered. As we 
quantify the capabilities that will be brought on line through 
2004, 2006, 2008, and beyond, we will be better able to 
characterize the evolving configuration and then better assess 
its operational capabilities. But clearly that is not going to 
be achieved in the near term, nor was that the expectation.
    Senator Bill Nelson. As the combatant commander, your 
answer then is yes, you want to see it operationally tested; 
you just think it is going to be down the line before it is?
    Admiral Ellis. Yes, sir, and I think that is the intent of 
the team all along, to bring as much operational character to 
this as can be brought, when it is appropriate, and when the 
system maturity permits it.
    Senator Bill Nelson. Now, current law provides for 
independent testing to make sure they are suitable and 
effective. Do you support the intent of this law as it applies 
to this national missile defense system?
    Admiral Ellis. My view, sir, having had a background in 
testing many years ago, is that it is appropriate that we 
examine the context and the scale and the dimensions of 
programs rather than automatically applying a system definition 
for OT&E that might more appropriately be applied to smaller-
scale, less complex environments. I think we need to have the 
flexibility to do the spiral development that is under way, to 
do developmental testing with operational inputs as this 
process evolves, and we ought to be involved in assuring that 
we deliver those capabilities and those honest assessments in 
the most realistic and rigorous way possible.
    Senator Bill Nelson. So you support the intent of this law 
that provides for independent testing?
    Admiral Ellis. I think we are getting to the intent of that 
law by involving the OT&E people in the process. Indeed, that 
is the intent of all of this. My point is that, with large-
scale systems, the complexity of the test, the expense of 
testing and the like, no longer allow us perhaps the luxury 
that we once had of sequential developmental and operational 
testing. That technology and simulation now allow us, for the 
first time, to bring these elements together in a concurrent 
manner that more efficiently uses the resources and arguably 
more quickly delivers that capability that we all seek.
    Senator Allard. Thank you, Senator Nelson.
    Secretary Teets, in your view what should the government 
approach to launches be and what should the launch industry 
look like 10 years from now?
    Dr. Teets. I think that in 10 years I would like to see us 
at least well along the way toward a truly next generation 
launch capability. Now, I recognize that we have two important 
thrusts going right now. One is to maintain a healthy family of 
EELVs. The other is to bring on line operationally responsive, 
small-sized launch vehicles that can be launched very 
economically and rapidly.
    The third leg in this is for us to start the move toward a 
next generation launch system. I must say that I have been 
around the launch business now for over 40 years, and when I 
first started in the launch business 40 years ago we were 
fundamentally getting things into orbit about the same way we 
are today. That is kind of a sad thing in a way. It is a 
controlled explosion all the way up. It is certainly not a 99 
percent kind of reliability system.
    I have a strong belief that ultimately we need to find 
essentially the jet engine of the rocket business. Aviation 
celebrated its 100th anniversary of powered flight here last 
year, and from the time the Wright Brothers flew until some 
time in the 1940s aviation evolved along the way. Then all of a 
sudden there was a breakthrough called the jet engine, and it 
revolutionized the way airplanes could be used and air 
transportation could be put into effect.
    I think we need something like that in the rocket business. 
We have evolved expendable launch vehicles to the point where 
our EELVs today are the best expendable launch vehicles we have 
ever had, but they are still not nearly good enough. We are not 
going to have reliable, dependable, rapid access of significant 
cargo to space until we get that next generation of technology 
under our belt.
    You may be familiar with the fact that when I was at 
Lockheed Martin I was very much involved with the X-33 program, 
which was a single stage to orbit vehicle. It was a partnership 
between Lockheed Martin and NASA. We worked real hard at it. We 
invested a lot of company money and NASA invested a significant 
sum of their resources, too. When we finally gave up on X-33, 
which was going to be a single stage to orbit kind of a 
vehicle, I think we were probably two inventions away from 
success.
    Ten years from now, I would hope that we would be at a 
point where we could see a future that has a truly, fully 
reusable space launch capability. I think we need to get there 
and we need important research and development funds to do it.
    Senator Bill Nelson. As a technical follow-up, until we get 
to that day of nirvana with that next generation, in the mean 
time Lockheed is relying on the Russian rocket.
    Dr. Teets. Engine.
    Senator Bill Nelson. The engine. Now, is that in the 
security interest of our country, relying on that being 
manufactured over there? There was originally a plan to put a 
manufacturing facility here.
    Dr. Teets. Yes, sir, and there still is a plan to do that. 
That technology is being imported even as we speak, and 
Lockheed Martin is engaged with Pratt and Whitney in a look at 
how could we co-produce that RD-180 engine here in the United 
States. It is not clear that it is going to be economically 
feasible to do so, although it may well be.
    So far, the strategy that Lockheed Martin has employed in 
order to give us assured access to space is to inventory 
Russian-built rocket engines. That is not an enduring strategy, 
and as a result they are continuing to press forward with their 
plans to have a capability to co-produce here in the United 
States.
    Senator Allard. Now I would like to hear from Admiral 
Ellis, General Lord, and Admiral Cebrowski on your thoughts 
about the future of our launch industry.
    Admiral Ellis. As with many around this table, I spent a 
lifetime with complete fascination with everything that flies 
and soars. Along with many of you, I grew up staring at grainy 
black and white TV images of early launch successes and far too 
many early launch failures. We all remember those days, and 
they inspired us, in my case, to an aerospace engineering 
background.
    While I certainly do not share Senator Nelson's experience, 
I do have some rocket science in my own background. I echo Mr. 
Teets's views that that is the goal. We have spent a lot of 
time over the last year in the Partnership Council, which 
brings together NASA and me and General Lord and Ron Sega, 
under the leadership of Secretary Teets, to assess what is in 
the realm of the possible. We examine how do we get there and 
how do we identify, not just the wholesale leaps, but the 
little incremental technological improvements that Mr. Teets 
spoke of that might enable that leap when the time is right.
    Clearly, it is that kind of routine access that we must 
strive for. But as you and Senator Nelson rightly pointed out, 
we also have to have a plan in the meantime. We have to have a 
near-term addressal of the national security challenges. While 
I share the idealism of where we want to go, I also share the 
realism and the challenges that we face today and tomorrow in 
support of our operational forces. A lot of those options that 
are being pursued, that you heard described by General Lord and 
Admiral Cebrowski, are more realistic near-term alternatives, 
but we cannot give up on that dream and we need to pursue the 
technology appropriately that might enable us to get there 
either in the mid- or far-term, as the case may be.
    We certainly understand the need to continue appropriately 
addressing the technological miracles or achievements, but we 
also have to have near-term solutions as well.
    Senator Allard. General Lord, do you have anything you want 
to add?
    General Lord. Yes, sir. If you look back 20, 25 years ago, 
there were two major suppliers of the launch business, us and 
the former Soviets. You look now, there are probably 7 or 8 
countries that can do it with 9 or 10 different launch 
vehicles. The business model just did not hold up, not only for 
the United States but for others as well.
    To take it to the future, I think it is in our national 
security interest to push hard, to get to aircraft-like 
operations in space, to do the kind of things we need to help 
achieve, as Admiral Cebrowski says, the full advantage of a 
different kind of business model in the future. I think we have 
to push hard. I think it is something we need to invest in as a 
nation, I think as a space-faring nation.
    The 100th anniversary of powered flight was mentioned. The 
Air Force celebrates 50 years in space in August this year. I 
think it is important for us to continue to push the envelope 
and be able to do that.
    Senator Allard. Admiral Cebrowski.
    Admiral Cebrowski. I think as we look at major advances in 
one area of the technology, such as in propulsion, we should be 
aware too that there are likely to be other major advances 
going on simultaneously which impact us. So the questions of 
what you lift and how you lift it seem to intersect. For 
example, we need to get a handle on what happens when we are 
able to reach for nanostructures for space vehicles, payloads, 
and what that impact has on our capability, which could sharply 
accelerate the utility of smaller vehicles.
    I think we also have to look at frequency of launch and the 
impact that has on the competitive environment. The more 
frequently we launch, essentially the higher the transaction 
rate is amongst all the various elements in the program, so the 
learning rate is up then. With only a modest number of 
launches, learning is stagnant. So we should not be surprised 
that we have gone so long with only modest advances in lift.
    Senator Allard. Let me wrap this up. I commend you, 
Secretary Teets, for initiating the ORL effort. I believe that 
at least two competitors in the analysis of alternatives for 
responsive launch could have viable small, low-cost launch 
vehicles within a couple years. Yet the ORL program appears to 
be in a very much longer time line, potentially 7 or 8 years in 
development.
    What drives the schedule of the ORL program?
    Dr. Teets. The schedule is fundamentally driven by resource 
allocation, sir. I would just say that one of the things that 
we have recently done is, when Space and Missile Center source 
selected these nine contractors to be involved with ORL we have 
asked them to propose to us how rapidly they could indeed put a 
test vehicle into effect.
    We are hoping to accelerate our current schedule. Our 
current schedule is to have two of these concepts have a test 
launch in 2007. We would like very much to accelerate that if 
we possibly can. So to that end we are asking our contractors 
to put some effort on how could you accelerate it and what 
would it cost in terms of resources in order to accelerate a 
capability from 2007 into the nearer term.
    Senator Allard. Would this be characterized as a spiral 
development effort?
    Dr. Teets. Yes, it would.
    Senator Allard. I believe my time has expired. Go ahead, 
Senator Nelson.
    Senator Bill Nelson. Thank you.
    Mr. Secretary and General Lord, what is the current status 
of SBIRS-High and how late is the Highly Elliptical Orbit 
(HEO)-1?
    Dr. Teets. I am pleased to give you a summary of where we 
are with SBIRS-High. As you probably recall, 2 years ago we had 
a Nunn-McCurdy breach on the SBIRS-High program and that breach 
resulted in quite a significant restructuring of the program. 
It was certified 2 years ago now by Secretary Aldridge and we 
proceeded to put additional resources in it and restructure the 
contract, change many of the terms and conditions of the 
contract and content to the program. Over the course of the 
last 2 years, we have made significant progress.
    I will say recently--in the last year or thereabouts--we 
have encountered some adversity in the area of electromagnetic 
interference that is put out by the sensor that is destined for 
the HEO ride. We have been working diligently to solve this 
electromagnetic interference problem. I meet very regularly 
with the presidents of Lockheed Martin and Northrop Grumman and 
we have put a lot of resources and a lot of technical talent 
and we have made good headway.
    At the present time, I would tell you that we are on course 
to be able to deliver this HEO sensor to the host vehicle by 
the end of July of this year. That is a year and a half late 
and a year and a half late creates problems in the program. I 
will say the fact that we have focused intensive efforts on 
solving this electromagnetic interference problem has caused us 
to move work out of the work that would normally have been 
applied to the geostationary vehicle.
    So let me tell you that this is a fluid situation right 
now. We are in the process right now of reevaluating what our 
launch date for the geostationary vehicle will be. I cannot 
tell you the exact new launch date. I can tell you that I 
anticipate having another cost problem on the SBIRS-High 
program and I expect that we are going to have to take some 
steps to see if we can apply additional fiscal year 2005 
funding in order to handle the impact to this geostationary 
vehicle.
    Senator Bill Nelson. So there is a separate technical and 
schedule problem with the geosatellites?
    Dr. Teets. There is a schedule problem. We are not 
suffering a separate technical problem on the geo birds. The 
fact is that we focus so much attention on the HEO birds that 
we have fallen behind in the development of the geo, the first 
geosatellite, and it is a schedule problem. That schedule 
problem comes with a cost problem, unfortunately, sir.
    Senator Bill Nelson. Did you want to add anything, General 
Lord?
    General Lord. No, sir, other than to say that Dr. Teets, 
myself, Admiral Ellis, General Arnold, and the company 
presidents meet almost monthly on the program. Of all the 
programs I have experienced in my history in this business, 
this is the one that is getting the most scrutiny, I will 
guarantee you.
    Senator Bill Nelson. Admiral Ellis, how important is SBIRS-
High to your mission?
    Admiral Ellis. It is absolutely essential. Senator, it is 
not merely a follow-on to the DSP Constellation, although it 
certainly will fill that and do a great deal else in addition. 
It is a critical increase in our ISR capabilities, our 
technical intelligence capabilities, and many of the other 
things that you know well that lie in the classified realm. So 
it is absolutely essential that the capabilities that are 
promised by the SBIRS program continue to mature.
    Senator Bill Nelson. General Lord, in your written 
statement you refer to space-based infrared capabilities, but 
you do not mention SBIRS-High. Should we be reading something 
into that?
    General Lord. No, sir. As we talk about SBIRS-High, 
remember, we have a space part and we also have a ground part, 
and we have already done Increment One, which is the beginning 
of the ground part. As a matter of fact, during the war and OIF 
the missile warning processing was done by DSP through the 
Missile Warning Center up at Buckley. Our Increment One 
capability with what we have done in the SBIRS program with the 
ground system really was very useful in providing that kind of 
warning to the theater.
    Essentially what we have done with the DSP is wrung just 
about every bit of operational capability we can out of that 
set of sensors, and we are looking forward to moving in a way 
to get this advanced capability to provide Admiral Ellis and 
the other combatant commanders with this improved capability.
    Senator Bill Nelson. Mr. Secretary, on the AEHF satellite, 
the decision to buy the fourth is going to have to be made by 
October; is that right?
    Dr. Teets. Yes, sir.
    Senator Bill Nelson. Well, as I understand the TSAT 
program, it is going to have various technologies and they may 
not be sufficiently mature to include in a TSAT in the third 
quarter of 2006, such as Multi-Access Laser Com. It is not 
going to be mature until 2008. Can you tell the committee how 
you can forgo the fourth AEHF and rely on the first TSAT as a 
substitute?
    Dr. Teets. Yes, sir. We face that decision in the October 
timeframe, as you mentioned. This is going to be a very 
important and significant decision to make, whether or not to 
buy a fourth AEHF satellite. What we are doing at the present 
time is significant technology risk reduction activity on the 
TSAT program, and we are pointing very much toward this October 
decision that you mention and it will be a balancing of risk in 
order to make that decision.
    We have put into place this TSAT program in a way that we 
had hoped would allow us to make a decision to not buy the 
fourth AEHF vehicle, but that decision has not been made. The 
decision will come in the October-November timeframe, and we 
will evaluate very carefully the progress that we have made on 
the TSAT program.
    Now, when you talk about the Multi-Head Laser Head, that is 
a capability that we do not require for the first spiral of 
TSAT vehicles. That is a development that we see as being very 
important to expand the capability for receiving information 
from space-based radar or other ISR kinds of sensors. It is not 
necessary on the first TSAT vehicle.
    What we want on the first TSAT vehicle is a vehicle that 
has significantly better capability than AEHF and have it be a 
vehicle that we are highly confident we can deliver to a 
schedule. That decision, as you mentioned, that takes place in 
the October-November timeframe will weigh the risk of a late 
delivery of TSAT against the advisability of acquiring the AEHF 
as a safety stopgap.
    Senator Bill Nelson. Let us talk about timing. A fourth 
AEHF would launch in 2010. The first TSAT is not going to be 
ready until 2012, and that is assuming it is on time. So what 
confidence do you have that secure communications will be 
maintained?
    Dr. Teets. Well, these AEHF satellites that you are 
referring to have 10-year lifetimes.
    Senator Bill Nelson. So you would not have a break there if 
you cancelled a fourth AEHF?
    Dr. Teets. Well, that is the exact trade that we want to 
make in the October-November timeframe, because we will not 
have a break in coverage if we can deliver the TSAT on the 
schedule that we are currently on. On the other hand, what I am 
trying to tell you is that we are taking this decision 
seriously, because what we cannot do is leave our warfighting 
community without the capability of secure communications.
    Senator Bill Nelson. That is right. You know the history of 
rushed satellite programs.
    Dr. Teets. Yes, sir.
    Senator Bill Nelson. So that begs the question, why not buy 
the fourth AEHF?
    Admiral Ellis, can you live with this approach?
    Admiral Ellis. Well, sir, I do not know. We have not made 
the decision yet, as Mr. Teets noted, sir. So to define the 
approach in the sense that you did, obviously we are not there 
yet. But our role in STRATCOM is to represent the needs of the 
warfighter in what Admiral Cebrowski had a big hand in, and 
that is creation of these network-centric forces that are 
increasingly reliant on these capabilities. A part of that is a 
pretty clear-eyed view of, if plan A does not execute as 
scheduled, what is plan B? Those are important considerations 
as we chair the Senior Warfighters Forum and other venues that 
address these very real and important concerns.
    So I cannot live without the enhancements and improvements 
in the bandwidth that are needed to support the systems that we 
are increasingly putting in the field. The short answer to 
that, of course, is no.
    The issues that Mr. Teets addressed on the technical 
maturity of TSAT vis-a-vis the AEHF have to be very carefully 
played out in that fall timeframe, as he is committed to doing.
    Senator Bill Nelson. Do you not love being head of Space 
Command? [Laughter.]
    Admiral Ellis. It is a dream job, sir, and I mean that. It 
is a dream job.
    Senator Allard. I want to follow up a little bit on the 
GPS-3, Secretary Teets. This has been around for a long time. 
It is a powerful satellite and the idea is to blast through. 
There has been some suggestion that perhaps modifications could 
be done in the ground stations, the user equipment, as well as 
the networking. That may not be necessary.
    Has the Air Force recently done any evaluation of or a 
comprehensive look at the full range of technical alternatives 
to defeat the GPS jamming threats?
    Dr. Teets. Yes, sir, we have. I am pleased to say that I 
think we now have a quite well-synchronized programmatic plan 
that will take us from today's GPS-2R configuration, starting 
next year with the launch of GPS-2R modified, that will put up 
our first M code GPS satellites, which will have additional jam 
resistance. When those play out, it will lead logically and 
progressively into our GPS-2F configuration, which will add 
even more jam resistance to it. Then ultimately it will 
synchronize into our GPS-3, and GPS-3 will give us significant 
anti-jam kind of capability.
    Meanwhile, the ground equipment, the receivers, and the 
necessary ground equipment will be synchronized with that 
evolutionary flow. So I think we now have a GPS program that 
makes excellent sense.
    Admiral Ellis. There is also an element of tactics, 
techniques, and procedures that play into this, as we were able 
to discern in our assessments as we approached the conflict 
last year. We have found that there are very successful 
techniques with regard to antenna placement and tactical 
employment of our existing systems that can further mitigate 
this.
    So we are working this in concert. It is not just the 
technological answer that we are pursuing, though. As Mr. Teets 
fairly describes, that will get better and better as we move 
forward with the maturation of the GPS Constellation. We are 
also working the real-time employment techniques that can 
further ensure success for our warfighters.
    Senator Allard. Thank you.
    Admiral Cebrowski, we have not forgotten you. I understand 
that your office is sponsoring a number of TacSat payloads and 
launches that are designed to demonstrate the viability of low-
cost operationally useful payloads and space launch. How would 
you describe the value of the TacSats? What role will they play 
in transformational space?
    Admiral Cebrowski. The TacSat-1 is an experiment. It is a 
very broad experiment in that it includes many elements, but it 
is focused on what you might consider the key or what we 
consider the key elements of the new business model. While it 
is experimental, it is not a technical experiment. It is an 
operational experiment that has some technical components to 
it.
    So we are working closely with the Pacific Command (PACOM) 
to apply a particular capability against an operational problem 
that the joint commander has in the Pacific. When we do this, 
the methodology that we have selected is to try to move space 
capabilities onto the time lines of contingency planning for a 
major contingency, so that we could launch, create a payload, 
integrate it into a rocket, and launch it within about a year 
with a cost of about $15 million.
    We are on the outside margins of those numbers, quite 
honestly, but not so far that I feel as though the basic 
concept is at risk. We want to be able to have the payload 
tasked and respond via the Secret Internet Protocol Router 
Network (SIPRNET), the Internet protocols which we use for the 
general command and control system for the forces at large. We 
also want to have a payload which is capable of talking to 
aircraft, to UAVs, ships at sea, forces on the ground, and be 
able to do so directly, so that we do not require very large 
installations or incur significant infrastructure costs.
    So we are using essentially existing network structures to 
be able to do that. Now, I think one of the most exciting 
things about this experiment has been the teamwork that has 
been generated between the Naval Research Laboratory, the Air 
Force Research Laboratory, Air Force Space in general, the NRO, 
and a whole host of commercial partners, not the least of which 
is Elon Musk's space effort, and he is our launch provider. We 
are going on his maiden voyage and taking advantage of that.
    We have all of these things in play simultaneously in this. 
The objective is that we would catalyze activity, and I believe 
we have been successful in doing that, and that would bring 
operationally responsive space into the present so that it 
would not be just something for the end of the decade. The 
larger system has responded to that.
    TacSat-2, which is a somewhat more involved payload, but 
also performs in the sensor realm, will probably launch much 
later in this year. We need to get on to increase the 
frequency, the cycle rate, if you will. In order to do that, a 
critically important step is to focus on standardized bus 
interfaces that I had mentioned before. This will allow for 
this very high cycle rate that we are looking for.
    This also addresses to a certain extent the issue of access 
that was talked about earlier, increasing the frequency of 
launches, and moves us to the point where we can be talking 
about essentially high-speed designer capabilities at low cost, 
able to operate nearly autonomously, and responding to the 
market demands.
    Senator Allard. Secretary Teets, I note that TacSat-1 and -
2 are fully funded and that senior Air Force staff have shown 
us a plan for a series of TacSats. The question is, are future 
TacSats funded in the Air Force Future Years Defense Program 
(FYDP)?
    Dr. Teets. Senator Allard, I am going to need to take that 
for the record. I do know that TacSat-2 is funded. I do not 
know that TacSat-3, -4, and -5 are funded separately. I know 
the Air Force Research Laboratory has a plan to continue the 
TacSat series, but I cannot tell you if they are identified as 
separate line items or not. I would be happy to take it for the 
record, though.
    [The information referred to follows:]

    TacSat-1 and TacSat-2 are fully funded and, based on their 
anticipated success, we are pursuing future TacSat opportunities. We 
believe that this is a good strategy for future exploration of rapid 
warfighter capabilities. Currently there is no funding in our budget 
beyond TacSat-2. We are working to secure funding for these future 
TacSats in our FYDP.

    Senator Allard. Okay. Let me move on to the other question 
I had for you. Do you believe that the model using lower cost, 
smaller satellites to meet space requirements potentially may 
have broader applications in supplementing and reconstituting 
current capabilities?
    Dr. Teets. I do, particularly when it comes to the 
supplemental part. I think that there are multiple applications 
for small satellites to be able to augment existing 
capabilities to be able to operate in conjunction with existing 
capabilities, and to increase capabilities for a certain 
theater of operations that exists at a certain latitude on the 
face of the Earth. With an operationally responsive launch 
capability, you can optimize orbital characteristics for a 
specific theater and that can give some very important 
operational benefits.
    Senator Allard. Does operationally responsive space (ORS) 
imply a different approach to requirements definition for 
space?
    Dr. Teets. Well, it does in the context that we will impose 
requirements that will dictate that both the ORL vehicle and 
the satellites that they will launch will need to be able to be 
checked out and processed and launched in a matter of hours and 
days, not weeks, months, and longer.
    Senator Allard. Admiral Ellis, do you have any comments on 
the requirements aspect of this question?
    Admiral Ellis. I certainly do, sir. As Mr. Teets said, 
obviously there is going to have to be an ability to bring 
these satellites from wherever we store them and get them ready 
to launch to match the aggressive time lines that we have been 
discussing. But I do think it is fair to say that we are also 
going to have to address the requirements piece more 
realistically. In other words, one of the key advantages and 
potential for this flexibility and this replenishment rate, as 
Admiral Cebrowski describes it, is that we do not have to 
design for all cases. We can focus on the near-term 
requirement. We can, in modular fashion, put together a payload 
that best serves the very specific needs of the commander.
    We are going to need a process that very quickly identifies 
the key requirements and makes the appropriate tradeoffs to get 
the kind of responsiveness we need. Also, it should identify 
those elements that can be drawn from commercial sources and 
the like, as is an important part of the TacSat program, so 
that we do not overstate requirements. We need to get to the 
element that is really essential and of most benefit to the 
warfighter, and we get there quickly and efficiently.
    Senator Allard. My time has expired.
    Senator Nelson.
    Senator Bill Nelson. Let us talk about SBR. It should 
deliver, according to Pentagon descriptions, persistent radar 
coverage of most of the globe. What does ``persistent'' mean? 
Does that mean continuous? If not, what is the difference? 
Anybody?
    Dr. Teets. I would be glad to take a stab at that. I think 
one of the lessons that we have learned in recent years is that 
we need in our intelligence collection systems to move toward 
more persistence. I know this is an open hearing and so I am 
getting a little bit careful here, but today typically a 
commercial imaging satellite passes will have two passes over a 
target on any given day. Widely open on the Internet are the 
catalogue of warned satellite passes.
    So one of the things that we would like to do is move 
toward systems that can be more persistent than a couple of 
times a day. The first logical move toward persistent 
collection would be with a SBR system, in that you can get day-
night, all-weather coverage. You can take synthetic aperture 
radar images. You can also get indications of ground mobile 
targets.
    So what we have determined to date is that with the SBR 
program that we are proposing we want to move in that 
direction. We have asked our contractors to provide a wide 
range of concepts and potential implementation strategies while 
we are maturing the technology. We have a very significant 
technology maturation effort ongoing on both SBR and TSAT.
    So what we are doing is waiting until we get the results of 
these broad concept trades to pick any specific concept for SBR 
implementation. It may involve low Earth orbiting satellites, 
it may involve medium Earth orbit satellites, it may involve 
some combination of both. The amount of persistence will be an 
important factor in determination of the system we ultimately 
want to acquire.
    Senator Bill Nelson. Mr. Secretary, last year we talked 
about you fully funding all of these space programs to their 
estimated cost over a 5-year period. You indicated otherwise, 
and that is different from the typical policy of almost every 
other major Pentagon program. The other programs are required 
to be fully funded by Milestone B, to try to avoid the type of 
cost growth problems that we see.
    So I want to ask you, why have you implemented a specific 
policy which does not require that the space programs be fully 
funded?
    Dr. Teets. Early on in the conceptual development of a 
program, it is very difficult to get an accurate estimate of 
the run-out costs of the program. In the case of something like 
a SBR, we do not know yet which system we are going to buy. We 
do not know if we are going to acquire a medium Earth orbit 
satellite operating in conjunction with low Earth orbit 
satellites. We do not know how many satellites we would have in 
a low Earth orbit constellation.
    All of that is in the trade space that we are currently 
investigating with our industrial partners. So what we have 
done for purposes of putting forth a FYDP plan is we have taken 
a point design, which happens to be nine low Earth orbit radar 
satellites, and we have done a reasonably good quality, 
independent cost estimate for what that would cost, and that is 
what we have put into the 5-year plan.
    Senator Bill Nelson. Does that not really increase the 
chance that there is going to be cost growth?
    Dr. Teets. I think not. I think it is an intelligent 
estimate of what the costs for the program could be. I do think 
we are embarked in SBR on a program that will allow us to 
gracefully expand the Constellation. That is to say, one of the 
attributes that we are looking for from our contractors in 
proposing concepts is how would we phase this thing in in a way 
that you could kind of buy by how much you can afford?
    If you want it truly persistent, if you want this thing to 
be a true surveillance system as opposed to a reconnaissance 
system, it will take years to populate and it will be an 
expensive system. But we want to be able to gracefully move in 
that direction.
    Senator Bill Nelson. I am almost through, and I would like 
to be able to submit additional questions for the record.
    Let us talk about space-based interceptors. The American 
Physical Society says it is going to take thousands. But even 
if we concluded that hundreds of these interceptors would have 
to be launched, are you aware of any Pentagon cost study which 
estimates what would be the total cost to orbit and maintain 
such a sizeable constellation of satellites?
    Dr. Teets. I am not, sir.
    Senator Bill Nelson. Admiral Ellis.
    Admiral Ellis. No, sir.
    Senator Bill Nelson. Do you believe we could afford such 
enormous numbers of satellites?
    Admiral Ellis. Clearly there would be costs associated with 
development and deployment of hundreds of satellites no matter 
what their construct, sir, and that would be a significant 
offset against existing programs and desired sensor 
capabilities. So there is no doubt there would be significant 
costs associated with something such as you describe.
    Senator Bill Nelson. Admiral, what is the role of NORTHCOM 
and STRATCOM in missile defense? How are you coordinating?
    Admiral Ellis. Yes, sir, that is an excellent question. As 
I mentioned in front of the committee 2 weeks ago, I have the 
development, integration, and ultimate training 
responsibilities for this system as we begin to operationalize 
what is initially only a test bed. But it is a responsibility 
of the RCCs to oversee the defense of their AOR. I make those 
capabilities available to NORTHCOM for the continental United 
States and Alaska and to PACOM with regards to Hawaii since 
those are the apportionments.
    They are the combatant commanders who would be responsible 
for employment of this capability. I would be the one who makes 
it available and, of its global character, it makes sense that 
a single individual or organization be part of that, that 
global organization. So that is the role we play and make that 
available then to General Eberhart or to Admiral Fargo for the 
employment by their commands.
    Senator Bill Nelson. Admiral, you talk about a national 
test range for information operations. When might such a range 
be stood up?
    Admiral Ellis. We hope that consideration of that continues 
here in the near term. I think a capability like that is going 
to be an essential element of expanding and beginning to 
deliver on the promise of elements of information operations. 
While a great deal of that is classified, the fact of the 
matter is one of the challenges we will face is, how do you 
know that these capabilities indeed deliver on behalf of the 
warfighters, and that indeed implies a test capability so that 
we can certify those capabilities before we make them available 
as a legitimate alternative to other, perhaps kinetic, options.
    Senator Bill Nelson. What kind of testing would be done 
there?
    Admiral Ellis. The testing would be of the full range or 
the full scope of non-kinetic options. It could be electronic 
warfare, it could be computer network operations--those types 
of elements that might allow us in the future to influence 
outcomes without necessarily destroying targets. Those are the 
types of things that need to be addressed and a facility that 
addresses it in a realistic environment would be of assistance.
    Senator Bill Nelson. Would the Director of OT&E be 
involved?
    Admiral Ellis. I do not see any reason why he would not be 
involved, sir, in those types of efforts. We certainly intend 
to fully wring out those capabilities. It is what is absolutely 
essential if we are going to offer that as a legitimate 
capability to the warfighters in lieu of a kinetic option.
    Senator Bill Nelson. If you will keep the committee 
apprised of the progress on this, I think we would appreciate 
it.
    Admiral Ellis. I certainly would, sir.
    Senator Allard. Senator Nelson, I am ready to draw the 
hearing to a close. Both of us have some questions that we 
would like to submit and I would ask that you respond in a 
timely way and get something back to us within 10 days so that 
we can make it a matter of the record, if you would, please. 
Then we will close the record after 10 days.
    I appreciate you taking time from your jobs to be here and 
to brief us about space and what is happening today and what we 
can look forward to in the future as far as space is concerned.
    Senator Bill Nelson. I am sorry we did not ask too many 
questions of you, Admiral Cebrowski.
    Senator Allard. He is the one that stimulated all this 
conversation.
    I want to again thank all of you and thank you, Senator 
Nelson, and we will call the subcommittee adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

                      INTEGRATING THE SPACE CADRES

    1. Senator Allard. Secretary Teets and General Lord, please assess 
the progress made in integrating the space cadres of the Air Force, 
Army, Navy, and Marine Corps.
    Secretary Teets. I believe we have made significant progress in 
integrating the space cadres of the military services. In February, we 
completed the Space Human Capital Resources Strategy, the purpose of 
which was to integrate to the maximum extent practicable the space 
cadres of the military services. It provides the framework for 
integrating the cadres primarily from a managerial and educational 
perspective and it is now being implemented.
    The Department of Defense (DOD) must ensure the services develop 
space professionals to fulfill their unique mission needs. We recognize 
there is a pressing need to synchronize space cadre activities of the 
National Security Space (NSS) community to increase efficiency and 
reduce unnecessary redundancies. We are accomplishing this by 
establishing Department-level managerial functions and creating a focal 
point within the DOD for space cadre activities. I am happy to report 
that, although we are just beginning implementation, we are making 
tremendous progress within the training and education arena. 
Furthermore, we have been working hard to synchronize the space 
programs of Air Force Institute of Technology and Naval Postgraduate 
School through our Space Professional Joint Oversight Board, and are 
also examining the possibility of creating a school that will be a 
center of excellence in joint space education and training. These are 
just two examples of initial success and there will be many more.
    General Lord. First, the subcommittee must be aware the Space Cadre 
of the Services are fundamentally different, both in size and scope. 
(Air Force Space Cadre =10,000, Navy =700, Army =1,000, and Marine 
Corps =60.) But these differences contribute unique aspects producing 
a synergy of space expertise for the total DOD Space Cadre. Air Force 
Space Command, like the National Reconnaissance Office (NRO), is 
responsible for ``cradle-to-grave'' space systems development. 
Similarly, our people typically come into the space business very early 
in their careers, often as second lieutenant or airman accessions, and 
remain in space for the vast majority of their careers. The other 
Services typically don't bring an individual into space until the 10-
year period. Air Force Space Cadre members do everything from design, 
engineering, acquiring, testing, operating, sustaining, and integrating 
space capabilities; while the majority of the other Services' Cadre 
members focus mostly on the latter. As a result, all Services' Space 
Cadre members bring diverse sets of perspective, experience, and 
capabilities to the fight.
    Though there are differences, we are working hard to make sure our 
Cadres can be integrated easily where appropriate. The greatest 
progress to date is in education initiatives. We built a continuum of 
courses to satisfy the education requirements of the Air Force Space 
Cadre and Reserved seats for all Services. One of the courses, Space 
200, will be used by the Army as the front end to their initial course 
for entry into their Space Cadre (FA-40 course) starting July 2004.
    My staff ensures that everything we do for the Air Force Cadre is 
applicable across the Services. We are implementing a certification 
program for the Air Force Space Cadre that sets requirements for 
education, experience, and training to achieve each level. We well also 
attach a certification level to each Space Cadre position and ensure 
Cadre member attains the required certification level in order to fill 
that respective position. We believe this certification program's 
construct is a good strawman for the NSS certification program and are 
working to ensure the two are consistent and understanding of the 
differences in the various Service Cadres.

                 SPACE HUMAN CAPITAL RESOURCES STRATEGY

    2. Senator Allard. Secretary Teets and General Lord, please provide 
a description and schedule of actions needed to implement the Space 
Human Capital Resources Strategy.
    Secretary Teets. A complete description of the implementation 
actions and schedule is contained in chapter two (pages 9-10) of the 
Space Human Capital Resources Strategy, provided to the committee in 
February 2004. To summarize, the Space Human Capital Resources Strategy 
will be implemented in three phases. Phase I is underway and we hope to 
complete it in the next few months. Phase I will create an 
organizational framework and our basic processes. Among other things, 
during Phase I we will charter a Space Human Capital Resource Senior 
Forum, the Space Professional Joint Oversight Board, hold the first 
Space Cadre data call, and develop policy concerning human capital 
development and use. Phase II represents those activities to be 
implemented through the summer. During that phase we will be holding an 
education and training summit to determine a common baseline of space 
professional competencies, implement appropriate best practices, and 
commence any demonstration projects. Phase III extends through the end 
of the calendar year. The specific activities of Phase III include 
crafting and presenting the first ``Space Cadre Update Report'' to the 
Secretary of Defense and Director of Central Intelligence (DCI) and to 
update the NSS strategy and plan as required. The Space Human Capital 
Resources Strategy, however, does not end after the initial three 
phases. Following the initial implementation, there will be an ongoing 
process to properly manage the space cadre. These are some of the 
activities which will be accomplished on an annual basis: deliver an 
annual ``Space Cadre Update Report'' to the Secretary of Defense and 
DCI; update the NSS strategy and NSS plan to reflect the tasks and 
activities associated with space cadre management; and implement best 
practices.
    General Lord. We worked very closely with all Services in the 
National Security Space Human Capital Working Group to build the Space 
Human Capital Resource Strategy and have been implementing many of the 
actions for our Air Force Space Cadre since last summer. The Air Force 
Space Professional Capital Development Strategy is consistent with and 
supportive of the Space Human Capital Resource Strategy. As the Air 
Force Space Professional Functional Authority, designated by the 
Secretary of the Air Force, I am implementing the Air Force Space 
Professional Development Strategy consisting of six overarching 
segments.
    First, our primary focus is developing the Space Professional 
Education Continuum of classes. Space 200 is the cornerstone of the 
effort and we have already graduated 135 of our Air Force Cadre 
(active, Guard, and Reserves/office, civilian, and enlisted) members 
from the class. (Seven students were from the Army Space Cadre, six 
from the Navy, two Marines, two National Aeronautics and Space 
Administration (NASA), and one National Imagery and Mapping Agency 
(NIMA) participant. NRO participants are counted in the Air Force 
members). When fully implemented, we'll host approximately 360 students 
a year. Space 100, our space fundamentals course for entry-level space 
professionals, is on track for an October 2004 start date with an 
annual throughput of about 410 students. We are now determining the 
requirements for our Space 300 course targeted for space professionals 
at the 12-15 year point which will prepare our Cadre to fill senior 
level space positions.
    Second, we've identified a new way of tracking the experience of 
every member of the Cadre. This Space Experience Code (SPEC) basically 
identifies the weapons system and the function performed (operational, 
acquisitions, or staff). We are using this code to identify the 
experience of every member of the Cadre as well as the requirements for 
every space billet in the Air Force. Our next step is to automate this 
process so it is integrated into existing Air Force processes and 
databases.
    Third, a three level certification program was approved prescribing 
the education, training, and experience requirements for each level of 
certification. This program serves two primary purposes: it measures 
the overall health and status of the Cadre and its sets consistent 
standards for education, training, and experience at key points in each 
member's career. Certification is the glue that holds the Space Cadre 
construct together. Every member of the Cadre will be centrally tracked 
and every space billet will have a certification level attached to it.
    Fourth, we're identifying, by name and position, every member of 
the Space Cadre. While doing so, we are identifying their experience 
using the SPECs previously discussed and assigning a certification 
level based on their experience and education level. We expect to 
complete this process with the active duty personnel by June this year 
and the civilians, Guard, and Reserves by end of the year. We are doing 
the same for each space billet in the Air Force by identifying what 
experience and certification level is required to enter the position. 
We expect to complete this portion by March 2005.
    Fifth, we are publishing career guidance to the Space Cadre on a 
periodic basis through Vigilant Vectors and Spread-the Word briefings. 
These communications are intended to help the Cadre with career 
development issues until we've completed step 4. When step 4 is 
complete, we will have the picture on all of our requirements and will 
be better able to provide comprehensive guidance based on these 
requirements and projected Air Force growth. The sixth and final step 
involves establishing a permanent Space Professional Management Office. 
Our current effort is through a task force to jump-start the effort. 
Similar to the permanent Defense Acquisition Career Management Office 
for Air Force acquisition personnel, we realize there are enduring 
parts of this program requiring constant oversight and management. We 
will be moving the office under our Director of Personnel and they'll 
be responsible for day-to-day management of Space Professional 
Development while at the same time integrating with the Air Force's 
Force Development Program. Specific responsibilities of the office will 
include managing the certification program, working with the assignment 
teams to make sure we're putting the right person in the right job at 
the right time with the right education and training, continuing their 
excellent work with the Space Professional Education continuum and 
maintaining relationships with other DOD Space Cadre offices.
    As you can see there are many interrelated parts for implementing 
this strategy. We have made great strides in the past year and are on 
track with our current plan. We envision that the complete Space 
Professional Strategy will be implemented, stabilized, and 
``normalized'' for our Air Force Space Cadre by summer 2006.

                 OPERATIONAL RESPONSIVE LAUNCH PROGRAM

    3. Senator Allard. Secretary Teets, you stated in your testimony 
that the operational responsive launch program is a spiral development 
effort. Do you have plans or requirements for larger operationally 
responsive launch vehicles?
    Secretary Teets. Although DOD has not defined the specific path we 
will take to an operationally responsive spacelift capability, we have 
a number of ongoing activities that will help refine our approach. Air 
Force Space Command is our lead organization for requirements 
definition and has initiated development of an Initial Capabilities 
Document (ICD) and an Operationally Responsive Spacelift Analysis of 
Alternatives (AOA). The purpose of the ICD is to list capability gaps 
and launch alternatives to meet the joint warfighters' requirements. 
The AOA will help clarify the military utility of an operationally 
responsive spacelift capability and help select the most cost effective 
solution. Both activities should be completed by summer 2004.
    Additionally, we have an ongoing technology demonstration called 
Force Application and Launch from the continental U.S. (FALCON). This 
joint Air Force-Defense Advanced Research Projects Agency (DARPA) 
effort includes a demonstration launch of a responsive small launch 
vehicle in fiscal year 2007. This activity holds promise to deliver our 
first limited operationally responsive launch (ORC) capability (1,000 
lbs. to LEO). Follow-on activities to this demonstration are dependent 
on the ICD and AOA activities, but include potential spiraling paths to 
increased performance and larger vehicles.

                     RESPONSIVE SPACE CAPABILITIES

    4. Senator Allard. Secretary Teets, we are now pursuing next 
generation satellites for virtually all the constellations we fly now--
space-based infrared radar system (SBIRS) for the Defense Support 
Program (DSP), advanced extremely high frequency (AEHF) for military 
strategic and tactical relay military standard (Milstar), Mobile User 
Objective System (MUOS) for UHF Follow-on (UFOs), National Polar-
Orbiting Operational Environmental Satellite System (NPOESS) for the 
Defense Meteorological Satellite Program (DMSP), Global Positioning 
System (GPS) III for GPS IIF, the Foreign Intelligence Agency (FIA) for 
current intelligence satellites, and we are developing new satellite 
technologies like Space-Based Radar (SBR) and transformational 
communications. I think it is fair to say that these next generation 
satellites look in many respects a lot like legacy systems--relatively 
large, expensive, technically complex satellites built for long 
satellite lifetimes. You have also described operationally responsive 
space as an important transformational goal. Do these next-generation 
efforts meet your transformational goal of achieving operationally 
responsive space capabilities?
    Secretary Teets. Operational responsive space (ORS) does not mean 
that we can or will get rid of large satellites. ORS is an important 
transformational goal but these capabilities will augment rather than 
replace our next generation satellites. Our next generation systems 
will provide critical capabilities that will meet our Nation's 
warfighting needs. Concurrently, the Air Force Space and Missile 
Center, Air Force Research Laboratory, NRO, DARPA, Office of the 
Secretary of Defense (OSD) Office of Force Transformation, and our 
national laboratories are sponsoring initiatives to decrease the size, 
cost, and timelines of satellite development. In addition to our next 
generation satellites we are also looking at operational responsive 
space launch. In the near term, we plan to demonstrate a more 
responsive and less expensive launch system capability of placing 
approximately 1,000-pound payloads into low Earth orbit.

          STANDARDIZATION OF SPACECRAFT DESIGN AND OPERATIONS

    5. Senator Allard. General Lord, your command's strategic master 
plan identifies as a near-term goal the development of ``technologies 
to increase standardization of spacecraft design and operations, [and] 
to facilitate spiral development. . .'' What programs contribute to 
these goals and how much progress has been made to date in achieving 
these goals?
    General Lord. The Tactical Satellite (TSAT) demonstration program 
is underway to explore technologies and acquisition practices that will 
improve space system responsiveness, spacecraft standardization, and 
application of spiral development philosophy. The objectives of this 
series of space demonstrations are to evaluate the military relevancy 
of small satellites providing support directly to theater commanders, 
augmentation of large satellite constellations, and emerging through-
space/in-space missions via warfighter experiments, exercises and 
wargames. The intent is to reduce risks in future high-responsive space 
system acquisition.
    To date, there are two TSAT demonstrations underway; the first is 
sponsored by the Navy and the second by the Air Force. These two 
demonstrations are focusing on increasing the responsiveness of 
providing fielded military capability by developing the spacecraft in 
15 months, launching it in 7 days from call-up, and completing check 
out and initial on-orbit operations in one day.
    Four subsequent TSAT demonstrations are in the planning stages, and 
building upon the success of the first two missions, we will pursue 
technologies and design methods to further improve responsiveness. This 
will enable standardized spacecraft bus design and manufacturing, 
combined with the application of spiral development practices. These 
demonstration flights will also provide a proving ground for advanced 
technologies prior to incorporating them into operational system 
development programs for both the satellites and launch systems. An 
added benefit is the vitalization of a domestic small satellite 
industrial capability.
    The TSAT demonstration program fits well with a larger study 
currently underway at the Air Force Research Laboratory called the 
Responsive Space Advanced Technology Study (RSATS). Its charter is to 
identify an overall investment plan for rapid fielding of space 
capabilities. The overall scope of this larger plan includes investment 
in technologies for standardization of satellite components and 
interfaces, modularity of space systems, rapid assembly, integration 
and test, as well as high responsive launch systems. A core element of 
these thrusts is the notion of plug and play satellite interfaces, 
which allows flexible standardization of capable digital, analog, and 
electronic interfaces for satellite components. This concept parallels 
the developments in the personal computer industry for peripherals, 
expansion cards, and even new technologies. Plug and play satellite 
architecture enables more rapid development of satellite components 
because it avoids the time consuming process of developing and 
validating interface requirements.

                 STANDARDIZATION AND SPIRAL DEVELOPMENT

    6. Senator Allard. General Lord, the Air Force tends to build small 
constellations of big satellites. How amenable is that ``business 
model'' to standardization and spiral development?
    General Lord. Our satellite system development concept uses 
standardization and spiral development to the greatest extent possible.
    Standardization is applied at the component, subsystem, and system 
level. Additionally, we continually look for standardization 
opportunities between the different families of satellite systems. As 
standardization opportunities are identified, we perform technical and 
cost trades to ensure they are beneficial from a  development, 
operations, and sustainment perspective.
    We are implementing spiral development within our satellite 
programs as it makes sense. Several future programs have planned spiral 
developments in the baseline programs.
    One example of the use of standardization and spiral development is 
the SBIRS-High Component Single Acquisition Management Plan. This 
document strives to standardize spacecraft design and operations 
through a revised acquisition strategy, management philosophy, and 
structure that promotes the employment of spiral development techniques 
(e.g., risk identification and rigorous testing) for enhancing system 
capabilities. Progress is measured incrementally with current emphasis 
placed on standardizing hardware and software components of spacecraft 
performing similar missions. The next step is to attempt to standardize 
components of spacecraft performing different missions.

                           SPACE-BASED RADAR

    7. Senator Allard. Admiral Ellis, U.S. Strategic Command (STRATCOM) 
is responsible for both intelligence, surveillance, and reconnaissance 
(ISR) missions and space operations. What is your assessment of the 
importance of the SBR system?
    Admiral Ellis. The SBR program represents tremendous potential as 
both an operational and Intelligence Community support platform. SBR 
will provide persistent surface target tracking, imaging and mapping 
capability in all weather. 24/7 capabilities provide worldwide 
operational data for situational awareness, force protection and strike 
support. These capabilities, horizontally integrated into the Nation's 
ISR network of systems will provide commanders and decision makers with 
a level of situational awareness, intelligence preparation of the 
battlespace, and information assuredness never before achieved.

    8. Senator Allard. Admiral Ellis, what essential role do you see 
SBR filling that would not be filled by other systems in a larger ISR 
architecture?
    Admiral Ellis. SBR can potentially provide access to denied areas 
under reduced (different) threat considerations. This unfettered access 
to moving target indications and all-weather imagery is not limited by 
geopolitical boundaries, deploys in a much smaller footprint, and 
provides wide area coverage with more frequent revisit rates. This will 
provide persistence that current collection methods do not provide, 
i.e., Global Hawk, U-2, Joint Surveillance and Target Attack Radar 
System (JSTARS), and that is critical to support a common, worldwide 
operational picture.

    9. Senator Allard. Admiral Ellis, does a large SBR constellation 
that fills both military and intelligence missions pose any unique 
challenges for you as a space operator?
    Admiral Ellis. The concept of supporting military and Intelligence 
Community requirements is not unprecedented. We have several 
constellations (GPS for one) that support the DOD, Intelligence 
Community, and even civilian missions. The principle challenge SBR 
presents is the level of interaction in meeting DOD and Intelligence 
Community needs.
    Future DOD and Intellgence Community intelligence activities will 
interact within a horizontally integrated intelligence enterprise 
architecture linking individual, single-discipline information need 
requirements with multi-discipline requirements supporting operations 
and policy decisions. This transformational architecture will provide 
universal, dynamic, easy-to-use services readily available to all 
levels of decision makers and users. This solution will require greater 
automation of requirements and task development, and post-downlink 
processing, posting, exploitation and analysis, storage, retrieval, and 
data transfer.

    10. Senator Allard. Secretary Teets, I wanted to commend you for 
implementing what I think is an effective SBR acquisition strategy. I 
know the Air Force has adopted a notional SBR architecture for planning 
purposes and I also know that the early estimates for this architecture 
appear to be very costly--in the tens of billion of dollars. If that 
cost estimate turns out to be accurate, do you believe that the 
notional nine satellite architecture is affordable?
    Secretary Teets. I will not allow the SBR to proceed beyond Key 
Decision Point (KDP)-B unless it can be shown to be affordable. 
Affordability is being aggressively addressed in Phase A, which will 
refine the SBR concept, architecture, and cost drivers resulting in a 
mature program cost baseline to support KDP-B. The Acquisition Strategy 
currently supports two prime contractor teams each carrying two or more 
concept sets, which gives us a broad trade space between cost and 
performance. At my request, early cost estimates have been conservative 
in considering technical and performance risks while supporting broad 
warfighting and intelligence utility. This has allowed a robust risk 
reduction program to be scoped for Phase A along with a focus on 
performance/cost trades to be completed before KDP-B. Funding is 
focused on design-specific risk reduction to drive down technology and 
affordability risks.
    The need for SBR by our warfighters is greater than ever. To 
provide this capability we have an acquisition strategy that allows us 
to fully explore and mature various concepts and technologies. As these 
mature we will have much greater visibility into the cost of SBR. 
Affordability is key to the program and I will ensure we can afford it 
before proceeding into the next program phase.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    11. Senator Sessions. Secretary Teets, I would like to inquire as 
to the health of today's launch providers. You have stated on several 
occasions that ``assured access to space'' is one of your top 
priorities. I think all of us on the committee appreciate the 
importance of your position and the requirement to launch America's 
satellites to support both warfighter and national needs. When you were 
here last November, you stated that we could anticipate the price of 
future launches increasing between 20 and 50 percent. Given that a 
second West Coast pad is now being built to handle additional launches 
from Vandenberg Air Force Base and given that both launch providers 
have already spent hundreds of millions, maybe even billions of their 
own money to make the Evolved Expendable Launch Vehicle (EELV) program 
a success up to this point, what do you anticipate the increases to 
launch funding will be beginning in fiscal year 2006?
    Secretary Teets. We are currently developing the EELV funding 
requirements to support a potential new contract strategy, aimed at 
ensuring our acquisition strategy of assured access to space via two 
viable launch service providers is maintained. Until we have firmer 
data from our next procurement, we will continue to estimate the 
increase as being on the order of 50 percent. The specific funding 
levels will be addressed in the fiscal year 2006 President's budget 
request.

    12. Senator Sessions. Secretary Teets, will the expected increases 
be sufficient to cover the ongoing fixed infrastructure costs of each 
launch provider as well as the variable cost of each launch?
    Secretary Teets. The new contract strategy for the EELV, currently 
under development, has at its core funding for the contractor's 
infrastructure costs as well as the marginal prices for launch services 
ordered in fiscal year 2006 and beyond. However, financial losses 
resulting from launch services negotiated in previous years will not be 
reimbursed. Therefore, the U.S. Government's funding will not cover the 
entire cost of the launch provider's infrastructure because the 
contractors will have a mix of old and new launch services underway 
from fiscal year 2005 through fiscal year 2010.  

                       GLOBAL POSITIONING SYSTEM

    13. Senator Sessions. Secretary Teets, it is my understanding that 
the key to a successful GPS constellation is sustainment of the fleet 
of satellites. Where are we now in sustaining an optimal fleet?
    Secretary Teets. The Air Force is currently operating 28 satellites 
to ensure a high probability of at least 24 satellites. The current GPS 
Constellation is healthy, but aging--14 of 28 satellites are operating 
beyond their design lives, therefore continuous replenishment is 
necessary to ensure confidence in the constellation.
    Air Force Space Command (AFSPC) assesses constellation sustainment 
on at least a quarterly basis, to determine the need, time, and optimal 
location (plane/slot) of future launches in order to sustain an optimal 
constellation within budget and schedule constraints. The Air Force is 
committed to sustaining the constellation of at least 24 satellites to 
support civil and military users worldwide. 

    14. Senator Sessions. Secretary Teets, how many GPS II Rs and GPS 
II Fs will need to be procured to keep the constellation at peak 
operating capability?
    Secretary Teets. The contract with Lockheed Martin was for 21 total 
GPS IIR satellites. All of these vehicles have been procured. The first 
was destroyed during launch in January 1997, leaving 20 vehicles. Since 
that time, the Air Force has successfully launched 10 IIRs with the 
remaining IIRs planned for launch through fiscal year 2007. The 
contract with Boeing for IIF satellites has finalized procurement of 
three vehicles, with intent to buy nine more and a predicted need for 
at least four additional IIF satellites to ensure the constellation is 
sustained until deployment of GPS III. Basically, we expect to launch 
3-4 Block IIF satellites per year--until the next-generation of GPS is 
available--in order to sustain the constellation of 24 satellites with 
high confidence.

                  WIDEBAND GAPFILLER SATELLITE PROGRAM

    15. Senator Sessions. Secretary Teets, one of the bright hopes for 
the warfighters' ability to communicate on the battlefields around the 
world is the Wideband Gapfiller Satellite (WGS) program. I understand 
that one of these satellites will provides more broadband 
communications capability than all the Defense Satellite Communications 
System (DSCS) on orbit today. That's quite a capability. But because of 
today's shortage of broadband capability, most of the satellite 
communications our deployed soldiers use come through leased 
satellites. I believe that some of these leased satellites are foreign 
owned. I understand that we are spending nearly $300 million in lease 
costs annually. The Air Force has procured three of these WGSs with the 
first launch expected late in 2005. I am concerned, however, that there 
is a 3-year gap in production before satellites 4 and 5 would be 
funded. Would you explain the Air Force's rationale for this 3-year gap 
and would you comment on the Air Force's commitment to purchase the 
next two satellites, currently on option?
    Secretary Teets. As part of the transformational communications 
architecture, which ensures continuous availability of communications 
for the warfighter, the Air Force will renegotiate, in fiscal year 
2005, an option on the current contract to purchase WGS 4 and WGS 5. In 
the fiscal year 2005 President's budget request, the Air Force has 
included in fiscal year 2006-2008 an estimate of the funding required 
for satellites 4 and 5. This estimate will require updating in the 
fiscal year 2006 budget, following the renegotiation. Satellites 4 and 
5 will be launched in fiscal year 2009 and 2010, respectively.
    When first developed, warfighter requirements for wideband 
satellite communications were satisfied with an initial contract for 
three WGS satellites, with an option to purchase additional satellites 
in the future. Based on the resources then available, the Air Force was 
able to fund procurement of three WGS satellites, but due to budget 
constraints was unable to begin funding additional satellites until 
fiscal year 2006. While this acquisition strategy satisfies warfighter 
needs, it unfortunately results in a production gap between satellites 
3 and 4. 
    The Air Force would certainly like to reduce or eliminate the 
production gap, thereby avoiding parts obsolescence and manpower 
fluctuation issues; however, that would require an additional $400 
million or more in the fiscal year 2004-2006 time frame.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                       TRANSFORMATION FLIGHT PLAN

    16. Senator Akaka. Secretary Teets, the United States Air Force 
Transformation Flight Plan, released in November 2003, lists a number 
of anti-satellite and space-based weapons programs by name that it 
plans to deploy by 2015. These programs include: the Air-Launched Anti-
Satellite Missile, the Ground-Based Laser, the Space-Based Radio 
Frequency Weapon, and Hypervelocity Rod Bundles. This seems to be a 
bold step in the direction of a weaponized space. What funding is in 
the current budget to develop the four new weapons systems I just 
listed?
    Secretary Teets. The Air-Launched Anti-Satellite Missile, the 
Ground-Based Laser, the Space-Based Radio Frequency Weapon, and 
Hypervelocity Rod Bundles are not funded programs, but are ``future 
system concepts.'' These are marked in italics in the 2003 Air Force 
Transformation Flight Plan (roadmap) to distinguish them from funded 
programs. While some have science and technology and/or experimentation 
funding tied to them, many, such as those identified in this question, 
do not. Historically, most will never be developed. Their inclusion is 
to address the Office of Force Transformation's request for ``out-of-
the-box'' thinking in the Service transformation roadmaps.
    The upcoming 2004 edition of the Transformation Flight Plan has 
already been edited to more clearly distinguish between funded programs 
and future system concepts and to only include such future system 
concepts that actually have Air Force science and technology or 
experimentation funding tied to them.

                         ANTI-SATELLITE WEAPONS

    17. Senator Akaka. Secretary Teets, by pursuing anti-satellite 
(ASAT) weapons, are we not signaling to potential enemies that they 
should take the same course of action and spend more of their defense 
budgets on space warfighting capabilities?
    Secretary Teets. ASAT weapons are nothing new. The former Soviet 
Union had an operational anti-satellite system in the 1980s and early 
1990s. We have the responsibility to explore a wide range of possible 
capabilities and systems that will enable us to deny our adversaries 
the advantages gained from space that could be used in a manner hostile 
to the United States or our national interests. The force structure of 
the armed services and the weapon systems they utilize are and will 
continue to be fully compliant with our international obligations, 
treaties, and our right to self-defense as spelled out in the United 
Nations (U.N.) Charter.

                  SPACE-BASED KINETIC ENERGY TEST BED

    18. Senator Akaka. Secretary Teets, $10.5 million was included in 
the fiscal year 2005 Missile Defense Agency (MDA) budget request for 
research on a space-based kinetic energy test bed. The research is 
supposed to lead to on-orbit testing in the 2010-2011 timeframe, and 
may result in a limited experimental constellation in 2012. Fort 
Greely, which is where the MDA will be fielding its initial missile 
defense deployment, also started as a test bed. Is it your intent to 
use this test bed as a starting point for weaponizing space?
    Secretary Teets. No, it is not our intent to use the test-bed as a 
starting point for weaponizing space. The President has directed the 
DOD to develop a national missile defense system to ensure the national 
security of the United States. As the MDA pursues promising 
technologies, it is incumbent upon them to explore all alternatives and 
perform research and experimentation in the areas of these 
alternatives.
    The force structure the armed services studies, plans for, and 
acquires to provide for national defense is now and will continue to be 
fully compliant with our international obligations, treaties, national 
policy, and our right to self-defense as spelled out in the U.N. 
Charter.

    19. Senator Akaka. Secretary Teets, what is the administration's 
position on the pursuit of space weapons by the United States?
    Secretary Teets. In May 2001, when Secretary of Defense Donald 
Rumsfeld announced the implementation of the Space Commission he 
emphasized two key points concerning our space policy: ``The United 
States is committed to the exploration and use of outer space by all 
nations for peaceful purposes for the benefit of all humanity. Peaceful 
purposes allow defense and intelligence-related activities in pursuit 
of national security and other goals.'' The Secretary went on to say: 
``Consistent with treaty obligations, the United States will develop, 
operate, and maintain space control capabilities to ensure freedom of 
action in space, and if directed, deny such freedom of action to 
adversaries.'' In the 3 years since this statement, this position has 
not changed.

                       GLOBAL POSITIONING SYSTEM

    20. Senator Akaka. General Lord, the GPS III satellites, which will 
provide the GPS with better protections against jamming, were 
originally scheduled for launch in 2009. That date has since been 
pushed back to 2012 because of cost considerations. Why is the Air 
Force now focusing on the development of risky new technologies, such 
as laser communications satellites and space-based radars, when near-
term needs to protect our space assets, such as the planned upgrade to 
GPS, are being delayed?
    General Lord. While the Air Force is proceeding to develop laser 
communications and a SBR capability, this does not come at the expense 
of GPS. The initial GPS III program called for an fiscal year 2009 
first launch; however, in addition to being costly, the program was 
assessed as being overly .aggressively and high risk. Modernization of 
the GPS II space segment, coupled with user equipment improvements, 
will provide an interim anti-jamming capability to support current 
requirements to counter existing threats. The first launch of a 
modernized higher-power GPS Block II satellite is projected for March 
2005. This modernization campaign best meets the DOD's near-term 
navigation warfare requirements, and supports an fiscal year 2012 first 
launch of GPS III, still necessary to meet projected future threats.

                     KINETIC ENERGY ANTI-SATELLITE

    21. Senator Akaka. General Lord, Air Force officials have opposed 
the Kinetic Energy Anti-Satellite system in the past because of 
concerns about creating dangerous space debris, but the Transformation 
Plan envisions a similar Air-Launched ASAT Missile. Is the Air Force no 
longer concerned that use of a kinetic energy anti-satellite weapon 
will create debris that could threaten our own and allied space assets?
    General Lord. The Air Force continues to be concerned with the 
problem of space debris. A kinetic energy anti-satellite weapon was 
only one of a variety of solutions aimed at meeting the Quadrennial 
Defense Review's operational goal of space superiority. There are, 
however, other long-term concepts that can be pursued that do not have 
the negative side effects of creating large amounts of space debris. 
This is one of the reasons this concept has been removed in the most 
recent draft of the Air Force Transformational Flight Plan (to be 
released in July 2004).
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                  MISSILE DEFENSE PROTECTION OF HAWAII

    22. Senator Bill Nelson. Admiral Ellis, starting in September, when 
the Bush administration plans to deploy a national defense against 
long-range missile attack, you will be the person responsible for 
protecting all 50 States from such an attack. I understand that because 
of radar coverage limitations with the current system, in order to 
protect Hawaii from an attack from North Korea, a Navy ship will be 
required to be on station off the North Korean coast. This ship will 
provide the radar coverage for the system. The question then arises as 
to whether the Navy is committed to putting a ship on station off the 
coast of North Korea to provide the necessary radar coverage. Secretary 
of the Navy, Gordon England, reportedly stated recently that the Navy 
would provide ``virtually continuous'' deployment of a ship off of 
North Korea. What does ``virtually continuous'' mean--will a Navy ship 
be on station, 24 hours a day, 7 days a week, to protect Hawaii from a 
long-range missile attack, starting in September?
    Admiral Ellis. The Navy contribution to the missile defense 
capability is just as you describe. It is a radar tracking capability 
that will provide initial cuing in addition to our overhead sensors and 
complement other ground-based radars. The Navy has set milestones and 
is committed to identifying ships and upgrading their radar 
configuration to provide that on-station capability of which the 
Secretary spoke. 

                        SPACE-BASED INTERCEPTORS

    23. Senator Bill Nelson. Secretary Teets, at a recent conference, 
General Kadish, Director of the MDA, discussed his plans for space-
based interceptors (SBIs). He was quoted as saying, ``From the 
standpoint of the threats we face at this particular time . . . we 
don't need to put weapons in space. But that situation may or may not 
last a long time.'' He also reportedly said that there is likely to be 
a national debate on deploying weapons in space before the MDA begins 
deploying SBIs. The MDA wants to spend close to $100 million on SBI 
research next year. That is a significant amount of money--despite the 
fact that even General Kadish says there is no threat that warrants it. 
Yet there is no sign that the administration desires to have a national 
debate or discussion on deploying weapons in space. Rather, the 
administration appears to be creeping slowly towards weaponizing space, 
hoping no one notices. Do you know what the goal is of the SBI research 
and will any of this research require or include work that could lead 
to space-based weapons?
    Secretary Teets. One of the MDA's goals is to understand the 
minimum constellation size and associated ballistic missile defense 
system interfaces where a SBI capability begins to cost-effectively 
contribute to a layered defense against all threat classes in all 
phases of flight. MDA is not restricting their capability alternative 
studies to only global boost phase intercept defense. In fiscal year 
2005 MDA will initiate space based technology development. MDA's plan 
is to mature the technology (light-weighting of interceptor components 
including the kill vehicle and development of a liquid axial stage). 
This would also allow MDA, by 2008 at the earliest, to have the ability 
to determine whether it is technically and economically feasible to 
pursue an SBI capability for ballistic missile defense (BMD).

    24. Senator Bill Nelson. Secretary Teets, if there is a goal or 
desire to weaponize space, when will the administration seek specific 
authority to take this significant step and do you believe the U.S. 
should place weapons in orbit?
    Secretary Teets. There is no specific desire or goal to ``weaponize 
space.'' As stated by Secretary of Defense, Donald Rumsfeld, during 
testimony to the Full House on February 5, 2002: ``Our goal is not to 
bring war into space, but rather to defend against those who would. 
Protecting U.S. military assets in space from attack by foreign 
aggressors must be a priority in the 21st century.'' (Secretary 
Rumsfeld to the Full House, February 5, 2002.) The DOD is responsible 
for ensuring our national security. It is, therefore, incumbent upon 
the armed services to remain open to a wide range of possible 
capabilities and systems that will enable us to deny our adversaries 
the advantages gained from space that could be used in a manner hostile 
to the United States, our citizens, or our national interests. The 
force structure of the armed services is and will continue to be fully 
compliant with our international obligations, treaties, and our right 
to self-defense as spelled out in the U.N. Charter. If the research and 
development (R&D) proves promising and an exhaustive analysis of 
alternatives concludes that the best/only way to ensure our national 
security is to base a defensive capability in space, than that option 
will be provided to the President and Congress for subsequent approval 
and funding.

    25. Senator Bill Nelson. Secretary Teets, what is the policy 
regarding space-based weaponry and would such a SBI system be 
consistent with that policy?
    Secretary Teets. The current DOD policy concerning space 
capabilities is directly derived from the National Space Policy, 
Presidential Decision Directive/NSC-49 dated September 14, 1996. The 
actual language is classified. The force structure the armed services 
studies, plans for, and acquires to provide for national defense is now 
and will continue to be fully compliant with our international 
obligations, treaties, national policy, and our right to self-defense 
as spelled out in the U.N. Charter.

    26. Senator Bill Nelson. Secretary Teets, what risks to our own 
military and commercial satellites would this pose, and what additional 
risks to the U.S. would weapons in space pose?
    Secretary Teets. As stated by Secretary of Defense, Donald 
Rumsfeld, during testimony to the Full House on February 5, 2002: ``Our 
goal is not to bring war into space, but rather to defend against those 
who would. Protecting U.S. military assets in space from attack by 
foreign aggressors must be a priority in the 21st century.'' The DOD is 
responsible for ensuring national security. It is, therefore, incumbent 
upon the armed services to remain open to a wide range of possible 
capabilities and systems that will enable us to deny our adversaries 
the advantages gained from space that could be used in a manner hostile 
to the United States, our citizens, or our national interests. 
Furthermore, the force structure of the armed services and the weapons 
systems they utilize are and will continue to be fully compliant with 
our international obligations, treaties, national policy, and our right 
to self-defense as spelled out in the U.N. Charter.

    27. Senator Bill Nelson. Secretary Teets, what is the threat being 
addressed, what weapons do we need, and when would we need these?
    Secretary Teets. It is our goal to stay ahead of any potential 
adversary; the development of new and emerging technologies ensures we 
keep our edge. The asymmetric advantage the U.S. has gained from our 
space capabilities has not gone unnoticed by our potential adversaries. 
As such, we continuously review our space system vulnerabilities and 
are looking at ways to make our space services and systems less 
susceptible to enemy attack. In January 2004, we asked the National 
Intelligence Council to update the threat assessment contained in the 
1999 National Intelligence Estimate (NIE) on the Threats to U.S. Space 
Systems and Operations. The actual assessments are classified, but the 
threat posed by our potential adversaries continues to grow.

    28. Senator Bill Nelson. Secretary Teets and Admiral Ellis, are you 
aware of the study by the American Physical Society that indicated you 
would need a thousand or so space-based interceptors in orbit in order 
to make an effective system, and the follow-on study by the 
Congressional Budget Office (CBO)--which used much more optimistic 
assumptions, but still concluded that hundreds of interceptors would 
have to be launched?
    Secretary Teets. The MDA is aware of the American Physical Society 
study and that the CBO is conducting a follow-on study. I understand 
the CBO report is nearing completion. In late fiscal year 2003 the MDA 
developed a response to the American Physical Society which analyzed 
space based interceptor constellation sizes and came to a conclusion 
that constellations of 150 to 450 satellites would be required.
    Admiral Ellis. No, I am not aware of this study.

    29. Senator Bill Nelson. Secretary Teets and Admiral Ellis, are you 
aware of any Pentagon cost studies which estimate what the total cost 
to orbit and maintain such enormous constellations of satellites would 
be?
    Secretary Teets. The MDA reports that as of this time they have not 
conducted a cost study which estimates the total cost to orbit and 
maintain a large constellation of satellites.
    Admiral Ellis. No, I am not aware of such studies.

    30. Senator Bill Nelson. Secretary Teets and Admiral Ellis, do you 
believe we could afford such enormous constellations of satellites, 
when we are currently struggling to keep far smaller and less complex 
satellite programs on schedule and on budget?
    Secretary Teets. Building a responsible defense budget demands 
constant balancing between warfighter requirements and available, 
affordable technologies. It is premature to speculate on the ultimate 
character of a SBI constellation. As the concept and technologies 
mature, we anticipate that the MDA will address the cost, schedule, and 
performance issues related to a constellation of SBIs.
    Admiral Ellis. Clearly, there would be significant costs associated 
with the development of hundreds of satellites no matter what their 
construct. We must be able to balance our system development efforts 
with the value of the same to our national security.

                        MISSILE DEFENSE TESTING

    31. Senator Bill Nelson. Admiral Ellis, by law, operational testing 
is defined as ``the field test, under realistic combat conditions, of 
any item of (or key component of) weapons, equipment or munitions for 
the purpose of determining the effectiveness and suitability . . . for 
use in combat by typical military users.'' The law also states that the 
Pentagon's chief test authority, the Director of Operational Test and 
Evaluation (OT&E), is ``the principal operational test and evaluation 
official'' who shall ``approve (in writing) the adequacy of the plans 
for operational test and evaluation.'' The law says that a major 
weapons program ``may not proceed beyond low rate initial production 
until initial operational test and evaluation of the program has been 
completed.'' The intent of this law is to prevent the mass production 
and deployment of a system prior to completion of independent, combat-
realistic operational testing. The key criteria for operational testing 
are independence and combat-realism. None of the completed or planned 
missile defense tests meet these important criteria. No other weapons 
system has ever been deployed without any plans for operational 
testing. In September of this year, the administration plans to deploy 
a long-range missile defense for the United States. I understand you 
will be the person responsible for this defense, and also responsible 
if the defense fails against a real enemy missile. Would you like to 
see the national missile defense system operationally tested in a 
combat-like way as soon as possible--both to assess how it will work in 
battle, and to fix any problems that almost surely will be revealed by 
such testing?
    Admiral Ellis. My belief is that this effort is currently underway. 
Over an extended period of time, as we move through the developmental 
test phase, we are placing the system and evolving its capabilities in 
the operational environment where it would be employed. There are 
obviously elements that cannot and, hopefully, will never be tested 
from a full operational capability--such as the launch of threat 
missiles from potential adversaries. I do believe that the elemental 
testing that is underway will characterize the dynamics of and the 
environment in which this system is intended to operate. We will define 
and refine the sensor capabilities. We will assess the command and 
control linkage and the command and control processes and all of those 
elements will then be integrated in a comprehensive manner.

    32. Senator Bill Nelson. Admiral Ellis, current law provides for 
independent testing of major weapons systems to make sure they are 
suitable and effective. Do you support the intent of this law, as it 
applies to national missile defense?
    Admiral Ellis. In my view, we are getting to the intent of that law 
by involving the OT&E people in the process. With large-scale systems, 
the complexity of the tests, the expense of testing, and modern 
simulation capabilities allow us to integrate elements of both 
developmental testing and operational testing as the system evolves. 
Technology and simulation now allow us, for the first time, to bring 
these elements together in a concurrent manner that more efficiently 
uses national resources and, arguably, more quickly delivers the 
capabilities that we need.

                  U.S. NORTHERN AND STRATEGIC COMMAND

    33. Senator Bill Nelson. Admiral Ellis, what are the roles of U.S. 
Northern Command (NORTHCOM) and STRATCOM in missile defense, and how 
are the efforts coordinated?
    Admiral Ellis. Change Two of the 2002 Unified Command Plan (UCP) 
tasked STRATCOM to plan, integrate, and coordinate the global missile 
defense capabilities of the Nation. STRATCOM is operationalizing the 
capabilities being developed and deployed by the MDA.
    We are leading the development of the necessary doctrine, concepts 
of operations (CONOPs), and operational plans in coordination with our 
subordinate Service component commands and the other combatant 
commanders. This effort requires that we define the broad 
interrelationships among the Global Ballistic Missile Defense (GBMD) 
mission and other mission areas, such as ISR, strike operations, and 
information operations. Operationalizing GBMD capabilities also 
requires detailed planning to address the policy, rules of engagement, 
force employment, force readiness, and logistics support, and tying 
together diverse system elements including sensors, interceptors, and 
the command and control network.
    NORTHCOM and Pacific Command (PACOM) are our principal warfighting 
partners in preparation for activation of the initial defense 
capability. With them, we are continuing to refine and validate our 
plans in a series of exercises and readiness assessments designed to 
prepare the responsible combatant commands for assuming operational 
responsibility for the initial elements of this nascent defensive 
system.
    Operation Iraqi Freedom (OIF) demonstrated an unprecedented level 
of cross-theater missile defense cooperation and coordination. 
Integrated early warning data from Army, Navy, Air Force, and other 
intelligence sensors provided vital data supporting Patriot missile 
engagements of all threatening theater ballistic missile launches. 
Expanding upon OIF's example of an integrated and effective defense, 
STRATCOM is developing the GBMD CONOP and the battle management 
architecture to provide full capabilities for regional combatant 
commanders to defend their areas of responsibility.

                SPACED-BASED INFRARED RADAR SYSTEM-HIGH

    34. Senator Bill Nelson. Secretary Teets and General Lord, the 
SBIRS-High has experienced and is continuing to experience significant 
problems. When complete, the system will consist of two high Earth 
orbit (HEO) sensors and five geosynchronous Earth orbit (GEO) 
satellites. The current problem is with the HEO-1 sensor, but we are 
also beginning to hear that there may be significant problems with the 
GEO satellites as well. What is the current status of SBIRS-High--how 
late is the HEO-1?
    Secretary Teets. The first HEO payload delivery is scheduled for 
July 2004 (classified launch date). Electromagnetic Interference (EMI) 
is within acceptable limits. The second HEO payload delivery is planned 
for November 2004 (classified launch date). Testing so far supports EMI 
performance within specification for the second HEO payload. The SBIRS-
High GEO program is currently being replanned due to recent technical 
maturity challenges. Schedule impacts include a 12-month schedule delay 
for GEO-launches. There is an approximate $1.5 billion program cost 
growth from fiscal year 2004-fiscal year 2013.
    We are replanning the Signal Processing Assembly (SPA) flight 
software for GEO satellites. The original design was assessed as 
insufficient to meet mission requirements.
    Other contributing factors have exacerbated the cost over-runs:

    1. Extensive rework of the HEO sensors as a result of the EMI 
problems
    2. HEO and GEO Single Board Computer (SBC) anomaly resolution
    3. Underestimation of space-to-ground interface complexities
    4. Known technical issues did not close as planned
    5. Extremely challenging contractor manpower roll-off plans

    A SBIRS-High program replan is underway. Preliminary results were 
presented to the Defense Acquisition Executive (DAE) on April 20, 2004. 
Full cost and schedule impacts are to be completed by July 2004 and a 
new acquisition program baseline (APB) will be established thereafter. 
The Air Force is committed to fully funding the cost of the replan in 
the fiscal year 2006 President's budget.
    General Lord. SBIRS-High program obtained Nunn-McCurdy 
recertification in May 2002. At that time, we had expected to deliver 
the first of two HEO payloads by February 2003. After working through 
the electromagnetic interference problems, we are confident that we 
will deliver HEO-1 by end of July 2004. Due to the significant time and 
resources spent while focused on the highly elliptical Earth orbit 
challenges, we are in the process of replanning the GEO development, 
which will result in a 1-year slip to the GEO launch schedule.

    35. Senator Bill Nelson. Secretary Teets and General Lord, is there 
a problem with the GEO satellites? We are aware that there may be some 
spillover effect on the GEO satellites, as a result of the delays and 
increased costs of the HEO-1 sensor, but is there a separate technical 
or schedule problem with the GEO satellites?
    Secretary Teets. The Air Force is addressing a GEO schedule issue 
tied to development of flight software. This is the replan of the SPA 
flight software for GEO satellites previously described. This schedule 
problem, along with HEO delays, has resulted in cost growth to the 
program approximately $1.5 billion from fiscal year 2004-2013 and a 1-
year delay in launch of the first SBIRS GEO satellite.
    General Lord. SBIRS-High has experienced the normal challenges of 
an acquisition program. GEO is experiencing schedule challenges as a 
result of the delays in the HEO schedule. There are also technical 
challenges with the data throughput capability of the SPA and with the 
single-board computer onboard the GEO satellite. We are working through 
these challenges with Lockheed Martin, our prime contractor, to ensure 
a low-risk solution.

    36. Senator Bill Nelson. Admiral Ellis, how important is the SBIRS-
High to your mission?
    Admiral Ellis. The capabilities it promises are absolutely 
essential to the mission of the STRATCOM.

    37. Senator Bill Nelson. Admiral Ellis, what sort of impact would a 
significant delay in either of the two parts of the SBIRS-High have on 
your mission?
    Admiral Ellis. Recent conflicts and world events have demonstrated 
that the threats SBIRS is designed to target are here today. 
Significant delays in meeting the current baseline for SBIRS-HEO or GEO 
capabilities will negatively impact STRATCOM's missions of Information 
Operations (IO), Space Operations, Global Strike, Integrated Missile 
Defense (IMD), and ISR. Without the transformational capabilities SBIRS 
would provide in missile warning, missile defense, technical 
intelligence and battlespace characterization, STRATCOM would 
experience gaps in the following capabilities: the ability to support 
the space surveillance aspect of space control (IO); the ability to 
provide theater support for battle damage assessment/situational 
awareness (Space Operations); the ability to provide warning necessary 
to protect U.S. interests around the world (Global Strike); the ability 
to provide the accuracy needed to optimize weapon systems (IMD); and 
the ability to provide data necessary to address future threats and 
adequately conduct treaty monitoring (ISR).

    38. Senator Bill Nelson. General Lord, in your prepared statement 
for the record you refer to spaced-based infrared capabilities but do 
not mention the SBIRS-High by name. Should we read something into this?
    General Lord. No. I was referring to all overhead infrared sensors, 
which includes the SBIRS-High.

                       TRANSFORMATIONAL SATELLITE

    39. Senator Bill Nelson. Admiral Ellis, the TSAT communications 
satellite is in the early phases of technology development and risk 
reduction. When operational, TSAT is designed to have substantially 
improved secure, protected, high data rate communications capability. 
It will be a successor to the Milstar AEHF satellite family. The 
current plan is to have the first TSAT take the place of the fourth 
AEHF satellite. How important to you is the ability to have secure 
communications at all time and why?
    Admiral Ellis. It is vital to STRATCOM's mission as well as the 
missions of the other combatant commanders to have secure 
communications at all times. In the case of STRATCOM, our ability to 
hold targets at risk anywhere and anytime depends on secure 
communications for all phases of the mission, from planning to 
execution and, if required, recall. This need has been validated by the 
President, as recently as June 2003 with the release of National Space 
Policy Directive 28.

    40. Senator Bill Nelson. Secretary Teets and General Lord, the 
decision to buy the fourth AEHF satellite must be made by October as I 
understand it--is that correct?
    Secretary Teets. No, the decision must be made in time to be 
included in the fiscal year 2006 President's budget, and is scheduled 
for November 2004. This decision would result in advance procurement 
funding in fiscal year 2006, and full funding in fiscal year 2007, with 
congressional approval. The launch of satellite four would be in fiscal 
year 2010. 
    General Lord. This decision is a complex one. Yet, the optimal 
decision point based on AEHF development schedules is in the fourth 
quarter of calendar year 2004.
    However, many factors play into this decision: predicted mean 
mission duration of AEHF, MilStar, and DSCS satellites, AEHF 
development progress, and the outcome of TSAT Phase B contracts.
    As we approach the fourth quarter of 2004, we will look at all 
these factors to determine the right way forward.

    41. Senator Bill Nelson. Secretary Teets and General Lord, the TSAT 
program, as I understand it, will not have its various technologies 
sufficiently mature to confidently include in the TSAT until the third 
quarter of 2006. One significant technology, multi-access lasercom, 
will not be sufficiently mature until 2008. Could you explain how you 
can confidently forego the fourth AEHF, and rely on the first TSAT as a 
substitute if you won't know if your technologies are viable until 2006 
and 2008?
    Secretary Teets. We have not yet made the decision on whether to 
purchase a fourth AEHF satellite. This decision is scheduled for the 
fall of 2004. The decision will involve assessing a number of factors: 
the risk associated with TSAT technology maturation, anticipated launch 
schedules for AEHF and TSAT, and warfighter satellite communications 
requirements. We will carefully evaluate all of these factors before 
deciding on whether or not to go forward with AEHF number four.
    General Lord. We have taken extensive measures to put into place 
mitigation plans to reduce the risk of the program and still allow us 
to meet the launch schedule. The current schedule matures all key 
technologies to a level consistent with DOD and commercial best 
practices for space systems. The goal of the TSAT program is to provide 
critical communications on the move and ISR support to the warfighter 
that will meet the growing needs of the user community. To do this, 
will require a balance of the technology risk with program schedule. We 
will continue to monitor and assess technology maturity throughout the 
life of the TSAT program. Should the technology fail to mature to a 
sufficient level in 2006 and/or 2008, we will use backup technology to 
provide the warfighters a capability significantly greater than 
currently available.

    42. Senator Bill Nelson. Secretary Teets, General Lord, and Admiral 
Ellis, the fourth AEHF would launch in fiscal year 2010. The first TSAT 
would not be ready until fiscal year 2012. This certainly seems to be a 
large gap. This assumes that the TSAT will even be ready on time. As we 
know every satellite program recently is late--some by years. What 
confidence is there that the secure communications will be maintained?
    Secretary Teets. I am very confident that secure communications 
will be maintained. Although the first TSAT is intended to complete the 
AEHF constellation, during the 2010-2012 timeframe secure 
communications will be sustained by a combination of the first three 
AEHF satellites and remaining Milstar satellites on orbit. Working 
together, these satellites will provide worldwide coverage ensuring 
uninterrupted, protected, secure communications support.
    General Lord. I am very confident secure communications will be 
maintained. Although the first TSAT is intended to complete the AEHF 
constellation, during the fiscal year 2010-2012 time frame, secure 
communications will be sustained by a combination of the first three 
AEHF satellites and remaining Milstar satellites on orbit. Working 
together, these satellites will provide worldwide coverage from 65+ N 
to 65+ S, thus ensuring uninterrupted support.
    Admiral Ellis. The 14-15 April 2004 SATCOM Senior Warfighter Forum 
(SWarF) discussed the possibility of a gap in secure AEHF 
communications. We are confident limited secure, survivable, protected 
communications can be maintained with a mixed constellation of AEHF and 
Milstar satellites until 2017. The SWarF voiced concern that higher 
capacity, IP-based and communications-on-the move requirements cannot 
be met until the TSAT system is implemented. The SWarF's greatest 
concern--delaying TSAT and transformational communications--affects all 
future missions and impedes the ability of the Services to transform 
their operations. While the SWarF will again review the possible need 
for AEHF 4/5 this summer, they are unanimous in recommending the TSAT 
funding line remain stable to allow a fiscal year 2012 first launch.

    43. Senator Bill Nelson. Secretary Teets and General Lord, why not 
buy the fourth AEHF, and not be in a position to force the technology 
and schedule of the TSAT? Our history of rushed satellite programs 
isn't good either. Even comparatively simple satellites have turned out 
to be difficult.
    Secretary Teets. The DOD has identified the need for a near-term 
decision to purchase a fourth AEHF satellite and plans to make the 
decision this fall. The decision will be based on a comprehensive 
evaluation of the TSAT program and associated risks. The program office 
is not forcing the technology and appropriate steps are in place to 
ensure the delivery of capability on schedule. The TSAT schedule is 
commensurate with past and ongoing communications satellite programs 
such as Milstar II and AEHF. Technology development is on schedule to 
meet Technology Readiness Level 6 (TRL 6) prior to the Preliminary 
Design Review (PDR), currently scheduled for 2007. This is consistent 
with commercial and DOD best practices. Finally, to manage the 
technology risk, the program office has identified mature technology 
alternatives that can be used to maintain schedule.
    General Lord. The Transformational Communications Architecture 
(TCA), completed in 2003, established the basis for introducing clearly 
defined, improved communications capabilities for the warfighter. 
Technology development is on schedule to a level consistent with 
commercial and DOD best practices. The schedule is also commensurate 
with past and ongoing communications satellite programs such as Milstar 
II and AEHF. Finally, to manage the technology risk, the program office 
identified mature technology alternatives that can be used to maintain 
schedule. TSAT offers an enormous increase in capabilities designed to 
meet the growing needs of the warfighter in the 2012 time frame. 
Without timely TSAT delivery, we won't be able to provide 
``communications-on-the-move.''

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    44. Senator Bill Nelson. Secretary Teets and General Lord, what is 
the current status of the Boeing suspension, when will you make the buy 
three decision for the EELV program, and will you wait until Boeing is 
off suspension?
    Secretary Teets. The suspension remains in effect. It will be 
terminated as soon as Boeing has satisfied the Air Force that the 
company has taken appropriate remedial actions.
    We want to make a Buy III decision in 2004. We hope Boeing will be 
off suspension by the time we release the Buy III procurement. While we 
desire competition between both EELV contractors in Buy III, we do not 
anticipate delaying the procurement of any individual launches due to 
the Boeing suspension.
    General Lord. As of April 28, 2004, Boeing is still suspended. The 
Air Force Deputy General Counsel for Contractor Responsibility (SAF/
GCR) determines whether or not to continue the suspension. The Air 
Force desires to retain competition as an element of the Buy III 
strategy, but the Air Force will not delay launch awards because of the 
Boeing suspension. We will continue to follow the provisions of the 
Federal Acquisition Regulation (FAR) concerning debarment and 
suspension. FAR Subpart 9.4 prohibits the government from soliciting 
offers of awarding contracts to suspended contractors, absent a 
determining by the Air Force that there is a compelling reason to do 
so. The strategy for Buy III is under development, a process that can 
normally take 180 days before the request for proposal is released. 
This schedule may be further extended to incorporate a reliability 
study recently tasked by the acting Under Secretary of Defense for 
Acquisition, Technology, and Logistics as part of the EELV Nunn-McCurdy 
certification.

    45. Senator Bill Nelson. Secretary Teets and General Lord, how much 
will the EELV costs be increased in fiscal year 2005 and beyond as a 
result of the Boeing suspension and how much of the increased EELV 
costs are as a result of the downturn in the commercial satellite 
market?
    Secretary Teets. Currently the U.S. Government's total cost as a 
result of the Boeing Procurement Integrity Act violation is estimated 
at $275 million (fiscal year 2004-2009).
    Of the total reported increase in EELV program costs, $8,640 
million through 2020, or approximately 63 percent is attributable to 
the downturn in the commercial market.
    General Lord. Currently the Federal Government's cost as a result 
of the Boeing Procurement Integrity Act violation, leading to the 
suspension, is estimated at $275 million (fiscal year 2004-2009). The 
Air Force estimated the downturn in the commercial market to account 
for 63 percent of the total increase in the EELV cost.

    46. Senator Bill Nelson. Secretary Teets and General Lord, what is 
assured access to space and why do we need it?
    Secretary Teets. Assured access to space is the ability to launch 
critical space assets when required. Basically, it is the ability to 
ensure support of our warfighter and national security requirements 
with space-based assets when, where, and how they need it. It is a key 
enabler to maintaining the asymmetric advantage the United States has 
in space. Having two EELV providers is the foundation of assured 
access. Without two providers, a catastrophic launch failure in a 
single provider environment means we are out of the launch business for 
an extended period of time. We would be unable to ensure the needs of 
our warfighters are met. It's a position I never want to see this 
country in. It's my job to see that doesn't happen.
    General Lord. In the ``Report to Congress on Assured Access to 
Space for the United States,'' delivered by the Deputy Secretary of 
Defense on March 18, 2003, we defined assured access to space ''as the 
ability to launch critical space assets when required.'' The report 
notes the EELV program's ``Atlas V and Delta IV launch systems are the 
essential elements of assured access to space,'' and goes on to say, 
``maintaining two providers is critical to mitigate the risk of 
possible early design flaws, gain confidence that all government space 
launch requirements can be met, and increase the probability of assured 
access to space without protracted downtimes.'' In order to provide 
timely support to our warfighters, including national intelligence, we 
require the ability to place space assets on orbit whenever needed.

                     INFORMATION OPERATIONS TESTING

    47. Senator Bill Nelson. Admiral Ellis, in your prepared testimony, 
you discuss your plan to establish a national test range for IO. This 
sounds very interesting and useful. When might such a range be stood up 
and what sort of testing would be done there?
    Admiral Ellis. STRATCOM is working closely with the OSD to 
determine the requirements for just such a test range. This range will 
help us define effects in understandable terms, quantify systems' 
performance, and provide assurance that the elements of IO will achieve 
the desired effects while avoiding unintended consequences. We intend 
to develop a ``test range'' that can certify IO capabilities before we 
make them available as a legitimate alternative to other capabilities 
such as a kinetic option.

    48. Senator Bill Nelson. Admiral Ellis, how would the larger test 
community be involved, including for example the Pentagon's Director of 
OT&E and could you please keep this subcommittee appraised of the 
status of this?
    Admiral Ellis. I anticipate that the Director, OT&E will be 
involved in those types of efforts. It is absolutely essential to 
validate and certify effects if we are going to offer them as a 
legitimate capability to the warfighter.

             DEFINITION OF ``PERSISTENT'' SPACE-BASED RADAR

    49. Senator Bill Nelson. Secretary Teets, Admiral Ellis, General 
Lord, and Admiral Cebrowski, according to Pentagon descriptions, the 
new SBR program will deliver ``persistent'' radar coverage of most of 
the globe. I'd like all of you to comment on what you believe the word 
``persistent'' means. Is it the same as ``continuous,'' and if not, 
what is the difference--and what is the minimum requirement for 
``persistence?''
    Secretary Teets. We define persistence as the ability to maintain 
long-term surveillance of items of interest in order to monitor, 
characterize, and track activities and events occurring around the 
globe. Our objective is to optimize the collection of information 
through dynamic tasking across multiple air/space sensors--taking 
advantage of the complimentary attributes of the systems--to have the 
right resources focused on the problem or threat at the right time.
    Our definition of persistence is not the same as ``continuous.'' 
The degree of persistence will vary depending on the situation, the 
nature of the threat or information need, and the timeliness required 
for action. In many instances, frequent revisits over denied or 
difficult terrain areas with space-based systems will provide the 
necessary degree of persistence. Tracking mobile theater ballistic 
missile launchers during combat operations will require a more 
continuous presence from a mixture of airborne, surface, and space-
based sensors to obtain the degree of actionable information necessary 
to support decisionmakers.
    SBR, as part of an integrated system of sensors, will be a major 
contributor in achieving global persistent surveillance.
    Admiral Ellis. Persistent is not synonymous with continuous. The 
definition of persistence within the SBR concept will be entirely 
dependent upon the complexity of the constellation. With each 
additional vehicle the frequency of coverage will likely increase; 
therefore, persistent will slide across the continuum toward 
continuous. But given mission needs and budgetary constraints, an 
effort to reach continuous will be cost prohibitive. That is why trade 
studies have been, and will continue to be, conducted throughout 
acquisition of the system.
    General Lord. Persistent surveillance is the ability to monitor, 
track, characterize, report, and update at frequent intervals on 
specific activities at fixed locations, on moving objects, and changes 
occurring to the surface of the Earth. This definition is not 
synonymous with ``continuous.'' The activity cycle of the target, the 
situation, and the action we want to take on the target determine the 
amount of persistence needed. For example, the rate at which we need to 
sample a missile test site preparing for a launch may be days; for a 
ship traversing the Mediterranean, it may be hours; and for a mobile 
theater ballistic missile carrying weapons of mass destruction (WMD), 
it may be 30 seconds. We look to achieve persistence through a mixture 
of integrating our surveillance and reconnaissance system designs and 
allowing these collection systems to trade off coverage of each other, 
In some cases, a SBR capability will provide both the deep access and 
the persistence to meet our goals, and sometimes our needs will require 
a more rapid revisit rate that only airborne sensors can provide. The 
surveillance provided by a SBR, in combination with other complementary 
space and airborne systems, could bring us much closer to realizing 
persistent surveillance.
    Admiral Cebrowski. Persistent is not the same as continuous.
    When dealing with elements of observation, persistence means having 
the capability to know what you need to know, when you need to know it, 
and with the fidelity necessary to draw the appropriate conclusions. 
You must be able to sense the discriminant or the phenomenology while 
it is there and while it is actionable. This requires matching the 
observation revisit rate with the time constant of the object to be 
observed.
    Therefore, any measure of persistence is dependent on the activity 
or behavior being observed. For example, if you require information on 
a moving target, your ability to observe or sense that target (revisit 
rate) must be consistent with changes to its actionable state.
    With a networked force it is also important to note that 
persistence needs to be measured in terms of a system of networked 
space, air, and surface assets. This networked or layered persistence, 
allows the advantages of each layer to be brought to bear ensuring a 
higher fidelity of actionable observations, while reducing the 
vulnerability to deception and denial.

                    FULL FUNDING FOR SPACE PROGRAMS

    50. Senator Bill Nelson. Secretary Teets, at last year's hearing, I 
asked you why the new space policy you were implementing did not 
require, as a matter of policy, that space programs be fully funded to 
their estimated costs over the 5-year budget horizon used by the 
Pentagon. I pointed out then that your policy is different than the 
policy for almost every other major Pentagon program. Other major 
programs are required to be fully funded by Milestone B, to try to 
avoid the type of cost growth problems we keep seeing in space 
programs. You didn't answer my question last year, yet I understand the 
policy has remained the same. So I'd like to ask you again: Why have 
you implemented a specific policy which does not require that space 
programs be fully funded? Doesn't such a policy actually increase the 
chances for space program cost growth?
    Secretary Teets. The policy does require us to fully fund space 
programs. The National Security Space Acquisition Policy 03-01 states 
that ``The DOD Space Milestone Decision Authority shall determine the 
appropriate point at which to fully fund a DOD Space Major Defense 
Acquisition Program--generally when a system concept and design have 
been selected, a System Program Director/Program Manager has been 
assigned, capability needs have been approved and system-level 
development is ready to begin.'' This provides us some flexibility as 
to when this is required but it typically occurs at the entry to Phase 
B, risk reduction and design development.

                          MINUTEMAN III ICBMS

    51. Senator Bill Nelson. Admiral Ellis, at the hearing there was 
some confusion about a question I asked with respect to the Minuteman 
III ICBMs. The Nuclear Posture Review and the Moscow Treaty achieve the 
bulk of the reductions in deployed nuclear warheads by retiring the 
Peacekeeper and de-MIRVing the Minuteman III ICBMs--having one warhead 
on each Minuteman III rather than multiple warheads. There was a recent 
press report that suggested that the decision to have one warhead on 
each of the 500 Minuteman III ICBMs was being reconsidered. Is this 
true? Is there a plan to retain MIRVed Minuteman IIIs?
    Admiral Ellis. No, I am not aware of any such plan.

    [Whereupon, at 4:45 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        WEDNESDAY, APRIL 7, 2004

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

 DEFENSE INTELLIGENCE PROGRAMS AND LESSONS LEARNED IN RECENT MILITARY 
                               OPERATIONS

    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-222, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Warner, Allard, Reed, 
Bill Nelson, E. Benjamin Nelson, and Dayton.
    Majority staff members present: Charles A. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; and Gregory R. Kiley, professional staff member.
    Minority staff members present: Kenneth M. Crosswalt, 
professional staff member; and Creighton Greene, professional 
staff member.
    Staff assistants present: Michael N. Berger and Bridget E. 
Ward.
    Committee members' assistants present: Elizabeth King and 
Neil D. Campbell, assistants to Senator Reed; and Peter A. 
Contostavlos and Caroline Tess, assistants to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. The Strategic Forces Subcommittee of the 
Senate Armed Services Committee will come to order. Today, this 
is a hearing on defense intelligence programs and intelligence 
lessons learned in recent military operations.
    The subcommittee meets today to receive testimony on 
defense intelligence programs and tactical and operational 
intelligence lessons learned in recent military operations. 
Intelligence has always been an important part of military 
operations, but the criticality of intelligence to precision 
targeting and decisive military operations has clearly 
increased. The Department of Defense's (DOD) plans for 
transforming its warfighting capabilities are grounded in 
information dominance--accurate, timely intelligence. 
Understanding our complex defense intelligence system, its 
capabilities, and future requirements is of great importance to 
this subcommittee.
    We welcome our witnesses. We have with us here this morning 
Dr. Steve Cambone, Under Secretary of Defense for Intelligence 
(USDI); Lieutenant General Keith Alexander, G-2 of the Army; 
Rear Admiral Richard Porterfield, Director of Naval 
Intelligence; Major General Ron Sams, Director for 
Intelligence, Surveillance, and Reconnaissance for the Air 
Force; Mike Decker, Director of Intelligence for the Marine 
Corps; and Brigadier General Don Wurster, Director of 
Intelligence and Information Operations for Special Operations 
Command.
    It would be impossible to assemble a more qualified group 
to comment on our tactical and operational intelligence 
capabilities, and we look forward to your testimony.
    As an administrative note, we will have opening statements 
and a round of questions in open session, and then move to a 
closed session to address important classified items.
    Clearly, intelligence has played a central role in recent 
combat operations and stability operations in Iraq and 
Afghanistan, as well as in the ongoing global war against 
terrorism. It is an intelligence effort against new types of 
efforts that differ greatly from the traditional threats of the 
20th century. Our Intelligence Community has had to adjust to 
these new threats, and they've done an admirable job.
    We've all been thankful for the successes of our Armed 
Forces in these recent military operations. While much will be 
debated in the months and years ahead about tactics and weapons 
systems, all of our forces are dependent on timely, accurate 
information to succeed. Indeed, one of the central tenets of 
our national military strategy is information dominance. The 
intelligence, surveillance, and reconnaissance (ISR) assets 
available to the theater and subordinate commanders appear to 
have done a remarkable job in delivering that information. 
While much recent attention has been focused on the pre-war 
strategic intelligence available to national decisionmakers, I 
feel it's important for the American people to know that the 
military intelligence assets of the DOD have served the Armed 
Forces and the Nation well.
    Even when things go well, however, we must not be 
complacent. I want our witnesses to address not only what is 
done well, but also where we need to do better. Clearly, we 
have a very capable system, but it is your job to make it 
better, and the job of Congress to help you.
    The National Defense Authorization Act for Fiscal Year 2003 
established the position of Under Secretary of Defense for 
Intelligence. It is clear that each of the military Services 
and the defense intelligence agencies are very capable and 
composed of dedicated professionals. It is equally clear that 
this defense intelligence community is a complex enterprise 
that requires dedication, consistent, high-level guidance, and 
a unifying vision to ensure the best-possible support to the 
soldier on the battlefield, the generals guiding operations, 
and the strategic decisionmakers.
    Secretary Cambone has had 13 months to study this 
challenge, and we look forward to his views on the current 
state of defense intelligence and the way ahead. One year ago, 
this subcommittee held a related hearing to evaluate how well 
the ISR assets of the military Services were combined and 
integrated together to support joint warfighters.
    Our purpose here today is to build on the insights gained 
last year and on the insights gained through the experience of 
a challenging year of military operations, to better understand 
this complex enterprise and determine that the investments we 
are making are adequate, and, if, in fact, we are investing in 
the right capabilities. Furthermore, we want to understand if 
the capabilities that are being developed in each of the 
Services not only support the unique core requirements of that 
Service, but can be fully integrated into a system that 
effectively supports joint warfighters and our national defense 
decisionmakers.
    Current capabilities have proved quite adaptable over time. 
Much of the credit for that goes to the amazing young service 
men and women, who use American initiative and ingenuity to 
figure out some very unique ways to maximize the capabilities 
of these ISR systems. Such ingenuity is critical, but we must 
also ensure that we're not asking too much, that we are 
developing the capabilities that can focus on the really 
challenging threats of the future, such as transnational 
terrorists and proliferation of weapons of mass destruction.
    Experts suggest that a persistent, all-weather, 24-hour 
capability, delivering high volumes of data and queued by a 
variety of other integrated sensors, is essential. That seems 
to make sense, but true persistence in analytical tools that 
help analysts find the key pieces of information has been 
elusive. I hope each of our witnesses will address the issue of 
persistent surveillance, how we achieve it, and how we 
recognize the important nuggets of information quickly when 
that information is collected so that we can react quickly, 
with confidence. Such an integrated system is clearly the first 
line of defense, not only in winning future battles, but in 
stopping threats to our homeland and our national security 
interests before they fully materialize.
    I will be brief, as it is more important that we proceed on 
to the testimony of Secretary Cambone and our military 
intelligence chiefs. I look forward to hearing your testimony 
on the performance of our intelligence system in supporting our 
warfighters. I also am anxious to hear how much each of you 
anticipates working better together to ensure we have a well-
integrated, coordinated effort. I am also most interested in 
your view of the future. What do we need to be prepared for? 
What gaps or challenges may be anticipated? What can we, 
Congress, do to help?
    As we consider the fiscal year 2005 budget request, we must 
be mindful of the critical role intelligence plays in our 
current and future military operations, and how timely 
connected our intelligence assets and weapons have become. This 
is clearly the future of warfare, and we must ensure that our 
defense intelligence capabilities and the larger Intelligence 
Community continue to be the best in the world.
    Again, I welcome our witnesses, and thank you for your 
service.
    Senator Nelson.
    Senator Ben Nelson. Thank you----
    Senator Allard. Oh, wrong Nelson. Let me catch Senator Bill 
Nelson, from Florida, and then, Senator Ben Nelson, we'll give 
you an opportunity to make your comments.
    Senator Nelson.
    Senator Bill Nelson. Would you like me to defer?
    Senator Ben Nelson. No, no, no, I defer to you. [Laughter.]
    Senator Bill Nelson. We could go back and talk about some 
of our rivalries between the University of Nebraska and the 
University of Florida if you'd like.
    Senator Ben Nelson. That was before we gave up football for 
a while.
    Senator Bill Nelson. That's correct. [Laughter.]

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Anyone who has worn the uniform of 
this country knows the very difficult situation that we are 
facing on this very day, especially where there is an 
indigenous population that is starting to rise up. So, in the 
course of this hearing, we want to find out more how we can 
help those very brave men and women who are out there carrying 
on the fight.
    This hearing is going to give us an opportunity to focus on 
how we collect data about the enemy and the environment, and 
how we turn that data into information, and then how we get 
that information to the right people at the right time.
    In the past, some have talked about sensor-to-shooter 
integration, or such concepts as ``dominant battlefield 
awareness,'' while others have been espousing a concept called 
``horizontal integration.'' Whatever the words are, it's clear 
that we have to be able to fight smarter, not just on future 
battlefields, but on this present battlefield, given our 
reduced force structure and our desire to minimize casualties. 
So the programs and systems that we will be discussing in this 
subcommittee hearing are the foundation upon which any such 
concept will have to be based. What we don't cover here in the 
open session, I'm looking forward to getting into, and no 
mumbo-jumbo, when we get into the closed session.
    Thank you.
    Senator Allard. Senator Ben Nelson, from Nebraska.
    Senator Ben Nelson. Thank you, Mr. Chairman and Ranking 
Member. I want to thank you for scheduling this hearing today. 
I don't think we could overstate the importance of how we wed 
together the civilian and military leadership responsibility 
for collecting and disseminating intelligence within the 
operational and intelligence communities.
    I want to thank each of you, gentlemen, for being here 
today, both for your dedication and for your efforts to be able 
to provide the kind of coordination that's going to be 
essential in the days ahead.
    Last week, Admiral Ellis, Commander of the U.S. Strategic 
Command (USSTRATCOM), testified that the DOD needs to enhance 
its ISR capabilities to better locate hidden targets, which 
could be camouflaged or protected by robust air defenses. He 
went on to describe the challenges that they face between the 
operational world and the various elements that contribute so 
effectively to intelligence collection, and how they bring 
those together in a collaborative way, particularly as the next 
generation of ISR platforms begin to be more rigorously defined 
technically to include space-based radars (SBRs) and the like.
    A concern that we have all had relating to intelligence and 
the lack of intelligence capabilities in the past is a matter 
of public record, of politics, and, I think, of public policy, 
as well. I am hopeful that today, as we look at what we can do 
operationally, that our focus will be on the technical side, 
that it will be on the side of enhancing our capabilities to 
deal with information on the ground, information that can be 
human intelligence (HUMINT), as well as technical in nature.
    Clearly, with what's going on in Iraq today, there are 
those who could suggest that perhaps our intelligence breakdown 
did not prepare us for the potential violence that we're 
dealing with today. Intelligence can help us only so far. But 
we have to continue to increase it, because I do believe that 
many of the challenges that we've encountered could have been 
avoided. But, more importantly, there are challenges ahead that 
I think we do need to avoid, and we're looking at you as to how 
this could come about. Clearly, the ball is in your court to be 
able to tell us what's going on, and to tell us what will be 
going on, to enhance our collaboration and use of intelligence.
    I thank you, Mr. Chairman. I am looking forward to your 
testimony.
    Senator Allard. I'll now call on the Honorable Steven A. 
Cambone, Under Secretary of Defense for Intelligence.

   STATEMENT OF HON. STEPHEN A. CAMBONE, UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Dr. Cambone. Thank you, Mr. Chairman, members of the 
subcommittee. I do appreciate the opportunity to come here 13 
months, almost to the day, since the Senate confirmed my 
appointment, and to first give you an idea of what we have been 
doing over those 13 months as they relate to some of the issues 
raised in the opening statements, then take a minute to talk 
about some work being done with the combatant commanders to 
improve their capabilities, and then to give you a bit of 
insight into some of our thinking about how defense 
intelligence overall may evolve in the coming months and years 
to meet the changing environment in which we live.
    So, if I may, please. A year ago I told this committee and 
others that there were three major issues that we needed to 
address. One was to ``take stock,'' as we called it, of the 
title 10 capabilities and responsibilities of our service 
intelligence organizations. The gentlemen who are with me here 
today worked very closely with my staff, and have put together 
a fairly substantial brief, which, Mr. Chairman, I would offer 
to you and your staff as a summary of the work that was done on 
those responsibilities and capabilities. The bottom line of 
that effort was to say that we needed, collectively, to pay 
more attention to both our people and to the changing 
operational environment in which the Intelligence Community is 
going to have to work.
    The second effort that we undertook was to review our 
HUMINT capability within the DOD, and let me leave that as a 
heading, for the moment, and return to it in a few minutes.
    Likewise, I would like to return to the third heading, 
which was the support that we could give to our combatant 
commanders. By that, I mean we, early, concluded that the 
relationship between intelligence and operations was growing 
closer, so close, in fact, that it was beginning to become 
increasingly difficult to separate the two; and, therefore, 
we've had to change the way in which we thought about our 
support to our combatant commanders. I'll say a few more words 
about that in a few moments.
    One of the first things we did, however, was sit down to 
review the basis of the work that is done in the DOD on 
intelligence. A first cut through the many directives and 
instructions that exist within the DOD to guide our work turned 
up 30 main directives that affect the work of the Intelligence 
Community within the DOD. Some of them date back to the 1970s, 
a good number of them are from the 1980s, and the balance from 
the 1990s. We are in the process of trying to reconcile those 
directives, and update them in light of the changing 
environment.
    The second thing I did was ask my people to collect a list 
of the committees, boards, working groups, and other types of 
organizations within the DOD that claim to have some 
responsibility for intelligence or for the supporting 
capabilities, like communications. At last count, that list is 
14 pages long, which tells you something about the need to 
clean up our internal processes to assure that we have more 
people who are capable of saying yes to initiatives and being 
able to move more quickly, and fewer people who can say no, 
which is essentially what 14 pages of boards, committees, and 
working groups amount to.
    We have undertaken an effort to establish, finally, the 
Defense Career Intelligence Personnel System program. That is a 
defense intelligence personnel system that is designed to give 
those people who are working in defense intelligence a proper 
personnel system for their career development. We have, in the 
past year, taken and made the implementation decision necessary 
to bring that program forward.
    Second, we are in the latest stages of transferring our 
Defense Security Service (DSS) and background investigation 
capabilities over to the Office of Personnel Management (OPM), 
which should, we hope, speed up the process by which clearances 
are granted and adjudications take place.
    Third, we have undertaken a review of the Milestone 
Decision Authority (MDA) for the National Security Agency 
(NSA). We hold our first meeting tomorrow to review the status 
of the major programs within NSA, and our desire and hope is 
that we will review those programs, take whatever corrective 
actions are appropriate, along with the Director of NSA, and 
then return here to Congress to see if we cannot persuade you 
that the proper changes have taken place and that that MDA 
should be returned to the Director of NSA.
    Fourth, in the area of information sharing--this issue was 
raised or touched on in the opening statements between and 
among members of the Intelligence Community, between that 
community and the operating forces of the United States Armed 
Forces, and between and among those two entities and our 
Coalition partners, is a subject of a great deal of work and 
effort at the moment. There are a number of circumstances 
which, if they did not occur in the context of ongoing military 
operations, would be humorous in the way in which information 
flows seem to be interrupted and not made as easy as they 
should be. So we have taken on the task of making certain that 
that information can flow much more smoothly and much more 
rapidly in the community and between the community and the 
operating forces.
    Related to that--and, Senator Nelson, you touched on it--
horizontal integration has been a major effort of my office. We 
have been teamed with the Director of Central Intelligence's 
(DCI) staff and his Community Management Staff (CMS) in an 
effort to bring the notion of being able to move information 
easily between and among the users, and getting the information 
to the user in a format that is best suited to their needs. We 
have been working quite diligently, and I will tell you--and, 
Senator, without any prevarication--we haven't gotten to the 
bottom of it yet. It is a difficult subject. We know how to do 
it technically. What we haven't figured out how to do yet is to 
do it in a way that the information can be--we can have 
assurance that the information will be protected both in its 
transit across the networks, and that the user will have the 
appropriate means for protecting the information they receive. 
That is a very difficult problem. It crosses the ``boundary,'' 
if you will, between the Secretary of Defense (SECDEF) and the 
DCI and their relative responsibilities for that information. 
We're working hard, and I am hopeful that we are going to come 
to a conclusion with respect to that capability.
    Sixth, mentioned in the opening statements, was persistent 
surveillance. We have put an enormous amount of effort into 
persistent surveillance. If I may just take a moment here, this 
subject is most frequently associated with platforms in space, 
and particularly with the space-based radar. I will be the 
first to say that such a system would go a long way toward 
helping us to provide the kind of persistence that I believe we 
are going to need in the future. But space systems and the 
space-based radar are not the definition of that capability. It 
needs to be integrated with those assets that fly, those that 
are on the ground, and, indeed, with our HUMINT capabilities. 
Together, they form a complex of collection capability which 
can yield the kind of persistence we will require across the 
wide range of activity in which we are going to be engaged. 
Indeed, the information collected is useless without having a 
basis for moving that information--hence, the emphasis on 
horizontal integration; and, second, having an analytic cadre 
that is capable of analyzing that data and extracting knowledge 
from it.
    Therefore, if I may move on to the last point I wanted to 
raise here, the SECDEF and the DCI have proposed to Congress a 
substantial increase in the intelligence budgets for the next 5 
or 6 years. We can discuss those in the closed session, if you 
wish. But I want to underscore here that a great deal of that 
increased funding is aimed at improving the analytic capability 
of the community, both the defense side of the community as 
well as the national side.
    So where are we now? If those are some of the major 
initiatives and some of the things we've touched on the last 
year, where are we?
    I mentioned a few moments ago that we had begun to look at 
our intelligence support to the combatant commanders. We 
undertook a major effort to support the transition from V Corps 
to the III Corps in Iraq, and the stand-up of the Combined 
Joint Task Force-7 (CJTF-7). We continue to be actively engaged 
with General Sanchez and General Fast, who is the J-2, in 
assisting in the development of the intelligence architecture 
there, in providing counterintelligence support, in assisting 
the Army and others with the transition, particularly their 
tactical HUMINT teams, and the like. General Alexander, who is 
here with me today, can give you a great deal of information on 
that effort.
    But I would say that from General Abizaid's point of view, 
he has told me that the effort to improve capabilities within 
Iraq, at the operational and tactical level, has been so 
successful that he has asked us to undertake a similar effort 
with his architecture in Afghanistan, and we have people 
engaged in that today.
    In addition, with respect to support to the combatant 
commanders, we have introduced a new concept, which we are 
calling ``intelligence campaign planning.'' For those of you 
who are familiar with the way in which the military plans, 
there is a notion of starting in a pre-conflict environment, 
moving into a crisis, into combat operations, and, from there, 
into post-combat operations. You can look at any plan that's 
been laid down, and you will see the threads that run through 
those phases of operations that affect logistics, supply, and 
the like. We have come to the conclusion that we have to have a 
thread for intelligence support, and that we have to have a 
notion of how intelligence is going to be applied, how it will 
be effective in not just closing the ``kill chain,'' but in 
actually helping the combatant commander to understand what 
effects he is having on his adversary, on their attitudes prior 
to a conflict, their attitudes during the crisis, how they are 
reacting to the combat maneuvers of the combatant commander, 
and, indeed, what is to be expected in a post-hostilities 
environment.
    This notion of intelligence campaign planning is getting 
legs. General LaPorte, the commander in Korea, has a pilot 
program underway to see how we can lay in an intelligence 
campaign plan for his deliberate plan for the defense of South 
Korea.
    Special Operations Command, Commander General Brown, has 
taken elements of the idea and has begun to think of ways that 
he may apply it.
    Admiral Giambastiani, who is the combatant commander for 
Joint Forces Command, has undertaken, with my office, an effort 
to develop, essentially, a joint-intelligence doctrine, a 
doctrine for the use of intelligence in the coming environment. 
We believe that that will be an enormously important 
development in support not just of an intelligence campaign 
plan, but campaign planning overall.
    We have made significant strides in the area of ISR by 
giving to the USSTRATCOM Commander, Admiral Ellis, who was 
mentioned here this morning, the mission of supporting, on a 
global basis, the management of our ISR assets and providing 
the kind of combatant-commander advice that is essential to the 
proper use of what is, in fact, a weapons system. ISR platforms 
and the associated command-and-control and the individuals who 
make it up are a weapons system, and we should not forget that. 
We have, as I say, given to a combatant commander the 
responsibility for managing that weapons system on a global 
basis.
    Lastly, Special Operations Command (SOF) has been 
designated by the SECDEF as a supported commander for the 
purposes of planning global operations in the war on terror, 
and that implies a level of intelligence support, which, when 
we go into closed session, I'm sure General Wurster would be 
more than happy to outline for you.
    I said that we had looked at HUMINT reform, and we are in 
the process of bringing together our thoughts on that subject. 
But as we looked at it, we concluded that the problems, such as 
they are within our defense community, are but a part of a 
larger mosaic of defense intelligence as a whole, and so we 
have pulled together a number of proposals, which, I must tell 
you, we have yet to brief to the Secretary or to the DCI. So we 
are very much in the early stages.
    But I would like to touch on two or three things which have 
emerged from our work, and that is that, first, I mentioned the 
spectrum of activity in which a combatant commander is 
engaged--pre-crisis and conflict, into the operational phase, 
and then into the post-operations environment. If one sat down 
and said, ``In each of those phases of activity, what are the 
kinds of intelligence support requirements that are needed,'' 
you would make a fairly long list, but it would be a fairly 
orderly list. I think what you'd discover is that the elements 
of defense intelligence are all necessary to be brought to bear 
in order to provide the intelligence needed.
    What are those elements? They include HUMINT, which we have 
just talked about, measurements and signals intelligence 
(MASINT), counterintelligence, a very healthy analytic 
capability, as well as the integration of technical collection 
data, and, often forgotten, the role for the defense attaches, 
who play a very important role in their respective countries in 
supporting the overt-collection of information which is useful 
for intelligence purposes.
    What we concluded is that we have to find a way to take 
those various disciplines and roll them into an integrated 
capability, such that they are a more operationally capable 
element at the disposal both of the SECDEF and of the combatant 
commanders. We think if we move in that direction, which is 
toward a more operational focus, we're going to require, in the 
end, different organizational structures within the Defense 
Intelligence Agency (DIA). Proposals are being drawn up for 
such changes.
    We are going to have to sharpen the relationship with the 
combat support agencies--NSA and National Geospatial-
Intelligence Agency (NGA), in particular--and we are going to 
have to give to them a much better definition of the needs of 
our operating forces for intelligence, in terms of the quantity 
and the quality, as well as the timeliness of that information.
    We are clearly going to have to have an enhanced 
relationship with the service providers, because let's not 
forget that the majority of the defense intelligence capability 
resides not in the DIA, but in the Services that you see 
represented here. So we're going to have to be certain that we 
establish the kind of relationships with the Services that will 
permit them to provide the expertise that's going to be needed 
in the defense intelligence community.
    We're going to have to give a much more precise definition 
of what our defense intelligence support requirements are going 
to be relative to foreign intelligence. Here let me just make a 
distinction for the moment. A dysfunction is often made between 
national and military intelligence which I think is not quite 
the right distinction. I think the distinction is between 
military intelligence that is needed for the operating forces 
that plan and execute, over against the foreign intelligence 
which is the context in which those forces will operate. 
Foreign intelligence is clearly the purview of the DCI, and we 
have, I would argue, been remiss in the DOD in not providing to 
him and to his staff a much better definition of what our 
foreign intelligence requirements are and may be in the coming 
years. If we make the reforms internal to the DOD, we should be 
able to provide a much better definition of those support 
requirements.
    Finally, if we're going to make the defense intelligence 
capabilities more robust and more operationally focused, we 
need to continue the dialogue that has been ongoing between the 
DCI and the SECDEF on the question of how best to array those 
assets, both over time and within the battle space where our 
forces may be engaged.
    So let me conclude here, then, sir. What I've just sketched 
for you, we are getting ready to bring forward in the next few 
weeks to our respective leadership. Once we've done that, we 
will be able to come back to this committee and others to 
describe the types of changes we think we may need to make. 
We'd like to, at that point, consult with you and your staff on 
some of the particular issues that may be of concern to you. 
But, in the end, we are on a schedule to have these kinds of 
reforms reflected in the fiscal year 2006 budget bill, which 
will take place toward the end of the year.
    Let me close with one other item of interest. This 
committee has expressed a concern with what is called the 
Intelligence, Surveillance, and Reconnaissance Council. That 
council has met for the first time 2 weeks ago. It has laid out 
an agenda of work for the coming weeks and months. It will be a 
vehicle by which we get to some of the issues that have been 
raised in the opening statements here this morning; 
specifically, how is it that we begin to lash together the 
various service capabilities so that we do, in fact, have a 
joint capability? How do we take that joint capability and 
better associate it with the national capabilities, and assure 
the flow of information from the one community to the other? 
Then, third, how do we look to what we need for the future? We 
do need to have a much better description of the range of 
capability that we will require, and to provide to you a sense 
of how, in the end, we think we can fund that capability in the 
coming years.
    Mr. Chairman, that's a precis of the statement that I have 
prepared for your subcommittee and for the record. I would ask 
that that prepared statement be submitted for the record, sir, 
and that of my colleagues. With that, I'm happy to take any 
questions you may have.
    [The prepared statement of Secretary Cambone follows:]

             Prepared Statement by Hon. Stephen A. Cambone

                              INTRODUCTION

    Thank you, Mr. Chairman, and members of the subcommittee for 
inviting me here today. I appreciate the interest the subcommittee has 
in the stand up of the USD(I), which occurred a little over a year ago. 
I will briefly review the roles and missions of my office as well as 
the DOD's goals in guiding the Defense Intelligence Community. I would 
also like to provide you an overview of the tactical and operational 
intelligence capabilities and requirements of the DOD, as well as how 
the military intelligence capabilities of the DOD can best be 
transformed to support combatant commanders and subordinate warfighting 
commands. I would also like to briefly review some steps we are taking 
to help determine future DOD intelligence requirements as well as what 
we are doing to acquire these capabilities--which will be critical to 
success against current and future threats. I will also provide some 
comments on the role of the Intelligence, Surveillance, and 
Reconnaissance Integration Council as well as my assessment of the 
performance of the DOD ISR system, including the supporting 
communications architecture during recent military operations, the 
degree of integration that has been achieved, the ability of this 
system to support the peacetime and contingency requirements of all 
combatant commanders, lessons learned at the tactical, operational and 
strategic levels of intelligence support, and any significant changes 
or reforms to DOD intelligence that I am implementing or considering. 
Finally, I will discuss my Horizontal Integration efforts and how we 
are working with the Director of Central Intelligence to move forward 
in an area that will play an important role in enhancing how analysts 
can more effectively manage information and find the critical knowledge 
decisionmakers need.

                          CURRENT ENVIRONMENT

    We are facing a turbulent and volatile world. It is populated by a 
number of highly adaptive adversaries including terrorist networks that 
operate both within the confines of civil society and in ungoverned 
areas. It is a world in which international political-military affairs 
continue to evolve. As a result of these and other ongoing 
developments, it is impossible to predict with confidence what nation 
or entity could pose threats in 5, 10, or 20 years to the United States 
or to our friends and allies. This places a heavy burden on 
intelligence. Deterring, and if necessary confronting and defeating 
future adversaries, some of whom may emerge only in the fullness of 
time, will require detailed understanding of their goals, motivations, 
history, networks, and relationships that is developed over a long 
period of time and to a level of detail that is far deeper than we can 
reach today.

                        DOD'S SIX CRITICAL GOALS

    If the DOD's intelligence components are to successfully fulfill 
their roles in the coming decades both as part of the Intelligence 
Community (IC) and in their roles in support of the operations of the 
joint force, we must modernize and transform that capability.
    The SECDEF identified six critical operational goals in the 2001 
Quadrennial Defense Review (QDR) that provide the focus for the DOD's 
overarching transformation efforts. They are:

    (1) Protection of critical bases and defeating chemical, 
biological, radiological, and nuclear weapons;
    (2) Projecting and sustaining forces in anti-access environments;
    (3) Denying enemy sanctuary;
    (4) Leveraging information technology;
    (5) Assuring information systems and conducting information 
operations; and
    (6) Enhancing space capabilities.

    Intelligence has a major contribution to make in meeting these 
goals. Our intelligence capability is essential to military success. It 
is a key enabler of how and when our power is applied. Intelligence 
capabilities allow military commanders to prepare appropriately, and 
when ordered by the President, to close rapidly with the adversary, to 
swiftly defeat the enemy, and to support follow-on security and 
stability operations.
    In support of the DOD's goals and to guide us in the transformation 
effort we have established the following goals:
Defense Intelligence Goals To Achieve Intelligence Transformation
    (1) Know something of intelligence value about everything of 
interest to us, all the time: Current collection capabilities 
predominantly reflect a Cold War-era reconnaissance paradigm--one of 
periodic looks and sampling. Persistent surveillance (the ability to 
monitor, track, characterize, report and update at short intervals on 
specific activities at a fixed location, moving objects such as trains, 
convoys or military movements, as well as changes occurring to the 
surface of the earth) is essential for planners, operators, and policy 
makers. We need to evaluate existing and proposed intelligence programs 
e.g., technical collection, HUMINT, etc. in light of the goal of 
persistent surveillance. We need to seek out and develop long-dwell 
sensors and pursue other emerging technology breakthroughs in sensor or 
platform capability. We must also develop technology to permit rapid 
data exploitation by users who need it most urgently. The combination 
of these improvements will enable us to achieve the goal of persistent 
surveillance.
    (2) Develop reliable strategic warning: Competence in strategic 
warning across the full spectrum of potential threats is critical to 
support the full range of political, economic, and military tools that 
we have. For DOD in particular, strategic warning is essential to 
provide the time needed to re-fashion our forces and adjust their 
posture in a timely, efficient, and effective way to dissuade 
adversaries, deter foes and, when necessary, defeat enemies. The effort 
is complicated by the reality that the warning we seek in the future is 
likely to be against threats that we may not be able to imagine today. 
Averting crises is nearly always preferable to managing them.
    (3) Pursue agile and adaptable intelligence collection and analysis 
capability: Our intelligence capability needs to be less dependent on 
Kepler's Laws, Bernoulli effects (that is, satellites and aircraft in 
fixed orbits), and linear processes (like Tasking, Processing, 
Exploitation and Dissemination) (TPED)), and more prepared to respond 
to surprise. We need to expect the unexpected. The tremendous amount of 
information available to collectors and analysts requires a 
horizontally-integrated, network-centric environment less constrained 
by bandwidth limitations. Today's transforming military and 
intelligence environment demands rapid conversion of data to 
information and information into actionable knowledge. Interoperability 
at the data level, through the use of common standards and content 
tagging, will further the horizontal integration of information from 
all sources--not just intelligence--at all levels of classification. 
The net result will be a more efficient use of our collection assets 
and a more effective synergistic use of our intelligence analysts.
    (4) Provide an intelligence capability that supports a national 
strategy of forward deterrence and agility: Deterring future 
adversaries will require a detailed understanding of their goals, 
motivations, history, networks, relationships, and all the dimensions 
of human political behavior, on a scale that is broader and deeper than 
today's. This requires a regeneration of our HUMINT and close access 
capabilities and an overhaul of our analytic processes and culture. An 
``intelligence reachback'' capability is needed to permit deployment of 
platforms/sensors/shooters to forward operational areas without the 
need to deploy analytic cells and infrastructure into theater. 
Reachback communications from our intelligence platforms can make this 
collected intelligence data readily available to our military forces 
and to the Intelligence Community through shared communications and 
archives. It is now DOD policy that the national intelligence agencies 
and service intelligence centers have broad access to collected theater 
intelligence data along with the authority to store and distribute. 
This will facilitate the horizontal integration of ISR information 
making the analytical power available to assist where needed without 
extended lead times and delays.
    (5) Ensure military forces receive intelligence in a fashion and in 
a format that enables them to swiftly defeat an adversary: We need 
intelligence that enables us to act quickly, secretly, and 
effectively--intelligence that enables us to anticipate our adversary's 
actions and anticipate the needs of our commanders and warfighters. We 
then need to provide predictive intelligence that stays ahead of the 
battle. This implies continuous preparation of the battle space, 
whether it is on the surface, under the seas, in the air, in space, or 
in cyber-space. This includes having policies and procedures to deliver 
nearly instantaneously critical data from sensitive sources directly to 
the warfighter so that prompt action can be taken based on that data. 
Intelligence support must extend to the post-conflict, security and 
stabilization phase of a campaign as well.
    (6) Ensure knowledgeable adversaries do not compromise our secrets: 
This will require obtaining robust capabilities to acquire an 
adversary's secrets in ways that cannot be comprehended, even as we 
ensure that our own capabilities are not vulnerable. Traditionally, 
this goal has been met through defensive measures. In the world of 
today and tomorrow that will not be enough. An active offensive 
counterintelligence effort is needed to complement defensive measures. 
To protect our plans, critical infrastructure, and research technology 
while at the same time countering espionage, we will need to learn of 
an adversary's intent and capability in advance and take measures to 
deny and disrupt those efforts. An offensive posture will require 
investment in intelligence capabilities that allow us to gather 
exquisite knowledge of the adversary, but without his knowledge, that 
is integrated with and validated by sensitive HUMINT sources, and 
explained by trained analysts.
    In order to support the needs of both the policymakers and the 
warfighters, the Office of USD(I) continues to evaluate Defense 
intelligence plans and programs and to make resource decisions relative 
to the six primary Defense Intelligence goals as well as lessons 
learned from recent operations. The Office of the Under Secretary of 
Defense (OUSDI) coordinates with the DCI's Community Management Staff 
(CMS) to ensure continuity and consistency across the National Foreign 
Intelligence Program (NFIP), the Joint Military Intelligence Program 
(JMIP) and the Tactical Intelligence and Related Activities (TIARA) 
programs.

ISR Organizational Transformation
    ISR organization and doctrine--whether in support of political or 
military leaders--has not been systematically revised for two 
generations. ISR activities are burdened by legacy policies and stove-
piped activities that are de-conflicted, but not integrated either 
within DOD or between DOD and the IC. We are taking measures to create 
a modern ISR capability.

Unified Command Plan Change--Global ISR
    The organizational transformation of our ISR forces is already 
underway. The means by which ISR information was produced and used in 
Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF) is just the 
beginning of what will eventually become a transformational 
intelligence capability. Cooperation among defense and non-defense 
agencies was outstanding during these conflicts and resulted in a 
number of innovative applications of intelligence. Fused analysis of 
data provided by differing disciplines produced new kinds of 
information. Close integration of intelligence and operations was the 
norm, to the point where the two were sometimes indistinguishable. 
Speed with which critical information was supplied to both analysts and 
warfighters made the difference in a number of critical situations. New 
tactics, techniques, and procedures for collecting, analyzing, and 
disseminating intelligence made contributions to the successful 
completion of those campaigns. We must codify these lessons by updating 
how our ISR forces are organized and fight.
    USSTRATCOM, in addition to its Global Strike responsibilities, has 
been assigned responsibility for global ISR. This is in keeping with 
our continuing effort to make intelligence and operations integral to 
each other and capable of performing within the timelines of the 
commander's decisionmaking cycle. We know that if intelligence lags 
behind operational and command decisionmaking windows it is not 
actionable. Just as a maneuver formation on the ground, at sea or in 
the air is a warfighting system, so is intelligence. By making ISR the 
responsibility of a functional combatant commander we gain synergy and 
perspective among warfighting systems.
    In addition to the assignment of the global ISR the mission to 
USSTRATCOM, I have issued guidance for all theater-collected airborne, 
shipboard, and ground intelligence data to be posted for discovery and 
access across the Global Information Grid in a timely manner. The 
chairman's staff is converting this guidance to an instruction. I 
believe this is the first time such direction has been given. Not only 
does it permit access to the data at all levels within a command and 
between commands, it also opens the way for sharing this data with the 
larger IC, which I believe is a first as well.
    We are also working closely with USSTRATCOM, the DCI's CMS, the 
Combat Support Agencies (CSA) and the Joint Staff on proposals to 
operationalize our coordination between and among organizations to 
maximize the return on DOD and IC collection.

ISR Integration Council
    The ISR Integration Council, under my direction, will be the 
vehicle the Department uses to connect Defense ISR programs and the 
Global ISR applications and capabilities being administered by 
USSTRATCOM. The objective of the ISR Integration Council will be to 
oversee DOD's fundamental goals in achieving an integrated ISR 
capability. It will provide leadership for ISR capability 
transformation, overseeing development of an investment strategy for 
achieving integration of DOD's ISR capabilities that ensures effective 
sustainment of needed tactical and operational efforts and efficient 
acquisition of transformational ISR capabilities. The ISR Council's 
strategy will allow rationalization of ISR investments focusing on 
identification of critical ISR integration issues, materiel and non-
materiel. It will enable synchronization of Service and Agency 
programs, resulting in better integration of investment across the full 
spectrum of ISR systems--operated by the Services and the CSAs.
    To guide the Council in its deliberations and to institutionalize 
its products, we are developing an ISR Integration Roadmap. This 
roadmap will be a broad document that provides guidelines for future 
capabilities, articulates the DOD's fundamental ISR goals, establishes 
the boundaries of the trade spaces within which the DOD's ISR 
investment strategy will be built, and identifies the options for 
funding. It will span the entire range of Defense ISR, including space, 
air, maritime and ground systems, as well as HUMINT and emerging 
disciplines. The roadmap will also address key external issues/systems 
that impact Defense intelligence, such as the Transformational 
Communications Architecture, to enable an understanding of how issues 
in those foundational capabilities will affect the ability of Defense 
ISR to transform.

ISR Investment Transformation
    The DOD is strengthening our intelligence capabilities by 
transforming our ISR processes, procedures, and systems. We must 
transform if we are to succeed in protecting our homeland and in 
achieving and ensuring peace abroad. The DOD is currently engaged in 
transformational ISR investments to bolster integrated ISR 
capabilities. Investments made in collection systems a generation ago 
are being re-evaluated. Known adversaries, arrayed in large formations, 
operating in known locations, have given way to a new combination of 
potential threats who focus their efforts on denying us use of those 
capabilities we rely upon most.

ISR Communications Network Investment
    ISR collection must be coupled to a process that allows the data 
collected to be accessed by the user--the analyst or the military 
operator. Toward this end, beginning in fiscal year 2003 substantial 
investment has been made in laser satellite communications, the 
expansion of the Global Information Grid, the creation of a Distributed 
Common Ground System (DCGS), and joint command and control systems. 
These, in turn, are being fashioned into a networked operating 
environment both the Defense and IC share. As this capability comes on 
line, the need for ``direct downlinks'' (and the bandwidth that it 
consumes in theater) will decline as ``reachback,'' both on and through 
the intelligence network, takes hold.

ISR Interoperability Investment
    The DOD continues to increase real-time networking of ISR systems, 
improve access to ISR information by weapons platforms, and increase 
interoperability among ISR systems, allowing seamless integration of 
collected sensor data into the joint and national environment. The DCGS 
is the DOD's overarching family of interconnected systems for posting, 
processing, exploiting, and updating ISR information. Many ISR assets 
are already an element of, or have a major interface with, the DCGS. 
DCGS is also the DOD's ``hub'' to effectively implement the information 
sharing relationships between the warfighters, the Service intelligence 
analysts, and the various intelligence agencies.
    A key feature of DCGS is that it's constructed in such a way that 
the data is separated from the Service applications used to employ the 
data. Each Service--or by extension agency or command--can at its 
discretion or by direction of higher authority employ the same 
applications. This is especially important in a joint operating 
environment. But, for other Service, agency or command-specific 
activity, the users are free to assemble and present the data in a 
manner most appropriate to its need. In other words, we have avoided 
``one size fits all'' in favor of the ability to create a user defined 
operating picture on demand.
    Another important feature of DCGS is the potential to support 
integrated mission management by allowing all available data to be 
accessed by any interested user. This could reduce the overall demand 
for ISR collection assets by eliminating unnecessary duplication of 
effort and maximizing the processing of the total collected data.

ISR Platform and Sensor Investment
    The DOD's ISR ground, naval, and airborne platforms have been 
heavily employed since the start of the global war on terrorism. These 
systems provided a significant portion of the theater and tactical 
intelligence information during OIF and continuing operations in 
Afghanistan, enabling rapid precision strikes and an unprecedented 
speed of advance by our ground forces. These ISR platforms remain the 
primary ``eyes and ears'' of our deployed forces. This administration 
has strongly supported programmed budgets and supplemental requests 
that have funded numerous improvements to ISR systems to enhance our 
existing capabilities.
    Among the investments made in newer platforms or sensors, DOD is 
fielding high endurance Unmanned Aerial Vehicles (UAV) (e.g., Air 
Force's Predator and Global Hawk) and smaller tactical UAVs (to include 
Army's SHADOW 200), providing flexibility and adaptability to meet the 
immediate needs of battlefield commanders in Iraq and Afghanistan. The 
DOD continues to invest in other UAV programs like the Navy's Broad 
Area Maritime Surveillance (BAMS) and vertical take-off and landing 
(VTOL) tactical UAV (VTUAV). The Joint Unmanned Combat Air System 
(JUCAS), conceived as a combat aircraft, may prove to have ISR 
potential as well.
    The Aerial Common Sensor (ACS) is a project now wholly within the 
Defense Airborne Reconnaissance Program (DARP) for fiscal year 2005, 
realigned from TIARA and the JMIP's DCP and consolidated within DARP. 
ACS is an Army-led, joint airborne ISR system that will meet both Army 
and Navy requirements. ACS will provide commanders with tailored, 
multi-sensor intelligence using four to six onboard operators. The 
robust ACS Multi-sensor capabilities include communication intelligence 
(COMINT), electronic intelligence (ELINT), imagery intelligence (IMINT) 
and MASINT sensors, incorporating electro-optical (EO), infrared (IR), 
synthetic aperture radar (SAR), Ground Moving Target Indicator (GMTI), 
and multi- and hyper-spectral imagery sensors. For the Army, ACS 
replaces the aging RC-12 Guardrail Common Sensor and the RC-7 Airborne 
Reconnaissance Low fleets beginning in fiscal year 2009, while the Navy 
will replace their EP-3E Aries II aircraft with ACS beginning in fiscal 
year 2012.
    Prominent among new investments to realize the intelligence goal of 
persistent surveillance is the SBR. The fiscal year 2004 SBR 
appropriation was $198 million and the fiscal year 2005 request is $438 
million, spread across three TIARA and JMIP budget lines. The fiscal 
year 2005 request is critical for the concept development activities we 
are pursuing under the SBR acquisition strategy. The surveillance 
provided by a space-based radar, in combination with other 
complementary space and airborne systems, could bring us much closer to 
realizing persistent surveillance. SBR plays to an established area of 
U.S. technological advantage with its all weather, day/night, and 
worldwide multi-theater access. SBR capabilities will include:

        <bullet> Surface moving target indication
        <bullet> High Resolution SAR imagery
        <bullet> High Resolution Terrain information

    Among the products envisioned from using these SBR capabilities 
are:

        <bullet> Maneuver Doctrine
        <bullet> Relocatable Entity Tracking
        <bullet> Treaty Monitoring/Verification
        <bullet> Coherent change detection (CCD)
        <bullet> Dynamic Imaging

                         HORIZONTAL INTEGRATION

    These new ISR capabilities will be enabled by an overarching 
Horizontal Integration (HI) strategy that compels an integrated 
approach to acquiring and applying collection assets--a planned 
``system-of-systems'' that integrates surveillance capabilities across 
the various human and technical intelligence disciplines and national, 
theater, tactical, and commercial programs. This provides the mechanism 
to share information across the enterprise--increasing the likelihood 
that events can be correlated and fused to increase the accuracy, 
timeliness and value of intelligence.
    OUSD(I) is working closely with the IC to achieve the horizontal 
integration of currently fielded and future DOD and IC intelligence 
systems. The aim of HI is to take full advantage of future intelligence 
systems that provide agile and persistent collectors, enable ease of 
information sharing, and support predictive analysis to deal with a 
strategic environment characterized by adaptable adversaries, 
accelerated technology diffusion, and the increasing potential for 
disruptive and destructive attacks.
    Pursuit of HI was a key recommendation of the Kerr Panel report on 
remote sensing in 2001 and it was the primary recommendation from the 
July 2003 Transformational Space and Airborne Project (TSAP) report 
sponsored by DOD and the IC. The TSAP study found that near term 
improvements in intelligence capabilities could best be realized by 
focusing on HI and recommended immediate implementation of initial 
policy, management, and organizational improvements.
    In August 2003, a Senior Steering Group for HI was formed to guide 
the implementation of these key capabilities across DOD, the IC, and 
law enforcement. This steering group is co-chaired by the Assistant 
Director of Central Intelligence and myself.
    Among the principles guiding our approach to HI:

        <bullet> It places emphasis on the tailored mission needs of 
        consumers;
        <bullet> It shifts the focus from data ownership to data 
        usability; and
        <bullet> Accordingly, it urges that all data must meet net-
        centric standards at its earliest point of consumability and be 
        broadly available.

    Quite honestly, we have not yet worked out between DOD and the IC 
the many thorny issues that need to be resolved to realize the promise 
of HI. However, I do believe that the vision of a seamless and 
transparent capability to translate analysts' needs into the collection 
of information, and the availability of that information in a timely 
fashion to be structured in useful formats to those who need it, will 
come in its own time. The advance of the Internet, with the adoption of 
its features both within Defense and the IC, suggest to me that this 
time is not far off.

Intelligence Campaign Plans
    As we develop integrated approaches to acquiring and applying 
collection assets, we must also develop integrated approaches for 
planning and conducting intelligence operations. We have begun 
exploring the concept of Intelligence Campaign Planning, which is 
designed to synchronize and integrate intelligence into the commander's 
adaptive planning process and, when fully developed, will bring 
together DOD and IC capabilities in a more synergistic effort. 
Intelligence Campaign Plans are designed to focus the IC's capabilities 
on the commander's critical decision requirements. Under the old 
paradigm, intelligence developed stove-piped plans that were poorly 
coordinated. Recent lessons learned and new operational concepts 
require intelligence plans that are fully integrated, multi-discipline, 
holistic and support all phases of operations.
    To that end we have asked the Commander, Joint Forces Command, to 
begin the concept development process, focusing initially on three 
elements of Intelligence Campaign Planning: defining and developing the 
concept, creating a comprehensive methodology for use by the DOD IC, 
and designing an exercise venue for validating the concept and 
methodology.
    To fully realize the promise of robust Intelligence Campaign 
Planning, we have begun an intensive, long-term strategy for remodeling 
defense intelligence in order to address several of our major 
objectives. This remodeling effort focuses on ``operationalizing 
intelligence,'' transforming the functions and capabilities of Defense 
intelligence into more than simply a supporting arm of the DOD, but 
rather into a true joint operational capability. We are examining 
organizational approaches that could provide senior DOD leaders and 
military commanders a wide array of intelligence options against mobile 
and adaptive adversaries. Those organizational approaches are being 
evaluated for their contributions.

Human Intelligence Revitalization
    HUMINT is one of our top priorities in the defense intelligence 
remodeling effort. HUMINT in the DOD context is much more than 
clandestine recruitment of assets. It includes clandestine logistics, 
overt debriefers, and interrogators, as well as the hundreds of 
Tactical HUMINT Teams we have deployed in the U.S. Central Command 
(USCENTCOM) Area of Responsibility (AOR). We have taken steps to 
provide better management and oversight of HUMINT resources by 
establishing a new JMIP Program, the Defense Human Intelligence Program 
to give us better management and oversight of HUMINT resources.
    Finally, we are studying a number of inputs gathered from combatant 
commands and the Services, including lessons learned from both 
Afghanistan and Iraq, regarding their clandestine and overt HUMINT 
needs.

                    REMODELING DEFENSE INTELLIGENCE

    Proposed plans and initiatives for Defense intelligence 
transformation are the culmination of almost 10 months of work. We 
began with a multi-service, interagency study titled `Taking Stock of 
Defense Intelligence,'' which we have offered to your staff. Our 
efforts to remodel defense intelligence are a work in progress, but we 
are moving toward implementation, while consulting across the defense 
IC, the national IC, and supported warfighters as we move forward. In 
the coming months, I look forward to sharing with you the progress we 
are making and refinements in our plans as we pursue this goal.

                               CONCLUSION

    Our Nation possesses a preeminent advantage: A global intelligence 
capability composed of the very best people and the finest technology 
anywhere. Military capability, guided and enabled by intelligence, is a 
powerful instrument. The DOD--along with its IC colleagues--are 
reshaping and revitalizing intelligence capabilities to meet the more 
rigorous demands of today and tomorrow. I look forward to the 
opportunity to work with you to improve the Nation's intelligence 
capabilities in this time of war. Again, thank you for your support. I 
look forward to your questions.

    Senator Allard. We will put your full statement and each 
one of your colleagues' in the record. I would ask that the 
rest of the panelists, in their testimony, try and limit their 
comments to around 3 minutes or so, so we have plenty of time 
for questions from the members of the subcommittee. Just 
remember that we're going to have your full statement in the 
record, and will have an opportunity to go through it in 
detail.
    Also, Secretary Cambone, I'd just remind you that we'll be 
going through with the defense authorization bill here 
relatively quickly, and so if you have suggestions that you're 
going to submit to this subcommittee and to the Armed Services 
Committee, we need to be getting those quickly. Perhaps before 
you even complete your process, give us some heads-up of what 
you're thinking so that perhaps we can begin to get our staffs 
working on some of those issues.
    Let me next go ahead and call on General Alexander, Deputy 
Chief of Staff, G-2, Department of Army.
    General Alexander.

STATEMENT OF LT. GEN. KEITH B. ALEXANDER, USA, DEPUTY CHIEF OF 
               STAFF, G-2, DEPARTMENT OF THE ARMY

    General Alexander. Sir, thanks for the opportunity to 
appear here, Mr. Chairman and distinguished members of the 
subcommittee. It is an honor to be here and to tell you about 
what's going on in Army intelligence.
    As I walk the halls and go out to each of our units, I'll 
tell you that the spirit that we have in Army intelligence is 
as high as it has ever been. With the operational tempo that we 
have going on, I know this might sound strange to you, but that 
is, in fact, what I see when I talk to our soldiers. The reason 
it's high is because we have an opportunity to make changes 
that both of you have addressed earlier on, and we see those 
changes as required to get us into the future. That's what we 
see in transformation, Army transformation, that it's needed to 
get the intelligence that you both spoke of to all the soldiers 
and the operators that we have in the field.
    Now, I think there's two key points to make on this. First 
of all, the Army leadership has backed actionable intelligence 
as part of Army transformation fully. General Schoomaker, the 
Vice, and the acting Secretary have been superb. I think 
equally important is Dr. Cambone in the OUSDI has been superb 
in providing us support and mediating between the agencies that 
which the Services need, and that support has also been superb 
and something that's needed in Army intelligence for as long as 
I can remember.
    In Army intelligence transformation, there's a few things 
that I'd like to note, with a few vignettes. First, in our 
transformation, a key point that you brought out, sir, is 
changing the culture and mindset. When we talk about culture 
and mindset, first and foremost, when we put a unit on the 
battlefield, we have, in every soldier, a sensor. Getting that 
information that that soldier has to the other soldiers and to 
the operators out there is key. The second one is fighting for 
knowledge, creating your own luck. Those culture and mindset 
changes that we're trying to instill in the Army are important, 
and can only happen when we start to make some of the other 
changes that we've put in the paper that I've provided; 
specifically, tying those sensors and soldiers to a network, 
enabling that network and the analytic centers to work 
together, and providing them access to the databases.
    Let me give you some examples of how this has worked and 
where we see it going in the future. In Kuwait, in 2002, we had 
soldiers from 3rd Infantry Division working with soldiers from 
our theater and national brigades doing all sorts of collection 
on Iraqi border guards, their outposts, their actions, where 
they were located, and how they operated. That information 
allowed the 3rd Infantry Division intel soldiers to tell their 
chain-of-command where these outposts were, what they were 
doing, and how to target them. The outcome was zero casualties 
for our folks and the takedown of every one of those outposts. 
The lesson learned is, how do we as an Army use our soldiers, 
tactical soldiers in national-level/theater-level operations, 
to get them the skills and the training that they need? We're 
going to do that in Army transformation under a program called 
Foundry.
    The 3rd Infantry Division went from Kuwait to Baghdad. One 
of the tactical HUMINT teams picked up an air force general. An 
Iraqi air force general. I wanted to make that clear. 
[Laughter.]
    This Iraqi air force general had on him a series of names--
key names, places, and events that were used by our forces to 
pick up key Iraqis necessary in our campaign. I can give you 
more in closed session on that. But the part that I wanted to 
bring out was the tactical HUMINT team. When I went over there 
and talked to every division commander, they said, ``We need 
more tactical HUMINT. We need more unmanned aerial vehicles 
(UAV).'' Sir, part of Army transformation gives them both UAVs 
and tactical HUMINT.
    Another tactical HUMINT team ran into a few guys coming 
down the road, they stopped him, opened up his trunk, and he 
had a bunch of money and some other paraphernalia in there. He 
claimed he was just an ordinary citizen traveling through Iraq. 
This is during a firefight, and they were in civilian clothes. 
Kind of strange. But they policed these up. More importantly, 
the names of this individual and some of the other 
paraphernalia were sent back to the analytic centers here in 
the States. I think this shows you how our agencies are 
starting to work together, because all of our national agencies 
and our tactical analytic centers worked together. This guy was 
taken to Kuwait and by the time they got there, they knew he 
was a key Iraqi intel service general. They knew who he had 
operated with and where he had been, and that's how they could 
start their tactical questioning and interrogation. It was 
extremely important in breaking out a series of raids 
throughout Iraq later on in the next week.
    The reason I bring that out is because, one, it shows you 
how important tactical questioning, analysis, and interrogation 
are to our folks. Two, it's how we're training them today. We 
call it our intel support to combating terrorism. It's done at 
Fort Huachuca, and it uses the lessons learned from Guantanamo 
to our folks in Afghanistan and in Iraq. Also, the benefits for 
tactical questioning, for those soldiers on the ground to know 
how to ask the right questions of these guys, is being taught 
to every one of our centers--in every one of our schools and 
centers throughout the United States before soldiers deploy.
    Another vignette that I would use, and I can give you the 
highlights of this, really shows how powerful it is to bring 
our analytic centers together, because what we've found was, in 
capturing one of the key Zarqawi lieutenants is, using the 
power of those analytic centers and the information they had, 
they were able to identify, locate, and give the information to 
one of the SOF units to take down one of the key Zarqawi 
lieutenants. I'll tell you that that shows that we are making 
headway in how we get the analytic centers to work together 
with the national agencies and the tactical forces, what you 
call, sir, horizontal integration or whatever it may be. I'll 
tell you, sir, that we have made some great changes. That's 
what we're trying to do in transformation.
    In order to get that to work, we have put together, in 
Korea, an operation called Project Morning Calm. In fact, that 
is sponsored by the USDI. That project brings together 
everything that I just talked about back to our elements here 
in the States, and is a great test bed for how we can kick-
start some key things for intelligence, get that going, take 
those lessons learned, and apply them to Iraq and Afghanistan. 
Those lessons learned that we have in Korea and Iraq and 
Afghanistan, we're moving amongst all three of those, and we 
have a team that is doing those in each. I know that the Chief 
of Staff of the Army has brought that up to you previously.
    Sir, I appreciate the opportunity to be here today, and 
look forward to answering any of your questions.
    Thank you.
    [The prepared statement of General Alexander follows:]

         Prepared Statement by Lt. Gen. Keith B. Alexander, USA

                            OPENING COMMENTS

    Mr. Chairman and members of the subcommittee, I am Lieutenant 
General Keith Alexander. Thank you for this opportunity to testify in 
support of the JMIP and Army TIARA. I would like to personally thank 
each of you for your support, which is vital to our soldiers fighting 
the global war on terrorism on the ground in Iraq, Afghanistan, and 
throughout the world. Your support is sincerely appreciated and is 
critical as we continue to fight the war, rapidly adapt and transform 
our current force and design the future force.
    Army Intelligence is fully embedded within the aggressive Army 
transformation plan which is moving from the current to future force . 
. . now. Focused on fixing the current force while building towards the 
future force, we are synchronized within the overarching Army plan, 
ensuring that the intelligence capabilities and processes are fully 
capable of supporting a joint and expeditionary quality force that will 
be relevant and ready to fight our Nation's wars and defend our 
homeland. As we continue to fight this war, improve and reset our 
current force and transform while in contact, we remain intrinsically 
synchronized with the DOD intelligence objectives. We are also working 
closely with the other Services, the combatant commands, the combat 
support agencies, the joint community and the USD,I to ensure we 
develop an integrated and relevant IC. Within this written testimony, I 
would like to briefly discuss the following areas:

        <bullet> Intelligence lessons learned from the global war on 
        terrorism
        <bullet> Army Operational and Tactical Intelligence support to 
        the war
        <bullet> Army Intelligence JMIP and TIARA program highlights
        <bullet> Army Intelligence Transformation--Actionable 
        Intelligence

                               BACKGROUND

    Our Army, our Army Intelligence team, and our soldiers are fighting 
and are doing a superb job not only in Afghanistan and Iraq, but also 
throughout the entire world. By the end of this year, 9 of our 10 
active Army Divisions--all but the 2nd Infantry Division committed in 
Korea--will have seen action in Afghanistan or Iraq. More than 325,000 
soldiers remain forward-deployed and stationed in 120 countries around 
the globe supported by over 164,000 mobilized Reserve and National 
Guard soldiers while 23,000 soldiers are directly supporting global war 
on terrorism operations within the United States. Decisively engaged in 
defending our homeland and fighting the global war on terrorism, 
Intelligence soldiers are serving with distinction at home and abroad. 
As of 12 March 2004, there were approximately 2,700 active component 
and more than 1,000 Reserve component Intelligence soldiers mobilized 
for active Federal service in support of Operation Noble Eagle, OEF, 
OIF, and Joint Task Force, Guantanamo (JTF-GTMO).
    We are making significant improvements within our current force, 
fixing problems, adapting processes and systems and are giving our 
commanders and soldiers the best possible support and systems 
available, but we are not done--we still have a lot to do. We are 
working through the institutional procedures and policy barriers that 
have been in place since the Cold War. We intend to rapidly adapt 
structures and procedures to develop and field the equipment our 
soldiers need and deserve today, vice waiting years as we now do under 
an archaic and lengthy acquisition process.
    The Army is fighting a war while simultaneously rotating, 
resetting, rethinking, rebalancing, restructuring, and designing a 
future force; incorporating lessons learned while also spiraling 
technology insertions into the current force. As we design and 
incorporate technological solutions for the future intelligence force, 
we are also pulling relevant technology to the left (spiral insertions) 
into the current force. The INSCOM Information Dominance Center (IDC) 
and Project Morning Calm are exceptional examples of how we are 
accelerating transformation by operationally applying new analytic 
tools and capabilities in support of Army and Joint Warfighters for 
insertion or inclusion into our new systems, most specifically, 
Distributed Common Ground System-Army and Joint (DCGS-A and DCGS-J).
    We are moving from the current force to the future force . . . now:

        <bullet> to reflect wartime realities
        <bullet> to incorporate ``next generational'' capabilities
        <bullet> to keep soldiers first
        <bullet> to develop a Joint and Expeditionary Army

                   INTELLIGENCE LESSONS FROM THE WAR

    Traditional intelligence methods and products served U.S. forces 
well during the combat phase of OIF, although there was a notable 
degradation of situational awareness for forces on the move because of 
the lack of an adequate network and the inability to fuse all source 
intelligence while on the move. During Phase IV (Post Combat 
Operations), intelligence sensing requirements shifted dramatically to 
Human Intelligence (HUMINT) as the principal of the intelligence 
disciplines rather than more technical collection means.
    Following an on-the-ground assessment of the intelligence resources 
and processes in Iraq, the Army G2 Staff worked with CJTF-7, 
identifying long and short term solutions to improve intelligence for 
OIF and to improve the current force. Short-term solutions are well 
underway. Of the 127 actions initially noted, the majority are in place 
today and new actions are being addressed as they are identified not 
only in support of OIF, but OEF as well. These lessons are proving 
critical as we concurrently develop an intelligence transformation to 
the future force.
    The intelligence related lessons learned are categorized in four 
major areas:

    (1) Tactical collection: Overall, analysis and sensing capabilities 
were inadequate at maneuver brigade and battalion echelons. Since the 
ability to strike at the enemy exceeded our ability to target them, we 
needed more UAVs and other targeting sensors. Every Division Commander 
stated that they needed both more UAVs and more Human Collection Teams 
(HCTs). Limited capabilities to conduct tactical surveillance of the 
enemy revealed the need for more SIGINT assets and more HUMINT 
capabilities. We are addressing these priorities through our close work 
with Task Force Modularity in redesigning the Army's new Maneuver Units 
of Action (Brigades of today). We are ensuring there are sufficient 
organic collection and analysis capabilities to meet the identified 
requirements. Some upgrades already implemented include augmenting 
units monitoring borders with existing sensors and further providing 
leading-edge capabilities as they become available. We have also 
installed special-purpose document exploitation suites (Harmony) to 
facilitate Document Exploitation (DOCEX).
    (2) Reporting: The information obtained from combat patrols, 
logistics activities, and other non-Military Intelligence (MI) missions 
was not adequately integrated into the intelligence system for 
analysis. Information that soldiers reported was not in digital form 
and therefore did not enter the reporting system quickly enough to be 
of operational use. The small percentage of reports that actually 
entered the intelligence system were manually transcribed and entered 
the analytic network after the completion of the operation. To resolve 
this issue, we must digitize all reporting at the point of origin and 
connect the soldier and tactical echelons to the network. In the near 
term, we are rapidly fielding Force XXI Battle Command Brigade and 
Below (FBCB2) to provide a reporting and intelligence exchange 
capability at the soldier level. To link the soldier and tactical 
echelons to the network we are rapidly creating and fielding DCGS 
capability down to battalion level. We also must re-emphasize the 
doctrinal aspects of tactical reporting. The Intelligence Center and 
School has sent out a Mobile Training Team to address both this and 
tactical questioning issues.
    (3) Access to National Intelligence: We have made great strides in 
information access, but we still have a way to go. Intelligence access 
was, and still is, constrained by policies that restricted 
dissemination and use, especially at the tactical level (division and 
below). These policies complicated basic access to many databases, 
limiting our ability to conduct all-source analysis. We are working 
with DOD to eliminate classification dissemination caveats and grant 
universal data access. Initiatives such as the IDC and Project Morning 
Calm are assisting in accessing and providing access to various 
databases and agencies. We are building Trojan Spirit (a classified 
communications capability) into every Maneuver Unit of Action.
    (4) Networking Analytic Centers: During the war, especially as 
troops deployed forward, we had large volumes of message traffic, with 
incredible amounts of information, but did poorly in extracting and 
synchronizing relevant knowledge with our tactical forces. The 
increased volume of intelligence at higher echelons could not be 
processed, refined or fused for tactical or operational use on a timely 
basis. We had good situational awareness across the force until our 
units crossed the line of departure (LD) into combat. After crossing 
the LD, the pace of the attack limited shared situational awareness and 
resulted in a constant movement-to-contact operational environment. 
This lack of shared situational understanding revealed the need for a 
digital intel-on-the-move network capability supported by 
communications-on-the-move at the lowest echelons. We also need to 
evolve our doctrine such that analytic centers provide ``overwatch'' of 
tactical formations 24/7.

            ARMY INTELLIGENCE SUPPORT TO CURRENT OPERATIONS

    The soldier is our focus--every soldier is a sensor. We have over 
120,000 soldiers--sensors--located on the battlefield in Iraq. The 
soldier on the ground, patrolling and interacting within their 
environment or battlespace, has constant access to immeasurable amounts 
of data. Information is reported verbally at the lowest levels and a 
small portion is later digitized into a database. In the end, the 
majority of observations--reports by soldiers on the ground typically 
do not make it into the reporting network. Further, we must continue to 
develop training our soldiers as sensors or collectors of battlefield 
information. They do not fully understand how to observe or sense their 
environment. At the opposite end of the spectrum, since the soldier is 
not connected to the network, he is not receiving the most current data 
or information relevant to his battlespace or environment. We would not 
send our pilots up without ensuring that they were digitally linked 
with the best, most relevant, actionable intelligence available, such 
as early warning radar. But, today, we send our soldiers into battle, 
unlinked and without dedicated intelligence support.
    Fight for Knowledge. The successful units at the tactical echelons 
(company through brigade) within Iraq and Afghanistan have developed a 
tactic we refer to as ``Fight for Knowledge.'' They are not waiting for 
intelligence from higher to tell them where the enemy is. They are 
utilizing combat patrols, interaction with the local populace, and any 
other legitimate means at their disposal to acquire intelligence and 
knowledge to enable operations (combat intelligence, when merged with 
intelligence from higher, is a powerful force enabler). They are, in 
essence, ``creating their own luck,''--``fight(ing) for knowledge.'' 
They are reinvigorating the existing, but often neglected concept of 
Combat Intelligence. Prior to revitalizing this concept, unit 
commanders would wait for intelligence to come from higher before 
acting. In the type of war we are fighting now--over mountains, through 
caves, house to house--our technical collection will not always provide 
all the information required to enable action. (``Fight for Knowledge'' 
will become further enhanced when we digitally connect the soldier and 
lower tactical echelons to the network.)
    Tactical Overwatch. Currently, tactical units receive their 
intelligence through an echeloned structure: from national, to theatre, 
to corps, to division, and so on. This lockstep methodology is a 
remnant of industrial-age, Cold War structures and procedures. Before 
OIF, this process was marginally adequate when units were static or 
garrisoned; however, the dissemination and reporting channels collapsed 
when the units moved into battle in Iraq. This legacy process causes 
information or intelligence latency. Latency that is caused by the 
existing echeloned structure that requires information and intelligence 
be sent step by step, through the various levels of command, which can 
often take hours, if not days. The lower tactical echelons rarely 
receive the intelligence in a timely manner, nor do they have direct 
access to experts located at agencies in the United States or 
elsewhere. This also impacts the ability for lower tactical echelons to 
provide critical reports that are relevant to the higher agencies or 
headquarters that need them. Our vision is to implement a new approach 
to this concept, creating a dedicated structure to provide intelligence 
or tactical overwatch, focusing higher level intelligence capabilities 
in direct support to the tactical echelons. We have already started 
this effort through support provided by the IDC and through initiatives 
such as Project Morning Calm and The Pantheon Project.

Three initiatives have significantly contributed to the overwatch 
        concept over the last year and continue to contribute to the 
        overall establishment of an overwatch capability in the future.
    The IDC is an operational, state of the art, analytic Intelligence 
center. The IDC has been and continues to support the tactical forces 
engaged in Iraq and Afghanistan through direct support to the JTF 
Headquarters or through the IDC extensions located in direct support to 
CJTF-7 and JTF-GTMO. The IDC has pioneered and is using processes and 
methodologies for timely situational awareness and analysis of complex 
networks of individuals and organizations that can be shared to the 
extent that the network and/or policies allow. The IDC uses advanced 
software tools and special data access agreements to extract, correlate 
and capture the essence of vast amounts of information across many 
databases. The IDC is the premier Army Intelligence test bed for 
advanced, new technologies and concepts which, when operationally 
proven, are spiraled into the Intelligence Community and the tactical 
force. The true power of the IDC will be realized when the tactial 
overwatch initiative is fully established along with a global network.
    Project Morning Calm: An outgrowth of the IDC is an initiative 
referred to as Morning Calm and sponsored by the Office of the 
Secretary of Defense (OSD). This is a rapidly evolving intelligence 
structure in support of a theater combatant commander; virtually a 
testbed for concepts that may have application in global war on 
terrorism and all theaters in both joint and combined environments. 
Morning Calm creates an all-inclusive intelligence ``system'' capable 
of rapidly sharing and visualizing intelligence and all disparate data, 
from the numerous collection systems and agencies, tactical through 
national and combined. Morning Calm demonstrates a revolutionary 
capability to merge high volume, multi-lingual, live collection feeds 
(streaming data) with the U.S. Army Intelligence and Security Command 
(INSCOM) IDC advanced technological processes for interacting with 
large repositories of disparate data types in a much more rapid, 
timely, and visually intuitive manner than currently available. 
Numerous overwatch related tools and technologies have already been 
developed within this project--benefiting from the development of 
advanced tools and capabilities operationalized within Morning Calm.
    The Pantheon Project: This initiative has contributed significantly 
to advancing technological innovations within the IDC, Morning Calm, 
and the entire IC. This project has brought together a grouping of 
world-class individuals from business, academia, and government to 
address and solve the hardest technical problems, creating 
technological or procedural solutions for the enhancement of tactical 
through national intelligence echelons. These solutions have been 
rapidly spiraled forward primarily into the IDC and Morning Calm 
Project. While previously done ad hoc, and through the generosity of 
several ``patriots'' who have volunteered their time to enable this 
rapid technology insertion program, our goal is to formalize this 
initiative into a core group who will constantly be on call to assist 
with issues and provide expert advice.
    Systems. Supporting the tactical echelons were several TIARA 
(funded) systems to include: Ground Surveillance Radars (GSRs); 
Prophet; All Source Analysis System (ASAS); Counterintelligence/Human 
Intelligence (CI/HUMINT) Information Management System (CHIMS); 
Integrated Meteorological System--Light (IMETS-L); Remotely Monitored 
Battlefield Surveillance System (REMBASS); GUARDRAIL Common Sensor 
(GRCS) airborne ISR system; UAV, Shadow 200 and Hunter--and Tactical 
Exploitation System (TES). We have also successfully deployed our JMIP 
funded UAV, Shadow 200 and Hunter. All of these systems have and 
continue to successfully support tactical echelons in OEF, OIF, or 
both. A noteworthy achievement was the ability to rapidly insert 
technology patches--upgrades into some of these systems to adapt them 
and maximize capabilities--based upon the threat in both Afghanistan 
and Iraq. A noted shortcoming was that these systems were neither 
networked nor integrated. Even when data was collected, often it did 
not make it to the required database or user; or, if it did, it was 
extremely late. Our transformation plan includes the rapid convergence 
of many of these systems into the Distributed Common Ground System--
Army (DCGS-A), which is addressed later in this paper.
    Tactical HUMINT: Our tactical HUMINT HCTs continue to provide 
critical intelligence, supporting both ongoing missions and Force 
Protection to our units serving in both Afghanistan and Iraq. With the 
Services short on linguists across the board, contract linguists have 
successfully augmented the HCTs. HCTs integrated themselves into the 
tactical echelons and provided superb support throughout the force. 
These teams, especially in the follow-on phase of operations, were 
lauded by commanders who have consistently requested additional teams--
a request that our existing inventory cannot sufficiently supply. One 
notable shortcoming was the inability to network these teams while they 
were on the move.
    Today. Our soldiers are adapting, learning to observe and report. 
Our tactical commanders have also learned to use patrols aggressively 
to interact with the environment and collect combat intelligence. Our 
systems have operated well overall and numerous adaptations or 
improvements have been incorporated in order to maximize their 
effectiveness. Our HCTs, although lacking in quantity, have established 
themselves as the premier force enabler. Overall, each separate, 
distinct area of the intelligence fight is working well with the 
exception of an integrated network that binds these similar, but 
disparate, entities together to create an integrated framework. We have 
several initiatives geared to resolve this issue. The most critical one 
is establishing the network:

Establishing the Network
    The top priority for Army intelligence transformation is rapidly 
converging our current ``diverse'' intelligence processors into the 
DCGS-A. DCGS-A is a modular and scaleable family of multi-intelligence 
systems for posting, processing, exploiting, and updating ISR 
information. While it will eventually replace current and future Army 
intelligence processing systems (TIARA and JMIP) for national, joint 
and Army organic sensor data, the Army intent is to rapidly build and 
field an integrated DCGS-A capability, establishing intelligence 
interoperability vertically across all echelons down to the battalion 
level. It is important to note, we are dependent on the Army network 
for much of our collateral connectivity.
    DCGS-A will be implemented using a spiral development acquisition 
strategy through the evolutionary merging of existing and programmed 
Army processing systems, including ASAS, GUARDRAIL Information Node 
(GRIFN), future ACS ground processing segment, Army Space Program 
Office (ASPO) Tactical Exploitation System (TES) Tactical Exploitation 
of National Capabilities (TENCAP) processing systems, Joint STARS 
Common Ground Station (CGS) SAR/MTI processing, TUAV Ground Control 
Station (GCS), and Tactical Control System (TCS). All DCGS-A components 
will comply with Service, Joint, and National interoperability 
standards.
    The current emphasis is to converge several different existing 
systems (ASAS, TES, CGS, CHIMS, CHATS) into what are being referred to 
as battalion and brigade DCGS-A thrusts. These initial systems will 
consist of existing off-the-shelf-type equipment utilizing existing 
hardware and software to establish a network-centric environment and 
get the capability into the hands of our soldiers now, vice years down 
the road. As future DCGS-A upgrades come to fruition, they will be 
spirally inserted into the existing DCGS-A thrusts that we will have 
already established within the various echelons. In the near future, 
DCGS will be the ``hub'' for the DOD to effectively implement the 
information sharing relationships between the warfighters, the service 
intelligence analysts, and the IC. The end result will be, for the 
first time, a common intelligence network with common analytical tool 
sets truly enabling horizontal and vertical collaboration and 
integration. DCGS-A will be implemented using a spiral development 
acquisition strategy through the evolutionary merging of existing and 
programmed Army processing systems, including ASAS, GUARDRAIL 
Information Node (GRIFN), future ACS ground processing segment, ASPO 
TES Tactical Exploitation of National Capabilities (TENCAP) processing 
systems, Joint STARS Common Ground Station (CGS) SAR/MTI processing, 
TUAV Ground Control Station (GCS), and Tactical Control System (TCS). 
All DCGS-A components will comply with Service, Joint, and National 
interoperability standards.
    Unique to the DCGS-A initiative is our plan--already initiated--to 
integrate ``legacy'' systems rapidly into DCGS, investing into the 
future system vice continuing to spend money on a system or program 
that will be terminated in the very near future. Also, in conjunction 
with INSCOM, theater level DCGS-A will be integrated with the various 
INSCOM IDC hubs located at the different theater intelligence groups 
and brigades throughout the world. In essence, home station DCGS and 
the IDC hubs will become merged. This will enable the merging of 
technology and tool sets into one common system, and allow for proven 
integration of IDC technologies already in use and supporting the war, 
into the DCGS-A program.
    The Army is also progressing with fixed-site DCGS-A assets at 
various garrison locations. This will give the Army a home-station 
ability to support the joint as well as organic forces from sanctuary 
locations 24 hours a day, 7 days a week. The Army will have access to 
National and Air Force reconnaissance assets as well as Army organic 
assets. The Army fixed-site DCGS capability is in its formative stage 
with an initial capability at the 66th Military Intelligence Group in 
Darmstadt, Germany, as well as at the 501st Military Intelligence 
Brigade, located in South Korea.

          ARMY INTELLIGENCE JMIP AND TIARA PROGRAM HIGHLIGHTS

    Tactical intelligence capabilities provided by TIARA and JMIP 
programs continue to be extraordinarily critical to the ability of the 
ground maneuver force's ability to prosecute the war. Our MI soldiers 
are performing superbly as they collect, analyze and process data and 
information into intelligence, so that the ground commander can rapidly 
act against a very adaptive and mobile enemy. Our focus is to enable 
them and the entire intelligence enterprise to be connected to the 
intelligence framework.

1. Overview
    Army TIARA comprise an array of 25 separate programs and systems, 
training programs, and forces that are located throughout the Army. The 
various TIARA programs are engaged in ongoing military operations, 
whether conducting combat counterterrorism operations in Iraq and 
Afghanistan, supporting homeland defense, maintaining the armistice 
along the Demilitarized Zone (DMZ) in Korea, or enforcing the peace 
between various factions in the Balkans. Last year, Army intelligence 
supported the full spectrum of warfare ensuring that ISR capabilities 
were pervasive throughout the current force, the Stryker brigades, and 
are setting the stage for the future force. This year, as the Army 
continues to support U.S. commitments, Army transformation remains on 
track and, in many cases, is being accelerated by the Army's Focus Area 
initiatives to address the urgent operational needs of our Nation's 
global war on terrorism. Army intelligence transformation is embedded 
within the Army Campaign plan and is allowing the Army IC to fast track 
several initiatives that will improve intelligence support to the 
tactical forces.
    The Army JMIP consists primarily of research, development, and 
acquisition programs for manned and unmanned airborne ISR systems, 
advanced SIGINT, and intelligence tasking, posting, processing, and 
using (TPPU) (also known as tasking, processing, exploitation, and 
dissemination (TPED)) systems. Army TIARA and JMIP are focused on 
supporting the tactical echelons with Actionable Intelligence: 
providing commanders and soldiers with a high level of situational 
understanding, delivered with the speed, accuracy, and timeliness 
necessary to operate at their highest potential enabling rapid and 
successful execution of operations. Army intelligence transformation, 
empowered by the TIARA and JMIP systems and programs, achieves its 
intended purpose of empowering greater individual initiative and self-
synchronization among tactical units by integrating information across 
organizations and echelons, accelerating the speed of decisionmaking 
and the agility of operations.

2. Language Program
    The Army is DOD's Executive Agent for the Defense Language 
Institute and Foreign Language Center (DLIFLC) in Monterey, California. 
DLIFLC annually trains 3,500 of the best-trained linguists in the world 
and continues to be the pre-eminent language schoolhouse in the world, 
providing 700,000 hours of instruction in 23 languages at Monterey and 
85 languages through the Washington Office.
    DLIFLC is also on the forefront of using distant learning tools 
designed to maintain and improve language skills of service members. 
The Satellite Communication for Learning (SCOLA) program, using live 
television programs from over 25 countries beamed via satellite to 
posts, ships, and armories around the world, continues to be a vital 
tool to maintain easily perishable language skills. DLIFLC provided 
support to field operations through over 9,200 hours of Video Tele-
Training (VTT) and 2,000 hours of mobile training team support using 
DLIFLC instructors.
    The global war on terrorism has strained the Army system that 
provides trained linguists in support of DOD and national agencies, as 
well as the warfighter. Thousands of additional requirements in Arabic, 
Kurdish, Pashto, Urdu, Dari, and other languages have exhausted the 
Army's organic linguist base in the active and Reserve components. 
Consequently, the Army has outsourced more than 6,000 linguist 
requirements in support of the global war on terrorism. The cost per 
annum of a single contract linguist varies from $15,000 per year for a 
locally hired linguist to approximately $200,000. Factors such as 
clearance and duty location requirements contribute to the total cost. 
Further, there are simply not enough U.S. citizens with the requisite 
language skills and desire to deploy to harsh, frequently dangerous, 
locations to support the cleared linguist requirements of the Army, 
DOD, and the national community, thus increasing the demand from the 
same linguist pool. The cost to the Army of supporting the global war 
on terrorism with contract linguists this fiscal year exceeds $250 
million. The annual cost of the language contract in Bosnia, employing 
over 900 locally hired linguists is an additional $36 million. Given 
the number of linguists required by commanders across the battlespace, 
contracted linguists will remain a necessity for the foreseeable 
future.
    JTF-GTMO: The Chairman of the Joint Chiefs of Staff (CJCS) 
established Joint Task Force--Guantanamo Bay, Cuba (JTF-GTMO), to 
support detainee operations (including detention and interrogations) 
for enemy combatants who come under U.S. control. We must continue to 
operate and maintain support for the assigned intelligence missions and 
personnel. Counterterrorism supplementals provided initial funding for 
detainee operations and military construction at Guantanamo Bay in both 
fiscal years 2002 and 2003. As an ongoing requirement, program funding 
commenced in fiscal year 2004 as part of the JMIP. Supported missions 
include: screening, interrogation, intelligence collection, and 
interaction with other agencies involved in the detainee operations.
    Questioning JTF-GTMO detainees improved the security of our Nation 
and coalition partners by expanding our understanding of al Qaeda, its 
affiliates and other extremely dangerous terrorist groups that threaten 
our security. Detainees have revealed al Qaeda leadership structures, 
operatives, funding mechanisms, communication methods, training and 
selection programs, travel patterns, support infrastructures, and plans 
for attacking the U.S. and other countries.

3. Airborne Intelligence, Surveillance, and Reconnaissance
    Army airborne ISR is currently operating at a high tempo in support 
of ongoing military operations worldwide. Today, all five of our 
Military Intelligence Aerial Exploitation Battalions (AEB) are forward 
deployed, or recently returned to home station, again preparing to re-
deploy in support of worldwide operations.

        <bullet> Our Korea-based GUARDRAIL Common Sensor (GRCS) and 
        Airborne Reconnaissance-Low (ARL) AEB continues to provide over 
        80 percent of the Sensitive Reconnaissance Operations (SRO) on 
        the Korean peninsula.
        <bullet> In November 1995, our Germany based GRCS AEB deployed 
        to Taszar, Hungary, in support of Task Force Eagle. This GRCS 
        unit provided critical indications and warning, and force 
        protection oversight during the implementation of the Dayton 
        Peace Accords. After 3-plus years in Hungary, this unit further 
        forward deployed to Brindisi, Italy, in support of Task Force 
        Falcon operations in the Balkans. In late February 2003, this 
        unit redeployed to Germany for 5 short months to refit and 
        refurbish in preparation for its deployment in support of 
        USCENTCOM and OIF. At present, this unit is scheduled to 
        redeploy to Germany in September of this year.
        <bullet> The first of two U.S.-based GRCS AEBs deployed in 
        August 2001 to participate in Operation Phoenix Venture in the 
        USCENTCOM area of responsibility (AOR). After 8 months 
        supporting the USCENTCOM AOR, this unit deployed to South 
        America to support the U.S. Southern Command (USSOUTHCOM) 
        commander. Following a successful 2-month deployment, this unit 
        again forward deployed into the USCENTCOM AOR to support OEF 
        and OIF. This unit redeployed to homestation in October 2003, 
        and is preparing to again deploy in September of this year.
        <bullet> Our CONUS-based ARL AEB that supports Joint Forces 
        Command (JFCOM) is currently deployed to the USSOUTHCOM AOR. 
        Based upon the USSOUTHCOM combatant commander's requirements, 
        portions of this unit are now deployed 365-days a year to 
        support the theater's coordinated ISR plan in Colombia.
        <bullet> In May 2002, our second CONUS-based GRCS AEB deployed 
        to provide additional support to USCENTCOM. This unit 
        redeployed to homestation after a successful 13-month 
        deployment. At present, the unit is conducting refit and 
        refurbish requirements in preparation for its redeployment in 
        August of this year to support continuing OIF intelligence 
        requirements.

    The Army continues to work to ensure that our ISR aircraft deploy 
with AOR specific hardware and software capabilities. We have also 
continued to stress interoperability, and are achieving notable success 
in Airborne Overhead Cooperative Operations (AOCO) in coordination with 
the national systems. For the past 4 years we have fielded cooperative 
capabilities to all four GRCS units. AOCO allows us to connect a single 
GRCS aircraft to an National Reconnaissance Office (NRO) capability 
facilitating precision location especially at increased depths. 
Additionally, this capability yields other benefits such as improved 
geometry to the target, increased range, and connectivity to the 
National Intelligence infrastructure via the GRCS integrated processing 
facility. This dramatic interoperability success and sharing of 
functionality between systems is also a requirement for our future 
force airborne ISR system, Aerial Common Sensor (ACS).
    GRCS is the workhorse of Army airborne ISR at the corps and theater 
level. There is no other ISR system in the world that equals the 
ability of GRCS to provide responsive, precision SIGINT geo-location 
data on threat communications and radar emitters. GRCS is presently 
flying an average of 1,900 sorties per year in support of U.S. Forces 
Korea (USFK), U.S. European Command (USEUCOM), and USCENTCOM.
    To meet the rapidly changing threat signals environment, we are 
continuing selective upgrades to the SIGINT capabilities of our fielded 
GRCS systems by integrating advanced technologies developed through the 
Defense Cryptologic Program (DCP). We are also modernizing the outdated 
GRCS Integrated Processing Facility (IPF) on the ground, replacing it 
with the state-of-the-art GRIFN. GRIFN is an integral part of the DCGS-
A.
    To ensure our GRCS units forward-deployed in support of OIF can 
provide their critical information into the Global Intelligence 
Architecture and to ensure the system's ability to effectively 
prosecute terrorist targets, we are providing a near-term very small 
aperture terminal (VSAT) connection for forward deployed GRCS units. 
This connection will support GRCS's prosecution of CENTCOM targets.
    ARL is our current manned, multi-intelligence airborne ISR system. 
ARL flies an average of 444 sorties per year in support of early 
warning/force protection for USFK, and over 288 sorties per year in the 
USSOUTHCOM AOR. ARL also flies ISR missions in support of Joint Task 
Force-6 (JTF-6) here in CONUS.
    The Army's final ARL platform is currently in production and was 
funded in the fiscal year 2000 supplemental appropriation as a 
replacement for the system that crashed in Colombia in July 1999, while 
conducting reconnaissance in support of counterdrug operations. This 
system will be fielded in April, fiscal year 2004, and will be 
available to support combatant commander requirements. In fiscal year 
2004, we continue to upgrade IMINT and SIGINT sensors, while also 
ensuring that the avionics on our oldest ARL systems meet international 
Airspace 2000 flight requirements. We used the Defense Emergency Relief 
Fund (DERF) to accelerate IMINT sensor upgrades and to develop, test 
and integrate MASINT sensors.
    The Army continues to strive to meet airborne ISR requirements 
given our resource constrained environment. The fiscal year 2005 budget 
request will provide us the ability to minimally sustain our existing 
GRCS and ARL airborne fleets. We used DERF counterterrorism funding and 
fiscal year 2004 supplementals to provide key sensor upgrades that were 
required to maintain technical relevance in pursuing the global war on 
terrorism, but the majority of our modernization effort is focused on 
meeting the ISR requirements for the Army's future force.
    The Army's next-generation manned, airborne, collection platform 
will be ACS, which will replace both ARL and GRCS. ACS is a Joint Army 
and Navy program and will be a multi-intelligence collection system, 
with SIGINT, IMINT, and MASINT sensors. ACS sensor data will be 
processed and disseminated via the DCGS architecture. Building upon the 
success of GRCS, ACS will provide responsive precision targeting data 
to the full range of Army organic weapon systems in support of the 
Joint Task Force or ground component commander. The Army ACS program 
will meet all joint and national interoperability standards. The fiscal 
year 2005 budget request supports the beginning of the ACS System 
Development and Demonstration (SDD) phase. The robust ACS sensor suite 
includes precision location Communications and Electronics Intelligence 
sensors with the ability to prosecute new and emerging threat signals; 
highly accurate Imagery Intelligence sensors including: Electro-optic, 
Infrared; Synthetic Aperture Radar and a Ground Moving Target 
Indicator; and advanced Measurement and Signature Intelligence 
including a Ultra/Hyper/Multi-Spectral Imagery, Foliage Penetration 
Radar, Masked Target Sensor, Light Detection and Ranging Sensor; Non-
Imaging Synthetic Aperture Radar; Calibrated Non-Imaging Infrared 
Sensor; and Unintentional Radiation Sensor. These sensor suites will 
ensure ACS is able to successfully prosecute and precisely locate 
threat targets regardless of their techniques to evade detection. ACS 
will begin production in fiscal year 2007, with initial fielding in 
fiscal year 2009. Meeting these timelines is essential in order to 
ensure that the first ACS system is operational when the Army's initial 
Future Force unit is fielded.
    The Army leadership continues to strongly support the rapid 
fielding of a Tactical Unmanned Aerial Vehicle (TUAV) in order to fill 
a critical warfighting capability-- providing the tactical warfighting 
commander with the ability to physically look over the next hill, 
without putting a soldier in harm's way. Since the start of sustained 
combat operations a year ago, the Army's UAV capabilities have expanded 
significantly. Although limited at the outset of ground combat 
operations, Army UAV capability has improved and will continue to do so 
over this year. Our UAV lessons learned and demonstrated successful 
support of OIF missions have fortified our commitment to providing this 
capability as quickly as possible. This JMIP program accordingly 
remains a high modernization priority for Army tactical intelligence in 
fiscal year 2005. The Army has fielded 12 TUAV systems, 8 to 
operational units, of which, 5 are directly supporting combat 
operations today.
    The Army's Shadow TUAV is the first UAV to be fielded through the 
normal acquisition process and holds the distinction of being the only 
DOD UAV system to achieve a full rate production decision, approved on 
25 September 2002. Not only a true acquisition success story, going 
from contract award in December 1999 to initial operational capability 
in just 32 months, this system has also proved to be an invaluable 
asset in the hands of our deployed commanders. Between intelligence 
gathering and force protection, the TUAV has proven its usefulness time 
and again by revealing detailed information about enemy positions. By 
providing near-real-time combat information to commanders, the TUAV has 
helped save soldiers by providing video footage of the areas soldiers 
are moving into. The Shadow TUAV flew over 2,350 hours in fiscal year 
2003 and has surpassed a total of 4,600 total hours in OIF to date. As 
a result of increased demand for this capability from the field, the 
Army is accelerating procurement of Shadow systems this year by three. 
The Army will field a total of 41 TUAV systems; 35 to the active 
component brigades, two to the National Guard, and four to the UAV 
training base.
    Our fiscal year 2004 budget provided funding for selecting an 
Extended Range/Multi-Purpose (ER/MP) air vehicle to be integrated into 
the Army's UAV architecture by fiscal year 2009. The selection process 
will be completed in fiscal year 2005. This new UAV will be capable of 
reaching out to 300 kilometers and carrying advanced data links and 
payloads such as EO/IR imagery, all-weather synthetic aperture radar 
and moving target indicator (SAR/MTI) sensors coupled with a 
communications relay payload to assist the ground commander's command 
and control infrastructure. These enhanced capabilities will be vital 
to the ability of the tactical ground and Joint Task Force Commander to 
achieve knowledge dominance across the full spectrum of military 
operations in the future.
    During the interim, while we are developing the ER/MP capability, 
we will continue to use the Hunter UAV as an intervening capability. 
The Army has stationed three companies of Hunter UAVs with operational 
units, all of which have provided support to OIF. Most recently, the V 
Corps Hunter company deployed to support OIF in January and continues 
to provide vital day and night imagery intelligence to CJTF-7. In 2003, 
the two Hunter units deployed in support of OIF flew over 4,067 hours 
with the loss of seven Hunter air vehicles. The Army has since 
contracted to maintain an operational readiness rate of 85 percent for 
our Hunter units allowing continued support to the Joint Task Force 
Commander in Iraq as well as maintaining training for units pending 
redeployment. This contract supports air and ground components of the 
Hunter system with refurbishment and replacement parts necessary to 
maintain the operational readiness rate. Replacement parts for the air 
component of the system will provide increased capability, reliability, 
and precision with new heavy fuel engines, extended center wing 
sections for additional fuel, and modern avionics.
    More recently, the Army has developed plans to deploy the Improved-
GNAT (I-GNAT), a downsized Predator UAV, provided through a 
congressional add in 2003. Manufactured by General Atomics, the I-GNAT 
was originally planned to be flown in the U.S. as a means to gain an 
understanding of this class of aircraft and its capability in relation 
to the ER/MP mission. However, operations in Iraq pre-empted this plan 
and the Army will now use this system to support the CJTF-7 commander 
with an additional day and night full motion video capability. The Army 
has borrowed Air Force Lynx radars to supplement the day and night 
capability on I-GNAT with a near all-weather capability to provide a 
more robust intelligence capability to the commander. The employment of 
I-GNAT will be analyzed while deployed in order to develop doctrine and 
TTP for the ER/MP UAV.

4. Ground Intelligence, Surveillance, and Reconnaissance
    The Army's tactical ground ISR modernization efforts are focused on 
meeting current and future warfighting requirements. The fiscal year 
2005 budget request adequately supports these efforts. Prophet is the 
Army's next generation tactical ground COMINT system being developed. 
Prophet replaces four less capable systems while significantly reducing 
footprint. The system provides a near real time electronic picture of 
the battlefield. The benefits to the commander include enhanced 
battlefield awareness, force protection and target development. Unlike 
previous systems, Prophet is able to perform collection and electronic 
attack on the move enabling it to operate in close support to highly 
mobile maneuver forces throughout the full spectrum of operations. The 
system also operates in two configurations, mounted and dismounted.
    The Prophet program uses a blocked acquisition strategy:

        <bullet> Block I provides a basic communications intelligence 
        and radio direction finding capability
        <bullet> Block II provides an electronic attack capability
        <bullet> Block III provides a capability to intercept and 
        locate modern emitters

    Block I is in full-rate production and fielding will be complete to 
the active Force in fiscal year 2005. Fielding will not be complete to 
the Army National Guard unless additional funding is provided to 
support Army National Guard requirements. The Block II/III SDD contract 
was awarded in March 2003 to General Dynamics--Phoenix. The first unit 
equipped with Block II/III is expected in 4Q fiscal year 2005. The 
fiscal year 2005 budget request supports the completion of the Block I 
buy and the continuation of the Block II/III SDD development phase, and 
the initial procurement of Block II/III systems.
    Prophet is an OEF and OIF combat tested system. It deployed with 
the SOF in the early stages of OEF and crossed the line of departure 
with the 3rd Infantry Division at the beginning of OIF. Prophet's on-
the-move collection capability proved its worth as it detected a 
waiting ambush for the lead elements of the 3rd Infantry Division. It 
also played a key role in the capture of the international airport as 
it located targets for the artillery units. Prophet continues to play 
an integral role in both theaters as it provides critical battlefield 
awareness at the brigade level. As the Army looks to the Future Force, 
Prophet plays a critical role. Based on warfighter requests, Prophet 
Block I deployed with additional capabilities to meet theater specific 
requirements. These capabilities include beyond line of sight 
communications and significantly enhanced collection and processing 
capabilities. This is the way of the future: keeping tactical SIGINT 
capabilities relevant across the full spectrum of operations by 
insertion of evolving technology. Prophet is key to the Army's 
transformation effort. The system is an integral part of the Stryker 
Brigade Combat Team (SBCT) providing critical battlespace awareness and 
force protection capabilities. It has performed extremely well with the 
first SBCT in OIF. The Future Combat System (FCS) materiel developer 
considers Block III as the COMINT sensor payload baseline to meet the 
FCS COMINT requirements. The specific unit of action (UA) applications 
include the COMINT sensor payloads for the FCS Reconnaissance and 
Surveillance Vehicle and the Armored Robotic Vehicles. One of the key 
products these systems will provide to the UA commander is emitter 
mapping. The requirements for the unit of employment (UE) are being 
worked at Fort Leavenworth, Kansas. Early indications are that Prophet 
will be the UE ground ISR system.
    Recent contingency operations have highlighted the need for 
electronic warfare (EW), a component of information operations (IO). 
While Army intelligence is not the sole practitioner of EW, it has a 
unique role in EW as it maintains the Army's electronic attack (EA) and 
electronic support (ES) capabilities. An EA capability is included in 
Prophet Block II/III. Additionally, the Extended Range/Multi-Purpose 
UAV will have an EA payload that will enable our warfighters to conduct 
effective non-lethal fires throughout the depth of the battlespace. 
Military Intelligence systems such a GRCS, ARL and ACS work hand-in-
hand to provide the intelligence or electronic support to enable EA.

5. Intelligence Fusion
    The ASAS is the current Army intelligence fusion program. ASAS and 
current ground processor capabilities will rapidly migrate into the 
DCGS-A architecture to provide: automated intelligence analysis; 
management of intelligence and electronic warfare resources; and 
production and dissemination of intelligence to warfighting commanders 
and staff. Variants of ASAS are fielded at all echelons in the Army, 
enabling the rapid dissemination of the all source fusion picture of 
the current threat to forward combat maneuver battalions. ASAS is the 
Army intelligence interface to the warfighter Army Battle Command 
System (ABCS) and to the Joint Global Command and Control System 
(GCCS), and provides the automated ground threat picture to the Joint 
Command Operational Picture (JCOP). The system is interoperable with 
national military intelligence integrated database (IDB) standards. The 
next generation ASAS Analysis and Control Element (ACE) will be fully 
integrated with the DCGS-A systems of systems, enabling true near-real-
time multi-source intelligence correlation and target development.
    The ASAS reliance on commercial-based hardware and a true open 
architecture allows continued interoperability with current force 
intelligence systems, while ensuring a smooth evolution to the future. 
We have used congressional supplemental funding to rapidly develop and 
integrate new software for the analysis of non-traditional/
nonstructured threats and adjust to lessons learned from OIF. This 
software is currently in use in Bosnia and has been delivered to all 
units engaged in OIF. The Army firmly believes our substantial TIARA 
investment in ASAS demonstrates our resolve in joint intelligence 
information exchange and support to the joint and ground warfighter.

6. Counterintelligence and Human Intelligence
    CI and HUMINT are critical enablers to successful combat operations 
in environments such as Afghanistan and Iraq. Underscoring the 
importance of human intelligence, we have used congressional 
supplemental funding to accelerate procurement of the CI/HUMINT CHIMS 
and the integration of biometric analytic tools into the software 
baseline. Over 900 systems have been fielded to active component and 
Army Reserve soldiers who have been deployed to OIF. Fielding of these 
systems was a monumental task, which involved training 1,200 soldiers 
on the care and operation of the CHIMS. Our fiscal year 2004 funding 
continued spiral development and procurement of CHIMS devices and 
acceleration of CHIMS enhancements to our soldiers serving in OIF.
    CHIMS automation has proven to be invaluable in meeting the 
challenge of screening, interrogating, and reporting intelligence from 
the large numbers of prisoners from OIF. The experience we gained has 
validated a requirement for state-of-the-art equipment to support the 
exploitation of large volumes of documents and computer magnetic 
storage media. In the near term, the Army has provided the CHIMS with 
an initial DOCEX capability.

          INTELLIGENCE TRANSFORMATION: THE SOLDIER--OUR FOCUS

    The focus of intelligence transformation is the soldier. All of our 
initiatives seek to leverage all collected data, utilizing smart tools 
and trained analysts, to conduct fusion analysis to generate relevant 
intelligence for decisionmakers, both commanders and soldiers. Today, 
our soldiers in the fight have the greatest local knowledge but the 
poorest situational knowledge outside their immediate area of 
operations (only hundreds of meters). The opposite situation exists at 
the Joint, Theater and national levels, where the greatest operational 
and strategic knowledge resides, with little to no local knowledge 
available.
    In part, we are hindered by our own remarkable technological 
advantages and capabilities. Information age technology has allowed us 
to develop exceptional collection system capabilities. However, 
realizing the full power of our entire intelligence system depends not 
only on our ability to collect information efficiently, but also on our 
ability to effectively process, analyze, and most importantly, make 
intelligence actionable. While we made incredible improvements in our 
collection systems, we neglected to technically and procedurally change 
how we process and analyze all this information. Our collection systems 
gather vast amounts of information, but the majority of that 
information is dumped into single source databases available to only 
those single source analysts in that particular collection 
organization. This stovepipe process is a consequence of how our 
Intelligence Community has evolved--or, more accurately, has failed to 
evolve--and how we have implemented technological change while 
continuing to use existing processes. Focus Area Actionable 
intelligence--our road map for intelligence transformation--is working 
to bridge that gap through a variety of changes in TTP and materiel 
solutions.

                        ACTIONABLE INTELLIGENCE

    Actionable Intelligence is one of the necessary components of 
achieving shared situational understanding. It requires that we change 
the way our Army culturally views and integrates intelligence. 
Additionally, we must continually develop and integrate new technology 
solutions systematically to maintain first advantage in terms of 
capabilities, technologies, and knowledge sharing.
    Actionable Intelligence provides commanders and soldiers a high 
level of shared situational understanding, delivered with the speed, 
accuracy, and timeliness necessary to operate at their highest 
potential and conduct successful operations.
    Task Force Actionable Intelligence (the Army G2's transformation 
initiative team) has identified four critical components that we must 
address within the Army in order to transform intelligence in line with 
the overarching Army Transformation--while remaining integrated within 
DOD ``Remodeling'' Initiatives. I will also briefly discuss six 
critical initiatives which are nested within the four critical 
components that we are initiating in tandem within Army Transformation 
today.
    1. Critical Component: changing the culture and mindset of how the 
Army integrates intelligence--change the methods and means of how we 
collect, move, process, analyze and use intelligence. Change how we 
think of intelligence starting with the soldier, continuing through all 
echelons or our Army.
    To change our culture and mindset, we must first change our 
behaviors through better training and career experiences. First and 
foremost, we must institute the mindset that every soldier is a sensor. 
There are three main premises to soldier is a sensor: (1) Soldiers on 
the ground have always been the best information collectors, and they 
must recognize themselves as such. OEF and OIF have Actionable 
Intelligence provides commanders and soldiers a high level of shared 
situational understanding, delivered with the speed, accuracy, and 
timeliness necessary to operate at their highest potential and conduct 
successful operations. Actionable Intelligence provides commanders and 
soldiers a high level of shared situational understanding, delivered 
with the speed, accuracy, and timeliness necessary to operate at their 
highest potential and conduct successful operations. Recent operations 
have shown that there are no frontlines. All soldiers and facilities 
are at risk of attack. Soldiers must become highly conscious, trained 
observers and reporters, aware of the value of reporting their 
experiences, perceptions and judgments so the right person, at the 
right time, can make the right decision to accomplish the mission--we 
must give them the means to do so. (2) We must move operational units 
from a passive (waiting to receive intelligence with which to take 
action) to an active role in pursuing intelligence. Commanders must 
acknowledge that every operation is also an intelligence operation. 
Some of the most valuable intelligence comes from soldiers on point or 
on patrol. This ``Fight for Knowledge''--create your own luck--begins 
prior to operations and extends through the post-operation phases 
indefinitely as long as the Nation has a vested interest in the region. 
(3) Lastly, we need to see ourselves as the enemy sees us.

Focus Area Critical Initiative: Red Teaming Capability
    Red Teaming has two significant components. First, we need a base 
cadre trained to think like terrorists, insurgents and paramilitaries. 
Soldiers who have been trained as Red Team cadre will represent the 
full spectrum of today's potential opponents (state and non-state 
actors), ensuring blue force planners truly reflect the asymmetric 
threat, the contemporary operating environment and the second and third 
order effects of blue and red force actions. Second, we need a baseline 
of geographic expertise to provide regional subject matter experts. Our 
initiative starts with organizing a core Red Team capability within 
INSCOM and in each of the Theatre MI Brigades. This will expand to 
include the establishment of a Red Team University for training within 
the Army Education system.
    2. Critical Component: Improved battlespace capabilities organic to 
soldiers and units--the capability of the soldier to sense and 
understand his environment--integrating the soldier into the network.
    Situational awareness on the complex battlefield of the 21st 
century demands greater access to information with increased fidelity 
at every level, starting with the soldier. Battlespace capabilities 
represent what is in the hands of our soldiers or organic to their 
unit. Reporting by individual soldiers will be digitized at the point 
of origin with FBCB2. Soldiers will be able to better share what they 
observe, realizing the every soldier is a sensor concept. Connecting 
the soldier to the network will revolutionize information flow in both 
directions. For units, this means increasing our ability to rapidly 
build and deploy modular intelligence packages that satisfy the unit's 
needs, to include providing regional expertise to tactical forces in an 
Army with a global and joint mission. We also need to connect the local 
sensors to the national networks and both the sensors and the soldiers 
to the analytic base, DCGS. We will ensure that service intelligence 
interdependencies are identified and leveraged.
    3. Critical Component: Overwatch support to engaged units--
assisting the soldier by sensing and analytically overwatching his 
battlespace, providing awareness over the broader environment in which 
he is or may operate.
    The concept of overwatch encompasses those capabilities that enable 
the soldier or unit to reach out beyond their immediate area of 
operations via a collaborative network centric environment. Overwatch 
is part of a larger transformation where we are changing from a 
vertical, echeloned approach, to a collaborative enterprise approach. 
Overwatch provides the soldier on the ground with situational awareness 
of the environment that influences his mission. The soldier also senses 
his local environment and shares that high fidelity data with the rest 
of the force. The Intelligence Community then optimizes the 
capabilities and talents of intelligence professionals from the 
tactical through strategic level, active, Reserve, civilian, and 
contractors, across every discipline, to provide the shared situational 
understanding every soldier and leader requires to understand and 
control their battlespace.

Focus Area Critical Initiative: Analytical Overwatch
    Our next initiative, analytic overwatch, is an improved way of 
operating that commits theater resources to tactical support, providing 
tailored products (vice megabytes of information) to decisionmakers at 
the tactical echelon. Analytic overwatch enables direct support 
intelligence capabilities, providing collaborative and tailored support 
down to the maneuver brigade and battalion echelons.

Focus Area Critical Initiative: Project Foundry
    Complementing overwatch, Project Foundry is an initiative that will 
assign a portion of the Army's intelligence soldiers in the tactical 
force to duty locations with organizations where they will conduct live 
environment intelligence operations. These soldiers will be assigned to 
Maneuver UA and UE, but their duty location (including their families) 
will be at geographically dispersed locations away from their parent 
units.

Focus Area Critical Initiative: Information Dominance Center
    The INSCOM IDC is a state-of-the-art operational intelligence 
organization. The IDC has pioneered processes and methodologies for 
timely situational awareness and analysis of complex networks of 
individuals and organizations that can be shared across the 
intelligence enterprise from national to tactical. The IDC has 
established extension nodes in each theater and continually provides 
direct support to our deployed units around the globe. A direct 
capability ``spin-off'' from the IDC is Project Morning Calm. This 
project is an example of our rapidly evolving intelligence system in 
support of a theater combatant commander--virtually a test bed for 
concepts that may have application in all theaters. Morning Calm 
creates an all-inclusive intelligence system capable of rapidly sharing 
and visualizing intelligence and all disparate data, from the numerous 
collection systems and agencies, tactical through national and 
combined. The first iteration of Morning Calm was recently installed 
and tested in Korea.

Focus Area Critical Initiative: Pantheon Project
    Today, any new technology that has intelligence applications, such 
as demonstrated in Project Morning Calm, must be promptly incorporated 
into the intelligence system. To that end, we are implementing a rapid 
fielding capability through the creation of The Pantheon Project. The 
project will bring together a team of 10-12 elite, world-class 
individuals from business, academia, and government to address and 
solve the hardest technical problems, creating technological or 
procedural solutions for the enhancement of tactical through national 
intelligence echelons.
    4. Critical Component: A network centric environment that enables 
and glues these concepts together--the tools, comms, collaboration, 
access to data, integration and enhanced visualization capabilities 
that make the framework; connecting the soldier (battlespace) to higher 
echelons and analytic centers (overwatch).
    The intelligence enterprise is a function of information 
transparency made possible by a common network which integrates people 
with shared databases, advanced analytical tools, knowledge centers, 
and sensors/collectors that are accessible by all. An assured network 
centric environment is the key enabler and the glue that binds all 
these concepts. Actionable Intelligence is dependent on the network as 
the communications backbone to set the conditions for a collaborative 
environment.

Focus Area Critical Initiative: Begin fielding of an interim 
        Distributed Common Ground System--Army capability this year
    The objective DCGS-A will fuse and integrate data from all 
collectors and sources. DCGS-A is the centerpiece of the future 
intelligence framework and is the enabler for all operations at all 
echelons from the UA to national. DCGS-A is already a future force 
Program of Record (POR) originally designed to field a capability in 
fiscal year 2008. Starting now, we have already begun accelerating 
DCGS-A to the field in a spiral development approach. Interim DCGS-A 
fixed site capabilities are being fielded to the theater intelligence 
brigades and groups. We will expand this effort and provide the Army 
with increasing capabilities that correspond to improvements in 
automated fusion and information visualization technologies down to the 
maneuver battalion level.

                ARMY INTELLIGENCE TRANSFORMATION SUMMARY

    Army Intelligence is changing in all aspects to adapt faster than 
our adversaries. We are increasing our tactical collection in all 
intelligence disciplines, with particular emphasis on HUMINT. We are 
working with Task Force Network to form a network which creates the 
framework connecting the soldier to the strategic level. We are 
changing how intelligence information is reported and disseminated 
throughout this operational and intelligence network. We are updating 
our processes to provide all echelons, down to the individual soldier, 
with access to shared situational awareness.
    Focus Area Actionable Intelligence is the vehicle for Army 
Intelligence transformation. Evolutions in sensing, fusion and analysis 
will solidify the foundation of the Army's ability to conduct 
knowledge-based operations. Our emphasis is on addressing current 
operational mission requirements, while maintaining first advantage in 
capabilities. Technology spiral insertions will continue to improve and 
optimize our intelligence capabilities. At its very core, however, the 
conduct of intelligence analysis remains a human endeavor. Technology 
creates possibilities; humans turn possibilities into realities.
    Creating Information Age processes will allow us to leverage the 
essence of the vast amounts of information available today. This will 
radically change the way we do business and dramatically improve the 
commander's and soldier's understanding of the battlespace. The 
soldier, whether intelligence analyst or operator, will interface 
directly, and in near real-time, with the information required for 
current operations. We will ingrain the concept that ``Every Soldier is 
a Sensor'' (a contributor to and a consumer of the global intelligence 
enterprise). Tactical commanders nearest to the fight will leverage 
modular, tailored packages to develop intelligence, while being 
supported by a network of analytic centers providing overwatch.

                               CHALLENGES

    Our Greatest Challenges are:
    (1) Changing the Culture and Mindset of the entire Army: We must 
institutionally change the culture and mindset of the Army on how we 
collect, report, disseminate and use intelligence. Our challenge is to 
ingrain the changing concepts throughout not only the MI Branch, but 
throughout the entire Army.
    Training: Our soldiers must be trained on the perishable skill of 
conducting combat surveillance and reporting the critical elements he 
observes within his environment. Soldiers must become highly conscious, 
trained observers and reporters, aware of the value of reporting their 
experiences, perceptions, and judgments so the right person, at the 
right time, can make the right decision to accomplish the mission. This 
mindset starts with our institutional training and builds with unit 
training and experience.
    Structure: Army leadership at all echelons must institutionalize a 
narrowing of the gap between intelligence and operations. Collecting 
intelligence must become a natural occurrence of any operation that we 
conduct, from logistics resupply to an actual combat patrol.
    Doctrine: Furthermore, we must move operational units from a 
passive (waiting to receive intelligence with which to take action) to 
an active role in pursuing intelligence. Commanders must acknowledge 
that every operation is also an intelligence operation. Some of the 
most valuable intelligence comes from soldiers on point or on patrol. 
This `Fight for Knowledge' begins prior to operations and extends 
through the post-operation phases indefinitely as long as the Nation 
has a vested interest in the region. Lastly, we need to see ourselves 
as the enemy sees us: through Red Teaming. Our challenge is to build 
these constructs into our structure.
    (2) Breaking down the existing policies and procedures for data 
access: Within the Army, as well as the Intelligence Community, we must 
revamp the current processes and procedures that hinder our ability to 
rapidly move data, information, and intelligence throughout all 
echelons. Some policies limit our ability to access essential data 
bases while some limit our ability to move classified information to 
the tactical echelons and soldier. Others limit the sharing of certain 
types of data or intelligence. Another challenge is our tactics, 
techniques and procedures that we continue to use that were instituted 
prior to the advent of computers and current technology enablers. 
Existing TTP dictate an echeloned, stovepiped approach to requesting 
and passing intelligence. This slows and seriously limits the sharing 
or integration of data and knowledge, thereby impeding intelligence 
integration within the Intelligence Community and slowing and negating 
rapid intelligence sharing with the tactical echelons and soldier--
impacting the ability to rapidly execute operations.
    (3) Funding our Intelligence Transformation initiatives: Over the 
last several months, the Army has validated our Actionable Intelligence 
initiatives as enablers of modularity and larger Army transformation. 
This is a first and critical step toward achieving these goals. The 
next and equally critical step is committing the funds to implement 
these initiatives. To date, we have the funding required to begin 
pursuing our initiatives for DCGS-A. At the same time, we are 
reprioritizing within the Army budget to fund emerging requirements 
within the Information Dominance Center such as Red Teaming, Project 
Foundry, and The Pantheon Project. In the past, we have sustained 
minimal IDC operations with the assistance of Congress and the OSD. We 
are very appreciative of your support. We are convinced that the 
advancements we have made over the last couple of years are a 
tremendous return on that investment. However, the IDC's participation 
in recent and ongoing operations and the lessons learned from Project 
Morning Calm have expanded its mission focus and support concept. The 
IDC has become integral to the battle rhythm of engaged forces and 
should therefore be funded as a formal Army program vice dependence on 
supplementals and congressional aids. We are also working with the USDI 
and the agencies on support for those functions and capabilities that 
support the joint fight.

                         OUR FOCUS, THE SOLDIER

    Our focus is on the soldier of an Army that is fighting a war, 
resetting our forces, and transforming to the future. Our dynamic 
environment features new technologies, nontraditional missions and 
unconventional, elusive adversaries requiring radically different 
operating capabilities, tactics, techniques and procedures. Focus Area 
Actionable Intelligence is the vehicle for Army Intelligence 
transformation. Evolutions in sensing, communications, fusion and 
analysis will solidify the foundation of the Army's ability to conduct 
integrated and shared knowledge-based operations. Our emphasis is on 
addressing current operational mission requirements, while maintaining 
first advantage in capabilities--constantly focused on connecting the 
network--linking the soldier. At its very core, however, the conduct of 
intelligence analysis remains a human endeavor. Technology creates 
possibilities; humans turn possibilities into realities.

                               CONCLUSION

    The Army is at an historic crossroad. Our dynamic environment 
features new technologies, non-traditional missions and unconventional 
adversaries requiring radically different operating capabilities, 
tactics, techniques, and procedures. In response to this, the Army is 
transforming from top to bottom, even while engaging in combat 
operations, fighting an adversary unwilling and unable to challenge us 
directly, yet able to adapt to take advantage of real or perceived 
weaknesses. The funding provided is critical and essential in enabling 
our soldiers to continue to take the fight to the enemy.
    In closing, our common goal is to provide the best possible 
capabilities for our soldiers. We all know that our soldiers--our young 
men and women, America's finest--deserve nothing less than the best we 
all can do and provide for them. On behalf of the entire Army 
Intelligence Community, we appreciate your interest and support as we 
fight the current war, adapt our current force to the fight, and 
continuously transform--always building towards a future force. Thank 
you for allowing me the opportunity to address you in this forum and we 
sincerely appreciate your resolute support to our greatest assets, our 
soldiers.

    Senator Allard. We'll hear now from Admiral Porterfield, 
Director of Naval Intelligence.

STATEMENT OF REAR ADM. RICHARD B. PORTERFIELD, USN, DIRECTOR OF 
          NAVAL INTELLIGENCE, HEADQUARTERS, U.S. NAVY

    Admiral Porterfield. Good morning, Mr. Chairman, and thank 
you for the opportunity to appear here today.
    I want to tell you that the Navy, like the Services of my 
other colleagues, is in the midst of two really fundamental 
changes. First, we're in the middle of transformation, and 
we're also fighting a war, and that's simultaneously. I think 
that what we, in the Navy, see there are great challenges to 
this and we also see great opportunities to effect long overdue 
changes.
    In the recent active combat, the Navy found that we were 
deficient in our HUMINT; and, in closed session, I want to go 
over what we're intending to do about that.
    We also found that we were deficient in our ability to 
support naval special warfare, which we believe could well be, 
in the future, one of the very first naval assets to be 
employed in any conflict, because the nature of the war that 
we're facing has greatly changed.
    The third thing that we've found is that we've gotten very 
good at what we'll call ``time-critical strike,'' the ability 
to hit fixed or mobile targets on the land mass, but it's now 
time for the Navy to focus on the maritime domain because of 
some of the challenges that we see in the future in that arena. 
Antisubmarine warfare is a key issue for us, and it's driving 
some of the things that we're looking for.
    I also want to point out that, to use a saying that the 
highway administration uses, ``speed kills.'' The Navy's focus 
is on getting our capability to the fight quickly, to 
accomplish the movement of intelligence to warfare commanders 
and our warfighters on the ground and at sea and in the air 
very quickly. That's one of our fundamental tenets, and it is 
something that we're working very hard on.
    I also want to say that there's a great deal of 
interdependencies among the service capabilities and the joint 
capabilities which are currently under discussion, and I think 
that's important for you to realize that they all have to work 
together in order to be optimized. We're talking about 
persistent surveillance often, but we also need to think about 
persistent analysis and the ability to move the data to the 
right place at the right time quickly.
    I want to also mention to Senator Nelson that Scott 
Speicher is a continuing high priority for the Department of 
the Navy. We continue to examine every shred of evidence and 
working with our DIA and Iraqi Survey Group colleagues, Major 
General Dayton, that continues to be a very high focus for 
Secretary England and Admiral Vern Clark.
    Senator Bill Nelson. I just met with General Dayton.
    Admiral Porterfield. Yes, sir.
    With that, sir, I want to yield the remainder of my time, 
and will be glad to take questions either here or in closed 
session.
    [The prepared statement of Admiral Porterfield follows:]

      Prepared Statement by Rear Adm. Richard B. Porterfield, USN

                            I. INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to testify. I welcome the opportunity to once again appear 
before you to discuss the state of Naval Intelligence. I want to 
express my sincere gratitude for your support of the United States 
Navy. At no time has that support been more vital than it is today, as 
we continue to fight a global war on terrorism, projecting decisive 
joint power across the globe. Naval Intelligence is engaged worldwide, 
meeting the current intelligence demands of our joint forces while 
transforming to meet future joint ISR requirements. The Naval 
Intelligence program is consistent with Dr. Cambone's Defense 
Intelligence Goals and we continue to work closely with the USDI and 
the other Services to shape an effective and efficient Defense 
intelligence program. Reflecting the priorities set forth in my annual 
guidance as Director of Naval Intelligence, I will focus today's 
remarks on three topics:

        <bullet> Naval Intelligence support to global operations;
        <bullet> Lessons learned and transformational initiatives;
        <bullet> Navy ISR Roadmap and program highlights.

          II. NAVAL INTELLIGENCE SUPPORT TO GLOBAL OPERATIONS

    I am proud to inform you of the outstanding work being performed by 
the Navy's intelligence team around the world. A trademark of the Navy 
is being forward deployed and fully engaged in providing for the 
Nation's security. Today, there are two Carrier Strike Groups (CSGs) 
and four Expeditionary Strike Groups (ESGs) deployed globally. Each 
deployed force possesses fully manned afloat intelligence centers and 
ships signals exploitation spaces, which provide imagery and targeting 
analysis, cryptanalysis, and ISR battle management support to U.S. and 
Coalition Naval Forces. In addition to our CSG and ESGs Nuclear-Powered 
Attack Submarines (SSN) are forward deployed, providing both strike and 
ISR capability and Navy EP-3 and P-3 AIP aircraft are providing multi-
sensor intelligence collection in support of joint and coalition 
forces. Forty percent of our manpower is invested in joint 
intelligence, providing maritime intelligence expertise to each of our 
combatant commanders.
    Here at home, the Office of Naval Intelligence (ONI) is heavily 
engaged on a daily basis providing critical maritime intelligence to 
support the multi-agency homeland security effort, focusing its 
maritime shipping, cargo and proliferation expertise on denying 
terrorists the use of the seas. In the past year, ONI has partnered 
with the U.S. Coast Guard's Intelligence Coordination Center and 
established a 24-hour a day, 7 day a week, National Maritime Watch in 
direct support of Northern Command's (NORTHCOM) mission to ensure the 
maritime homeland defense of the U.S. Each day, we report on vessels of 
interest en route U.S. ports, identifying those that pose a potential 
national security threat. At the same time, ONI continues to be 
instrumental in taking the fight to the enemy by providing critical 
intelligence support to global Maritime Interdiction Operations (MIO).

        III. LESSONS LEARNED AND TRANSFORMATIONAL INITIATITIVES

    Our experiences during recent combat operations have highlighted 
the need for enhanced Naval Intelligence expertise in several areas, 
particularly collection management, HUMINT, and support to Special 
Warfare. In addition to revitalizing Navy HUMINT, the Chief of Naval 
Operations (CNO), in his Guidance for 2004, directed us to focus on 
improving our global maritime awareness and merchant ship tracking 
capabilities, and delivering advanced ISR capabilities within FORCEnet. 
He also directed us to support these efforts through improvements to 
the development and integration of our total force of civilian, active, 
and Reserve intelligence personnel. In response, we have commenced a 
number of transformational initiatives, while modifying our fleet 
exercises to better stress and test our skills in joint operations.

A. HUMINT Transformation
    There is a continuing need, consistent with the President's budget, 
to grow and sustain the Navy HUMINT capability. ONI has strengthened 
and will continue to expand its HUMINT capability with emphasis in 
Interrogation of Prisoners of War (IPW) and Civil Maritime Collection 
Operations.
    Demonstrating the total force concept, 69 naval reservists have 
been mobilized since September 11 to support these HUMINT efforts. ONI 
overt HUMINT collectors have accompanied the U.S. Coast Guard on more 
than 3,250 boardings of foreign vessels since September 11. We are 
transitioning this capability from a force consisting primarily of 
mobilized reservists to a more permanent full-time capability.

B. Maritime Intelligence Transformation
    The ONI continues its Maritime Intelligence transformation--both in 
its support to the global war on terrorism and in its emerging role of 
providing direct support to theater naval forces. ONI continues its 
efforts to improve the detection, identification, and tracking of 
merchant shipping activity worldwide. To support national and theater 
maritime intelligence requirements, ONI has strengthened its strategic 
relationships with numerous regional partners. These maritime 
information exchanges provide valuable regional maritime information, 
much of which is not available from other sources. ONI's Automated 
Merchant Reporting System is a critical component of this effort.

C. Fleet Intelligence Transformation
    ONI is also transforming its support to the fleet. As we learned 
during OIF, combat operations often placed a high demand for imagery 
exploitation capabilities in support of targeting and battle damage 
assessment (BDA). Recognizing the need to improve imagery analysis 
support to forward-deployed forces, the Navy and ONI established the 
Fleet Imagery Support Team (FIST). FIST will provide direct support to 
deploying battlegroups by increasing our imagery analysis capabilities 
afloat, our reachback capabilities for analysis of tactical imagery 
ashore, and the ability of forward-deployed forces to leverage ONI's 
analytical and technical expertise. FIST will improve the near real-
time imagery support required to support Time Critical Strike missions. 
Specifically, FIST will improve the CSG and ESG's ability to task, 
process, exploit, and disseminate theater and tactical ISR sensor data 
such as that obtained from Broad Area Maritime Surveillance (BAMS) UAVs 
and other developmental and existing systems.
    Another priority mission for ONI is analysis of the worldwide 
submarine threat. ONI has focused its efforts in two areas: assessing 
submarine capabilities, and projecting future force levels to support 
DOD and the Office of the Chief of Naval Operations (OPNAV) acquisition 
community requirements. ONI also devoted considerable analytic effort 
to develop projections of worldwide naval systems and weapons 
capabilities over the next 20 years. These detailed projections are 
used to support wargaming scenarios, which in turn, support the 
acquisition decisionmaking process.

D. Total Force Transformation
    As I mention earlier in my testimony, recent combat operations have 
highlighted the need for enhanced Naval Intelligence expertise in 
collection management, HUMINT, and support to Special Warfare. In 
response, we have aligned our training and manpower management 
processes to better support the development, tracking, and application 
of these capabilities.
    A key milestone of this effort is the development of the 
Intelligence Officer Professional Qualification Program (PQP), which 
responds to OIF lessons learned and a recently completed intelligence 
officer job task analysis. We are expanding our Additional 
Qualification Designator (AQD) program to track the core skill areas 
mentioned above in addition to our existing Navy Targeting Officer and 
Joint Targeting Officer AQDs. Similarly, we are refocusing Active and 
Reserve Intelligence Specialists (IS) toward the core skill areas of 
imagery analysis, strike warfare, and operational intelligence, and 
coding all enlisted billets to accurately reflect current and future 
skill requirements. This is part of our broader effort to evolve the IS 
rating into an Advanced Technical Field.
    The Navy continues to face major challenges in accessing and 
retaining sailors with the right skills to meet emerging requirements--
both ashore and afloat. Ensuring the Fleet is manned with the right 
people with the right skills is as important as equipping them with the 
latest technology and tools. Naval Intelligence is leading the way in 
the CNO's broader efforts to revolutionize training in the Navy and 
achieve full integration of our active and Reserve components.
    Last summer, we established the Center for Naval Intelligence in 
Virginia Beach, Virginia as one of several learning centers supporting 
the CNOs' Revolution in Training initiative. This center is responsible 
for all Navy intelligence training, education, and professional 
development, including oversight of the Navy and Marine Corps 
Intelligence Training Center (NMITC) in Virginia Beach and the Fleet 
Intelligence Training Center (FITCPAC) in San Diego. We are embracing 
new technologies and applying human performance development concepts 
from the science of learning. We are revising every aspect of our 
current training processes and incorporating computer-based training 
and realistic team trainers that form the centerpiece of training at 
the Center for Naval Intelligence as well as the Center for Cryptology 
at Corry Station in Pensacola.
    This year, with the support of the Naval Reserve Intelligence 
Program leadership, we developed a Naval Intelligence Community Roadmap 
to guide our officer and enlisted professional development and advance 
the full integration of our active and Reserve components. Based on 
requirements validated by Fleet Forces Command, this roadmap helps us 
define skill requirements to meet emergent missions, tailor skill 
training to specific job tasks, and make sure Reserve component 
capabilities augment or complement active component capabilities.
    The most important personnel action concerns our initial accession 
contracts for active-duty sailors. Beginning this fiscal year, we 
shifted to a 6-year obligation, Advanced Technical Field enlistment 
contract. These sailors will report aboard ship fully trained and 
qualified to support fleet combat operations from day one. For example, 
starting with the October 2003 class, sailors awarded the strike 
warfare qualification code arrived in the fleet certified to develop 
aimpoints for precision-guided munitions.

                 IV. ISR ROADMAP AND PROGRAM HIGHLIGHTS

A. Navy ISR Transformation
    FORCEnet is the centerpiece of the Navy's transformation to a 
network centric environment. The vision of FORCEnet is a single, 
enterprise-wide, open architecture. It will reach across all programs 
to create a continuous information environment across the Navy and will 
serve as the key enabler for Sea Power 21 capabilities. Naval 
Intelligence intends to remain at the forefront of this initiative and 
ensure our intelligence programs are fully integrated.
    At the heart of Navy's plan to integrate a net-centric ISR 
capability into FORCEnet is the DCGS. The DCGS family of systems will 
not only support integration of tactical, theater and national ISR 
capabilities into Naval warfare operations, but it will also ensure 
that a distributed network of Navy ISR sensors can contribute directly 
to a Joint common operational picture via the Global Information Grid 
(GIG). The Navy recently created a single program office for the Joint 
Services Imagery Processing System (JSIPS) and the TES to facilitate 
incorporating these programs into our DCGS effort. Although primarily 
focused on supporting strike warfare and time critical targeting, the 
objective is for the Navy's DCGS to support all naval warfare domains. 
This initial consolidation is the first step toward developing a Navy 
DCGS capability that is compatible with the DCGS Integrated Backbone 
(DIB) and the Joint DCGS architecture.
    I am a co-lead in the FORCEnet project, primarily to ensure that 
the Navy's ISR capabilities and investments remain a core component of 
Navy Network Centric Operations (NCO). Furthermore, the Navy staff has 
recently established an ISR branch within the warfare requirements 
directorate, headed by a naval intelligence flag officer. This move is 
an acknowledgement that ISR has become a critical warfighting 
component.

B. Airborne ISR Programs
    Last year at this time the Navy had not yet decided on the way 
ahead to replace the aging EP-3 ARIES II system. I am pleased to report 
this year that a Navy variant of the Army's ACS will meet the Navy's 
requirements for a manned multi-INT airborne ISR capability. Navy ACS 
will exceed current EP-3 capabilities, while promising improved 
airframe reliability and reduced operating costs. Navy ACS will be 
tailored to support the Navy's warfighting and ISR concept of 
operations (CONOP).
    Persistent surveillance over open-ocean and littoral areas remains 
critical to establishing and maintaining comprehensive battlespace 
awareness in a dynamic maritime environment. This is especially true 
when potential adversaries are equipped with long-range anti-ship 
cruise missiles. The high altitude endurance (HAE) BAMS UAV is designed 
to provide the necessary persistent ISR capability required by CSG, 
ESG, and the Joint Forces Maritime Component Commander (JFMCC) to 
support Joint Operations. Navy will acquire two modified Global Hawk 
UAVs as part of a Maritime Demonstration to rapidly inject a persistent 
UAV into the Fleet. These systems will be used to develop the CONOPs 
and procedures required for introduction of BAMS UAV. BAMS UAV will 
complement other Navy maritime surveillance systems such as the P-3 and 
Multi-Mission Maritime Aircraft (MMA).
    For tactical reconnaissance, the Shared Reconnaissance Pod (SHARP) 
represents a significant increase over the legacy TARPS system, adding 
a robust night capability, high bandwidth data-link, increased 
standoff, and an all-digital imagery system. SHARP is scheduled for 
formal operational evaluation (OPEVAL) in late fiscal year 2004, but 
experienced a very successful early operational capability (EOC) 
deployment aboard U.S.S. Nimitz during OIF.
    ACS, the BAMS UAV, and other Navy ISR systems, will be designed to 
``plug in'' to Navy DCGS/FORCEnet, allowing rapid distribution of ISR 
data to Navy and Joint users, and key Navy and Joint analysis nodes for 
further processing. Naval forces will also be able to access ISR data, 
from joint assets such as Global Hawk and Army ACS, via the DCGS 
architecture.

C. Surface and Subsurface ISR Systems
    The Maritime Cryptologic Strategy for the 21st Century (MCS-21) is 
our vision for integrating existing cryptologic capabilities with 
advanced technologies to create a single, scaleable, interoperable 
SIGINT system. Spiral E of SSEE, the first step toward achieving the 
MCS-21 vision, will provide improved front-end sensor capabilities by 
incorporating easily reconfigurable software receivers. Also included 
are radio direction finding and Information Warfare capabilities and an 
embedded scenario-based training package. The result is significantly 
enhanced threat detection and identification for warship commanders.
    As the threat environment evolves, submarines remain a potential 
high-interest threat. Accordingly, Navy continues to invest in ISR 
capabilities that will monitor emerging undersea threats and provide 
cueing to tactical ASW assets.
    For our submarines, the latest Submarine Electronic Support 
Measures (SSEM) equipment will provide an advanced capability for both 
open-ocean and littoral environments. The system includes a sensor 
suite, processing and analytical tools to provide self-protection, 
situational awareness and, when augmented by special additional gear, 
an undersea ISR capability.
    Taken together, these airborne, surface and subsurface systems 
provide the flexible, scaleable, comprehensive ISR capability required 
to meet current and emerging threats and support naval, joint, and 
coalition forces at the tip of the spear.

                             V. CHALLENGES

    My greatest challenges fall into two basic categories:

          (1) Determining the optimum skill mix and distribution of 
        personnel between the analytical capabilities needed afloat 
        with those that can be accomplished via reach-back;
          (2) Identifying the emerging sensing and processing 
        capabilities that affect this mix.

    Ultimately the success of our ISR vision, and its contribution to 
naval warfare, depends on the individual sailor and whether we've given 
him the skills and tools to do his job well. Innovations in digital 
classrooms and team trainers are clearly a positive step but the trend 
toward more technologically advanced ships manned by smaller crews 
complicates the task ahead. To achieve our goals we will have to do 
more things, and do them better, with fewer people or make huge strides 
in our remoting capabilities to facilitate improved ashore/afloat 
collaboration. Equally challenging is our ongoing effort to determine 
the best mix of ISR sensors Naval Forces will need to fulfill 
warfighting requirements, and then correlate this sensor mix with 
appropriate air, surface, and subsurface manned and unmanned platforms. 
Realistically, we will have to pursue our vision on both fronts.

                             VI. CONCLUSION

    In conclusion, I want to thank this committee and Congress for the 
consistent support you have provided Naval Intelligence. I've talked 
today about our current support to global operations of all types, our 
response to lessons learned from recent combat operations, and our 
efforts to build the right naval ISR system of systems at the right 
cost, while developing our human capital to effectively utilize those 
capabilities in support of naval and joint forces going into harm's 
way. Our priorities are reflected in our fiscal year 2005 budget 
submission and form the foundation of our ISR roadmap and 
transformational strategy. I hope I have conveyed the breadth and depth 
of naval intelligence's contribution to ongoing operations. Our 
transformation efforts will shape a future Navy intelligence capability 
that is an even more powerful enabler to joint and naval forces, 
providing the Nation with unmatched maritime intelligence capabilities.

    Senator Allard. Thank you.
    Now we'll call on Major General Sams, U.S. Air Force 
Director of Intelligence, Surveillance, and Reconnaissance.
    Welcome.

   STATEMENT OF MAJ. GEN. RONALD F. SAMS, USAF, DIRECTOR OF 
 INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE, DEPARTMENT OF 
                         THE AIR FORCE

    General Sams. Mr. Chairman and members of the subcommittee, 
it's my honor to talk to you about Air Force intelligence.
    It was almost a year ago that an Air Force Global Hawk, 
flying over a suspected Iraqi surface-to-air missile (SAM) 
site, sent missile data information and the pictures it took to 
a ground site at Beale Air Force Base, California. That ground 
site took that information and pumped it immediately to an 
imagery analyst in Nevada. Within 2 minutes after those images 
were received, the analysts discovered the Iraqi SAM site. The 
data was then sent, within 10 minutes, to the Combined Air 
Operations Center (CAOC); and 57 minutes after that Global Hawk 
saw that Iraqi SAM site, a B-2 was reprogrammed with a 
precision weapon and took out the site.
    On that same day, a Predator was flying, looking for 
missile transporters, and actually spotted some Iraqi tanks in 
a tree-line. Predator video was also sent back via our 
distributed systems to analysts back in the States, who sent 
the information to the CAOC, who then sent it to the airborne 
aircraft; and 17 minutes after the initial Predator video was 
transmitted, those tanks were destroyed.
    Now, these two examples illustrate what we talk about in 
terms of the results of Air Force ISR, which is a crosshair and 
a target. It also serves to illustrate where we're going in 
ISR, because time-critical targets require rapid movement of 
information and rapid targeting of weapons, and our first 
priority to the combatant commander will always be to prosecute 
those targets through global persistent surveillance, through a 
combination of ground and airborne and space-based sensors and 
systems.
    To better make our ISR capabilities available to combatant 
commanders, the Air Force has aligned ISR and command and 
control (C-2) wings under a single-numbered air force, 8th Air 
Force, which is responsible for their training and readiness. 
At the headquarters level, we've established a Deputy Chief of 
Staff for Warfighting Integration, who's responsible for Air 
Force C-2 and ISR interoperability at the technical and 
operational levels.
    The examples I referred to earlier also illustrate the 
success of networking our information. Through use of reachback 
to distributed analytic centers, we have access, in a matter of 
seconds, to analysts worldwide. During Operation Desert Storm, 
the DCGS at Langley Air Force Base was deployed forward, and so 
was the one at Beale. Today, if we deployed those two centers 
forward, it would cost us about 17 C-5s, and would cost us 
about a million--maybe up to $50 million to move all that 
equipment, and not to mention the people. Today, through 
reachback, the Air Force doesn't have to deploy all of those 
people forward. The technology allows us to leverage our 
expertise from a myriad of analysts around the world from our 
Active and Reserve Forces. We also substantially reduce the 
number of people that we have to move forward, or, as we like 
to say, ``When possible, we'll move digits and not people.''
    As demonstrated during OIF, our U-2 continues to be an 
extremely capable multi-intelligence platform. It is a true 
workhorse today. It is not the same U-2 that was flown by 
Francis Gary Powers during the Cold War. In fact, airframe-
wise, it's one of our youngest, and we believe it'll remain 
viable until at least the year 2025.
    Now, a few years ago, it was my honor to be the commander 
of the 55th Wing at Offutt Air Force Base. My RC-135 fleet was 
extremely busy then; it is extremely busy now, and the Rivet 
Joints continue to be our heavy-lift SIGINT platform with an 
airframe that should last through at least 2023.
    We are continuing our spiral development of our Global Hawk 
to a multi-INT platform. Though the Global Hawk is still in 
development, it provided over 28,000 images during OIF, and 
over 3,000 of those helped prosecute time-critical targets.
    Predator continues to be a success. All the Predators that 
we purchase now will be capable of delivering weapons. We are 
also developing our Predator B into a true hunter-killer 
aircraft capable of automatic target queuing and prosecuting 
time-critical targets.
    Our investment in the DCGS, version 10.2, will provide the 
communications backbone that will help all Services plug into 
this, and use their own communication architectures so that we 
can spread data when and where it's needed.
    Our investment in SBR and Space-Based Infrared System is 
significant, but it's critical to global persistent 
surveillance. When these systems are operational, it will mean 
that the enemy really has no place to hide, day or night or in 
adverse weather. Our vision is to give the enemy no place to 
hide, to know what the enemy is doing all the time, to be 
inside the enemy's decision cycle so that we can engage 
anytime, in any place at our choosing.
    Thank you very much for my few minutes, and I look forward 
to discussing this with you later.
    [The prepared statement of General Sams follows:]

          Prepared Statement by Maj. Gen. Ronald F. Sams, USAF

                            OPENING REMARKS

    Mr Chairman, distinguished members of the committee. It is an honor 
to provide you my vision of Air Force ISR and also to discuss some 
important lessons learned from recent, and ongoing, military 
operations. As we work closely with the newly established USDI, we see 
a future in which Air Force ISR will greatly contribute to our Nation's 
ability to dominate the enemy's information space. Our first priority 
is to provide the combatant commanders with the means to prosecute 
global and persistent surveillance from a combination of airborne, 
ground, and space-based capabilities. To that end, the Air Force 
realigned its ISR and command and control (C2) wings under a single 
numbered Air Force commander, responsible for all ISR training and 
readiness. The realignment of Air Force ISR under 8th Air Force in 2002 
was a total force initiative--providing the combatant commander with a 
coherent, integrated force capable of meeting tomorrow's information 
intense environments. Our outlook for the future also calls for 
significant increases in operational integration across all domains--
joint, allied, and coalition partners. In 2002 we also established a 
Deputy Chief of Staff for Warfighter Integration to ensure a coherent 
look at all Air Force ISR and C2 interoperability at the technical and 
operational levels. In addition to improved methods for 
interoperability and information sharing with our partners, we see 
great opportunities for achieving information dominance through 
increased networked centric intelligence operations and broadband 
reachback to our distributed analytical centers. Based on lessons 
learned from ongoing conflicts, our analytical centers are also 
adapting to provide the warfighters with ``predictive'' intelligence 
through multi-INT approaches to include extensive analysis of open 
source information. For example, assessment of terrorist and 
proliferator use of civil aviation, whether compiling basic 
intelligence or identifying potentially hijacked aircraft threats, will 
require an unprecedented degree of integration of open source and 
classified data streams. We have explored the means to fully integrate 
these data sources with promising results. Last, our vision for 
information dominance is founded on a balanced investment and 
modernization strategy that leverages off of industry's key 
technological advances in unmanned aerial vehicles, radar and signals 
intelligence processing, access to commercial imagery satellite 
communications, and distributed networking capabilities.
    On the eve of OIF, the Air Force was prepared to provide rapid, 
comprehensive, and precise targeting to support the joint warfighter. 
This capability was supported via a joint multi-intelligence framework 
(SIGINT, IMINT, and MASINT), which in turn provided an actionable 
battlespace picture to the warfighter. The plan achieved regional ISR 
persistence, with distributed operations, and incorporated reach-back 
to provide more flexibility and analytical capability. One of the 
extraordinary results achieved from this synergy was the ability of the 
Joint Forces Air Component Commander (JFACC) to engage multiple targets 
per sortie, vs. the WWII-era standard of hundreds of sorties per 
target.
    As I provide an operational overview of some of our major ISR 
programs, I will also highlight some of the lessons learned during 
recent and ongoing operations. Some of our most significant 
accomplishments involve the integration of multiple ISR assets to 
produce an effective ISR architecture. Recent operations have found us 
integrating information from our mainstay ISR fleet, including the U-2 
and the RC-135; and our UAV programs, Predator and Global Hawk with 
space based ISR systems. Much of this integration has been made 
possible by our continuing evolution of the DCGS. In addition to our 
traditional ISR capabilities, we are continuing our efforts to improve 
and integrate MASINT and Non-Traditional Intelligence, Surveillance, 
and Reconnaissance (NTISR) into our ISR collection and processing 
capabilities.
    Beyond the hardware, no discussion of ISR capabilities would be 
complete without addressing what the Chief of Staff of the Air Force 
refers to as ``the heart of our combat capability'' . . . our airmen. 
Air Force intelligence personnel continue to perform in a consistently 
outstanding manner in a number of ongoing joint and coalition 
operations. Before closing my overview of Air Force ISR, I will address 
some of our ongoing force management efforts, which assist in defining, 
renewing, developing, and sustaining our intelligence force structure.

                            ISR ARCHITECTURE

    The integration of theater and national ISR assets during OIF 
reflects the tremendous potential of truly integrated ISR to transform 
combat operations. The Air Force pursued several programs to integrate 
air and space ISR capabilities into the CAOC. A key integrating program 
for theater ISR is the Air Force DCGS. The operational effectiveness of 
network-centric operations was validated during Operations Enduring 
Freedom and Iraqi Freedom. The DCGS weapon system provided the 
combatant commander a global, distributed architecture for theater ISR 
via a combination of reachback and forward deployed systems and 
personnel. This reachback effort included TPED for Predator, Global 
Hawk, and U-2 missions. We teamed with the national agencies, and other 
mission partners to provide unprecedented ISR coverage throughout OEF 
and OIF. The success of both of these operations was enabled by 
integrating ISR asset capabilities into the DCGS network, which allowed 
us to cross-cue information among platforms and sensors, and pass on 
fused actionable intelligence to commanders and strikers in real time 
to execute coordinated, synergistic combat operations.
    In fiscal year 2005 we begin fielding the Block 10.2 Multi-INT Core 
baseline of DCGS. The centerpiece of this baseline is the DCGS DIB. The 
DIB is the foundation of the DOD DCGS transformation to net-centric 
operations. The Services cooperatively developed DIB technical 
requirements to ensure joint interoperability and enable net-centric 
operations. The Services have committed to being interoperable with the 
DIB, and a DOD-level governance process has been established to ensure 
compliance. The improvements to our space and terrestrial 
infrastructure, modernization of our legacy baseline, and the 
integration of the DIB, will provide the combatant commander 
unprecedented access to decision quality information for operations 
anywhere on the globe.
    As warfighters, we focus engagement-based intelligence with the 
concept General Jumper calls ``cursor on the target.'' Cursor on the 
target does not imply that we will always use intelligence to destroy 
enemy equipment or attack their forces. In some cases, we put the 
cursor on the target to simply learn more by focusing collection with 
ISR sensors.
    At the heart of this approach is predictive analysis. Based on what 
we know of terrain, weather, enemy training, capabilities and habits, 
we focus our application of military intelligence on what is possible 
and likely. We cannot chase an infinite set of possibilities, but 
rather, must frame the problem for our decisionmakers. Leveraging this 
predictive analysis tied to a network centric ISR architecture through 
DCGS enables us to optimize limited ISR assets.
    While we've spoken to the architecture, these successes aren't 
possible without the specific programs and people making it happen.

                            U-2 DRAGON LADY

    The U-2 continues to be the most capable multi-intelligence 
platform in our inventory, as was demonstrated during OIF. We are in 
the final stages of a decade long upgrade program to the aircraft, 
sensors and data links and we are in the initial stages of fielding 
this new capability. We will be fielding additional capability over the 
course of the next couple of years as systems complete operational 
testing and evaluation.
    The U-2 continues to be at the forefront of Air Force 
reconnaissance, enhancing our strategic competencies for warning, 
providing data needed for time sensitive targeting and enhanced data 
links speeding information to multiple users. The U-2 is a lynchpin in 
Air Force efforts to network and integrate ISR into warfighter C2 and 
will remain a viable and necessary ISR asset.

               RC-135 RIVET JOINT/COBRA BALL/COMBAT SENT

    The RC-135 fleet continues to be in high demand by the unified 
combatant commanders in support of the global war on terrorism, because 
of its state of the art airborne collection system, and adaptability.
    Baseline modifications allow us to adapt quickly to time-critical 
unified combatant commanders' requirements, and field capabilities as a 
direct result of lessons learned from OIF and OEF into future 
baselines.
    We currently project the RC-135 fleet to remain viable well into 
the 2020s and perform the role of heavy-lift SIGINT in the Air Force's 
scaleable, networked ISR architecture. This long-term viability is, in 
part, based on two major upgrades to the fleet that enhance the overall 
reliability, maintainability, and sustainability of the platforms. The 
re-engining effort to equip all RC-135s with CFM-56 engines has already 
paid huge dividends with zero maintenance write-ups for the new engines 
during Operation Iraqi Freedom. Another vital modification, well 
underway, is the modernization of our cockpit instrumentation and 
systems. This major upgrade will provide the infrastructure to meet new 
International Civilian Aviation Organization (ICAO) requirements for 
global air traffic and navigation.
    The global war on terrorism has dramatically expanded our target. 
Mission ready enlisted aircrews remain a challenge with the expanding 
operational tempo required to meet the worldwide support requirements. 
We continue to address these issues in order to meet future combatant 
commander requirements. We have maximized linguist-recruiting 
accessions and filled our training pipeline. We are addressing 
retention through offering higher re-enlistment bonuses, continually 
working to alleviate operations and personnel tempo issues, and 
refining airborne linguist career field management to maintain our 
current pool of linguists.
    Even as we work to increase the availability of the RC-135 fleet 
and address our manning challenges, the fleet will remain a Low 
Density/High Demand (LD/HD) asset. Combatant commanders across the 
globe depend on the capability RC-135s bring to their theaters. To meet 
this challenging LD/HD situation, we will continue our high priority 
efforts to maximize the utility of all available assets, enhance 
aircrew training across the board and continue to improve management of 
our linguist career fields. Further, to counter rapidly emerging 
threats, we will continue updating RC-135 collection systems to ensure 
warfighters are armed with accurate, timely and actionable 
intelligence, surveillance, and reconnaissance.

                         MQ-1 AND MQ-9 PREDATOR

    We continue to develop the Predator system into fiscal year 2005. 
Most noteworthy is our development of the MQ-9 Predator B `Hunter-
Killer' aircraft capable of automatically cueing and prosecuting 
critical emerging Time-Sensitive Targets (TSTs) with a self-contained 
hard-kill capability to include precision-guided munitions. This will 
provide a persistent, armed reconnaissance multi-mission UAV operating 
higher and faster than the MQ-1 and with a greatly increased payload 
capacity.

                            RQ-4 GLOBAL HAWK

    As it did for OEF, the Global Hawk deployed in support of Operation 
Iraqi Freedom and was able to provide critical support for the 
warfighter. The persistence, flexibility, and responsiveness of this 
system were once again proven successful, where it demonstrated the 
capability to image anywhere in the area of operations. Its ability to 
deviate from pre-planned flight tracks combined with its simultaneous 
carriage of EO, IR, and synthetic aperture radar (SAR) sensors offers 
the flexibility to respond to dynamic environmental conditions to 
achieve the best available collection.
    The Global Hawk is a tremendous addition to our ISR fleet 
capability. The persistence and long dwell capabilities preclude an 
enemy's sanctuary from reconnaissance or surveillance. It also affords 
theater commanders the ability to plan for and execute a standard, pre-
planned collection mission while also having plenty of time available 
to execute ad-hoc retasking for emerging or time-critical targets. As 
we field the Global Hawk fleet over the remainder of this decade we 
will achieve significant improvement in our ISR capabilities.

                               REACHBACK

    Reachback provided desired support without the costs and risks to 
personnel and equipment associated with the deployment. Prior to the 
war, Air Combat Command established the Expeditionary Intelligence 
Group (EIG), a CONUS-based organization. The EIG enabled the CFACC to 
call upon analytical and operational support from over 1,000 
personnel--not all in one location--coordinated by one organization. 
EIG assistance also reduced forward deployment requirements, and 
eliminated the commensurate requirements for base operating support, 
force protection and airlift.

Commercial Imagery
    The Air Force has recognized the improvements in the quantity, 
quality, and timeliness of Commercial Imagery, and has established a 
robust Commercial Imagery capability to support the full spectrum of 
warfighter requirements. The 480 Intelligence Wing serves as the Combat 
Air Forces premier reach back intelligence production center for the 
global war on terrorism, and is the Air Force's primary producer of 
Commercial Imagery products.
    The first Air Force Controlled Image Base (AF-CIB) production in 
support of OEF was completed within 3 days of September 11. This made 
possible production-enabled mission planning for current operations.
Non-Traditional Intelligence Surveillance and Reconnaissance
    NTISR was developed to address the need for additional ISR 
collection by tasking aircraft to record weapons system video of 
selected targets. Aircraft with targeting pods traditionally used for 
targeting purposes, were tasked to locate, identify, and assess 
potential/emerging targets and Battle Damage Assessment (BDA).

                    FORCE DEVELOPMENT AND MANAGEMENT

    During OIF, deployment of Air Force intelligence professionals 
jumped to a level almost 10 times greater than the pre-September 11 
numbers. In our new ``steady state'' operations, the number of 
intelligence personnel deployed at any given time is still far in 
excess of that experienced before September 11. This dramatic increase 
in our expeditionary commitments has placed tremendous stress on our 
ISR workforce. This is especially true with LD/HD skills such as 
targeting, collection management, imagery intelligence, and 
cryptologic-linguists in selected language groups. However, we are 
making strides in addressing this issue: in fiscal year 2004, Air Force 
Intelligence received additional authorizations to support stressed 
career-fields, and for fiscal year 2005, AF Intelligence will receive 
more authorizations. Additionally, our Air Reserve component continues 
to make vital contributions to meeting Air Expeditionary Force 
requirements.
    We are diligently working to improve the skills of our enlisted, 
officer, civilian, and Air Reserve component intelligence professionals 
by developing career-long Force Development models based upon the Air 
Force Chief of Staff's direction. This effort involves taking a hard 
look at our initial skills, advanced skills, and follow-on unit mission 
readiness training for the total force. In our initial skills courses, 
we are reviewing combatant command requirements to ensure entry-level 
airmen have the skills necessary to meet both steady-state and wartime 
requirements. For advanced skills training, we have developed two new 
courses, the ISR Operations Course and the Intelligence Master Skills 
Course, which enhance the operational proficiency and leadership skills 
of mid-career intelligence professionals. At the unit level, 
Intelligence Formal Training Units provide airmen the right training at 
the right time on specific weapon systems and mission areas. In 
addition, we will continue to leverage educational opportunities such 
as the Joint Military Intelligence College and the NSA internship 
programs designed to enhance the technical and leadership skills of our 
total force.
    The Air Force's vision for improving intelligence analysis involves 
a three-pronged approach of professional development, analytic tool 
development and technology recapitalization. In the area of 
professional development, the Air Force Intelligence division sponsors 
the Quality of Analysis program, which is focused on providing analysts 
with deeper analytical area and functional expertise. The individually 
tailored training may involve travel to foreign countries for 
geographic area familiarization; attendance at academic seminars, 
scientific symposia and equipment exhibitions; and visits to Federal 
and private research centers and laboratories. At the National Air and 
Space Intelligence Center (NASIC), there is a professional development 
program for the entire workforce, incorporating education and training, 
mentoring, tradecraft, and a civilian career development program to 
ensure that analysts have the skills they need to serve our country to 
their highest potential. The second front on which the Air Force is 
working to improve our intelligence analysis capabilities is analytic 
tool development. We are working with the other Services to develop 
products and models in common languages and databases that the entire 
Intelligence Community can use. Examples include IDMATS, which 
characterized foreign Camouflage Concealment and Deception; Joint 
Dynamic Information Operations Decision Environment (DIODE), a links 
and nodes analysis program; and the Threat Modeling and Analysis 
Program (TMAP). The Air Force is also working to operationalize digital 
production, following standards set by the Intelligence Community Chief 
Information Officer. The Digital Production program at the NASIC, when 
complete will allow smart data mining and instant access and search 
capability on thousands of products. Finally, we are exploiting Open 
Source Intelligence (OSINT). The events of September 11 and the A.Q. 
Khan proliferation network have abolished all doubts that civil 
aviation is a vital logistical node for terrorists and proliferators. 
Air Force Intelligence has begun to focus on the full spectrum of this 
problem in order to provide combatant commanders the requisite 
intelligence to support military operations. This must include the 
capability to provide a worldwide, 24/7, real-time air picture. 
Assessment of terrorist and proliferator use of civil aviation, whether 
compiling basic intelligence or identifying potentially hijacked 
aircraft threats, will require an unprecedented degree of integration 
of open source and classified data streams. We have explored the means 
to do this and the results are promising indeed. I regard it as one of 
the most vital services Air Force Intelligence can provide to the 
Nation.
    We are continuously reviewing our manpower utilization and the 
operational requirements placed upon our intelligence force to ensure 
they have the knowledge, skills, and abilities to meet our National 
Security objectives.
    The global war on terrorism continues to highlight the need for 
skilled linguist to meet ongoing operational requirements. To amplify 
this LD/HD capability within the Air Force we have increased the 
crypto-linguist training pipeline and number of personnel trained in 
less commonly taught languages critical to global war on terrorism 
operations. Earlier this year we teamed with the Air Force Manpower 
Agency to identify requirements using the Air Force's new Capabilities 
Based Manpower Determinants process. This process takes a holistic end-
to-end look at weapon system and mission area operations to determine 
force structure needed to provide required warfighting capabilities. 
This process will ensure our combatant commanders have the full 
complement of intelligence resources to meet their needs in peace, 
crisis, and war.

                               SHORTFALLS

    JFCOM noted, in their final OIF Lessons Learned document, that BDA 
did not keep up with the speed of operations. The Air Force initiated 
the Air Force Assessment Task Force (AFATF) to address a number of the 
issues listed in this document as it pertains to BDA. The AFATF has 
developed a flight plan towards Effects Based Assessment and is 
addressing service and joint issues using the DOTMLPF (Doctrine, 
Organization, Training, Materiel, Leadership, Personnel, Facilities) 
construct, identifying a number of near-, mid- and long-term solutions.
    JFCOM identified ISR as ``A capability that demonstrated 
considerable effectiveness'' within their OIF Lessons Learned Report. 
However, they also highlight the need for better enemy force locations 
once hostilities began and to measure the effects in a manner that 
supports operational objectives.
    The Air Force's ability to determine enemy composition and 
disposition in support of targeting is being addressed partially via 
the Air Force's Predictive Battlespace Awareness (PBA) Implementation 
Plan. The plan, which has captured some of the work of the PBA 
Integrated Product Team (IPT), is looking at DOTMLPF solutions to 
improve--and expedite--the continuous generation of tailored 
Intelligence Preparation of the Battlefield (IPB) products. Some of 
these solutions will be material in nature and will improve our 
machine-to-machine interfaces, thereby expediting the IPB products used 
by our targeteers and others within the Air and Space Operations Center 
(AOC). In short, a true PBA capability, once fully implemented, will 
enable U.S. Air Force intelligence personnel to determine enemy 
composition and disposition in a more timely fashion, thereby 
supporting our ability to strike, maneuver and generate desired effects 
within the battlespace.

                         CONCLUDING STATEMENTS

    The Chief of Staff of the Air Force has stated ``the sum of all the 
parts of our ISR capability ends with a cursor over the target. . .,'' 
and today's Air Force ISR programs are providing the warfighter with 
the tools to achieve this. The Air Force is committed to bringing the 
best ISR capabilities to the fight and providing the intelligence 
capabilities that address both the national security demands of today 
and of the future. The Air Force is proud of its contributions to the 
defense of the Nation, and is especially proud of our people who are 
working every day to support the global war on terrorism. We appreciate 
this opportunity to provide you an overview of our programs--our 
successes, our challenges, and our efforts to ensure that the Air Force 
ISR programs continue to provide the capabilities needed for our 
Nation's security.

    Senator Allard. Next I'd like to call on Mr. Decker, 
Director for Intelligence, United States Marine Corps.

  STATEMENT OF MICHAEL H. DECKER, DIRECTOR FOR INTELLIGENCE, 
            HEADQUARTERS, UNITED STATES MARINE CORPS

    Mr. Decker. Thank you, Mr. Chairman and members of the 
subcommittee. It's a pleasure to be here to talk about Marine 
Corps intelligence, surveillance, and reconnaissance today.
    Marine Corps ISR exists to support expeditionary maneuver 
warfare, and specifically it exists to support the commanders' 
planning, decisionmaking, and then execution of expeditionary 
maneuver warfare. We believe that the program that we've 
fielded in OIF, and what we continue to field in our fiscal 
year 2005 program, allows the commander to build a 
comprehensive ISR network that gives him the necessary degree 
of tactical self-sufficiency, while allowing him to reach back 
and network into theater and national sensors. We think that 
we're also an enabler of joint operations because we've put 
these capabilities forward, and that using the tenets of 
horizontal integration, we're building our capabilities to be 
networked into the larger ISR network of the DOD and national 
intelligence agencies.
    We build our systems specifically to support both maneuver 
and targeting. I appreciate the chairman's comments at the 
beginning that the goal here is to support both targeting and 
decisive military operations, because I believe sometimes we 
overemphasize sensor-to-shooter in targeting, and not spend 
enough time on the difficulties involved in supporting maneuver 
to get to the targets on the ground.
    We believe that although these systems are networked to 
support horizontal integration, they are networked as part of a 
larger joint environment, that our systems are tactical by 
nature and that they're funded in TIARA because they really are 
the commanders' systems, and the commander has ownership of his 
intelligence marines and his intelligence systems. The 
information that they may be presenting to the commander may be 
something they got through reachback or through networking in 
that joint and national arena, but what they're doing is, the 
commanders' intelligence marines are presenting to him 
information to support maneuver and targeting, and they're part 
of his warfighting team, and we think that's the best way to do 
this.
    We have some great examples from OIF. We provided, prior to 
D-Day, a lot of reachback support to the marine division. The 
Marine division's initial guidance was to attack due north 
through Al Kut, through a Republican Guard division, and then 
essentially hook left towards Baghdad. The Marine Corps 
Intelligence Activity, under DOD federated intelligence 
production, was asked to study the terrain in between Al Kut, 
where the Baghdad division was, and the terrain between there 
and the Army forces that were maneuvering further west up 
towards Baghdad, to determine if a division could maneuver in 
that area. We determined that that could be done, and that was 
instrumental in the division commander crafting his plan to 
move forward by swinging well to the west of that Baghdad 
infantry division. So that ability to reach back to the 
combination of the Marine Corps Intelligence Activity and the 
national agency's support allowed us to help them make that 
decision. Part two of that decision, though, was based on the 
ability to eliminate any threat from the Baghdad division to be 
able to reach out and touch the right flank of the Marine 
division as they bypassed Al Kut. That was truly a community 
effort in targeting to support the 3rd Marine Aircraft Wing. 
Those precision-target coordinates, hundreds per day, came from 
the National Ground Intelligence Center (NGIC). There was 
actually a click-on, on the home page down in Charlottesville, 
where the Marine wing, over in Al Jabar in Kuwait, would click 
on the NGIC home page in Charlottesville, and it said, ``Click 
here for today's 3rd Marine Air Wing targets.'' Same thing for 
NGA, in St. Louis; same thing for the Joint Intelligence Center 
at CENTCOM, which many of those targets actually came, as 
General Sams said, from the Air Force DCGS here in the CONUS. 
But by the time they were done, the 3rd Marine Aircraft Wing 
had eliminated every tank, every vehicle, and every artillery 
piece that could have impacted the right flank of the division, 
and the division commander was fairly comfortable in his 
ability to maneuver past Al Kut and head towards Baghdad in a 
much more expeditious manner than he would have been able to 
had he been forced to fight through that Baghdad infantry 
division to get across the Tigris River. So we think that that 
whole ability to provide the commander that capability to use 
his own assets and to reach back to national worked for us 
there.
    We also, as Dr. Cambone mentioned, created persistence 
surveillance for the commander by attaching to the commander a 
large number of UAVs, tactical HUMINT teams, what we call CI/
HUMINT exploitation teams. We attached to the commander SIGINT 
support teams, Trojan Spirit devices down to the regimental 
level that allowed our SIGINT marines to reach back to NSA for 
interactive SIGINT support, so that both the tactical SIGINT 
collectors and what national was getting would support--and I'd 
like, in closed session, to tell you more about how we bring 
that capability together to do some rapid targeting, and 
especially now, in OIF-2.
    But I think the bottom line for us is that we were able to 
put together in a rudimentary fashion where we're headed for 
horizontal integration, because I take the comment of the 
Members that persistent surveillance also brings an analytical 
challenge, it brings an information-overload challenge. I think 
we were able to pull that together to support the maneuver 
units both in OIF-1 and now again in OIF-2, and I think we'll 
be able to talk more in closed session, but I think we're on 
our way there, sir.
    I think the Intelligence Marines are doing a great job. 
We're extremely proud of them; they're extremely pumped up when 
you hear them--they talk to us on e-mail every day, and they're 
just out there building targets and supporting maneuver on a 
daily basis. I just couldn't be prouder of what they're doing 
on a daily basis. If anything, they're probably providing more 
targets on a daily basis than we can actually go after, just 
because they're doing such a great, thorough job for us.
    Thank you, sir.
    [The prepared statement of Mr. Decker follows:]

                Prepared Statement by Michael H. Decker

    Thank you Mr. Chairman and members of the Strategic Forces 
Subcommittee of the Senate Armed Services Committee for requesting 
Marine Corps participation in this hearing on our intelligence programs 
and lessons learned from recent military operations. It is an honor to 
be here to discuss Marine Corps ISR programs funded by TIARA funding 
and the JMIP.
    During this past year, the Marine Corps, both active and reserve, 
engaged in operations around the globe. Our successes in executing 
Expeditionary Maneuver Warfare (EMW) depended on our Marine Air Ground 
Task Forces (MAGTFs) having a reach-back capability to leverage and 
populate theater, service and national intelligence repositories, while 
maintaining a tactically self-sufficient ISR network to support forward 
MAGTF fire and maneuver. We fund our ISR systems, generally referred to 
as the Marine Air Ground Intelligence System (MAGIS), in TIARA because 
although networked and joint enabling, they are integral to our 
tactical combat command elements and maneuver units.
    Marine Corps ISR exists to support EMW and, specifically, the 
commander's planning, decisionmaking, and execution. Our previous 
Marine ISR modernization efforts emphasized increased collection and 
analytical capability at the maneuver level of command and reach-back 
support from theater, service and national organizations. We have 
sought, and we continue to seek, to transform how we fight by providing 
unprecedented ISR capability and access to all of our combat echelons--
from our small units such as companies all the way to the Marine 
Expeditionary Force (MEF), our largest MAGTF. These efforts led to a 
number of successes during OIF-I that I would like to share with you.
    Marine commanders task organized their organic intelligence support 
to adapt to the speed and distance of their specific operations. We 
augmented our Marine Divisions with support from Pioneer UAV squadrons, 
topographic/IMINT specialists and Trojan Spirit-Lite intelligence 
communications systems to provide responsive ISR support and secure 
mobile connectivity. Likewise, we augmented the next lower maneuver 
echelon, the Regimental Combat Teams (RCTs), with a wide array of ISR 
enhancements such as Dragon Eye UAVs, CI/HETs, and SIGINT Support Teams 
(SSTs) to improve their organic collection capability; Trojan Spirit 
IIs to provide secure mobile connectivity; and data link receivers for 
aerial sensors such as the Pioneer UAV, the Navy's P3 and the Litening 
POD on the AV8-B Harrier to provide them with a ``bird's eye'' view of 
the battlefield. These enhancements provided the capability to conduct 
immediate and responsive ISR operations such as employing the Dragon 
Eye UAV to safely scout the first crossing of the Tigris River; using 
SSTs to identify and neutralize enemy call for fire nets during the 
second crossing of the Tigris River; and capitalizing on CI/HET assets 
embedded with Light Armored Reconnaissance units to facilitate a 
prisoner of war rescue north of Baghdad.
    The Marine Corps Intelligence Activity (MCIA), the Marine Corps' 
Service intelligence center, provided Federated Production support 
before D-Day including lines of communication (LOCs) and inundation 
studies. This intelligence preparation of the battlespace (IPB) support 
was critical to 1st Marine Division receiving approval to bypass Al Kut 
and strike toward Baghdad on secondary routes. MCIA serves as the 
parent command for Intelligence Marines on joint duty and in combat 
support agencies. Consequently, MCIA connects Marines assigned to 
defense agencies, Regional Security Operations Centers (RSOCs), Joint 
Intelligence Centers (JICs), and Joint Reserve Intelligence Centers 
(JRICs) and enables them to work as a virtual team in support of 
warfighting and combat development intelligence requirements.
    The MEF's organic Intelligence Battalion coordinated reach-back 
targeting support by leveraging the NGIC, the NGA St. Louis, and the 
Joint Intelligence Center Central Command (JICCENT)/CFACC in order to 
populate automated target folders for strikes conducted in theater. 
These target folders enabled advancing Marine Forces to rapidly strike 
and destroy artillery units of an Iraqi Division between Al Kut and 
Baghdad, thereby denying the enemy the ability to use these assets to 
hinder our advance.
    As these stories illustrate, TIARA funded MAGTF ISR assets are 
embedded in command elements and maneuver units. We have technical 
specialists in all-source fusion, SIGINT, CI/HUMINT, reconnaissance and 
UAV operations that can be task organized to support any given 
commander's situation based upon his specific requirements. Enhanced 
intelligence support to the Marine maneuver unit in combat enables more 
efficient utilization of theater, service and national collection 
assets while simultaneously enabling commanders to focus their organic 
collection assets on their immediate areas of responsibility. We 
believe these organic capabilities should remain in TIARA so the 
commander will have an ownership stake in not only making them part of 
his team in combat, but in preserving and enhancing these capabilities 
during Service planning, programming, and budgeting.
    Our EMW concept continues to be used with great success today in 
Iraq and Afghanistan for force protection, security and stability 
operations, and counterterrorist operations. Our commanders are using 
actionable intelligence to conduct focused raids and attacks on a daily 
basis in Iraq and Afghanistan. When only partial information exists, 
commanders are conducting patrols and ``cordon and knock'' operations 
to generate intelligence. Actionable intelligence requires not only 
commanders who are empowered and willing to act, but also the 
presentation of target development information by Marines who are 
viewed as part of the team. Both focused raids and patrols are examples 
of commanders viewing their ISR Marines as trusted members of the 
command element's decisionmaking process. It is very rewarding to 
routinely read in commanders' Situation Reports things like ``forces 
throughout the AO positioned to conduct focused, intelligence driven 
operations against the enemy;'' ``execution time based on actionable 
intelligence;'' and ``continue to gather and refine targetable 
intelligence.''
    I would like to thank the subcommittee for your support of Marine 
Corps intelligence. I have tremendous pride in the contributions made 
and the hard work being done by our ISR marines. With your continued 
support, intelligence will remain the indispensable precursor to and 
enabler of MAGTF operations. The Marine Corps remains focused on 
organizing, training, and equipping our forces to best support Marine 
commanders, combatant commanders and national decisionmakers throughout 
the spectrum of conflict. Incorporating recent experiences, increasing 
our forces' integration with joint capabilities, exploiting the 
flexibility and rapid response capabilities of our units, and 
preserving the adaptability of our marines will collectively lead to 
more options for the combatant commanders. I look forward to addressing 
our successes in detail in closed session.

    Senator Allard. Let me now call on General Wurster, 
Director for Intelligence and Information Operations, the U.S. 
Air Force.

 STATEMENT OF BRIG. GEN. DONALD C. WURSTER, USAF, DIRECTOR FOR 
     INTELLIGENCE AND INFORMATION OPERATIONS, U.S. SPECIAL 
                       OPERATIONS COMMAND

    General Wurster. Thank you, sir. On behalf of General 
Brown, thank you for the opportunity to be here today.
    As you're aware, high-quality intelligence is essential for 
us to be able to do the types of things that we do. Special 
Operations Command (SOCOM) depends on the architectures that 
the other Services bring to the fight. We work on unique SOF 
aspects of that sort of thing. But Global Hawks and the 
national satellite architecture and the NSA and the Director of 
the Central Intelligence (DCI) bring capabilities on which we 
absolutely depend to get the right information down to our 
shooters.
    One of the key lessons that we have learned, and it's 
something that we have long culturally believed in Southern 
Command, is that persistent observation of a target is 
essential. We virtually always have somebody watching a spot 
before we go there. In the longer term, as we look at 
proliferation of weapons of mass destruction and the intercept 
of terrorists globally, we need to know, Where does that vessel 
go when it leaves this place? We need to know, What time did 
that vehicle move? We need to know, Tell me when that door 
opens so that I can act. That requires a range of sensing and 
information that runs the full spectrum from the national and 
strategic to a person on the street that's accomplishing a 
specific task for us.
    We're working with the partners, our partners in the 
Intelligence Community, to continue to evolve an excellent 
system to orient it more towards the current needs. But in 
today's world, we need to be able to locate and track a 
specific person. We need to find a person, and then dwell on 
that individual to gain information about who he interacts 
with, where he goes, what he does, until we arrive at the point 
where either we want to pick him off or take him out to achieve 
our objectives. Tagging, tracking, and locating is important 
not only for knowing where our own forces are, but where others 
are.
    SIGINT is essential to us, and I'll be happy to discuss 
some anecdotes of that more in the closed session, one of which 
includes the fact that the NSA saved my life, and I'll tell you 
that story.
    But we need to be able to detect, intercept, geo-locate, 
monitor any device that these bad guys are using, and our 
national experts are on the job at that. We're partnering with 
the NSA to do the piece of that that is logical for SOCOM to 
contribute to, and we are moving forward in that regard.
    The other one is CI/HUMINT. You've heard it on several 
occasions. In SOCOM, we believe that humans are more important 
than hardware, and there are some things that just require us 
to put a right person with the right skill in harm's way to 
gain a piece of information that's essential for us to do that. 
Anecdotally, our Defense HUMINT teams that, coupled with the 
Joint Special Operations Command (JSOC) forces and other 
national forces that were forward, were an ad hoc arrangement, 
where we borrowed from DIA the right kind of people to do the 
right types of work, and a small group of people was able to 
pull information--cultural information, familial ties, and 
things like that. That group of people assembled the 
information that allowed our shooters to find the spider hole 
that had Saddam Hussein in it. It can't be overstated the 
importance of that.
    Horizontal integration, the USDI already mentioned, but SOF 
needs to be connected into that. We recognize that there's a 
need for a unique piece of information that we have that may 
have strategic importance to other organizations, need to get 
back into that architecture. We do that fairly well now with 
SIGINT, but as we look at increasing the number of UAVs we have 
and--our human architecture needs to, likewise, support that 
effort to arrive at a large--the large picture and perspective 
that many can use. Data sharing is essential. We need to be 
hooked into it.
    I'd like to thank the agencies that we work with routinely, 
the NSA, NRO, NGA, DIA, and CIA. General Brown has made the 
comment that the relationships with those organizations have 
never been better. They're embedded in our staff down at SOCOM, 
and we have tremendously positive relationships at the working 
level with them.
    In summary, I have some other things that I would like to 
share with you in closed session.
    Thank you for the opportunity to be here today.
    [The prepared statement of General Wurster follows:]

         Prepared Statement by Brig. Gen. Donald Wurster, USAF

    Mr. Chairman and distinguished members of this subcommittee, it is 
my privilege to report to you on the state of the United States Special 
Operations Command (USSOCOM) intelligence organization and capability. 
Our men and women represent the finest quality of intelligence 
professionals and they continue to make progress in the global war on 
terrorism through their dedication, sense of urgency, and commitment.
    We continue to work to ensure that our combat forces are provided 
with the best intelligence available and have access to our most 
advanced intelligence systems, as well as connectivity to the national 
agencies, the Services, and other combatant commands. In addition we 
strive for superior quality in our intelligence force as we train, 
organize, and equip our people.
    The USSOCOM commander's guidance is clear. We are to maintain a 
steady focus on the global war on terrorism, ensure the readiness of 
our forces, and continue transformation efforts to match our 
capabilities with tomorrow's battlefield requirements. We are doing 
this by teaming with conventional forces, coalition partners, and other 
agencies, as well as by strengthening intra-departmental cooperation.

                        GLOBAL WAR ON TERRORISM

    High quality intelligence is a force multiplier which enables our 
SOF warriors to achieve strategic success despite their limited numbers 
in operations in Iraq and Afghanistan. Accurate and timely intelligence 
is a critical resource as we pursue counterterrorist efforts in the 
Horn of Africa and the Pacific region as well. Intelligence preparation 
of the battlespace assured SOF successes early in OIF and is 
contributing to continued success in rebuilding the infrastructure of 
Afghanistan while hunting down Taliban and al Qaeda leadership.

Iraq
    A fused intelligence picture provided through the use of all 
intelligence disciplines enabled SOF to establish early footholds and 
successful operations in Northern Iraq. The intelligence gleaned 
allowed SOF to play significant roles to prevent the Iraqi V Corps in 
the north from reinforcing Baghdad. It helped us maintain a clear 
picture of the threat poised by missiles in western Iraq, and assisted 
in the seizure of key airfields, the capture of Iraqi senior 
leadership, and the prevention of a potential ecological disaster 
through the intentional destruction of oil wells and infrastructure. 
Finally, it allowed SOF to secure potential chokepoints that could 
impede our main axis of attack and control sensitive areas for 
investigation and analysis. These are poignant examples of SOF leading 
the fight with the speed and security afforded by responsive, timely 
intelligence. The establishment of Task Force Viking to conduct 
Combined Joint Special Operations Task Force-North operations in 
Northern Iraq assured early teaming with Kurdish military and political 
leaders. Accurate intelligence assessment of the threat in the Bashur 
region enabled SOF to help secure the airfield and allowed the 173rd 
Airborne Brigade to conduct their night drop into Bashur to deliver 
nearly 1,000 airborne troops in the largest airborne drop since WWII. 
This set the stage for the 173rd Airborne Brigade, and eventually the 
26th MEU, to link up and team with Kurdish Peshmerga enabling 
coordinated offensive air operations against 700 entrenched Ansar Al 
Islam fighters.
    The Combined Joint Special Operations Task Force-West denied 
western Iraq as an area of operations from which Iraq could conduct 
offensive missile strikes against neighboring countries, averting a 
potentially wider regional conflict. Intelligence provided by SOF 
teams, fused with that of national agencies and regional Joint 
Intelligence Centers coupled with reach-back operations to 
exploitation/analysis centers of excellence, enabled U.S forces to 
rapidly secure and control this strategic ground in Iraq.
    In the south, high quality intelligence provided an accurate 
picture of the threat to aircrews as they inserted SOF teams deep into 
Iraq. These teams provided precise and timely reconnaissance of key 
locations and allowed conventional ground commanders a more accurate 
picture of the battlefield contributing to the rapid speed of advance 
in the ground campaign. National intelligence assets identified 
strategic oil infrastructure targets in the littoral areas and enabled 
Naval Special Warfare Task Group to secure these objectives and provide 
the initial conduit for seaborne humanitarian aid to Iraq. This 
successful operation which secured all targets within 40 minutes 
secured critical nodes and averted the threat of an intentional 
ecological disaster in the region.
    SOF, supported by multi-source intelligence collection, continue to 
aid the efforts to eliminate Fedayeen Baath party loyalists, former 
Iraqi military and political leaders, foreign fighters, and other 
terrorist cells who seek to attack U.S. forces as they attempt to 
thwart stability within Iraq.
Afghanistan
    Our SOF supporting the combined operations in Afghanistan continue 
to rebuild the infrastructure, establish positive rapport with the 
local populace, and eliminate Taliban, al Qaeda, and other terrorist 
elements. Tip offs from various intelligence sources have led to 
successes that eliminate weapons caches and explosives, as well as the 
terrorists and their leaders.

                            LESSONS LEARNED

    To provide a better and more predictive picture of the battlefield 
against terrorists, our processes are being refined based on the 
lessons we have learned. With the assistance of the USDI, national 
agencies, geographic combatant commanders, and our components, we are 
adjusting our intelligence sight picture to improve the way we conduct 
intelligence activity. Some of the key lessons learned are described 
below.
    Persistent ISR. We need to provide our commanders with higher 
fidelity information to allow them to detect, locate, and track small 
groups or individuals. The USSOCOM global war on terrorism mission 
requires the ability to conduct ISR on a focused and uninterrupted 
basis in order to find, fix, and finish terrorist threats. We are 
working with partners in the Intelligence Community to adjust 
intelligence requirements and methods to the new paradigm.
    Our highest priority requirement is to attain the capability to 
find a specific person who presents a threat to our country, our 
values, and our way of life. We must be able to locate and track this 
High Value Target (HVT) in permissive and non-permissive environments, 
then dwell on the HVT from the point of discovery through decisive 
action to capture or kill the individual. We also seek the ability to 
integrate deployable tagging, tracking, and locating (TTL) technology 
to defeat the threat. Ultimately, we seek to expand the capabilities of 
remote, unmanned devices that could be added to this network. The ISR 
architecture must be flexible and adaptive to meet the challenges of 
the future.
    CI/HUMINT support to SOF. The global war on terrorism has produced 
an increase in demand for professional HUMINT and CI resources. 
Dedicated HUMINT and CI resources have proven to be one of the greatest 
contributors to the successes enjoyed by SOF to date. While all 
recognize the need for more and better HUMINT, SOF's relationship to 
these intelligence providers is central to success in the hunt for 
terrorists. USSOCOM is working closely with the Under Secretary of 
Defense for Intelligence and we support the HUMINT Reformation 
Initiative. We look forward to the outcome of this effort which holds 
positive indicators for the future.
    Training and Manning. You have heard USSOCOM repeat the consistent 
opinion that ``Humans are more important than Hardware.'' We must 
produce high quality technical systems while remembering that success 
or failure depends upon trained intelligence specialists. We place high 
priority on our efforts to recruit, train, and retain talented 
intelligence professionals. The capture of Saddam Hussein is directly 
attributable to the dedicated work of a small group of analysts who put 
together the pieces of a puzzle, coupled with the SOF warriors who were 
able to find him in his spider-hole. Recruitment, training, and 
retention are essential ingredients in our ability to perform similar 
feats in the future.
    Horizontal Integration. To achieve integrated persistent ISR that 
provides actionable intelligence results from the development of an 
overarching integrated intelligence architecture including a 
collaborative environment with tools, databases and collection systems 
that specifically support the global war on terrorism. The IC, under 
the guidance of the DCIA and the USDI, is focusing on this issue. As a 
result, the interagency and DOD interaction and cooperation continue to 
improve. USSOCOM has been fully engaged in these planning efforts. 
USSOCOM recognizes that the al Qaeda network is adaptive, flexible, 
agile, and capable of inflicting harm on U.S. interests at anytime. Our 
intelligence architecture must be equally adaptive and flexible, and 
provide timely, relevant, and precise information to defeat this 
threat. USSOCOM is actively participating in the IC efforts to improve 
Horizontal Integration. USSOCOM seeks integration in any network or 
execution architecture that enables key participants in the global war 
on terrorism to collaborate effectively. As the IC, law enforcement 
agencies, coalition partners, and other sources assemble information on 
terrorists, we must be able to improve the security of our forces and 
citizens.

                          INTERAGENCY SUPPORT

    I would like to take this opportunity to make a statement about the 
support USSOCOM has received from NSA, NRO, NGA, DIA, and Central 
Intelligence Agency. Liaisons from each of these agencies are embedded 
in the USSOCOM intelligence team. The close relationship established 
and maintained by these committed patriots is crucial to our successes 
to date. General Brown, Commander, USSOCOM stated that ``the current 
relationship is the best it has ever been'' and USSOCOM would not have 
enjoyed the success we have had without the support of these agencies.

    TACTICAL INTELLIGENCE AND RELATED ACTIVITIES AND JOINT MILITARY 
                          INTELLIGENCE PROGRAM

    USSOCOM's TIARA and JMIP budget request ensures that USSOCOM will 
continue to provide the intelligence support required to conduct the 
global war on terrorism and fulfill title 10 responsibilities for 
ensuring component readiness. Our TIARA and JMIP investment strategy 
provides the means to leverage national and theater intelligence 
capability and acquire SOF peculiar systems required to meet the unique 
mission needs of the SOF warfighter. As we continue to fight the global 
war on terrorism, we must continue our modernization program in concert 
with other Department of Defense and interagency organizations. I will 
first address our TIARA programs followed by our JMIP needs.
    Joint Deployable Intelligence Support System--SOCOM Research, 
Analysis, and Threat Evaluation System (JDISS-SOCRATES)--JDISS-SOCRATES 
is an umbrella program that acquires and supports garrison sensitive 
compartmented information (SCI) automated intelligence system (AIS) 
requirements for Headquarters USSOCOM, its components, subcomponents, 
mission support units, supported geographic combatant commands, and 
Theater Special Operations Commands (TSOC) in conducting global war on 
terrorism, OIF, OEF and peacetime missions. Capabilities include access 
to national, theater, and SOF-specific databases; news service and 
message traffic; softcopy imagery processing, imagery product archiving 
and dissemination; analyst-to-analyst electronic mail and chat 
communications; Intelink and Intelink-S web servers; and secure voice 
and facsimile. In short, all those sources and possessors of 
intelligence which enable operators to engage the enemy decisively are 
delivered to SOF operators over JDISS-SOCRATES. The $30 million 
requested in fiscal year 2005 will provide the architecture and 
infrastructure required for the global war on terrorism and will assist 
in our current efforts to incorporate national mandates and maintain 
full interoperability with the DOD Intelligence Information Systems 
standard architecture and with each theater Intelligence Data Handling 
System.
    Tactical Local Area Network (TACLAN)--TACLAN provides a deployable 
command and control system capable of sharing operations, intelligence, 
and administrative information throughout USSOCOM, the Service 
components, supported geographic combatant commands, TSOCs, and 
deployed task forces in all security domains. The TACLAN is an 
extension of JDISS-SOCRATES that provides a nearly seamless transition 
of intelligence system connectivity from home station to combat 
operations. TACLAN consolidates tactical command, control, computers, 
communications and intelligence (C\4\I) requirements from previous 
USSOCOM programs and centralizes management of USSOCOM's tactical C\4\I 
requirements in order to integrate current and future tactical AIS 
initiatives into a single efficient information management system/
architecture. Based on lessons learned from OEF and OIF, and other 
operations, tactical intelligence communications and dissemination 
capabilities are mission essential to special operations. The total 
TACLAN fiscal year 2005 budget request is $20 million. The fiscal year 
2005 TIARA portion of the TACLAN budget request, $2 million, provides 
critical deployable, tactical SCI connectivity and functionality to 
prosecute the global war on terrorism and future contingencies.
    Special Operations Joint Interagency Collaboration Center 
(SOJICC)--We have continued to improve our network-centric, 
collaborative capability, the SOJICC. The SOJICC uses advanced 
computing capabilities and nodal analysis to rapidly collate, process, 
display, and disseminate relevant information for timely decision 
support. The SOJICC information technology is scalable in design and 
corresponds to current industry standards in data mining, data 
retrieval, data warehousing, knowledge management, pattern recognition, 
speech recognition, machine learning/neural networking, audio and video 
capture, parallel/distributive computing, visualization and search 
optimization. SOJICC's data mining and other capabilities complement 
the efforts of DIA's Joint Intelligence Task Force for Combating 
Terrorism. Over the last year, SOJICC has been instrumental in 
populating a standardized, collaborative terrorist database that is 
replicated to the combatant commands. This effort is essential for 
producing a common intelligence picture that allows combatant 
commanders to link and track terrorist personalities and events 
throughout the world. The total $9 million fiscal year 2005 budget 
request for SOJICC will fund and maintain the current analytical 
efforts in support of the global war on terrorism and allow the program 
to identify and test new software technologies to improve future 
support.
    USSOCOM is now the Program Manager (PM) for the 
Counterproliferation Analysis Planning System (CAPS). As one of the 
prime users of CAPS, it was logical for us to assume the PM duties and 
guide the fiscal year 2005 $16 million effort. This effort continues 
development of the CAPS database, intelligence support procedures, 
information technology systems planning, system integration and 
interface control, software development, and development of analytical 
tools and system interfaces. CAPS will continue to be an invaluable 
tool in the future as the United States struggles to curtail the 
proliferation of weapons of mass destruction.
    Joint Threat Warning System (JTWS)--Uniquely provides credible 
threat warning and intelligence information to special operations 
forces. JTWS will provide this critical SIGINT capability tailored for 
all components. The following SOF legacy SIGINT systems were 
incorporated into the JTWS family of systems in fiscal year 2002: 
Improved SOF SIGINT Manpack System (ISSMS), Privateer, and Silent 
Shield. We are replacing these legacy systems with JTWS ground, air and 
maritime variants which will provide an increased capability against 
the sophisticated forms of communications that are present worldwide. 
The legacy SOF SIGINT systems have demonstrated the high value of 
tactical SIGINT during many recent missions involving SOF. The 
acquisition and fielding of JTWS is key to providing enhanced 
situational awareness, force protection and time sensitive intelligence 
for targeting to supported SOF elements. SOF SIGINT capability has 
routinely proven itself in ongoing combat operations throughout 
Afghanistan and Iraq. Intelligence gained through the use of SOF SIGINT 
capabilities is shared with other intelligence collectors and the 
national community.
    Direct Support Operations (DSO) on Air Force Special Operations 
Command aircraft, using Silent Shield equipment, have proved 
indispensable to the safety of SOF airborne attack and infiltration 
operations.
    The Privateer systems have provided key intelligence to SEALs 
during numerous Maritime Interdiction Operations. During OIF, Navy 
tactical cryptologic support operators were critical to supporting all 
phases of Navy SOF operations, including the critical opening hours of 
the war while supporting those forces tasked to secure Iraq's key 
infrastructure.
    The ISSMS continues to provide key force protection and situational 
awareness to SOF teams in every area of operation. It is crucial that 
we continue to modernize our SIGINT gear in order to keep pace with the 
ever changing increasingly sophisticated technologies we are 
encountering on today's battlefields.
    The JTWS program will significantly improve our ability to provide 
early warning, force protection, situational awareness, and tactical 
targeting in support of full spectrum operations in general and the 
global war on terrorism in particular. In short it assures our 
operators define the conditions of the battlefield, keeps aircrews, 
sailors and soldiers alive, and enables precise target engagement. The 
fiscal year 2005 budget requests $13 million to sustain current 
cryptologic systems, to procure Ground SIGINT Kits to replace the ISSMS 
and to complete JTWS air variant development.
    Multi-Mission Advanced Tactical Terminal (MATT)--MATT provides SOF 
with a near-real-time capability to receive and process national and 
theater intelligence broadcasts. It provides threat warning, force 
protection, enhanced situational awareness, and target acquisition 
information to SOF via receipt of Integrated Broadcast Service (IBS) 
data. IBS data supports mission planning and execution by aiding the 
warfighter with course of action analysis during infiltration and 
exfiltration from operating areas. The currently fielded MATT systems 
are rapidly approaching the end of their service life. USSOCOM is 
currently pursuing the Embedded Integrated Broadcast System Receiver 
(EIR) technology to replace MATT and Briefcase MATT systems. EIR 
utilizes Embedded National Tactical Receiver (ENTR) technology, which 
is significantly smaller and lighter and uses less power than the MATT. 
ENTR is a receive-only system that will provide globally deployed SOF 
with an enroute capability to receive near-real-time intelligence data 
on the changing threat and target environment. USSOCOM's ENTR contract 
will accommodate SOF's basis of issue plan requirements, as well as the 
DOD and Second Party members' requirements. USSOCOM has been working 
with the IBS Executive Agent, the United States Army's Joint Tactical 
Terminal Program office, and the Services. The fiscal year 2005 TIARA 
budget requests $1 million for MATT sustainment.
    Special Operations Tactical Video System (SOTVS)--SOTVS provides 
the capability to capture, store, and forward digital imagery in near-
real-time and in day or night. SOTVS provides a diverse array of 
surveillance and reconnaissance mission capabilities and operates in 
environments utilizing the global command, control, communications, and 
computers communications infrastructure. This capability has proven 
invaluable in OEF and OIF and will continue to be critical to success 
in the global war on terrorism. The fiscal year 2005 SOTVS TIARA budget 
request of $2 million will sustain digital imaging equipment, remote 
controllers, and transmission devices.
    National Systems Support to SOF (NSSS)--NSSS is a rapid technology 
development program that is funded to leverage technologies and systems 
from the national agencies, Services, and national laboratories, with 
the goal of quickly improving the exploitation of existing and emerging 
space technologies to satisfy SOF requirements. NSSS improves the 
combat effectiveness of USSOCOM, its components, and the TSOCs through 
the innovative use of national and commercial space intelligence, data 
processing, and communications technologies and systems. This includes 
Imagery Intelligence, SIGINT and Measurements and Signature 
Intelligence, and associated tasking, processing, dissemination, and 
tactical display technologies. Requested funds of $1 million in fiscal 
year 2005 provide enhancements in SOF personnel tracking capabilities, 
miniaturized antenna and receiver technology, surrogate satellite/high 
altitude airship technology, and providing mission essential 
intelligence to forward deployed forces.

               JOINT MILITARY INTELLIGENCE PROGRAM (JMIP)

    At USSOCOM, JMIP funding allows USSOCOM to maximize the total force 
construct by providing critical Reserve support each year. Reserve 
Intelligence support provides almost half of USSOCOM's total 
intelligence manpower requirements. These reservists are integrated 
into every intelligence mission area within the command. USSOCOM is 
requesting $3 million in fiscal year 2005 for military reserve support. 
We have exceptional expertise and skill sets throughout for Reserve 
Force and we must retain this support. This funding provides USSOCOM 
with personnel who possess the highly valuable skill sets that are in 
high demand throughout the SOF Intelligence Community.

                                SUMMARY

    In conclusion, there is much work to be done to protect our Nation, 
accomplish our missions, and take the fight to the enemy. We are taking 
the right path to maximize ISR programs that enable precise engagement 
of SOF in the global war on terrorism and maintain our readiness. Our 
process assures improvement in effectiveness and efficiency of 
operations as we adjust through lessons learned and changes to the 
battlefield. Our requirements are documented in USSOCOM and component 
Mission Needs Statements and Capability Documents. These requirements 
serve as the basis for programming, doctrinal, procedural, and force 
structure changes to correct ISR-specific operational deficiencies. 
OIF, OEF, and the global war on terrorism will continue to challenge 
our intelligence system and we must look ahead to make sure we optimize 
our collection efforts, collaborative processes and architectures, and 
cross-sharing of information to make sure the right people, know the 
right things, at the right time.
    Thank you for the opportunity to represent the Quiet Professionals 
of USSOCOM to this committee and for your continued support to our 
forces and, more specifically, to our intelligence needs in your role 
of oversight and fiscal decisionmaking. We appreciate your efforts and 
assistance.

    Senator Allard. Thank you, gentlemen, for your testimony.
    I just want the members to know what we're planning is, 
from here, we'll give each member 5 minutes for questions, and 
then that'll probably get us pretty close to 11:30, 25 minutes 
to 12:00, or so, and then move to the other room that's secured 
for secret discussions, and then I want to just start out, do 
the questioning. I'll yield my time first to the Chairman from 
the Armed Services Committee, Senator Warner, and then we'll 
call on Senator Nelson, and then we'll proceed from there.
    Senator Warner. Thank you very much, Mr. Chairman.
    I say to you, and your distinguished colleague, you are a 
great team because of all the subjects we have, I think there's 
the greatest degree of bipartisanship on the importance of 
intelligence and how it's a force multiplier and literally 
saves lives. Lives are very much on our mind at this hour, when 
our forces are fighting, and we have reports now of significant 
casualties, both killed and wounded, and our hearts go out to 
their families and to the bereaved.
    Mr. Chairman, I had the privilege of being in Iraq just 
2\1/2\ weeks ago, and, General Alexander, I met with General 
Fast, a very impressive major general, who's your chief of 
intelligence. Matter of fact, I spent several hours with her 
during the course of that day.
    This leads me to the question. Right now, I'm working with 
the leadership to have the Chairman of the Joint Chiefs and 
perhaps the Secretary of Defense come over this afternoon to 
work with the Senate. One of the issues that we'll be 
discussing, Secretary Cambone, is the issue of the June 30 
deadline for turnover of the sovereignty. Speaking for myself, 
I have done a lot of research and thoughtful discussion on 
this. I feel very strongly we should hold the course and 
maintain the schedule of turning over sovereignty on the 30th, 
irrespective of the increased insurgency, because I feel that 
it affects the credibility of the coalition forces, and 
particularly the United States and Great Britain, in the eyes 
of the Iraqi people, recognizing these insurgents represent a 
small percentage of the Iraqi people, the majority of them 
desirous of obtaining freedom and sovereignty. It also would 
affect the credibility of our efforts in the eyes of the 
bordering countries. I've visited with the heads of state and 
government and military commanders of several of the bordering 
countries. Throughout that region, I think, it would send an 
unfortunate signal if we were to arbitrarily shift that date 
and leave an uncertainty.
    Does the intelligence show any meaningful indicators with 
respect to holding fast, versus changing the date?
    Dr. Cambone. No, sir, not that I have seen this morning or 
over the last few weeks. You've heard the President's position, 
you've heard the Secretary's position----
    Senator Warner. Both the Secretary of Defense and, indeed, 
the President have spoken out very firmly on this.
    General Alexander, from your perspective?
    General Alexander. No, sir, I haven't, either. I appreciate 
your comments on General Fast. Thanks.
    Senator Warner. Yes.
    General Alexander. Thanks.
    Senator Warner. Fine. Thank you very much, Mr. Chairman. I 
thank you, Members, for your indulgence. I yield back my time 
to questions you may have.
    Senator Allard. Thank you, and we appreciate your being 
here. I also had a chance to go over to Iraq a couple of weeks 
ago or so, and had an opportunity to see the Predator, and 
actually see it land--very impressive. Part of your discussion 
this morning and your testimony--as well as to see the Stryker 
new Light Armor Division actually being at work here on TV and 
seeing those--that new technology being put to work out there, 
and so it's always heartening to see that that's out there 
serving the men and women on the battlefield.
    Senator Nelson?
    Senator Bill Nelson. Mr. Secretary, Space-Based Radar, 
persistent surveillance, how do you define ``persistence''?
    Dr. Cambone. I appreciate that question, Senator, because I 
think there is some misperception about it. I do not define 
persistent as continuous in the sense of every minute of every 
day, day in and day out. Where I think we need to go is to an 
understanding of the amount of time that we need to have under 
observation, as General Wurster said, the targets of interest. 
That interval needs to be commensurate with the character of 
the activity that we are trying to observe.
    So a ship crossing the ocean moves at a given speed, and 
within a fairly simple mathematical calculation, you know where 
it could be over some given period of time, and you need to be 
able to be within a time interval, all right, that is 
consistent with your ability to reacquire that ship as it's 
moving.
    With respect to something that's moving on land, on the 
other hand, which is moving in a more confined space and may be 
moving more rapidly than a ship is, you would have to have 
what's called a ``revisit rate'' that is more frequent than it 
would be for a ship.
    What we're in the process of doing with the Space-Based 
Radar, working our way through, if you will, those algorithms. 
How frequently do we have to revisit a target? Over what area 
do we have to cover? Then--and here is the important part, and 
why I said what I did in my opening statement--to integrate the 
data that you would get from a Space-Based Radar with the 
aircraft that provide radar coverage, with the aircraft or 
satellites that might provide signals intelligence, and with 
those human sensors or those remotely-placed sensors that one 
may have, and integrate all that data to provide the level of 
persistence that's required.
    Senator Bill Nelson. Horizontal integration. I'd like each 
of the witnesses to say what you're doing to increase the 
number of analysts to support the increased volumes of data 
that the new collection system is going to provide. Since we'll 
probably never have enough imagery, analysts, or linguists to 
support the data volume, what steps are you going to be taking 
to reduce the workload and increase the efficiency?
    Then before the 5 minutes gets out, General Sams, Joint 
Surveillance and Target Attack Radar System (JSTARS) is 
something that I've been involved in for over 15 years. It's 
located in my home town of Melbourne, Florida. Last year, 
Congress asked the Air Force for your views on proposed re-
engining. When is the Air Force going to produce the required 
report? What's the Department's position? I'd like you to share 
that with the committee.
    General Sams. Sir, in terms of re-engining the JSTARS, I 
know there's been a lot of discussion in the Air Staff, and I 
know that the aircraft could use new engines. I would like to 
take that for action and get back to you with a coordinated 
response from the Air Force, sir.
    Senator Bill Nelson. Okay. If you will get in touch with 
me, personally.
    General Sams. I will do that, sir.
    [The information referred to follows:]

    The draft JSTARS re-engining report is in Air Force top-line 
coordination. The draft report covers the operational benefits and 
lower overall life cycle cost of re-engining JSTARS through purchase or 
lease, compared to maintenance of the current engines. While re-
engining makes a good business case, the Department will likely balance 
the need for JSTARS re-engining with other Air Force priorities as it 
builds the fiscal year 2006 budget submissions. OSD AT&L will sign out 
the report to the Hill when it is approved.

    Senator Bill Nelson. Good.
    Gentlemen, horizontal integration, and what are you doing 
to increase the number of analysts and so forth so we can 
analyze the data?
    General Alexander. Sir, in Army transformation, we have a 
great increase in intelligence soldiers--our interrogators, our 
counter-intelligence, and our off-source analysts--and we're 
moving them down to brigade level under task force modularity, 
and it's a superb effort. It takes the connection in the 
system, the DCGS of the future, and gives that down to brigade 
level and below. I think this is important.
    We are coupling, to the DCGS, the tools that we are using 
in the IDC and in Project Morning Calm that they need to work 
through the mounds of data that we have available. This new 
technology is key in getting at the problem that you're talking 
about, sir, how do we rapidly sort through information, 
hundreds of thousands of reports, that have been, over the last 
several years, that might be applicable to an apprehension? 
We've found that it has been superb. We are getting that out 
now. I think that's going great, sir, and we have several 
places that we could show you that in operation.
    Senator Bill Nelson. How about the Navy?
    Admiral Porterfield. Yes, sir. We have several initiatives 
underway in this regard, and I consider horizontal integration, 
the way to describe it is ``data ownership.'' We have to get 
rid of that as a principle. It's shared. As General Wurster 
said his SOF assets could have a bit of information that makes 
a great deal of difference to the President, but we may not 
know that. So horizontal integration is that concept.
    We're doing two things that I think you'd like to hear 
about. First, we're taking some people that are doing, and have 
been doing in the past, largely administrative work, and we're 
turning them into imagery analysts. We have in the program this 
year requests for several transformational UAV platforms, which 
will take analysis to make some use of them. We are doing that. 
The second one is, we are actively integrating our Reserve 
intelligence forces into active participation in our overall 
effort, from training to the production to the way we recruit 
and assign these people. So those two things--one, turning the 
administrators into the analysts, and also making much greater 
use of our very fine Reserve component.
    Senator Bill Nelson. How about Special Operations?
    General Wurster. Sir, one of the things that was General 
Schoomaker's vision just came online in 2001 and 2002. It's 
called the Special Operations Joint Interagency Collaboration 
Center (SOJICC), and it's a collaboration center. What we have 
done is coordinated to gain access to a large number of 
classified databases that comes back through the intelligence 
architecture. We have a fairly small group of people down 
there, but they have built the equivalent of a Google search 
engine, if you will, that looks at--where Google looks at 5 
billion Web pages, this looks at 15 billion pages of 
information. So if you type in ``al Zarqawi'' and 
``chemicals,'' it will draw for you a visual presentation. If 
you add, say, ``halalah activity'' for financial transactions, 
it will give you another map, and we can use those maps. What 
we're using is--we're finding ways to use the information to 
learn information about the information, and to know where to 
look to apply resources. So we've taken a technological jump in 
the methodology by which we're going to approach that, much the 
way you would search on eBay or something like that. But we 
were able--for instance, as they were rolling guys up in Iraq, 
we had the list of people we were trying to find, and so we ran 
all of their information in the SOJICC, and printed out a 
notebook that would fit in a soldier's thigh pocket, ``When you 
get this guy, here's who his family is, here's where he's from, 
here's who he's hooked up with. By the way, get us his phone 
numbers,'' and things like that.
    So that is probably the most significant piece of 
horizontal integration we have. But that, primarily, again, is 
as a consumer of other people's expertise. So, as we gain 
access to more information of that type and infuse into that 
structure, we anticipate that we will have continued success 
with that. Right now, whenever we have people go out around the 
world, they're bringing information back and plowing it into an 
infrastructure that enables us to mine it later.
    Mr. Decker. Sir, on the Marine Corps side, since Operation 
Desert Storm the Marine Corps has gotten about 10 percent or 
more smaller, but the number of intelligence analysts in the 
Marine Corps has actually grown by 10 percent over that same 
period. So we've made an investment in analysts to handle this 
information flow. The target folders that were used to brief 
the Fallujah operations to Joint Task Force-7 (JTF-7) and, in 
turn, to get the SECDEF's and the CENTCOM's approval on the 
mission were done by, first, intelligence battalion analysts 
that are right there on the ground with 1st Marine 
Expeditionary Force. So that system is working.
    Part of that, sir, also is a great Reserve capability. The 
commandant has approved a doubling, 100-percent increase in our 
Reserve intelligence analysts, starting in fiscal year 2005, so 
we'll be increasing that.
    But I think it's important, also, when you look at 
horizontal integration, to look at the data tagging and then 
the tools for searching and looking at the data, and the 
attempts to automate that. There's two attempts to tag data. 
One is Extensible Markup Language data tagging that occurs with 
finished products. Then the other is the role of the Air 
Force's DCGS 10.2 integration backbone and setting a standard 
for tagging the raw sensor data as it comes in, so that'll even 
speed that up further, and then to provide the analysts tools 
to search that raw data. So it's a synergy, sir, of analysts, 
reservists, tools, and database tagging.
    Dr. Cambone. Let me just close that off, Senator, to say 
that there are probably two parts of this that are important, 
in addition to the analysts. One is what Mike Decker just 
talked about, and that is the enabling technologies from the 
communications pipes to the machine-to-machine interfaces and 
so forth. That's enormously important.
    The other thing that's important is access, access, access, 
because the more that the people who use the data have access 
to the information as soon as it is in a consumable state, 
ironically enough, the fewer analysts you are going to need. 
What you want to do is get to an environment in which the user 
is able to find what he needs, and make use of it, and then 
leave, for the analysts, the harder work of putting together 
larger mosaics, trend analysis, and things of that sort. We 
have to learn how to get the access for the operating forces to 
the information that they need.
    Senator Allard. Thank you.
    I'll now take my 5 minutes. I want to address this to 
Secretary Cambone.
    Where are you--I don't expect a real detailed answer in 
this--in standing up your Department? Are you 80 percent there, 
75 percent, 100 percent? Where are you? I was struck by some of 
the challenges you have, 14 pages of committees and boards that 
are all involved. You have to worry about consolidating, and 
some directives go all the way back to 1970. So if you could 
just give us very quickly some idea about where you are as a 
percentage of getting the Department stood up.
    Dr. Cambone. Yes, sir. In terms of personnel--I was just 
briefed this morning--I have 117 people, billets, Department of 
Defense billets. There was some number of contractor support. 
My staff thinks they need a lot more people. I'm not so 
certain. But we probably need another handful of people, and 
we'll work that over the next few months.
    In terms of the directives--the 30 directives that sit out 
there--that is just a matter of dogged determination in going 
through them, so I feel pretty good about that. The 14 pages of 
boards and committees, I'm less satisfied with. We have not yet 
undertaken the effort to get all of that consolidated. So in 
terms of people, we're probably at the 85 percent mark. In 
terms of going through the paperwork, we're probably somewhere 
at the 50 to 60 percent mark.
    In terms of establishing the relationships that make the 
organization work, I think we're well on our way to making 
those connections.
    Senator Allard. While you're in the process of standing up 
your Department, some are even suggesting that we need to 
establish a cabinet-level Director of National Intelligence. 
I'd like to hear what your views might be about the 
establishment of a Director of National Intelligence.
    Dr. Cambone. Yes, sir. You won't be surprised that I share 
the views of the Secretary of Defense. [Laughter.]
    That is that what you have heard here today is as 
compelling a case for retaining the extant relationship between 
the DCI and the SECDEF. The information on which the operations 
of the forces depend are only in part generated by the DOD. The 
remainder of it is generated through those systems which are 
developed and operated in the context of a national foreign 
intelligence program. Absent the deep and abiding relationship 
between the DCI and the SECDEF, it is easy to see the ways in 
which seams would begin to grow up between organizations and in 
which the DOD would not benefit, and, in fact, the Intelligence 
Community, as a whole, be hurt by that split.
    So sustaining the existing relationship, we think, is 
essential. Are there areas that one can look to see improvement 
made? Certainly. We have reviewed some of those. Indeed, the 
additional funds that have been requested by the President for 
intelligence reflect an effort on the part of the DOD and the 
Intelligence Community to identify our shortfalls and 
shortcomings, to suggest our priority, in terms of fixing them, 
and then coming to some conclusion about where the resources 
should come from in order to be able to pay for those 
shortcomings.
    So I honestly do not see advantage to the creation of a 
different structure for the governance of the Intelligence 
Community than the one we have today.
    Senator Allard. The other question I want to bring up is 
open-source intelligence. We have a lot of reporters that are 
covering a lot of the issues related to Iraq and a lot of our 
foreign affairs, and they establish relationships, and then 
they report their findings on TV, or they report their findings 
in the newspaper, sometimes even on the Internet. Are we paying 
attention to those open sources? Seems to me like perhaps they 
could be helpful. I wondered if any of you want to respond to 
that.
    General Wurster. Sir, I'll respond to that. If you haven't 
read Maria Ressa's book, called ``Seeds of Terror,'' about 
Jemaah Islamiah in the Pacific, you should read it. She 
interviewed me when I was the Joint Task Force Commander in the 
Philippines, and she is incredibly articulate. As a matter of 
fact, I distributed that book to all the flag officers at 
USSOCOM. She knows what's going on in the Pacific; and when she 
talks, we listen.
    Senator Allard. Any other comments in that regard?
    General Alexander. Yes, sir. We use open source in our 
analytic centers. We use that information, and it does help us 
to link different things together. So it is used widely.
    Senator Allard. I see all of you shaking your head up and 
down. I'm assuming that you do use those sources.
    Just, finally, the UAVs are in use. I'm curious as to how 
many different--I'm not asking about the number of UAVs, but 
how many different UAVs are now in use in each Service, and 
what unexpected difficulties have you encountered, and what are 
you doing to address some of their problems? I address that to 
all of you.
    Mr. Decker. Sir, in the Marine Corps we have two different 
types of UAVs. We have the Dragon Eye, which we call our 
``backpack UAV.'' It's a small UAV that folds up about this 
big, that's used at the battalion level. They used them at the 
regimental level in OIF as well. Then we have the Pioneer UAV, 
which is referred to as a ``tactical UAV,'' that has about a 
100-mile range. The problem we had with the Pioneer UAVs--there 
were two squadrons of them with the division--the problem was 
the 100-mile range. The MEF commander attached those two 
squadrons to the division because he knew the division would be 
running fast. As Dr. Cambone said, you want him to be able to 
tailor his persistent surveillance to where and when he needed 
it, so he had his own UAVs to do that with, but he was just 
maneuvering so fast and often covering more than 100 miles a 
day, and he would have to seize an airfield that those UAVs 
could operate from, or a piece of road. So our plan for the 
Pioneer replacement, that's in the 2005 to 2009 program, is to 
replace it with a vertical takeoff UAV with increased range and 
speed that will then allow us to go further than 100 miles with 
the air platform, and the ability to sprint back and forth 
between maneuver units that are in trouble that need 
persistence surveillance at any given time.
    In the case of the backpack UAVs, our solution is just to 
buy more of them, because there just weren't enough. We had 
great success, though, with the backpack UAVs in the case of 
the crossing of the Tigris River. The division commander told 
the regiment, ``Don't show yourself unless you're sure the 
bridge is still standing, because I don't think the enemy 
realizes we bypassed Al Kut and we're already up here.'' He 
said, ``Can you see the bridge? Or can you get somebody up to 
the bridge?'' The regimental commander said, ``Well, we can't 
get close enough to see the bridge with binoculars without the 
enemy knowing that we're here, but we can let the lead 
battalion throw their backpack UAV up over the hill and look,'' 
and that's what we called that. We called that the battalion 
commander's with look-over-the-hill capability with the 
backpack UAV, the Dragon Eye. So we've had good success with 
them, sir, and we just want more of them and want them to be 
better.
    Senator Allard. Admiral.
    Admiral Porterfield. Sir, in the Navy we don't have any 
operational UAVs right now, but we have two programs that are 
in development; one, a tactical platform for use on our 
littoral combat ships, as well as a high-altitude UAV, we call 
Broad Area Maritime Surveillance (BAMS) at the moment, for 
maritime surveillance. We intend to stay the course and develop 
the concept of ops as both of these platforms can be used to 
provide the maritime ISR that we require.
    Senator Allard. General Alexander.
    General Alexander. Sir, we have right now three UAVs. Let 
me go over those. We have what's called the short-range UAV, 
which we've just begun to purchase those. I think we have 15 
right now in Iraq and Afghanistan working, and those will 
increase, thanks to your support in the supplemental for 
purchasing more of those rapidly for our forces. Those give the 
battalion level, company level, the ability to see over the 
next hill. The tactical UAV, or Shadow, is the one that we're 
buying for the brigade level. Under Army transformation, both 
of those increase significantly and are needed for the 
battalion and the brigade commanders to see out to their level. 
At the division theater level, division corps theater level, we 
have the extended range multi-purpose UAV coming online.
    I would like to point out that we don't see the UAV mission 
as something that the Army does alone. We depend heavily on the 
Air Force for their support with Predator and Global Hawk, 
also. So integrating across that is key to the way that we'll 
operate in the future.
    Senator Allard. General?
    General Sams. Sir, we have three primary UAV systems. We 
have a small one, called Desert Hawk, which our security forces 
use. It's literally launched with a bungee-type rubberband, but 
it has a 200- to 500-foot altitude capability. It flies around 
the air bases. It allows the security forces to have eyes 
outside the gate. It's been very successful, actually. Over in 
OIF, we've found weapons caches, we've found some bad guys 
running around. It's been very good for force protection.
    Probably our best-known one is the Predator. We consider 
that as a true growth industry. I think the limitations that we 
have on Predator are primarily range. It has a whopping 65-knot 
air speed, and so in a 70-knot wind, it takes a long time to 
get anywhere. [Laughter.]
    So that's one of the reasons that we're looking to the 
Predator, the B version, which will be the turboprop version, 
and it'll fly 30,000 feet, and we'll be able to get to the 
target a lot faster with a heavier payload.
    Global Hawk, our high-altitude system, is very popular. We 
are working hard to make that operational. There is a pre-
production model right now that's working pretty well at 
Edwards, and we have accepted two production models out there. 
Our challenge, though, is to get the pilot training, get the 
ground systems in place, get the maintenance, all the kinds of 
things that it takes to build an operational squadron to make 
it operational.
    Senator Allard. I now call on Senator Ben Nelson from 
Nebraska.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    With all the discussion about UAVs and looking over the 
hills, I suspect that Admiral Porterfield was thinking the Navy 
probably got this right first with the periscope. [Laughter.]
    But whether we look at horizontal or vertical integration 
of intelligence, I think that it all boils down to something 
that maybe Lieutenant General Ronald Keys, USAF's Deputy Chief 
of Staff of Air and Space Operations, when he was quoted in 
this month's issue of ISR Journal as saying, ``Many of the 
things we're doing today involve a system-of-systems approach, 
a network-enabled solution. It's the ability to take 
information from different sensors and fuse it to get that 
cursor over the target.''
    Secretary Cambone, does STRATCOM have the ability to 
address requirements such as integrating multiple ISR feeds 
into a common global display for use in global command center, 
an ISR feed? Then, second, would it be safe to say that 
STRATCOM's global operations center requires a level of C-2 
integration, which cuts across the national to the tactical 
level of operations at a level not equal to--found in any other 
command, fusing together operational and intelligence 
information?
    Dr. Cambone. I'll give you a qualified yes to the second 
question, and the only reason I qualify it is that I would 
argue that the extent, scope, depth of information that they 
will need at Omaha on a tactical situation, I think, is a 
matter of judgment for the commander about how much of that he 
may need. I can tell you that that kind of data is readily 
available. You can go into any of the ops centers, you can go 
in the Pentagon and see at a very finite level of detail those 
tactical feeds.
    With respect to the question of whether they are yet 
arranged, situated to do the task, again, I'll give you a 
qualified no. The reason I say that is that they are equipped 
for most of the connections that they will require. The 
question of whether they have the stations and the internal 
servers and support networks and so forth is not clear to me. 
Admiral Ellis has put forward a proposal over the course of the 
Future Year Defense Plan (FYDP), the next 5 years to build that 
capability out there and to meld both his intelligence and his 
targeting activities so that he will be able to do both in a 
unified way.
    Senator Ben Nelson. Will that be supported in the budget by 
the Defense authorization?
    Dr. Cambone. You bet. There is funding in 2005, on the 
order of--I want to say $80 million. He did not receive in 2004 
what he had requested, and I am aware of that, and I have asked 
my people to see if, as we go through the midyear reviews, we 
can find some additional funding for him to get started 
earlier. The issue is, when can he let the contracts with some 
confidence that there is going to be the funds there. He and I 
have talked about this, and I have asked them to go see if they 
can find some money for him.
    Senator Ben Nelson. General Sams, I understand the Air 
Force is standing up the Air Force Strategic Command (AFSTRAT) 
and that will be the force provider for STRATCOM. Maybe you 
could expand on how this command would be organized, and how 
it'll integrate with current STRATCOM operations and activity.
    General Sams. As I understand it, the AFSTRAT concept was 
still in discussion with Admiral Ellis and Air Combat Command. 
But in terms of the ISR forces, we do present them through 8th 
Air Force, so we have the command-and-control wings underneath 
Lieutenant General Carlson at 8th Air Force. Then those forces 
are then tasked through our normal Air Expeditionary Force 
(AEF) rotation cycles, and in terms of ISR forces, those are 
proportioned in accordance with the demands of the AEF and also 
the demands of what is the joint staff. Then as STRATCOM then 
takes over the ISR responsibility, there'll be proportioned in 
accordance with that.
    Senator Ben Nelson. Would that include the joint command of 
Space Command, as well as part of that action, or are they 
separate?
    General Sams. I believe it does, and let me get back to you 
with a more definitive answer.
    [The information referred to follows:]

    Day-to-day Air Force administrative tasking for Air Force space 
assets fall under Air Force Space (AFSPACE). For those apportioned to 
STRATCOM their day-to-day tasking will be done by STRATCOM through 
AFSPACE via STRATAF once it is stood up.
    The draft fiscal year 2004 Forces for Unified Commands will assign 
STRATAF (8AF) as an Air Force component to STRATCOM. STRATAF will 
consist of a headquarters staff and air operations center to provide 
planning support for Air Forces forces to either assigned to under 
operation control for STRATCOM.
    An AFSTRAT forward element is being established to Offutt AFB and 
it will have the ability to communication with 8th, 14th, 18th, and 
20th numbered Air Forces.

    Senator Ben Nelson. With the Orwellian big-brother approach 
that intelligence offers, I am concerned about how you move 
from overload of information to analysis to use. Obviously, 
inadequate information and inadequate intelligence is a problem 
that I'm sure that you're very carefully using the information 
you have to avoid overload problems so that the analytical side 
and the utilization of it can be as effective as possible. 
Would any of you like to comment on that? I assume, General 
Alexander, you'd be interested in this finding.
    General Alexander. Yes, sir. I'll tell you that you bring 
up a real key point about how we leverage information-age 
technology for our Intelligence Community. What I mean by 
that--when I grew up in intelligence, we used to take 100 
messages and spread them out on a table in hard copy, and then 
our analysts would go through----
    Senator Ben Nelson. You probably still do some of that, I 
take it?
    General Alexander. No, sir, they bring them in to me now, 
and they tell me, ``This is the one you should read.''
    Senator Ben Nelson. Oh, okay.
    General Alexander. You see, when they do that, the irony 
is, they're filtering it for you. In our systems yet today, 
when you're on the Internet, what you do when you do a Google 
search, for example, is, you do a search, you get a query with 
50,000 responses, and then you redefine your query to cut it 
down to a hundred.
    Senator Ben Nelson. Yes.
    General Alexander. But the intelligence that we need, 
especially in the global war on terrorism, was in that other 
49,900. So what we have to do is train the analysts to use that 
information in realtime.
    We sat down with one of our terrorism analysts who had, 
similar to what General Wurster talked about, the ability to 
take 200,000 messages and put them up into spheres and to make 
and bring the information amongst those spheres together to 
track for the Marine shootings in the Failaka Islands to a 
shooter in Saudi to support a national agency on who this guy 
was and what he had done, 210,000 messages that an analyst was 
using. Now, we can't do that consistently across the force, but 
that's what we have to do, is take those kind of tools and the 
ability to use that in realtime and get that amongst our 
analysts. I think that's what we're trying to do with the DCGS, 
IDC, and Project Morning Calm.
    Senator Ben Nelson. Is that technology better than 
Google's?
    General Alexander. Yes, sir, absolutely. [Laughter.]
    Senator Ben Nelson. Okay.
    Senator Allard. The Senator's time is expired.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Allard. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Did our intelligence--Mr. Secretary, I'll direct this to 
you and then others that want to respond--in Iraq develop a 
foreknowledge of the latest eruptions of the insurgents?
    Dr. Cambone. I don't think, sir, that there was much 
confusion about the situation in Fallujah, and I don't think 
that there was a lack of understanding about the political 
situation in the south, in the Shia area.
    Senator Dayton. Can you give me just an applied lesson and 
an applied intelligence--and what is the nature or the specific 
kind of intelligence that you're able to obtain through your 
various devices--and we can go into closed session if you want 
to elaborate--but that provides forewarning to our forces there 
that something is developing, or the nature of what's 
developing, or the size of the force that's developing?
    Dr. Cambone. I'd be happy to do that, sir, but if we could, 
would you allow me to do that in a closed session?
    Senator Dayton. Absolutely.
    Dr. Cambone. Yes. I think the others can give you some 
information as well.
    Senator Dayton. Okay.
    Is the intelligence that you gather in your respective 
branches, is that shared with your counterparts in the other 
branches at the level of intelligence, or is that the level of 
operations? How is that transmitted to one another?
    General Alexander. Sir, we share intelligence back and 
forth, at least from my perspective, amongst the Services 
extremely well.
    Senator Dayton. Okay.
    General Alexander. We argue over who should do what at 
times. But I'll tell you, on the ground it works very well 
together, passing the information, as General Sams said, from 
the Predator and others. I think that's getting better and 
better all the time.
    Senator Dayton. That's shared at the level of the 
intelligence operations, or is that at the level of the on-the-
ground----
    General Alexander. On the ground.
    Senator Dayton. On the ground, okay. When you talk about 
the 49,900 units of information that you have that you need to 
analyze, how do you distribute that information? Because 
somebody else might have another 49,900 something that connects 
up. How do you integrate that, or is it even desirable to 
integrate it? Any of you?
    General Alexander. Yes, sir. Let me jump in on this, 
because you're hitting on a key point where the databases that 
we have that would have all the information that goes back 
years, as an example, would be maintained at a national and a 
theater level; and then at a higher classification in the 
operational intelligence that I'm talking about of sharing on 
the ground--for example, tracking a target and destroying it. 
So if the question was, what do we know about Abu-X, and who is 
he related to, and how does that lead to a takedown that we 
would work with the SOF or with the Air Force, that information 
is information that is in those nationally-held databases, and 
goes all the way down, today, to division level, that we will 
move down to brigade level in the future, and that all of our 
Services have at a certain level that is specially 
compartmented.
    The secret collateral-level information goes all the way 
down to our battalion level and is something that we are now 
taking down to the soldier level, sensitive but unclassified, 
so that they have that information. So that if Predator sees 
something over the next hill, they can get that information 
through all that, all the way to that soldier over the next 
hill. More importantly, that soldier can ask a question and 
oftentimes the Air Force will re-tier that platform to help us 
understand what's going on. So when I say it's working back and 
forth, that's what I mean.
    But we have to continue to push that Distributed Common 
Ground Station, which we are in a joint effort. That's 
something that I think you'll see all the Services benefit from 
in the future.
    General Sams. Sir, Mr. Decker mentioned earlier about data 
tagging. I think that is one of the key things about making all 
of that information available, because what I might be 
interested in something different, as an Air Force person, than 
the Army did, but we want to be able to click on something and 
get it immediately. The other thing is, if that data is tagged, 
if the machine can talk, it prevents me from having to manually 
type certain bits of information--and then the way I type it, I 
know it's going to come out wrong--so that we reduce our 
opportunities for errors when we can do that, and those are the 
kinds of things that we're working really hard on.
    Senator Dayton. Thank you.
    Yes, sir?
    Mr. Decker. Sir, as General Sams and General Alexander 
said, all of the data, all of the intelligence information 
reports are being shared at the secret level, from the 
battalion tactical unit teams all the way up to the JTF and 
then into the national databases, and that's where the great 
synergy occurs. Dr. Cambone mentioned the importance of robust 
communications, and getting larger bandwidth in the future. But 
when you uncover an individual at a battalion-level tactical 
HUMINT team, and you flip open your CI/HUMINT laptop, and you 
start trying to check that person's name in the database, you 
can find out if anybody else has ever mentioned that name 
before. You can find out if any--if he has phone numbers on a 
piece of paper in his pocket, you can find out if those phone 
numbers have ever been used before, and who he possibly has 
been talking to, who he's associated with. That pattern-linked 
trend analysis is key to unwrapping all of this. It's very 
important that we share the raw information reports and the 
finished products both online, and have the bandwidth to share 
them across the force.
    Senator Dayton. Thank you.
    Mr. Chairman, my time is expired. The only question I would 
have outstanding, and maybe it's better to get it in writing 
from each of the branches, is if there's anything that they 
need seriously that is not included in the 2005 authorization 
budget.
    Senator Allard. You can submit questions and we'll ask the 
panel to respond back in 10 days.
    Senator Dayton. Thank you. All right, thank you, Mr. 
Chairman.
    Senator Allard. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Cambone, you've been a promoter of the Space-
Based Radar system to develop global persistent surveillance. 
We are having a difficult time funding space systems, in 
general. Many of them are difficult in terms of cost overruns. 
The modest version of the Space-Based Radar being proposed has 
a substantial cost already, likely to grow. What are you doing 
to ensure that we will have not only a feasible alternative, 
but one that we can afford?
    Dr. Cambone. Yes, sir. Three things, none of which may seem 
to be critical, but, I think, in fact, is where we have to be 
focused if we're going to get to affordable systems, no matter 
whether they're in space or on the ground or at sea.
    First, the contract proposal that has gone out is seeking 
not a point solution by a single contractor, but is looking for 
a first cut at the range of alternatives, trying to calculate 
the needed capability over against a range of metrics and 
measures about its application and use. So we'll have a better 
sense of the applicability of the system, its mission 
effectiveness, than we might otherwise have, and be able to 
define and refine its performance. Because we have a habit of 
saying to ourselves, ``Space systems are expensive, so let's 
hang every Christmas-tree bulb we can think of onto that 
platform,'' and that drives the cost up substantially. So the 
first thing is to work closely with the contractor community to 
make sure we understand the range of capability over the range 
of applications.
    Second, we are working with that same contractor community 
to develop a new set of metrics to measure how the system 
should be analyzed--evaluated. Let me give you an example.
    Today, we essentially have a single-shot-camera approach to 
taking imagery. It takes a picture, and it takes a picture, and 
it takes a picture, and it takes a picture. So you can come up 
with some metrics. How many pictures can you take in a day, 
over what area, and so on and so forth?
    That's not how the Space-Based Radar is going to work. The 
Space-Based Radar will be about managing an output of energy, 
and that energy output will be relatively continuous. So the 
area to be covered is known. The question is, how much 
information are you going to be generating as that beam sweeps 
across the area of interest? How do you understand its value? 
We've never done this before, and so we need to apply a new set 
of metrics back against the performance and the applications 
that I mentioned earlier.
    Then, third, Mr. Teets has written into the specifications 
for the contract that he wants the senior management for the 
program to be of long-serving managers. We have a habit of 
seeing people, both on the government side and the contractor 
side, move through the management ranks of these major 
programs. He is looking for longevity in those programs. 
Hopefully he is going to see that the program manager has the 
kind of authority he needs to make certain that those standard 
elements of cost growth, primarily requirements creep, are 
within his control--that is, the program manager's control--and 
he's not forced to add things that he doesn't think are 
essential to the mission.
    Senator Reed. Thank you, Mr. Secretary.
    Mr. Secretary, the directive establishing the Assistant 
Secretary of Defense for Intelligence Oversight provides that 
that Secretary shall review all allegations that raise 
questions of the legality or the propriety of intelligence 
activities in the DOD. Also, he is supposed to report at least 
quarterly to the SECDEF on any DOD intelligence activities of 
questionable legality or propriety. Now, the question has been 
raised publicly about the Office of Special Plans. What is your 
relationship to the Assistant Secretary of Defense for 
Intelligence Oversight? Has he issued any reports with respect 
to the Office of Special Plans?
    Dr. Cambone. The assistant is just what his title implies, 
which is that he is in a direct-report status relative to the 
SECDEF. So he, that person, that office, does not report 
through my office, nor do I have any authority over that 
office. We decided to do that. That was a positive decision, 
because, in fact, you do want to have an independent eye 
looking at that kind of question.
    Second, he would not normally be asked to do that, because 
as Mr. Feith has, I think, testified before Congress on a 
number of occasions, that office was not an intelligence 
function under the oversight of that office.
    Senator Reed. It was not an intelligence function, but I 
think, colloquially, at least, it was conducting intelligence 
activities. It was analyzing----
    Dr. Cambone. I don't think so, sir. What they did--I mean, 
every office within the Department receives, each day, some 
package of intelligence materials, whether it's in the Services 
or in the Office of the Secretary, down to the Joint Staff. In 
the case of the policy community, each of the subordinate 
offices receives that information. I think that you would agree 
that they would be remiss if they did not read, absorb, and do 
what they should with the intelligence that's provided to them, 
and that is to formulate the policy positions of the Department 
relative to the issues of the day. My understanding from Mr. 
Feith is, that was the role that that office played in the 
course of time that it was in being.
    Senator Reed. I find the answer less than satisfying, 
substantively and intellectually.
    Thank you.
    Senator Allard. We'll now move to closed session. We'll 
have the closed session in room 232. Do I have that correct? So 
if we can expeditiously move over there, we'll get proceeding 
further on our testimony.
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator Mark Dayton

                           FUNDING SHORTAGES

    1. Senator Dayton. Secretary Cambone, General Alexander, Admiral 
Porterfield, General Sams, Mr. Decker, and General Wurster, during the 
hearing we discussed lessons and potential areas for improvement during 
Operation Iraqi Freedom. Have any equipment or specific program funding 
shortages developed that need to be addressed in fiscal year 2005 
appropriations?
    Dr. Cambone. This office has been working with the authorizing and 
appropriations committees to identify all shortfalls in the fiscal year 
2005 appropriations bill and looks forward to continuing to work with 
the committee in the future.
    General Alexander. There are many lessons learned from OIF and the 
Army Intelligence community has organized a task force to document and 
implement them during fiscal year 2004. As we resolve these problems, 
we have been making adjustments within the Department of the Army to 
address many of the intelligence-related equipment, personnel, 
architectures, tactics, techniques, and procedures. However, there are 
still unresolved issues.
    We continue to rely heavily on contractor linguist support for 
intelligence, force protection, and general support operations in Iraq 
and in global war on terrorism. This requirement includes personnel for 
security screening and investigations.
    There is a critical need for an adequate intelligence architecture 
to support information processing, fusion, and dissemination for 
successful operations. In that regard, we endorse the acceleration of 
DCGS-A identified in Army's Shortfall List to Representative Ike 
Skelton. Additional capabilities required include the IDC and an IDC-
Baghdad Extension to support units in OIF 3. The House Armed Services 
Committee (HASC) recognizes the value of FBCB2-CDA Hand Held reporting 
devices providing digital reporting capability for dismounted soldiers. 
The HASC authorized $6 million for this requirement and we solicit the 
committee's support to ensure that combat intelligence information is 
analyzed by intelligence centers. We are conducting operational testing 
at this time on the prototypes. The Army is also exploring other 
intelligence, surveillance, and reconnaissance capabilities to enhance 
collection and situational awareness. CI/HUMINT have proven to be 
intelligence disciplines of choice. Both mobile training teams and 
institutional training are necessary to support increasing training 
needs. To assist in determining the value of terrorist and intelligence 
threats, additional contractor interrogators and polygraphers are 
needed. Procurement of additional communication flyaway packages and 
CHIMS/CHATS systems are required for deployed personnel. These packages 
enable reporting of critical CI/HUMINT information to support force 
protection and battlefield operations. The Army also needs to develop 
doctrine that clearly delineates the roles and responsibilities between 
Military Intelligence and Military Police in the handling of prisoners 
and detainees. This task will require additional civilian or contractor 
personnel.
    There is also an urgent need to track individuals of intelligence 
value through the use of Biometric FBI Compliant Fingerprint 
Architecture. A compliant architecture supporting the transmission of 
biometric data from tactical patrols/tactical HUMINT teams/Special 
Operations Teams to higher echelons in the DOD will facilitate 
information sharing with the FBI and support tactical and strategic 
operations as well as homeland defense. Such biometric data must also 
be integrated into an overarching architecture to ensure 
interoperability among multiple Army, DOD, and national reporting and 
analysis systems in battlefield, crisis, and peacetime environments.
    Additional detailed information will be provided upon request.
    Admiral Porterfield. On 1 March 2004, the CNO submitted to the 
Senate Armed Services Committee an Unfunded Program List (UPL) wherein 
number 22 addresses budget shortfalls for direct intelligence support 
for the global war on terrorism. Recent operations in support of the 
global war on terrorism have identified increased need for more robust 
communications to support real time dissemination of intelligence, more 
forward deployed contract linguists, forward surveillance equipment 
supporting ship tracking/MIO, sensor and payload tactical remoting 
initiatives, increased OCONUS HUMINT activities, databases 
enhancements, and continued professional intelligence training.
    Additionally, I would like to direct your attention to other ISR 
related requirements on the CNO's UPL. These include requirements for 
the ACS (#11), FIRESCOUT VTUAV (#12), Littoral Combat Ship (LCS) 
Modules for VTUAV ISR capability (#13), SEA TRIAL-modular mission 
payloads for Sea Predator UUV (#15), procurement of additional SHARP 
pods (#39), and finally the procurement of a second UAV BAMS air 
vehicle to mitigate program development risk (#43). Fully funding these 
programs will allow us to better support Navy and Joint operational 
needs.
    General Sams. The fiscal year 2005 President's budget meets Air 
Force requirements. However, the Air Force is continuing to work 
through its lessons learned. For the first time in the history of the 
Air Force, Air Force leadership is standing up a permanent office for 
Air Force Lessons Learned (AF/XOL) whose partial mission is to collect 
issues, vet them for actionable items, track progress, and decisions 
related to any fixes and keep senior leadership informed.
    To date, this fledgling organization has taken the voluminous 
reports on Operations Enduring Freedom and Iraqi Freedom from Task 
Force Enduring Look; distilled them into broad, but workable areas and 
briefed each as part of the ongoing Capability Review and Risk 
Assessment (CRRA) Process. These inputs are used to influence/inform 
the capability shortfall assessment, which in turn will focus Air Force 
development efforts in future years.
    Additionally, XOL is working with AF/XP to matrix Lessons Learned 
across each program, thereby informing the Air Force Corporate Process 
in their budget deliberations and tradeoffs.
    Finally, the Air Force is working with Joint Forces Command on 
shaping the approaches to 42 Joint Lessons Learned from major combat 
operations in Operation Iraqi Freedom, which will be worked through the 
Joint Capabilities Integration and Development System.
    Mr. Decker. We have identified four intelligence programs that 
would benefit from increased funding. The programs listed below were 
submitted within the U.S. Marine Corps Fiscal Year 2005 Unfunded 
Programs List (UPL):
    1. Communication Emitter Sensing and Attacking System (CESAS). 
Additional funds procure, test, and evaluate equipment to provide 
protection against Remotely Controlled Improvised Explosive Devices 
(RCIEDs). The CESAS provides marines with the capability to detect, 
disrupt, and deny the enemy use of RCIEDs.
    2. Global Command and Control System--Integrated Imagery and 
Intelligence (GCCS-I3). Funds procure additional computer servers and 
associated licenses and software for GCCS-I3 to support the Distributed 
Common Ground/Surface System (DCGS) Integrated Backbone (DIB). The 
global war on terrorism has identified the need for collaborative 
effort to establish a multi-intelligence, interoperable, ISR 
infrastructure across DOD.
    3. Intelligence Analysis System Modification (IAS MOD). Additional 
funds would purchase a replacement UNIX server for the IAS Family of 
Systems required to support software migration to the Global Command 
and Control System (GCCS) 4.X software baseline. The current server 
configuration will not provide the performance and processing 
capabilities needed to support Marine Corps Operating Force 
intelligence staffs.
    4. Manpackable Secondary Imagery Dissemination System (MSIDS) for 
Small Unit Intelligence Toolkit (SUIT). Funding would provide one MSIDS 
suite for each of the 24 Scout Sniper Platoons at the Infantry 
Battalion level under the SUIT concept. MSIDS provides capability to 
capture, transmit, receive, and forward ground reconnaissance imagery 
products in near real time.
    General Wurster. Currently, the United States Special Operations 
Command (USSOCOM) is in the process of developing our submission to the 
Secretary of Defense for fiscal year 2005 supplemental requirements. In 
that submission, we are focusing on funding needs related to deployment 
costs, stress on equipment and procurement, all related in USSOCOM's 
execution of the global war on terrorism. In the global war on 
terrorism, it is essential that we bring the right sensors to the 
battlefield, get those sensors to the target, and communicate that 
information to Special Operations Forces. These types of capabilities 
are being forwarded to the Department for their consideration in their 
fiscal year 2005 supplemental request.

    [Whereupon, at 11:48 a.m., the subcommittee adjourned and 
reconvened into closed session.]

                                 <all>

</pre></body></html>
